<html>
<title> - INTERIOR, ENVIRONMENT, AND RELATED AGENCIES APPROPRIATIONS FOR 2013</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]


<DOC>
 
                                                                      
                   INTERIOR, ENVIRONMENT, AND RELATED 
                    AGENCIES APPROPRIATIONS FOR 2013 
=======================================================================




                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                                ________

       SUBCOMMITTEE ON INTERIOR, ENVIRONMENT, AND RELATED AGENCIES

                   MICHAEL K. SIMPSON, Idaho, Chairman
 JERRY LEWIS, California                   JAMES P. MORAN, Virginia
 KEN CALVERT, California                   BETTY McCOLLUM, Minnesota
 STEVEN C. LaTOURETTE, Ohio                MAURICE D. HINCHEY, New York
 TOM COLE, Oklahoma                        JOSE E. SERRANO, New York
 JEFF FLAKE, Arizona
 CYNTHIA M. LUMMIS, Wyoming         

 NOTE: Under Committee Rules, Mr. Rogers, as Chairman of the Full 
Committee, and Mr. Dicks, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
              David LesStrang, Darren Benjamin, Jason Gray,
                     Erica Rhoad, and Colin Vickery,
                            Staff Assistants

                                ________

                                 PART 8
                                                                   Page
 Public Witnesses, March 21, 2012.................................    1
 Public Witnesses, March 22, 2012.................................  169
 American Indian and Native Alaskan Testimony, March 27, 2012.....  329
 American Indian and Native Alaskan Testimony, March 28, 2012.....  567
 Written Testimony from Individuals and Organizations.............  749

                                ________

         Printed for the use of the Committee on Appropriations



PART 8--INTERIOR, ENVIRONMENT, AND RELATED AGENCIES APPROPRIATIONS FOR 
                                  2013



                   INTERIOR, ENVIRONMENT, AND RELATED
                    AGENCIES APPROPRIATIONS FOR 2013

=======================================================================



                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS
                             SECOND SESSION

                                ________

       SUBCOMMITTEE ON INTERIOR, ENVIRONMENT, AND RELATED AGENCIES

                   MICHAEL K. SIMPSON, Idaho, Chairman
 JERRY LEWIS, California                   JAMES P. MORAN, Virginia
 KEN CALVERT, California                   BETTY McCOLLUM, Minnesota
 STEVEN C. LaTOURETTE, Ohio                MAURICE D. HINCHEY, New York
 TOM COLE, Oklahoma                        JOSE E. SERRANO, New York
 JEFF FLAKE, Arizona
 CYNTHIA M. LUMMIS, Wyoming         

 NOTE: Under Committee Rules, Mr. Rogers, as Chairman of the Full 
Committee, and Mr. Dicks, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
              David LesStrang, Darren Benjamin, Jason Gray,
                     Erica Rhoad, and Colin Vickery,
                            Staff Assistants

                                ________

                                 PART 8
                                                                   Page
 Public Witnesses, March 21, 2012.................................    1
 Public Witnesses, March 22, 2012.................................  169
 American Indian and Native Alaskan Testimony, March 27, 2012.....  329
 American Indian and Native Alaskan Testimony, March 28, 2012.....  567
 Written Testimony from Individuals and Organizations.............  749

                                   S

                                ________

         Printed for the use of the Committee on Appropriations

                                ________

                     U.S. GOVERNMENT PRINTING OFFICE

 74-609                     WASHINGTON : 2012




                          COMMITTEE ON APPROPRIATIONS

                    HAROLD ROGERS, Kentucky, Chairman

 C. W. BILL YOUNG, Florida \1\        NORMAN D. DICKS, Washington
 JERRY LEWIS, California \1\          MARCY KAPTUR, Ohio
 FRANK R. WOLF, Virginia              PETER J. VISCLOSKY, Indiana
 JACK KINGSTON, Georgia               NITA M. LOWEY, New York
 RODNEY P. FRELINGHUYSEN, New Jersey  JOSE E. SERRANO, New York
 TOM LATHAM, Iowa                     ROSA L. DeLAURO, Connecticut
 ROBERT B. ADERHOLT, Alabama          JAMES P. MORAN, Virginia
 JO ANN EMERSON, Missouri             JOHN W. OLVER, Massachusetts
 KAY GRANGER, Texas                   ED PASTOR, Arizona
 MICHAEL K. SIMPSON, Idaho            DAVID E. PRICE, North Carolina
 JOHN ABNEY CULBERSON, Texas          MAURICE D. HINCHEY, New York
 ANDER CRENSHAW, Florida              LUCILLE ROYBAL-ALLARD, California
 DENNY REHBERG, Montana               SAM FARR, California
 JOHN R. CARTER, Texas                JESSE L. JACKSON, Jr., Illinois
 RODNEY ALEXANDER, Louisiana          CHAKA FATTAH, Pennsylvania
 KEN CALVERT, California              STEVEN R. ROTHMAN, New Jersey
 JO BONNER, Alabama                   SANFORD D. BISHOP, Jr., Georgia
 STEVEN C. LaTOURETTE, Ohio           BARBARA LEE, California
 TOM COLE, Oklahoma                   ADAM B. SCHIFF, California
 JEFF FLAKE, Arizona                  MICHAEL M. HONDA, California
 MARIO DIAZ-BALART, Florida           BETTY McCOLLUM, Minnesota
 CHARLES W. DENT, Pennsylvania
 STEVE AUSTRIA, Ohio
 CYNTHIA M. LUMMIS, Wyoming
 TOM GRAVES, Georgia
 KEVIN YODER, Kansas
 STEVE WOMACK, Arkansas
 ALAN NUNNELEE, Mississippi
   
 ----------
 <SUP>1}}</SUP>Chairman Emeritus    

               William B. Inglee, Clerk and Staff Director

                                  (ii)


DEPARTMENT OF THE INTERIOR AND RELATED AGENCIES APPROPRIATIONS FOR 2013

                              ----------                              

         TESTIMONY OF INTERESTED INDIVIDUALS AND ORGANIZATIONS

                              ----------                              

                                         Wednesday, March 21, 2012.

                            PUBLIC WITNESSES

    Mr. Simpson. We will call this meeting to order. The 
ranking member will be here shortly, and then we are going to 
have votes at 2:00 that are going to last for about 40 minutes. 
So our schedule will be thrown off, but we knew that.
    Good afternoon, and welcome to the first of two public 
witness hearings this afternoon and again tomorrow morning. The 
Subcommittee will be hearing from a cross section of 
individuals representing a wide variety of issues addressed by 
this subcommittee.
    The Chair will call each panel of witnesses to the table, 
one panel at a time. Each witness will be provided with 5 
minutes to present their testimony. We will be using a timer to 
track the progress of each witness. When the button turns 
yellow, the witnesses will have 1 minute remaining to conclude 
his or her remarks. The members will be provided an opportunity 
to ask questions of our witnesses, but in the interest of time, 
the chair requests that we keep things moving in order to 
conclude this afternoon's testimony at a reasonable hour.
    And I am not going to yield to my ranking member from 
Virginia, because he is not here yet, unless you would like to 
make his opening statement. Do you have a quote for us? Jim 
always gives us a quote that we wait for.
    I thought we were going to miss the quote. So now I would 
be happy to yield to the gentleman from Virginia for an opening 
statement, so that we can get the quote of the day.
    Mr. Moran. We will facilitate things. The only thing you 
ever listen to is the quote. You have no idea what the context 
is. All right. This is a line from John Muir, who I know you 
are all familiar with.
    Mr. Simpson. The Ghost and Mrs. Muir. Was he an actor in 
that film?
    Mr. Moran. No. John actually, as you know, was one of the 
real founding fathers of the environmental movement 
internationally, but he said, ``Climb the mountains and get 
their good tidings. Nature's peace will flow unto you as 
sunshine flow unto trees. The winds will blow their own 
freshness into you, and the storms, their energy, while cares 
will drop off like autumn leaves.''
    And so since that just kind of a moment of zen, Rick Healy 
has provided us another quote as well. Do you want to hear the 
second quote?
    Mr. Simpson. Sure. Let's do the other one.
    Mr. Moran. Since I am going to forego my opening 
statement----
    Mr. Simpson. Okay.
    Mr. Moran [continuing]. In favor of these quotes that are 
much more articulate than I will ever be. ``The spring came but 
once a century instead of once a year, a burst forth with the 
sound of an earthquake and not in silence. What wonder and 
expectation there would be in all the hearts to behold the 
miraculous change.'' That is appropriate to the fact that 
springtime has bloomed here in Washington and makes us very 
conscious of how blessed we are with all the Japanese cherry 
trees and the landscaping around the Capitol. So it is a good 
time to be hearing from our public witnesses, and with that, 
Mr. Chairman, let's go ahead and get on with the agenda.
    Mr. Simpson. Thank you. I will call our first panel up to 
the table. Greg Conrad, the Executive Director of the 
Interstate Mining Compact Commission; Gregory--yes. Sit from 
right to left, I guess. Gregory DiLoreto. Is that close?
    Mr. DiLoreto. That is perfect.
    Mr. Simpson. Okay. The President Elect of the American 
Society of Civil Engineers; Dr. Robert Gropp, the Chairman of 
the USGS Coalition; Kasey White, the Director of the Geoscience 
Policy, the Geological Society of America, William Becker, the 
Executive Director of the National Association of Clean Air 
Agencies, and Jeffrey Hales, a Member of the American Thoracic 
Society.
    Mr. Conrad, go ahead.
                              ----------                              

                                         Wednesday, March 21, 2012.

                  INTERSTATE MINING COMPACT COMMISSION


                                WITNESS

GREG CONRAD
    Mr. Conrad. Good afternoon, Mr. Chairman. My name is 
Gregory Conrad. I serve as Executive Director of the Interstate 
Mining Compact Commission, an organization representing 24 
States that regulate coal and hard rock mining operations and 
restore abandoned mine lands pursuant to the Surface Mining 
Control and Reclamation Act. I am here today to present the 
views of the Compact's member States concerning the fiscal year 
2013 budget request for the Office of Surface Mining. I am also 
appearing on behalf of the National Association of Abandoned 
Mine Land Programs, which represents 30 States and Indian 
tribes that operate in our reclamation programs.
    In its proposed budget OSM is requesting $57.3 million to 
fund Title V grants to states and Indian tribes for the 
implementation of their regulatory programs, a reduction of $11 
million or 15 percent below the fiscal year 2012 enacted level. 
OSM is also requesting $307 million for state and tribal AML 
grants, a reduction of $180 million.
    Mr. Chairman, these are admittedly tough times for state 
and federal budgets. As a result, some hard choices need to be 
made about how we spend limited dollars in an efficient and 
effective way, and environmental protection associated with 
coalmining operations is no exception. One of the critical 
decisions with respect to programs under the Surface Mining Act 
is who will take the lead in implementing the Act's 
requirements. Once we agree upon that, it is incumbent upon 
both state and Federal Governments to prioritize funding 
decisions to support the lead agencies.
    Congress crafted a state lead approach under SMCRA whereby 
state governments were vested with exclusive regulatory 
authority to implement programs for both active mining 
operations and AML reclamation. The Act also provides for 
grants to states that meet 50 percent of their program 
operating costs under Title V and 100 percent for AML projects 
under Title IV.
    Once again in 2013, we are faced with a decision about the 
extent to which the Federal Government will support these 
funding commitments under SMCRA and the State Lead Concept 
Program implementation. OSM's budget proposes to move us away 
from those commitments and concepts. States are struggling to 
match federal dollars for these programs and signals from 
Federal Government that it is wavering in its support 
concerning both dollars and confidence in the state's ability 
to run effective regulatory and AML programs will do little to 
build confidence.
    This is not the time to reverse the course that Congress 
has set for its support of State programs over the last several 
years. In this regard it should be kept in mind that a 15 
percent cut in federal funding translates to an additional 15 
percent cut for overall program funding for many states.
    We, therefore, urge the Subcommittee to reject OSM's 
proposed cut of $11 million for State Title V Grants and 
restore the grant level to $70 million as supported by state 
funding requests.
    It is important to note that OSM does not disagree with the 
states' demonstrated need for the requested amount of funding 
for these grants. Instead, OSM's solution to the cuts comes in 
the way of an unrealistic assumption that the states can simply 
increase user fees. IMCC's polling of its member states 
confirmed that it will be difficult, if not impossible, for 
most states to accomplish this feat at all, let alone in less 
than 1 year.
    Turning now to the AML Program, based on SMCRA fee 
collections the fiscal year 2013, mandatory appropriation for 
state and tribal AML grants should be a $488 million. Instead, 
OSM has only budgeted $307 million, a reduction of 180 million. 
This would be accomplished by eliminating payments to those 
states and tribes that has successfully certified completion of 
their highest priority reclamation sites. From the beginning of 
SMCRA in 1977, to the latest amendments in 2006, Congress 
promised that at least half of the money generated from fees 
collected within the boundaries of the state or tribe would be 
returned for use as described in the Act. Breaking the promise 
of state and tribal share funding will upset 10 years of 
negotiation that resulted in the balance and compromise 
achieved in the 2006, amendments to SMCRA.
    We, therefore, respectfully ask the Committee to continue 
funding for certified States and tribes at the statutorily-
authorized levels and to turn back any efforts to amend SMCRA 
in this regard.
    Finally, we oppose OSM's proposal to drastically reform the 
distribution process for AML funds to non-certified States 
through a competitive grant program. This proposal will 
completely undermine the balance of interest and objectives 
achieved by the 2006 amendments. Among other things, the 
proposal would seat authority for both emergency and non-
emergency funding decisions to an advisory council. Aside from 
the time delays associated with this approach, it leaves many 
unanswered questions regarding the continued viability of state 
and tribal AML programs where they do not win in the bidding 
process. It also upsets the predictability of AML funding for 
long-term project planning.
    We urge the Subcommittee to reject this unjustified 
proposal, delete it from the budget, and restore the full 
mandatory funding amount of $488 million. We would request that 
resolutions to this effect adopted by both the AML Association 
and IMCC, along with a comprehensive list of questions 
regarding the legislative proposal be included in the record of 
this hearing.
    Thank you very much.
    [The statement of Greg Conrad follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Simpson. Thank you. Mr. DiLoreto.
                              ----------                              

                                         Wednesday, March 21, 2012.

                THE AMERICAN SOCIETY OF CIVIL ENGINEERS


                                WITNESS

GREGORY E. DILORETO, P.E.
    Mr. DiLoreto. Thank you. Well, Mr. Chairman and members of 
the Subcommittee, again, my name is Gregory E. DiLoreto, and I 
am the President Elect of the 141,000 members of the American 
Society of Civil Engineers. I am also the Chief Executive 
Officer for the publicly-owned Tualatin Valley Water District, 
which serves over 200,000 customers in the Portland, Oregon, 
metropolitan area, and I am a licensed professional engineer in 
Oregon in both civil and environmental engineering.
    So I am pleased to be before you today to talk about EPA's 
proposed budget for 2013. Unfortunately, the President's 
proposed budget continues an underfunding trend for our 
critical infrastructure in water and wastewater. The proposal 
is to reduce spending for fiscal year 2013 from 2012, from 2.3 
billion to 2 billion, which is a cut back of nearly 15 percent 
in federal funding for our aging water and wastewater systems.
    Now, most of you may have seen the ASCE's 2009 report card 
on America's infrastructure in which we gave the grade to water 
and wastewater a D minus. Since then we have undertaken a 
series of four economic studies to talk about what happens to 
this investment or lack of investment in our water and 
wastewater systems.
    In 2011, our report, ``Failure to Act,'' under investment 
in water and wastewater, we talked about what does that D minus 
mean for our water and wastewater systems, and the answer is 
sobering. Our water infrastructure in the U.S. is clearly 
aging, our wastewater systems are aging. Our fundings indicate 
that investment needs will continue to escalate.
    In fact, if we continue to invest at the rate we have been 
for the last several years, we will face an $84 billion 
shortfall by 2020, and even if we increase the way we do our 
projects through sustainability, more effective means, the gap 
continues to grow as we need to maintain our drinking water 
systems, wastewater systems, and comply with ever-increasing 
regulations for our drinking water quality and wastewater.
    So this 84 billion gap, just some other numbers to help, 
leads to 147 billion in increased costs for businesses, a 
further 59 billion for households, but in the worst case we 
estimate that the U.S. could lose nearly 700,000 jobs by 2020. 
The U.S. economy is expected to decrease by $416 billion from 
the GDP.
    But I like to put it in terms that we can all understand. 
The cost of under-investing could cost each American family 
$900 per year in increased water rates and in lost wages.
    The most recent Clean Water Needs Survey from EPA put the 
total wastewater needs at some $300 billion as of January 1, 
2008, which included nearly 200 billion in wastewater 
treatment, another 64 combined sewer, and 42 storm water 
management, and even our small communities at $23 billion. And 
those numbers are not likely to have improved in the 4 years 
since we did that study. EPA reports, though, that 335 billion 
and 82 billion of needs are potentially eligible for the State 
Revolving Fund Program and the Nonpoint Source Fund.
    Although America spends billions on infrastructure each 
year, drinking water systems face an annual shortfall of $11 
billion in needed funds. I was at a recent meeting here this 
past week with the Association of Metropolitan Water Agencies 
in Washington, DC, and as I talked with my fellow chief 
executives that run the largest water utilities in the United 
States, we all had the same common concern, and that is as we 
get regulations, we also have to spend the money on those, and 
that does divert some money from the operations of maintenance 
and repair and expansion of our water systems and our 
wastewater systems.
    So but nevertheless, the agency's drinking water budget for 
2013 represents a 4 percent decrease of 965 million. Now, we 
know as well as everyone else that you are dealing with a 
number of deficits, the growing federal debt, but the remedies 
for these problems should not come at the expense of our 
critical public health systems, drinking water and wastewater 
systems.
    And I would also like to note that the program that we use 
the most, the State Revolving Fund, is a loan program. Money is 
loaned out to those of us in the water and wastewater business 
and is repaid back for re-loaning out to other folks and other 
agencies that can be used.
    Therefore, ASCE recommends an appropriation of 2 billion of 
the Clean Water State Revolving Fund, and an appropriation of 
1.5 billion for the Safe Drinking Water Fund for 2013.
    Thank you.
    [The statement of Gregory DiLoreto follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Simpson. Thank you. You bring up a very important 
issue. Several of us have been trying to figure out how we are 
going to fund these systems. I have heard that the backlog 
maintenance of wastewater and water systems in this country is 
about $700 billion. At $1.5 billion a year, it is going to take 
us 300 years to address just the backlog. We have got to find a 
different way to fund these systems, frankly, and I do not have 
the answer to it, but there are several of us that are looking 
at it.
    Mr. DiLoreto. Very good, and we would like to help. ASCE 
has thrown out some ideas about the 700 billion, and clearly, 
it is a partnership between the Federal Government and those in 
local government.
    Mr. Simpson. Dr. Gropp. Is that right?
    Mr. Gropp. Gropp.
    Mr. Simpson. Gropp.
                              ----------                              

                                         Wednesday, March 21, 2012.

                             USGS COALITION


                                WITNESS

DR. ROBERT GROPP
    Mr. Gropp. Thank you, Mr. Chairman, Mr. Moran, members of 
the Committee. I have prepared my official remarks for the 
record, and my glasses broke this morning, so I am going to 
paraphrase a little bit if you do not mind. So I will do my 
best to try to hit the high points and watch the clock. So I 
can see that.
    My name is Robert Gropp. I am Director of Policy for the 
American Institute of Biological Sciences and also the Chairman 
of the USGS Coalition. The GS Coalition is an alliance of more 
than 70 organizations committed by a unified commitment to 
supporting the efforts of the USGS and the continued vitality 
of its scientific research and data programs for the Nation.
    The USGS Coalition has requested and encourages Congress to 
do all you can to provide the USGS with a fiscal year budget of 
1.2 billion. That is slightly more than what the President has 
requested. We know that would restore $49 million in proposed 
cuts, as well as provide about 50 million that would help fully 
fund fixed costs, bolster some new scientific initiatives, as 
well as help account for what are identified in the budget as 
facility costs essentially that by the GS's own admission will, 
there is a cut in there, 4.4 million, that will result in 
increased costs as they struggle to maintain and have increased 
maintenance on facilities and equipment.
    In short, as you all know and the USGS is the Nation's 
science agency, land-based science agency. Its mission goes 
beyond the public lands every day to impact and affect 
positively the lives of every American, whether it is through 
risk mitigation for natural or humanist hazards, earthquakes, 
tsunamis, wildfire mitigation, forecasting, or providing the 
science needed by our resource managers to inform wise natural 
resources management, assess, monitor water or mineral or 
energy resources. It is a vital resource that no other agency 
provides, and its track record of providing unbiased data is 
quite impressive.
    Again, the USGS provides a unique blend of scientific 
information, and its reorganization has helped it dramatically 
improve its ability to respond to timely questions and issues. 
And so through its new organization it is able to bring to bear 
a unique blend of scientific expertise to solve and inform our 
most challenging questions, whether it is in, again, biology, 
ecosystem science, water, or minerals and energy.
    A couple of our concerns in the President's budget request 
include the number of cuts to the Water and Minerals Programs. 
We support the proposed increases. We think they are all very 
timely and very useful investments, and we encourage you to do 
all you can to support those and provide that funding.
    There is a great concern that some of the cuts could hinder 
long-term data continuity. The USGS through stream gages or 
water monitoring ground water assessments has a unique capacity 
to provide data that informs everything form civil engineering 
and local municipal water programs on up, and there is a real 
concern that the agency needs, and I think they are working to 
do it, but really needs the resources to ensure the continuity 
of that data collection.
    Again, we want to, on behalf of the USGS Coalition, thank 
the members of this committee particularly for your 
longstanding and bipartisan efforts to restore and make 
important investments in the USGS. Your efforts, particularly 
last year to help manage how Landsat VII may or may not be 
funded. We deeply appreciate that. There is a great concern 
that if that were to come over, that devastates a lot of core 
science programs.
    So we, again, want to thank you all for your efforts, and 
we stand ready to help you to the extent we can to identify 
priorities or what have you, and, again, our hope is that 
recognizing the constraints you are in, that at least the 
President's request, but if you can restore a little, that 
would be outstanding and greatly appreciated.
    [The statement of Robert Gropp follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Simpson. Thank you. I appreciate that. Yes. We tried to 
make sure that NASA did not send over the Landsat Satellite 
without the money, which, unfortunately, the budget was 
proposing to do.
    Kasey White.
                              ----------                              

                                         Wednesday, March 21, 2012.

                     GEOLOGICAL SOCIETY OF AMERICA


                                WITNESS

KASEY WHITE
    Ms. White. Good afternoon.
    Mr. Simpson. Good afternoon.
    Ms. White. Thank you for the opportunity to be here today 
and testify in the 2013 budget request for the USGS. My name is 
Kasey White, and I am the Director for Geoscience Policy at the 
Geological Society of America. Founded in 1888, GSA is the 
oldest professional Geoscience Society in North America. We 
have over 25,000 members representing academia, government, and 
industry in all 50 states and 90 countries.
    On behalf of GSA I would like to request that Congress 
fully fund the 2013 request to the USGS and restore the cuts in 
the request to key programs. The USGS plays a vital role in 
understanding and documenting mineral and energy resources, 
researching and monitoring potential natural hazards, 
monitoring the effects of climate change, and determining and 
assessing water quality and availability. These truly are some 
of the greatest issues facing society. Despite the critical 
role played by the USGS, funding for the survey has been 
stagnant in real dollars for about a decade now.
    Although we believe that the USGS could effectively and 
efficiently use a lot more money, it could really help increase 
the pace and scope of research on a number of policy-relevant 
areas, we recognize the physical restrains and feel that the 
request plus restoring some of these cuts would allow them to 
continue to conduct quality science in a number of these 
issues.
    As Rob said, the USGS is one of the Nation's premiere 
science agencies. About 70 percent of its budget is for 
research and development, and this research and development 
underpins all of the activities of the Department of the 
Interior but also communities across the Nation. They use it 
for land use planning, emergency response, natural resource 
management, engineering, and education.
    So I would like to highlight just a few areas in which USGS 
research contributes to some of these important issues. Natural 
hazards remains a major cause of fatalities and economic losses 
worldwide. We saw this just last night or today with the 
earthquake in Mexico, and the combined historical and recent 
geological records show that many areas in the U.S. are 
susceptible to volcanoes and to earthquakes, and we will 
continue to have those here, and a better scientific 
understanding of hazards will reduce future losses and better 
forecasts of their occurrence and magnitude and allow for 
better planning and mitigation in these areas.
    We would urge Congress to increase funding to the USGS to 
modernize and upgrade its natural hazards monitoring and 
warning systems and support the proposed increases for early 
warning systems in the budget request.
    Another area USGS contributes to is energy and mineral 
resources. They are critical to national security and economic 
growth. The USGS is the sole federal information source on 
minerals production and potential end consumption. That is why 
we are really concerned about the proposed $5 million cut in 
mineral resources and the Nation's ability to develop safely 
these new resources.
    In addition, many emerging energy technologies such as wind 
turbines and solar cells depend on rare earth elements and 
critical materials that do not have really diversified sources. 
China produces virtually all of them, and increases in research 
at USGS can help our Nation ease our dependence on these 
foreign sources.
    The devastating droughts last year pretty much across the 
Nation remind us of our dependence on water, and greater 
scientific understanding is necessary to better understand 
surface water and ground water to have safe water resources in 
the future, and USGS's proposal to establish national ground 
water monitoring will really help give us some of that baseline 
information to allow us to plan.
    As Rob mentioned, we are concerned about cuts in some of 
the water programs, the water research, Water Resources 
Research Act Program, water quality assessments, and 
Cooperative Water Program Interpretative Studies really provide 
some key information to local communities to help them plan 
their water.
    And, again, we are grateful to this committee for their 
support. The leadership on USGS agree that we are very grateful 
for your comments on Landsat. Yes, to plan and to allow the 
USGS to continue to do a lot of this research that I have 
mentioned and have the budget to do those things and not have 
Landsat take over, even though Landsat is very important and 
has contributed a lot for natural resource exploration.
    Thank you very much.
    [The statement of Kasey White follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Simpson. Thank you.
    Mr. Moran. We appreciate both of you speaking up on behalf 
of the USGS. Thank you. It means a lot that you could come 
here. Obviously, we are aware of the water infrastructures. 
It's important that ASCE weigh in on them and give us the data 
that we need.
    Excuse me, Mr. Chairman.
    Mr. Simpson. William Becker.
                              ----------                              

                                         Wednesday, March 21, 2012.

               NATIONAL ASSOCIATION OF CLEAN AIR AGENCIES


                                WITNESS

S. WILLIAM BECKER
    Mr. Becker. Thank you, Chairman Simpson, Ranking Member 
Moran, Congressman LaTourette. My name is Bill Becker. I am the 
Executive Director of the National Association of Clean Air 
Agencies. We are known as NACAA. We are an association of air 
pollution control agencies in 45 States and over 165 
metropolitan areas across the country. The Federal Clean Air 
Act gives our members the primary responsibility for 
implementing our Nation's clean air programs.
    Our message today, we support the President's request for a 
$65.8 million increase in federal grants for State and local 
air pollution control agencies under Sections 103 and 105 of 
the Clean Air Act.
    So you are probably wondering why with all the competing 
funding requests you are receiving these difficult economic 
times air pollution control agencies should receive any bump in 
federal funding, much less an increase of $65.8 million, and 
there are at least three very important reasons.
    First and most importantly, while we have made significant 
progress in cleaning up our Nation's air, much more needs to be 
done. The sad fact is that there are literally tens of 
thousands of people dying in this country every year from air 
pollution, and over 100 million people live in areas still 
violating one or more of the health-based air quality 
standards. This has led to a series of air pollution problems 
ranging from respiratory and cardiovascular disease, damage to 
lung tissue, impaired breathing, heart attacks, IQ loss, 
cancer, and even death.
    And it is probably fair to say that more people die or get 
sick from air pollution in this country than from almost any 
other problem that this subcommittee is facing today.
    The second reason we are asking for an increase in federal 
grants is because the Federal Government has fallen, we 
believe, woefully behind in meeting its financial commitment 
under the Clean Air Act to fund state and local air pollution 
control programs. Sections 103 and 105 of the Clean Air Act 
authorize the Federal Government to provide grants up to 60 
percent of the cost of State and local air quality programs, 
while state and local agencies must provide a 40 percent match.
    In reality, the Federal Government has not provided 60 
percent. They provided less than 25 percent of our budgets 
while state and local governments supplied the remainder, over 
three-quarters. A study we conducted a couple of years ago 
documented a $550 million shortfall between the amount the 
Federal Government should provide in federal grants for our 
programs and the amount it currently provides.
    Clearly the President's budget request for a $65.8 million 
increase, while modest in scope, will be extremely helpful in 
trying to fill this gap. These funds are the lifeblood of our 
programs. We use them to carry out most of our core 
responsibilities under the Clean Air Act, including the 
development of strategies to attain and maintain health-based 
air quality standards, the compilation of emission inventories, 
the installation of air pollution monitors, the development of 
programs to ensure that facilities are complying with our 
Nation's clean air rules, and the establishment of innovative 
and flexible strategies for industries to find a more cost-
effective way of meeting their obligations and many others.
    However, in light of these funding gaps, most state and 
local agencies are finding it difficult to keep their essential 
programs operating. These agencies have had to scale down 
programs that protect public health and have had to reduce 
their staffs. As a result states and localities are now more 
dependent than ever on receiving their fair share in federal 
grants.
    And the final reason we are seeking additional federal 
grants is that our responsibilities under the Clean Air Act are 
increasing substantially this coming year, well beyond our core 
program tasks. This year alone we have to adopt new programs 
based upon a revised health-based standard for lead, for 
nitrogen dioxide, and for sulfur dioxide, as well as to 
continue implementing new responsibilities for particulate 
matter and ozone. Each of these activities requires a whole set 
of additional responsibilities. As I mentioned, inventories, 
strategies, monitoring, and so forth.
    So in conclusion, the members of NACAA urge you to support 
the President's budget request of a much-needed $65.8 million 
increase over last year's level. These funds will go a long way 
toward protecting the public health from serious adverse 
affects, and we hope that you will respond favorably.
    Thank you very much.
    [The statement of S. William Becker follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. LaTourette [presiding]. Thank you very much.
    Dr. Hales.
                              ----------                              

                                         Wednesday, March 21, 2012.

                       AMERICAN THORACIC SOCIETY


                                WITNESS

DR. JEFFREY B. HALES
    Dr. Hales. Thank you, Mr. Chairman, Mr. Moran. I appreciate 
the opportunity to speak today. I am testifying on behalf of 
the American Thoracic Society, which is a large society of 
clinicians and researchers dedicated to respiratory health of 
which I am a member. I am a pulmonary physician. I practice 
long-term and critical care medicine at Virginia Hospital 
Center in Arlington, Virginia, and I have got three important 
messages I want to make today.
    First is air pollution is a serious health problem; second, 
EPA funding for clean air programs should be increased, and 
third, we should let the EPA do its job.
    As a pulmonary physician I spend my days treating patients 
with serious lung conditions such as asthma, COPD, emphysema. 
Through a combination of medicines, procedures, and lifestyle 
modifications I work together with these patients to help 
control their chronic disease, but there is one thing that 
neither I nor my patients can control, and that is the air that 
they breathe.
    Air pollution plays a major role in causing and 
exacerbating underlying respiratory illness, and from my years 
of clinical experience I know that Arlington and the 
Washington, DC, area has more than its fair share of code 
orange and code red air pollution days. When those happen, my 
office is inundated with phone calls from patients suffering 
from respiratory illness; the hospital is filled with patients 
suffering severe respiratory disease and respiratory failure. 
In most of these cases the patients did nothing wrong other 
than happen to be unlucky enough to breathe polluted air.
    I am personally not a researcher, but I am a clinician, and 
my clinical observations on the impact of air pollution are 
confirmed by a large number of reviewed, peer reviewed clinical 
studies both here in the United States and abroad. The science 
that documents the adverse effects of air pollution on human 
health is comprehensive, consistent, and compelling, and 
despite the significant advances the U.S. has made in 
controlling air pollution over the past years, people still get 
sick and die because of air pollution.
    The American Lung Association notes that over 50 percent of 
Americans, 154 million people, live in communities that have 
experienced at least one bad air quality day in the recent 
past. Air pollution is widespread, it makes people sick, and 
can kill. It remains a serious health problem in the United 
States.
    Fortunately, the EPA can and does make a difference in air 
quality, and I urge continued funding and support for the EPA 
Air Quality Programs. I agree with the previous speakers' 
support for the Administration's proposed $65 million increase 
in grants to state and local air agencies. The increased 
support for community level of air pollution programs is well 
justified, but what is not justified is the Administration's 
proposed cut to the Diesel and Retrofit Program. This Retrofit 
Program provides support to local communities to replace old 
diesel engines in school buses, transit buses, and commuter 
trains with newer and more efficient engines. This Retrofit 
Program yields immediate and long-term improvements in air 
quality. The funding should be restored.
    The EPA also has a small but scientifically-rigorous 
program on the health effects of air pollution. By supporting 
researchers who have published research on the health effects, 
the results of EPA Clean Air Research Program provides 
policymakers scientific understanding needed to make policy 
judgments with confidence. I believe the EPA has good science 
and has led to good decisions.
    However, research programs have been flat funded for 
several years. I urge Congress to provide a substantial 
increase in the fiscal year 2013 budget to begin to address 
these important research issues.
    The EPA is also charged with developing and maintaining an 
air pollution monitoring network. Unfortunately, we know that 
the current monitoring network is weak and inadequate. There 
are not enough monitors to adequately gauge, accurately gauge 
air pollution associated with highways and other high traffic 
areas. This means that we are effectively underestimating the 
pollution that we are exposed to, and hence, under-appreciating 
the risk that air pollution poses to our Nation's health.
    The EPA needs to incorporate more recent technology into 
our monitoring programs. These upgrades will give us more 
accurate information. I urge the committee to provide 
additional funds to expand and update the Air Quality Programs.
    The last point I would like to make is that we need to let 
the EPA do its job. In the last 2 years the House has 
repeatedly passed legislation that would block, weaken, or even 
delay the authority to improve the Nation's air quality. When 
implemented, air quality standards such as the Cross State Air 
Pollution Rule, the Mercury and Air Toxicants Rule, and the 
Boiler Rule would save thousands of lives, prevent heart 
attacks and asthma attacks. The health savings from these rules 
will far exceed the compliance costs and yet the House has 
repeatedly blocked these measures.
    I strongly urge the Committee and all members of the House 
of Representatives to restrain from extraneous policy writers, 
to let the EPA do its job in protecting America's health by 
improving our air quality.
    Thank you.
    [The statement of Jeffrey B. Hales follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. LaTourette. Thank you, Dr. Hales, and thank all of you 
for your testimony. We appreciate your appearance here. There 
has been a bloodless coup if you had not noticed. Mr. Simpson 
left, and he has to go and take care of the budget resolution. 
He is one of our members on the Budget Committee.
    Just a couple of comments. Mr. DiLoreto, being from Oregon 
I am sure you are aware of Mr. Blumenauer's work, and it all 
comes down to money, and I have been happy to join him on his 
quest to start a water infrastructure trust fund that somebody 
has got to pay for. They will not even let me into the Coke and 
Pepsi plants in my districts anymore because we suggested that, 
there should be some kind of fee on that.
    To our friends from the USGS, I had the director in my 
office, and I asked her specifically about the President's 
budget, and she seemed happy. So maybe double back and make her 
unhappy. I understand she has to be a team player, but she did 
not express the concerns that you have expressed today. So I 
appreciate you being here.
    Mr. Moran, do you have anything?
    Mr. Moran. Thank you, Steve.
    Let me just reiterate my appreciation for the two folks who 
spoke so eloquently on behalf of the USGS and for underscoring 
the need for water infrastructure. As Mike has said, we have 
got to figure out a way to pay for it, and I do not see where 
we are going to get the money in discretionary spending to pay 
for the safe drinking water, waste water treatment systems, and 
the like, that we are in desperate need of funding.
    And I want to thank our two witnesses, one of whom I know, 
we have spoken before on the importance of clean air. So clean 
air, safe drinking water, and the critical role that USGS 
plays, are all important to the work of this Subcommittee.
    In terms of mining, again, we are going to have to have 
some form of fee. It does not seem to be an outrageously large 
fee, and I understand that your role is to oppose the fee on 
behalf of the association, but somehow we have got to figure 
out how to pay for abandoned mine constructions and the like.
    I want to thank all of you. Good testimony. Thanks very 
much for taking your time.
    Mr. LaTourette. Thank you very much, and the first panel 
goes with our thanks, and we will now hear from the second 
panel. We will be joined in the second panel by Edward Hallock, 
who is the President of the Association of State Drinking Water 
Administrators from the State of Delaware; Elias Longoria Jr., 
who is a Councilmember from the City of Edinburg, Texas; Nsedu 
Witherspoon, who is the Executive Director of the Children's 
Environmental Health Network; Elizabeth Hoffman, the President 
of the Cancer Survivors' Against Radon; and Dusty Donaldson, 
the Executive Director of the Dusty Joy Foundation.
    Thank you all for coming, you observed the first panel, and 
we will follow the same sort of rules. The lights will flash, 
and we appreciate your coming here. We appreciate your 
testimony, Mr. Hallock, we will start with you.
                              ----------                              

                                         Wednesday, March 21, 2012.

  ASSOCIATION OF STATE DRINKING WATER ADMINISTRATORS/STATE OF DELAWARE


                                WITNESS

EDWARD HALLOCK
    Mr. Hallock. Okay. Thank you very much for the opportunity 
to speak today. My name is Ed Hallock. I am the President of 
the Association of State Drinking Water Administrators, and I 
am also the Administrator of the Drinking Water Program for 
Delaware.
    ASDWA represents the State Drinking Water Programs and 
their efforts to provide safe drinking water to more than 275 
million Americans. We respectfully request that for fiscal year 
2013, the Subcommittee appropriate funds for three programs at 
levels to help ensure appropriate public health protection for 
Americans.
    The Public Water Supply and Supervision Program. States are 
responsible for ensuring compliance with federal regulations 
for over 90 contaminants and for overseeing approximately 
155,000 public water systems, but state activities go well 
beyond simply ensuring compliance at the tap. They administer 
very challenging multi-faceted programs.
    The number of federal regulations continues to grow while 
at the same time the federal funding support has been basically 
flat. State Drinking Water Programs are under critical phases 
of implementing a series of new risk-based drinking water 
rules, and this challenge is playing out in the context of the 
current economic crisis. States have often been expected to do 
more with less and have always responded with commitment and 
ingenuity, but State Drinking Water Programs are now in crisis. 
Insufficient funding increases the likelihood of contamination 
that puts public health at risk.
    The fiscal year 2012 appropriated levels for the PWSS 
Program was $105 million or a bit less than $2 million per 
state, and the President has asked for an increase in fiscal 
year 2013 of only $4 million over the fiscal year 2012 budget. 
This amount is simply inadequate. We respectfully request that 
Congress appropriate $200 million for the PWSS Program to more 
appropriately account for the federal mandates and the enormity 
of the task facing states.
    The Drinking Water State Revolving Loan Fund. The primary 
purpose of the DWSRF is to improve public health protection by 
providing loans to improving drinking water infrastructure, 
thus facilitating water system compliance with the regulations. 
The payback on the investment in the program has been 
exceptional, $12.4 billion in grants and $2 billion in ARRA 
funds since 1997, have been leveraged by states into nearly $24 
billion in infrastructure loans for projects that improve 
public health protection for millions of Americans.
    The DWSRF Program request in the President's budget for the 
past several years has exhibited a disappointing downward 
trend, $850 million requested for fiscal year 2013, versus $1.4 
billion appropriated by Congress in fiscal year 2010. At the 
same time EPA's most Recent Needs Survey in 2007, indicated 
that drinking water system needs total $335 billion over the 
next 20 years.
    So ASDWA respectfully requests $1.287 billion for fiscal 
year 2013 funding for the DWSRF Program. This was the amount 
appropriated in fiscal year 2011, and ASDWA believes this is an 
appropriate funding level on an ongoing basis.
    Finally, the State Drinking Water Security 
Responsibilities. Since the events of September, 2001, as well 
as more recent experience in natural disasters, states have 
taken extraordinary measures to meet the security and emergency 
response-related needs of the drinking water community. States 
have provided assistance, training, information, and financial 
support to their systems.
    After 7 years of supporting State Security Programs through 
a small grant of approximately $5 million in EPA's 
appropriation, no funds have been provided for this purpose 
since fiscal year 2009, and none are requested for fiscal year 
2013.
    ASDWA respectfully requests $10 million in fiscal year 2013 
funding for the State Security Initiatives.
    So a number of incidents in the U.S. over the past several 
years having led to illnesses or deaths from unsafe drinking 
water serve as a stark reminder of the critical nature of the 
work the Safe Drinking Water Programs do every day and the 
danger of inadequately-funded programs. Vibrant and sustainable 
communities are dependent on a safe and adequate supply of 
drinking water. A strong drinking water program supported by 
the federal and state partnership will ensure that the quality 
of drinking water in this country will not deteriorate and in 
fact, will continue to improve so that Americans can be assured 
that a glass of water is safe to drink no matter where they 
travel or live.
    I know the Subcommittee will be considering many worthy 
funding requests for a lot of different programs, but it would 
be hard to argue that anything is more important than safe 
drinking water. So an increase, even a relatively modest 
increase in the PWSS Grant would help a great deal in allowing 
state security on this important work, and I would respectfully 
request to have submitted into the record a copy of, ``The 
Public Health Protection Threatened by Inadequate Resources,'' 
a study that we did in 2003, by the Association of State 
Drinking Water Administrators.
    Okay. Thank you.
    [The statement of Edward Hallock follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. LaTourette. Thank you very much.
    Mr. Longoria. Welcome. Thank you.
    Where is Edinburg, Texas?
                              ----------                              

                                         Wednesday, March 21, 2012.

                        CITY OF EDINBURG, TEXAS


                                WITNESS

ELIAS LONGORIA JR.
    Mr. Longoria. I am going to give you a little handout here, 
if you do not mind.
    Mr. LaTourette. Sure.
    Mr. Longoria. It is deep south Texas, about 15 miles from 
the Texas/Mexican border.
    Mr. LaTourette. Okay. Great. Well, welcome.
    Mr. Longoria. Thank you. Good afternoon, Mr. Chairman, Mr. 
Moran. I am Elias Longoria, and I am an elected City 
Councilmember from the City of Edinburg, Texas, located in the 
15th Congressional District of Texas, and my testimony today is 
related to the Wastewater Sewer System Programs that fall under 
our jurisdiction of the Environmental Protection Agency.
    Today I appear before you to share with you some very 
important economic statistics from the City of Edinburg, about 
some important jobs coming to the city, creating even as we 
speak. We are seeking counsel regarding the dilemma the city is 
facing on how to improve infrastructure upgrades needed to keep 
up with the city's booming economy and services to seven 
colonias just outside the city that depend on our facilities.
    Edinburg, as I mentioned, is located 15 miles from the 
Texas/Mexican border. It is a city of 77,000 people, a city 
that has grown to this population from less than 20,000 in 
1960. It is now one of the fastest growing areas in south 
Texas. Soon we will have two new major manufacturing companies, 
one for produce and one for denim, which will be opening in the 
area, offering 1,600 new jobs to the community.
    There is a new plant called Santana Textiles, which through 
the help of Governor Rick Perry and the State of Texas 
Enterprise Zone Program, as well as some tax incentives by the 
city, is expanding and opening their plant in August. They will 
offer 800 new jobs.
    The other new 800 jobs will be brought by a company called 
Don Hugo Produce, which was formerly located in the City of 
Chicago. They find that the city offers everything that they 
need to be moving produce from Mexico into the eastern part of 
the United States.
    Also our airport which previously was used as a military 
defense airport has been converted now to general aviation 
after World War II and is slowly but surely becoming a 
commercial airport, which we will need to adequately service 
the community of Edinburg. In fact, FedEx Ground has just 
opened a new ground station, 100,000 square-foot building, and 
all their ground station will be based out of the City of 
Edinburg.
    Edinburg also assists seven nearby rural areas known as 
colonias in south Texas. As described by the Federal Reserve 
Bank of Dallas, colonias date back to the early 1950's. They 
were using marginally agricultural land, lands that lay in 
floodplains and other rural properties to develop and created 
unincorporated subdivisions. They divided the land into small 
lots, put little or no infrastructure, and then sold it to low-
income individuals seeking affordable housing.
    Colonia residents generally have very low incomes. Per 
capita annual income for the Texas counties bordering Mexico 
where most of the colonias are located tend to be much lower 
than state average. These communities clearly are overburdened, 
but they also provide many of the workers that fuel the growth 
of the Rio Grande Valley's economy. Like it or not, many of 
these city's services end up being provided to these residents 
of the seven nearby colonias.
    The city government provides to the city's residents and 
the colonias sewer and water treatment, fire fighting 
assistance, police assistance, emergency management assistance, 
and airport services in case of an emergency or natural 
disasters. The Rio Grande Valley of Texas seeks a port of entry 
or egress, such as this airport, located along the Texas/
Mexican border, and in short, during this period of growth, the 
city is working hard to make certain that its citizens and the 
businesses that have located in our community continue to have 
the necessary services for a good quality of life as well as 
being able to attract even more jobs.
    I fully understand that Congress is out of the earmark 
business. However, I am here today to share with you a major 
dilemma the city faces regarding its sewer plant and water 
plants, airport, and law enforcement funding.
    The city's population continues to grow because the city is 
working hard to add jobs, fight off the devastating economic 
effects of the recession, and do our part to stimulate economic 
growth. My job today on behalf of the citizens of Edinburg is 
to ask you, the Federal Government, to do an assistance with 
the City and federal dollars to help us address the cost of 
building a much-needed $11 million sewer plant and an $8 
million water plant.
    We are here for suggestions of any way that that could 
happen. Unfortunately, for the citizens of Edinburg they cannot 
afford both to pay for more necessary improvements to the 
city's utilities and also assist the other surrounding 
unincorporated communities as well as the seven colonias. The 
City has been faced with fines from the federal EPA because its 
burgeoning population is pushing the water and sewer facilities 
to their limits.
    This current state of affairs does not do us any good, and 
certainly, does nothing for the city. Either we have to work 
together to find federal dollars to help the citizens of 
Edinburg get through these rough spots or the city will have to 
turn away businesses who are eager to invest brick and mortar 
and jobs to the City of Edinburg.
    The same goes for our airport. When FAA tells us that we 
need more volume in order to access money from the Airport 
Improvement Act to expand our runway, the city responds it 
cannot get more volume with a runway that is too short for 
planes. It is the proverbial question of which comes first, the 
chicken or the egg. This is a good example of a government 
program that is not serving the communities it was designed to 
serve.
    Finally, because of our proximity to the Texas/Mexican 
border, we also need federal dollars to spend on border 
security due to the horrible problems that Mexico is allowing 
to spill over the Texas side of the border from Mexico. This is 
a national problem, but part of that battle is being fought on 
the local level by our city law enforcement officers.
    Today, I invite this committee to hold a hearing in 
Edinburg, tour the airport, the seven local colonias that 
Edinburg services, and let us show you exactly why we need help 
from the Federal Government. These dollars we need from the 
Federal Government will be used carefully to help the city 
continue to be able to support its population growth as well as 
prove to you that the city is doing its part to stimulate the 
economy.
    Our area is one of the fastest growing areas in the United 
States, and we need help from the Federal Government to make 
certain we continue to grow, add jobs, and allow the people of 
Edinburg and South Texas to prosper.
    Thank you for the opportunity to testify, and I am open to 
any questions you may have.
    [The statement of Elias Longoria Jr. follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. LaTourette. Thank you very much. Could you just tell us 
who is the member of Congress that represents Edinburg?
    Mr. Longoria. I believe it is Kay Bailey Hutchinson.
    Mr. LaTourette. Well, she is a Senator.
    Mr. Longoria. Senator. Oh, Congress. Ruben Hinojosa. I am 
sorry.
    Mr. LaTourette. Okay. Good. Thank you.
    Ms. Witherspoon, welcome.
                              ----------                              --
--------

                                         Wednesday, March 21, 2012.

                CHILDREN'S ENVIRONMENTAL HEALTH NETWORK


                                WITNESS

NSEDU OBOT WITHERSPOON
    Ms. Witherspoon. Thank you. Mr. Chairman, Mr. Moran, thank 
you very much for the opportunity to have this hearing and to 
testify before you today. My name is Nsedu Witherspoon, and I 
am the Executive Director for the Children's Environmental 
Health Network, and this year the Network is celebrating our 
20th anniversary. I will briefly summarize my written testimony 
which has been submitted for the record.
    The Network is a national non-profit organization focused 
on children's health, and like parents and grandparents, I am 
sure that you all want children to have the best chance 
possible to grow up healthy and productive, and we certainly 
want the same thing.
    Thus, I am here today to highlight the important role that 
the EPA plays in our Nation's health, especially the health of 
our children and provide a look at how the EPA does this.
    The environments in which our children live and grow, learn 
and play shape certainly their health and their future. For 
example, researchers are understanding more and more about the 
fetal origins of disease and the health in later years. 
Research has found that children who are exposed in the womb to 
higher levels of a common pesticide at age eight had lower IQs 
and poorer working memory.
    We know that children can be more susceptible and more 
vulnerable than adults when exposed to toxic chemicals. We have 
much more to learn about how to protect children from harmful 
exposures in their environments. For example, synthetic 
chemicals that mimic or block hormone function known as 
endocrine disruptors affect a developing body's vital 
activities and normal functioning.
    We have much to learn about how to identify those hormone 
mimics and how to protect human health from this category of 
chemicals. Epidemiologists are seeing increasing rates of 
asthma. They have approximately doubled between 1980, and 1995, 
and they are on the rise again. Childhood cancers which have 
increased 20 percent since 1975, and autism, the diagnosis has 
increased more than ten times in the last 15 years.
    I am not saying that environmental exposures are the sole 
reason for these increases; however, it is clear that such 
exposures do play some role in the modern pediatric epidemics. 
That is why EPA's activities have a great impact on children's 
health and development. EPA's Office of Child Health Protection 
leads and coordinates the agency's efforts to protect children 
from environmental hazards. The Children's Health Research 
Centers of Excellence are conducting phenomenal research to 
help protect children from environmental hazards.
    EPA's Office of Research and Development oversees research 
to improve toxicity testing and to better understand children's 
exposures as its many activities that will impact children's 
health.
    The Pediatric Environmental Health Specialty Units are a 
unique resource network for the Nation's pediatricians and 
parents doing valuable work with very small budgets. The 
National Children's Study is looking at environmental 
influences on the health and development of more than 100,000 
children across the United States, following them from before 
birth until age 21. EPA has specific expertise to offer the 
National Children's Study if the Congress provides the agency 
with the resources to contribute.
    A variety of EPA programs and activities are vital to 
support community and State efforts to protect children's 
health in environments that are unique to children such as the 
school and the childcare settings. Unsafe environmental 
conditions harm children's health and undermine attendance, 
achievement, and productivity.
    We urge you to support EPA's activities for health school 
and childcare settings such as the Indoor Air Quality Tools for 
Schools Program. EPA and its partners in public health such as 
the National Institute for Environmental Health Sciences and 
the Centers for Disease Control and Prevention and local and 
state agencies, they are faced with tough budgetary times and 
ever-increasing needs.
    We recognize the fact and the challenges that you are 
facing. While you are deciding on appropriations for fiscal 
year 2013, please do not compromise the mission of a vital 
guardian of our health, the EPA. Your investment in programs 
and initiatives that protect children's health will be repaid 
by a healthier generation with brighter futures.
    We also urge you to direct the EPA to assure that all of 
its activities and programs, including regulations, guidelines, 
assessments, and research specifically consider children.
    Thank you, again, for the opportunity to testify, and thank 
you for your concern about the environmental health of our 
children. I am certainly happy to answer any questions you may 
have.
    Thanks, again.
    [The statement of Nsedu Obot Witherspoon follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. LaTourette. Well, we thank you very much for being here 
and sharing your observations.
    Ms. Hoffman.
                              ----------                              

                                         Wednesday, March 21, 2012.

                     CANCER SURVIVORS AGAINST RADON


                                WITNESS

ELIZABETH HOFFMAN
    Ms. Hoffman. I am Elizabeth Hoffman. I am President of 
CanSAR, Cancer Survivors Against Radon, a non-profit 
organization.
    The dangers of radon are real. I have never smoked, nor 
have I have been around second-hand smoke, and I have lung 
cancer. I first tested our home after my half of my left lung 
was removed, along with the 5 centimeter mass, malignant mass. 
My home tested at over twice the action level for radon.
    My journey began in '03, when I went to my G.P. because I 
had a persistent dry cough and an intermittent pain below my 
left shoulder blade. He ordered a chest X-ray, which showed the 
mass. I underwent surgery, daily chest radiation, and my series 
of chemo.
    '06, the cancer came back as fluid in my chest. A chest 
catheter was inserted so fluid could be drained at home, and I 
underwent my second series of chemo.
    '08, the cancer spread to my brain and my right lung. I had 
Cyberknife brain radiation and third series of chemo.
    2011, there were 12 new lesions on my brain, and I 
underwent whole brain radiation. Later that year a CT showed 
new growth in my left lung. I am currently undergoing my fourth 
series of chemo.
    After I came home from my lung surgery, I researched radon. 
I wanted my challenges, my life to count for something, so a 
group of us came together to put a face on the dangers of 
radon. We began CanSAR. Some of my colleagues from CanSAR are 
here with me today.
    Barb is a lung cancer survivor like myself. Gloria and 
Marlene behind me both lost their husbands to radon-induced 
lung cancer. We are counting on you to right the wrong that has 
been allowed to go on for far too long. It is unacceptable that 
more than 21,000 American lives are lost each year due to this 
preventable disease.
    From my perspective cutting our Nation's Radon Program is 
the exact opposite of what is needed. According to EPA's own 
Inspector General's 2008 report nearly 2 decades after passage 
of the 1988 Indoor Radon Abatement Act, exposure to indoor 
radon continues to grow.
    Today an American dies every 28 minutes from radon-induced 
lung cancer. According to the Today Show report, an estimated 
70,000 classrooms contain toxic radon levels. One of every 15 
homes in our country contain toxic levels of radioactive radon 
gas.
    The hard reality is that this program's voluntary nature 
has proven to be ineffective. A simple, inexpensive test is all 
that is required during the real estate transaction to know if 
a problem exists. According to the American Association of 
Radon Scientists, the 2013, proposed budget cuts will zero-line 
EPA's State Indoor Radon Grant Program and eliminate EPA 
regional office support.
    The overall impact will be the systematic elimination of 
our country's outreach and education efforts as they pertain to 
radon. Fewer of our buildings will be tested and more will not 
be fixed. Consumers will no longer have a state or tribal 
program to protect their interests in dealing with unregulated 
contractors.
    Classrooms in our country with toxic levels of radon will 
never be identified and fixed so our children can learn in a 
safe environment. Our soldiers and their families living in 
military housing containing toxic levels of radon will continue 
to be put at risk.
    This is not acceptable. Last year EPA announced a new 
initiative, the Federal Radon Action Plan, which does not have 
funding or accountability. This does not make sense. The time 
for a real commitment from our elected officials in requiring 
radon risk reduction is required. This requires your support in 
mandating a fully-funded national regulatory program, and the 
return on your commitment is potentially great, more than $2 
trillion of healthcare savings, as well as saving lives.
    To date the cost of my treatment has exceeded $800,000. 
Every radon-induced lung cancer survivor or family member of 
those who have lost their battle has a story to share with you. 
This is why on behalf of CanSAR I specifically ask for the 
following.
    Number one. Properly fund the EPA radon budget to the 2011, 
levels for a minimum period of 5 years. A fully-funded national 
radon budget of 24 to $26 million per year will yield a 
positive investment on your return. Using EPA's own numbers, 
the overall value of a life saved is $7.9 million. According to 
EPA, 687 lives were saved through testing and mitigation in 
2011. This means you invested $24 million to recoup 5.4 
billion.
    Number two. Require EPA to regulate radon under the 
authority provided by your colleagues in 1988. If EPA is not 
the right agency to get the job done, then please require the 
right agency to take over the program. A properly-regulated 
national radon program will also provide a positive return on 
your commitment by saving thousands of lives every year.
    Please accept my request. I have no interest in blaming 
anyone for my condition. Blame does not have a place in the 
lives of cancer members. Instead, a fresh focus on addressing 
the radon problem in our country must begin today. You can make 
that happen. You can save more than 21,000 American lives each 
year.
    Thank you.
    [The statement of Elizabeth Hoffman follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    Mr. LaTourette. I thank you very much for your testimony, 
and since the hearing is recorded and written down, I noticed 
that you have displayed a number of photographs on the table. I 
wonder if you could just for the record describe who is 
depicted in those photographs.
    Ms. Linnertz. These are all members of CanSAR, Cancer 
Survivors Against Radon. These are people that did not know 
they were living with high levels of radon until they were 
diagnosed with lung cancer.
    You may be interested here especially in this young lady 
who is from Ohio. She passed away about 3 weeks ago. This is my 
husband in Illinois. We were living with high levels of radon. 
Illinois has 40 percent of the homes, almost 40 percent of the 
homes, as does Ohio, with over 4.0 Pico-curies per liter of 
air.
    Linda is from Pennsylvania, Gail is from Iowa. I have known 
all of these people since '06, the ones that were alive. 
Unfortunately, we lost several of them in 2010, and 2008, and 
they are not alive now. Here is Debbie, who is a third grade 
teacher in Washington. California is represented here with two 
people, Glenn and Leona, and Leona passed in '09, and Glenn is 
in very serious condition. Denny also was in Ohio. He was a 
real estate person who said to his clients, previously I did 
not say too much about radon, but now having been diagnosed 
with lung cancer and living with high levels of radon, I insist 
everyone get their homes tested before taking occupancy.
    This is Marlene's husband, Bob. These people are all over 
the country. Almost every state is represented here.
    Mr. LaTourette. That is why I asked you. Thank you very 
much.
    Ms. Donaldson, thank you for being here.
                              ----------                              --
--------

                                         Wednesday, March 21, 2012.

                          DUSTY JOY FOUNDATION


                                WITNESS

DUSTY DONALDSON
    Ms. Donaldson. Thank you. As a patient advocate, lung 
cancer survivor, and founder of a 501(c)(3) non-profit 
organization dedicated to advancing lung cancer education, 
early detection, and compassion for those impacted by the 
disease, I am here to testify on behalf of more than 20,000 
Americans who will die from radon-induced lung cancer this 
year.
    Thank you for granting me the opportunity to respond to the 
announcement that EPA funding for radon programs may be 
reduced.
    I was diagnosed with lung cancer 6 years ago. Only 15 
percent of lung cancer patients survive 5 years, so I believe I 
have a responsibility to speak out for those unable to speak. I 
am grateful for your time and attention.
    According to the EPA more than 20,000 Americans will die 
from radon-induced lung cancer this year. Radon kills more 
Americans each year than AIDS, drunk driving, drowning, or home 
fires. Approximately 17,000 Americans will die from AIDS this 
year, 10,839 will die as a result of drunk driving, 3,650 will 
drown this year, and 3,500 will die in home fires. These other 
risks are well known, but the American public knows so little 
about the risks of radon.
    Dorothy Blosser from Virginia's Shenandoah Valley is one 
person who never smoked but died from lung cancer. Dorothy was 
a Mennonite pastor's wife. After her diagnosis her family 
discovered the radon level in the home was nearly ten times the 
EPA action level.
    Lung cancer is the number one cancer killer. It kills 
nearly twice as many women as breast cancer, three times as 
many men as prostate cancer. In fact, lung cancer kills more 
people than breast, prostate, colon, and pancreatic cancers 
combined.
    While lung cancer is the number one cancer killer, it is 
the least funded in terms of federal research dollars. One 
reason lung cancer research is underfunded is because of the 
stigma associated with this disease. Maybe it is subconscious 
but people assume anyone with lung cancer brought it upon 
themselves, like the early days of AIDS.
    Consider that approximately 79,000 U.S. smokers will be 
diagnosed with lung cancer this year, yet nearly twice that 
number, 147,000 who are former or never smokers, will also be 
told you have lung cancer. Although the EPA estimates that more 
than 20,000 lung cancer deaths are due to radon, considering 
that approximately 34,000 Americans who never smoked will be 
diagnosed with lung cancer this year, the number of radon-
induce lung cancer deaths could be even higher.
    Radon is the number one cause of lung cancer in people who 
never smoked, and for those with a history of smoking, radon 
exposure greatly increases their risk for developing lung 
cancer. According to the American Cancer Society each year 
approximately 3,400 Americans die from lung cancer caused by 
second-hand smoke. Radon-induced lung cancer claims six times 
as many lives. Across the country restaurants, office 
buildings, and schools have become smoke free. Although the air 
in these buildings may be smoke free, radon in these buildings 
is killing 55 Americans each and every day.
    Many never smokers are battling lung cancer. Abby, a 14-
year-old girl from Macon, Georgia, has been fighting stage four 
lung cancer since she was nine, and there is Taylor Bell, a 
former college athlete who interned for Senator Richard Burr. 
She was diagnosed with lung cancer at the age of 21. In Texas 
there is Gerald Dash, a former college football player who had 
a double lung transplant. Gerald fights for every day he gets 
to spend with his wife and two daughters. I would love to tell 
you about Daveed, Lila, Julie, Marian, Brittney, Katherine, Bo, 
Melissa, and many more, but time constrains me.
    The Dusty Joy Foundation supports the EPA's work of warning 
the public about radon. One easy way to reduce lung cancer 
deaths is to fund radon awareness. While radon is a serious and 
potentially deadly problem, the test is inexpensive and easy, 
and if there is a problem, fixing it is quick and less 
expensive than most home improvement projects.
    Our non-profit organization distributes free radon test 
kits to targeted residents in North Carolina and Virginia, 
along with EPA-radon awareness materials. If funds for radon 
programs are reduced, a message would be sent that radon 
awareness is unimportant, that more than 20,000 Americans do 
not matter. Our organization's good work would also be 
hindered. Please do not perpetuate the cruel and false 
assumption that people with lung cancer deserve it.
    In light of these facts we actually request an increase in 
funding for the EPA's Radon Awareness Program.
    Thank you, again, for your time and attention to this life-
saving matter.
    [The statement of Dusty Donaldson follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. LaTourette. I thank you, and I want to thank all of you 
for sharing your testimony and your stories. We appreciate it 
very much.
    Just a couple of quick comments before I ask Mr. Moran if 
he has some observations. Mr. Hallock, one of the problems that 
we continually face, I am a child of the '60s and '70s, and in 
those days there was a lot of free money for wastewater 
improvement, what people described as free money. Today the 
rules have continued but the money has not, and, it is why when 
we had the fellow from the Civil Engineers, we have got to 
figure it out. You cannot in my part of the world, where the 
pipes have been in the ground since the Great Depression, 
expect these communities to come up with the necessary 
resources to meet all the rules that are being forced on them. 
People can only afford so much in a water and sewer bill, and 
so we are going to have to be creative, and it is going to have 
to be both parties that are going to have to be creative and 
figure out the mess. So I appreciate it.
    Mr. Longoria, how long is your runway that you talked 
about?
    Mr. Longoria. I do not have the detail of the runway right 
now. Fifty-six hundred feet.
    Mr. LaTourette. Well, that is pretty short, and I think 
that Mr. Moran and I and others will be happy to work with your 
member to talk about it. I mean, the AIP Program is not the 
subject or the jurisdiction of this subcommittee, but I am more 
than familiar with it, and in order to qualify you have to be 
what is called a reliever airport, that would relieve, if there 
is a problem in another airport, the planes could land there. 
Not very many planes can land in a 5,600 foot runway, but we 
will work with you folks.
    Mr. Longoria. Thank you.
    Mr. LaTourette. And we appreciate it very much.
    Mr. Longoria. Thank you.
    Mr. LaTourette. Relative to radon, just so I am clear, when 
I purchased a home here in Mr. Moran's district, he is actually 
my Congressman when I live here. That is why I go back to Ohio 
on a regular basis. That is not true. He is a great 
Congressman. But there was a requirement that we have the home 
tested as part of Virginia law, and so my question would be, 
and I know that that is not the answer because there has to be 
the real estate transaction, but if there were a universal 
legislation similar to what apparently is in Virginia, where at 
the time of transfer you had to have the radon testing, what 
sort of impact do you think that that would make on the 
problem?
    Ms. Hoffman. Huge. Right now no one is talking about it for 
some of the reasons that you heard today, but also people do 
not think that it is major concern. The news is not talking 
about it enough and then with the cuts, that would send the 
wrong message.
    So if there is regulation out there that would mandate 
testing of homes, schools, be it with a real estate transaction 
or with mandatory testing and that it has to be mitigated with 
licensed contractors as another aspect of it, that would be 
huge.
    Mr. LaTourette. Okay.
    Ms. Hoffman. That would be absolutely huge.
    Mr. LaTourette. Go ahead.
    Ms. Linnertz. Presently there is no State in our Nation 
that demands radon testing at the point of sale. There are some 
municipalities and there may be some real estate agents that 
mandate it, but no state has that as a law.
    Mr. LaTourette. And I am glad you brought that up, because 
do you know, Jim? Is it Fairfax County, or what is it?
    Mr. Moran. It must be local because we require it upon 
transfer of residential property. So if it is not State law, 
then it must be a local law.
    Mr. LaTourette. Yes.
    Ms. Linnertz. Right.
    Mr. LaTourette. You know, just my sense is that so many 
things are already attached to point of sale, transactions that 
in my opinion are not worthwhile, but this seems to be 
something----
    Ms. Linnertz. Certainly.
    Mr. LaTourette [continuing]. That is worthwhile.
    Ms. Hoffman. Absolutely.
    Ms. Linnertz. Certainly.
    Mr. LaTourette. If we, for instance, at point of sale 
required you to update your electrical system so your family 
does not burn to death in an electrical fire, this seems to be 
a reasonable extension of that, and, again, I will talk to 
Chairman Simpson, but I know that we would be happy to work on 
some, you know, around here it is the carrot and the stick 
approach. So if the state does something good, sometimes we 
reward them, and if they do not, sometimes you smack them 
around.
    I think that we can talk about this, and I really 
appreciate, I did not know the statistics on the difference 
between tobacco-related lung cancer and radon. So I have 
learned something today, and I appreciate it.
    Ms. Donaldson. Thank you, and if I might just add one more 
comment to what Gloria and Liz were saying about, you were 
talking about real estate transactions, Gloria had enlightened 
me about, Gloria, where was that? Was that in your home state 
where it is mandatory that the buyer at least receive 
information. Could you explain that a little bit?
    Ms. Linnertz. When my husband died and the oncologist told 
us that radon was a known cause of lung cancer, my husband only 
lived 6 weeks after his diagnosis, I heard it on TV again, and 
I researched, and I tested our house. I went to my state 
legislator, and I said, there has to be a law so people do not 
have homes with high levels of radon. We were living with over 
four times the EPA action level.
    We did get passed in Illinois a very, very firm Radon 
Awareness Act, which is a notification act so everybody that 
buys a home is notified of the fact that radon is present and 
that it is a class A carcinogen, and they must have this sign-
off sheet saying that the seller has tested the level as such 
and such. They have never tested or they tested and mitigated 
and the level is such and such.
    Previous to that law only 8 percent of the people were 
testing their home for radon at the point of sale. That number 
has gone up to toward 40 percent since '08, when it was passed.
    Mr. LaTourette. I think that it is a great step forward, 
but my experience is people are so anxious to get into their 
homes, nobody would ever lose a home to termites if everybody 
did what they were supposed to do. So I am not a big government 
guy, but it seems to me that like lead paint, like so many 
other things that you can find in a real estate transaction, 
that is a reasonable point.
    Ms. Donaldson. This is the radon test kit. It is as simple 
as this.
    Mr. LaTourette. Well, the one I had in my house was a 
little bigger. It looked like----
    Ms. Donaldson. Yes.
    Mr. LaTourette [continuing]. A dehumidifier.
    Ms. Donaldson. It can be fancier.
    Mr. Moran. Thank you, Steve.
    Mr. LaTourette. Sure.
    Mr. Moran. I understand from our excellent staff that one 
idea would be to have school children, perhaps in science 
classes, take it home with them and check their own home. The 
discussion would then probably spread to include other homes. 
It would not take much tweaking to suggest that that might be 
an initiative that the Administration would implement with the 
money that is now available.
    Ms. Donaldson. Excellent idea. Excellent.
    Mr. Moran. Far-reaching affects.
    Mr. LaTourette. How much does that----
    Ms. Donaldson. Well, you can buy it at Lowe's for about 20 
bucks, and it is a self mailer. Both ways it is no postage, and 
you can buy it, well, we buy it at a discount because we are a 
non-profit, and we buy wholesale, but our organization spends 
$4.50 on a radon test kit.
    Mr. Moran. So a school system, for example, could buy them 
in quantity at wholesale prices----
    Ms. Donaldson. Absolutely.
    Mr. Moran [continuing]. So it might be affordable. Well, it 
is something we should talk about.
    Mr. LaTourette. Again, my thanks to all of you, both listed 
and unlisted, who shared your stories with us and you go with 
our thanks.
    Ms. Donaldson. Thank you.
    Ms. Hoffman. Thank you.
    Mr. LaTourette. Let me just ask Mr. Moran's opinion. I have 
been told that at 2:15, which is about now, we are going to 
have four votes. I am reluctant to just have a couple of the 
witnesses from the next panel and then----
    Mr. Moran. Well, I mean, it is going to be a good 15 
minutes.
    Mr. LaTourette. Do you want to get started?
    Mr. Moran. Let's see if we could get the first couple of 
witnesses in because otherwise they are going to have to hang 
around for quite awhile.
    Mr. LaTourette. Okay. With that we are going to call up our 
next panel with the understanding that we will probably be 
interrupted before you are able to complete the entire panel. 
First if we could ask Nancy Perry to come forward, who is with 
the American Society for the Prevention of Cruelty to Animals; 
Nancy Blaney, the Animal Welfare Institute; Mary Beth Beetham, 
the Defenders of Wildlife; Brad Brooks from the Wilderness 
Society; and Greg Knadle from the National Fish and Wildlife 
Foundation.
    So we have about 12 minutes before Mr. Moran and I have to 
go catch a series of votes, and there are four votes, and 
included in there will be a motion to recommit, so we are 
probably looking at an hour plus or minus.
    So with that----
    Ms. Perry. No pressure.
    Mr. LaTourette. Yes. Basically anybody that can summarize 
their statement in a minute or less will get full funding. The 
rest of you are going to have to move on.
    I appreciate you being here, and Ms. Perry, let's start 
with you. Thank you for coming.
                              ----------                              

                                         Wednesday, March 21, 2012.

     THE AMERICAN SOCIETY FOR THE PREVENTION OF CRUELTY TO ANIMALS


                                WITNESS

NANCY PERRY
    Ms. Perry. Thank you so much. It is a great opportunity for 
the American Society for the Prevention of Cruelty to Animals 
to be here today. We are the very first humane organization to 
be formed in the Western Hemisphere back in 1866, and we have 
more than 2.5 million supporters that we are representing here 
today.
    Our birthright is in the prevention, the effective 
prevention of cruelty to animals, and in particular when we 
started equine protection was one of the primary issues that 
Henry Bergh focused on. So it is all too appropriate that we 
are here today to speak to you about the Bureau of Land 
Management's efforts to manage wild horses and to offer some 
suggestions for change.
    We certainly know that these horses were to be treated 
humanly under Congress's demands when they passed the Wild and 
Free-Roaming Horse and Burro Act in 1971, an act that passed 
due largely to the pressure of many school children, millions 
of them around the country, that really believe that these 
horses should be preserved for future generations. Those school 
children are adults now and in society. Many of them are our 
members. They remember that as one of their most important 
civic acts that they ever conducted, and so they continue to 
feel very strongly about making sure that these horses are 
preserved as historical icons, protected, treated humanly, 
never, never the subject of abuse.
    In the 40 years BLM has been managing these horses, we have 
seen a real deterioration in the way the herds have been 
treated and in a non-stop cycle of roundup and removal, which 
has been disruptive for the herds and the horses, harsh 
treatment for the horses in the process, and very tough on 
taxpayers as a result of taking too many horses off the ranch.
    So there has been an acknowledgement by BLM that there is a 
need for change. They recognize that. We applaud the agency for 
recognizing that, and we want to work with them. We have a 
couple suggestions for the committee in how they can help 
institute some positive change.
    We have four ideas in particular, and they are articulated 
in our written testimony, so I will be very brief. We think 
that first we need to abide by the ``Do No Harm Principle,'' 
and we need to make sure that language is in the Interior 
Appropriations Bill this year that has been in past bills that 
ensures that wild horses are never killed by mass euthanasia 
and never commercially sold.
    We also hold that there will be an equilibrium instituted 
between the number of removed horses and the adoption program 
so that we are abiding by the principle that we ask the 
American people to abide by right now in tough economic times. 
We need to live within our means, and the agency has not been 
doing that, and that is why they keep coming to the committee 
asking for more money.
    We think that on-range management should be prioritized, 
and finally, we think that humane and transparent methods need 
to be instituted for all the roundups so that we do not have 
anymore tragedies.
    Let me first mention on the mass euthanasia and commercial 
sale issue. This stems from a problem back in 2004, when a 
backroom deal was instituted called the Burns rider, former 
Senator Burns made amendments to the Wild Free-Roaming Horse 
and Burro Act on a massive omnibus appropriations bill, and in 
doing so he made sure that horses would be available for 
commercial sale, which is the equivalent of slaughter, and our 
recent polling in January of 2012, showed that still very 
strong, in fact, growing public support against horse 
slaughter. Eighty percent of Americans and 72 percent of rural 
Americans feel very strongly on this issue. That needs to be 
protected against.
    So the ASPCA requests that the committee include language 
provided in our testimony that repeats what has been in past 
approps bills that would ensure that no horses are sold 
commercially and that the BLM never reconsiders as it did in 
2008, a mass depopulation approach to solving a messy problem 
that they had created.
    We also think this idea of equilibrium is very important. 
We know that a certain number of horses can be adopted every 
year, three to 4,000. No more than that should ever be taken 
off the range without a clear plan for how we are going to pay 
for that cost that we are accruing. It just makes common sense. 
So I think that is fairly obvious. I will not belabor it.
    But we should not delay the inevitable need for the third 
point, which is on-range management, and there are a couple 
ways to accomplish that. Wild horses under the Act were to 
always be left on the range, and on-range management was 
supposed to be the priority method of management.
    There are two things that the committee can encourage the 
agency to do more of, and that is more fertility control. This 
is very effective, tested over decades, and right now BLM is 
taking the step to control or contracept 2,000 mares, and that 
is an excellent step but not nearly enough. They should be 
contracepting as many horses as they plan to remove and 
removing the smaller number. So that needs to be reversed, and 
the Committee can certainly encourage the agency to do that.
    There also have been more than 19 million acres that were 
originally habitat for wild horses that have been utterly 
zeroed out, and so the 47,000 horses we have in holding that 
taxpayers are paying for right now could be rereleased on that 
land. BLM needs to use some of the money that you provide them 
to study that land for proper habitat, and as soon as possible 
rerelease those horses.
    Finally, there have been all too many very unfortunate 
incidents in recent roundups that have demonstrated the need 
for standard operating procedures to be instituted by the 
agency to ensure no horses endure outright cruelty during these 
roundups. We have seen and documented foals being run such 
extreme distances that their hooves literally soften and slow 
off and the horses have to be destroyed. Horses have been 
driven to physical exhaustion. Horses and burros have literally 
been physically assaulted with helicopter skids, and this has 
been captured and documented over and over again. We have seen 
excessive and inappropriate use of electric prongs, beating 
horses with whips, kicking horses, and slamming metal gates and 
metal panels against horses' legs and bodies, and the twisting 
and pulling of horses' tails. There are better ways to conduct 
roundups, and there is never an excuse for one of these 
incidents.
    BLM does acknowledge this, and they want to work on 
protocols. The Committee could encourage them to expedite that 
procedure.
    One thing we would also ask is that video cameras be 
installed on the helicopters for public transparency. This 
would assure the public who currently probably spends a lot of 
BLM's time with their worries, they would be able to be assured 
that those roundups are conducted without harming horses.
    So I want to thank you for this opportunity to mention 
these important points and thank the committee for its 
investment in this issue and for helping us bring to being the 
original vision of the Wild Free-Roaming Horse and Burro Act 
and protect these horses.
    Thank you so much.
    [The statement of Nancy Perry follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. LaTourette. Thank you for coming. Thank you for your 
testimony.
    Ms. Blaney, you are up, and to our other witnesses I think 
that will be it until we vote, so I apologize for that. Thank 
you for being here.
                              ----------                             

                                         Wednesday, March 21, 2012.

                        ANIMAL WELFARE INSTITUTE


                                WITNESS

NANCY BLANEY
    Ms. Blaney. My name is Nancy Blaney. I am here testifying 
on behalf of the Animal Welfare Institute. I will be addressing 
White-Nose Syndrome activities of the Fish and Wildlife 
Service, U.S. Geological Service, Forest Service, and BLM, and 
also touching briefly on the horse and burro issue as well.
    This Subcommittee is well aware of the destruction being 
wrought by White-Nose Syndrome. When I submitted my testimony 
on March 12 it was in 19 States and four Canadian Provinces. It 
is now in 20 States. Since then it has been confirmed in 
Alabama, as well as in the Great Smokey Mountains National 
Park.
    In January new estimates from Fish and Wildlife put the 
death toll of that at at least 5.7 million, and you are well 
aware of the significant agricultural and public health impacts 
of the deaths of so many bats.
    The money that has been spent so far on addressing this 
problem has yielded crucial results, mapping of the Geomyces 
destructans, the fungus' genome, and identifying its origin, 
scientifically concluding that Geomyces destructans does, 
indeed, cause White-Nose Syndrome, because that question was 
open for a little while, and that is important to the 
development of management strategies.
    Ongoing projects that are untaken by these agencies include 
detailed studies of the transmission of the fungus, possible 
means of mitigation, improving detection, and developing a 
better understanding of bats' resistance and susceptibility to 
the fungus and of the persistence of the fungus in the 
environment.
    We appreciate the attention this subcommittee has given to 
the problem. We are requesting a modest increase in funding for 
the four main agencies involved in these activities in order to 
build upon the progress that we have seen so far and so that we 
can continue to try to get a handle on this.
    For the U.S. Fish and Wildlife Service, which is the lead 
government agency in this and supports all of the working 
groups under the White-Nose Syndrome National Plan, we ask that 
the Committee maintain the President's fiscal year 2013, 
recovery fund request, which includes 1.897 million within that 
amount for White-Nose Syndrome, and we request that that be 
supplemented by an additional $500,000 in the General Program 
Activities Account for Fish and Wildlife.
    These funds would support the following. Interagency 
coordination. You can imagine Fish and Wildlife is coordinating 
the wildlife or the White-Nose plan over all the federal 
agencies, state agencies, tribal agencies, and private 
organizations.
    Identifying priorities for applied research. Some of the 
research that has gone on so far has involved tracking how the 
fungus affects the chemical processes in bat systems because 
they are so delicate.
    Support the state wildlife agencies and conservation action 
for bat species already in decline due to White-Nose Syndrome.
    We are asking the Subcommittee also to maintain the $1 
million increase requested in the President's budget for the 
U.S. Geological Survey, whose Wildlife Health Center is one of 
the key agencies in identifying the fungus, doing necropsies on 
bats to identify where it has appeared. This money would allow 
enhancements to USGS's surveillance and diagnostic capabilities 
and support research on such topics as immunology and 
pathogenesis, vaccine development, which is very crucial, the 
prevalent and survival of the fungus in cave environments, and 
modeling disease processes.
    In fact, it was the USGS study that provided the first 
direct evidence that Geomyces destructans, in fact, causes 
White-Nose Syndrome. So that was a very important research 
project on their part.
    Mr. LaTourette. We were just told we have 2 minutes.
    Ms. Blaney. Two minutes. Okay.
    Mr. LaTourette. For us to vote.
    Ms. Blaney. Oh, you have only got 2 minutes left?
    Mr. Moran. What do you want to do? Do you have much longer?
    Ms. Blaney. The only other thing we are asking for is 
additional funding for National Park Service, BLM, and U.S. 
Forest Service. As a matter of fact, BLM and the U.S. Forest 
Service, which are trying to comply with the subcommittee's 
directive of last year, are actually working on a plan now to 
try to already protect northwest bat species because they are 
already worried about the influx of Geomyces destructans and 
White-Nose into the northwest.
    And we also endorse the ASPCA's testimony on wild horses 
and burros and ask for the inclusion of the No Kill Language in 
the Subcommittee's report.
    [The statement of Nancy Blaney follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Moran. Very good. Thank you.
    Mr. LaTourette. Thank you very much, and to our witnesses, 
we will be back as quickly as we can, and Ms. Perry and Ms. 
Blaney, if you want to stay, you are more than welcome to, but 
if you have had enough of this, you can be on your way with our 
thanks, and if you felt rushed, we will call on you first just 
for any closing observations you want to make if you feel you 
need to do that when we get back.
    Ms. Blaney. Thank you, Congressman.
    [Recess]
    Mr. LaTourette. With permission from Mr. Moran's staff, we 
will take copious notes until he arrives. We are going to 
proceed, and I see Ms. Perry and Ms. Blaney accepted our 
invitation to leave even though they were having a great time.
    So Ms. Beetham--is it Beetham?
    Ms. Beetham. Yes.
    Mr. LaTourette. Okay. Thank you for being here and the 
floor is yours.
                              ----------                              --
--------

                                         Wednesday, March 21, 2012.

                         DEFENDERS OF WILDLIFE


                                WITNESS

MARY BETH BEETHAM
    Ms. Beetham. Thank you, sir.
    Mr. Chairman, Ranking Member, and members of the 
Subcommittee, thanks for the opportunity to testify. I am Mary 
Beth Beetham, Legislative Director with Defenders of Wildlife. 
Founded in 1947, Defenders has more than 1 million members and 
supporters, and we are dedicated to the conservation of wild 
animals and plants in their natural communities.
    Wildlife and its habitat are valuable national assets. Even 
in the face of dire fiscal realities, investments in the 
protection of wildlife and habitat are a wise choice for our 
Nation. Wildlife-related recreation is a $122 billion-per-year 
industry. Defenders opposes any further cuts to programs that 
conserve wildlife and habitat, and we were very pleased to see 
some modest but crucial increases in the President's budget, 
and we are hoping the Subcommittee will do its best to fund 
them.
    We support the following increases in their quest for the 
Fish and Wildlife Service budget: $4 million that will help to 
ensure siting of renewable energy projects in a way that 
prevents harm to species such as golden eagles, seabirds, bats, 
and desert tortoise; 5.4 million for a praiseworthy new 
cooperative recovery initiative to support more efficient 
efforts across landscapes to recover listed species on National 
Wildlife Refuges and surrounding lands. We also support the 
additional increases for the National Wildlife Refuge system 
that will go to baseline inventory and monitoring, challenge 
cost-share projects with partners and volunteers, and law 
enforcement.
    In addition, for endangered species we support the $1 
million increase for consultations on pesticides that includes 
the development of protocols to determine safe levels of 
exposure, the $1.6 million increase to support progress in 
listing more than 250 candidate species, many of which have 
awaited protection for years, and a $12.3 million increase for 
the Cooperative Endangered Species fund to provide assistance 
to States to protect listed species.
    The Environmental Contaminants Program has been flat since 
2001. We support the $1.3 million increase to help expedite and 
complete more restoration for natural resource damage cases. 
Defenders, however, was disappointed to see the elimination of 
the important Wolf Livestock Loss Demonstration Program. It 
helps livestock owners coexisting with wolves. We urge 
restoration of this funding.
    In the Forest Service request, we were concerned to see 
that the Administration has again proposed merging a number of 
accounts, including Wildlife and Fisheries Habitat Management 
into the Integrated Resource Restoration Account. Defenders 
supports continuing IRR as a 3-year pilot as directed by 
Congress in the final fiscal year 2012 bill, but the Agency 
must first demonstrate its ability to adequately protect fish 
and wildlife habitat in a consolidated program under the 
smaller pilot.
    In the Bureau of Land Management budget, we were extremely 
pleased with the $15 million increase that will go for 
comprehensive sage grouse conservation in 10 western States. 
And I have heard Chairman Simpson speak on several occasions 
about his concern about the sage grouse decline and a potential 
ESA listing, so we are hoping the Subcommittee will be able to 
fund this.
    In the BLM budget, we also support the $7.1 million 
increase for renewable energy that will help fund regional land 
use planning studies and environmental reviews that will help 
avoid areas with potential natural resource conflicts. Also in 
the BLM budget, we support the resource management planning 
increase, $4.7 million that is needed to help address 47 plans 
under revision and another 45 that need revision. This program 
has been cut by nearly 25 percent since fiscal year 2010.
    For the USGS, we support the $16.6 million increase for 
ecosystems that includes $1 million for research on white nose 
syndrome that is devastating bat populations and climate. And 
in climate and land use change, we support the $500,000 
increase for Climate Science Centers and the $6.5 million 
increase in science support for DOI Bureaus.
    Finally, Defenders supports the increase of $104.7 million 
for the Land and Water Conservation Fund. A portion of the LWCF 
total is for an Interior-Forest Service Collaborative Land 
Acquisition Program to protect strategic landscape-scale 
projects that at the same time meet core agency acquisition 
priorities. This innovative initiative will help to bring 
larger conservation benefits and build resilience across 
landscapes with scarce dollars.
    Again, thank you for the opportunity to testify.
    [The statement of Mary Beth Beetham follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. LaTourette. Thank you very much for your patience and 
your testimony.
    Mr. Brooks.
                              ----------                              

                                         Wednesday, March 21, 2012.

                         THE WILDERNESS SOCIETY


                                WITNESS

BRAD BROOKS
    Mr. Brooks. Thank you. My name is Brad Brooks and I work 
for the Wilderness Society in Boise, Idaho. I am here today to 
provide comments on behalf of my organization on the importance 
of investing in public lands, and I appreciate the opportunity 
to be here. So thank you and members of the committee.
    Even though he is not here, I also want to thank 
Congressman Simpson from my home state. This past year, I 
harvested a mule deer buck, as well as a bull elk in proposed 
Boulder-White Clouds Wilderness, which I believe I also see 
featured on the wall behind you. It is a place that is near and 
dear to both of us and it will hopefully someday get the 
protections it deserves. On that note, I appreciate the 
Congressman has done to protect Idaho's way of life.
    Investments in recreation in our public lands are important 
not only to me but to many of the people that live and work in 
the West. Nationally, over $1 trillion and 9.4 million jobs are 
contributed to the U.S. economy every year from outdoor 
recreation, resource conservation, and historic preservation. 
The funding programs that facilitate this economic engine are 
what I want to highlight for you today.
    The past 4 years I have worked in Idaho's Clear Water Basin 
as a member of the Clear Water Basin Collaborative, whose goal 
is to protect the economic and ecological health of the land, 
water, and communities within the basin. This is a group 
comprised of conservationists, timber companies, outdoor 
vehicle enthusiasts, travel representatives, and a wide array 
of public interests. In the past, the Clear Water Basin was 
ground zero for conflict over public lands management, but I am 
here to tell you those days are largely gone.
    We have been working together to meet our mutual interests 
and the federal funding for restoration as part of the 
Collaborative Forest Landscape Restoration Program has been a 
cornerstone of our collaborative work. Our 1.4 million acre 
Selway-Middle Fork project is project to cut up to 150 million 
more feet of timber, create 370 jobs--which is significant in 
rural Idaho--treat thousands of acres of noxious weeds, 
decommission unneeded roads, improve salmon spawning habitat, 
and improve big game winter range.
    This project will do a lot of good work and it would not be 
possible if the Collaborative Forest Landscape Restoration 
Program were not fully funded, as it was this past year and as 
it is proposed in the President's budget this year at $40 
million. I ask you to please continue fully funding this 
program that is simultaneously helping us in Idaho to both 
create jobs and restore the landscape. More importantly, it is 
helping us to move beyond the conflict that has defined public 
lands management for the past several decades.
    The Land and Water Conservation Fund has had an equally 
important role in preserving our recreation economy and way of 
life in Idaho. Outdoor recreation is a vital part of Idaho's 
economy with active outdoor recreation alone supporting over 
37,000 jobs and bringing in $154 million in tax revenue, which 
is significant to Idaho. Idaho's recreation economy is largely 
based in the natural amenities provided by our public lands and 
waters whether it is hunting for a bugling bull in the Boulder-
White Cloud Mountains, fly-fishing in the world-famous waters 
of the Henry's Fork of the Snake River, or mountain-biking in 
the world-class singletrack outside of Boise.
    People come to Idaho to experience these world-class 
recreation resources and LWCF has helped sustain and invest by 
providing access and protecting them for our children and our 
grandchildren to enjoy. We urge the Subcommittee to provide 
$450 million for the program in fiscal year 2013, which is half 
of the authorized amount deposited into LWCF each year.
    We also continue to support funding for the National 
Landscape Conservation System, such as Idaho's own Morley 
Nelson Snake River Birds of Prey area, which has the highest 
raptor nesting density in the United States.
    Lastly, Legacy Roads and Trails is a program that has 
contributed significantly to improving infrastructure, creating 
jobs, and providing clean drinking water in Idaho. This program 
has helped to repair or construct 40 bridges, as well as 
improving trail conditions on over 1,100 miles of trail and 
decommissioned several hundred miles of unneeded roads. Legacy 
Roads and Trails provides real dollars that are spent in 
physical, on-the-ground work. The money provides jobs for rural 
Idaho homes and heavy machine operators, jobs that are 
important in counties where unemployment hovers well above the 
national average. We ask that you fund Legacy Roads and Trails 
at $75 million.
    I have given you a snapshot of how several federal programs 
benefit my home State of Idaho, but you would hear the same 
story from anyone living in the West. The bottom line is that 
these programs serve as an investment in our public lands and 
our way of life that has a rate of return that can be measured 
for generations to come. These federal programs support jobs, 
communities, and the environment.
    Thank you for your time and appreciate you for being here 
today.
    [The statement of Brad Brooks follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. LaTourette. Well, thank you. And I will make certain I 
convey to Mr. Simpson your observations.
    Mr. Moran. He is quite an athlete, too. Did you read his 
bio?
    Mr. LaTourette. No. What does he do?
    Mr. Moran. Oh, he is a mountain climber. Were you not at 
the Olympic level or something? Tell us a little, just real 
quickly----
    Mr. Brooks. I do not want to kill any rumors that are 
circulating but I was not an Olympic athlete. I do serve on the 
Board of the American Alpine Club and have traveled the world 
climbing.
    Mr. LaTourette. What the heck are you reading?
    Mr. Moran. It was pretty impressive. Maybe it was just 
saying that he might have been up there, but it was pretty 
good.
    Mr. Brooks. And I also went to school on a soccer 
scholarship as well.
    Mr. LaTourette. Well, there you go. That must be it.
    I said your name was Knadle. Is that right or is that----
    Mr. Knadle. That is correct.
    Mr. LaTourette. All right. Well, then, Mr. Knadle.
                              ----------                              

                                         Wednesday, March 21, 2012.

                 NATIONAL FISH AND WILDLIFE FOUNDATION


                                WITNESS

GREG KNADLE
    Mr. Knadle. I am Greg Knadle, Vice President for Government 
Affairs, National Fish and Wildlife Foundation. It is very nice 
to be sitting on this side of the table as opposed to that side 
of the table where I used to sit.
    First of all, I want to say thank you to both you, Mr. 
LaTourette and Mr. Moran and your staff, on 2012, not just the 
Foundation's number but that bill in the end was very good 
considering where it started. And it took a lot of hard work on 
you guys' behalf and I appreciate that. And I think the 
community appreciates that more than you know.
    Mr. Moran. And especially Mike Simpson----
    Mr. Knadle. Absolutely.
    Mr. Moran [continuing]. You would not be the first man to 
say that but----
    Mr. Knadle. Absolutely.
    Mr. Moran [continuing]. Mike was terrific and, you know, we 
should thank him.
    Mr. Knadle. Absolutely. And Brad here mentioned some 
numbers from an economic study. That actually was a study that 
the National Fish and Wildlife Foundation commissioned. We took 
a very conservative look at the existing data on how outdoor 
recreation, conservation, and historic preservation, what their 
impact on the economy is. Very conservatively, the roughly $23 
billion of federal investments in those programs--most of which 
are in the Interior bill--produce a $1 trillion economy, 9.4 
million jobs, and more than $100 billion in federal, state, and 
local tax revenue of which 55 billion is federal revenue. 
Twenty-three billion investment, 55 billion return. That was 
the National Fish and Wildlife Foundation study. We are 
actually doing phase two of that study right now to fill in the 
gaps and have it be a more accurate, complete number. It is 
accurate; it just does not include everything.
    The Foundation hit a milestone this year. Over 27 years, we 
took $576 million in federal funds and we now hit $2 billion in 
on-the-ground conservation. We did it with less than 5 percent 
overhead to the government and fewer than 100 staff. So we 
consider that quite a milestone. We are here to request the 
President's request for our appropriation. That is $7.5 million 
in Fish and Wildlife Service, $3 million in Forest Service, and 
$3 million in BLM. That money is the seed money that allows us 
to go out and get corporate money, get private money, get 
additional state money and federal money, pull those together, 
get all the partners around the table, and put it on the ground 
for conservation.
    Last year, that appropriation of $13.5 million, we actually 
generated $130 million in conservation that we put out on the 
ground. That includes grantee match; that is everything. So I 
think that is quite a substantial return on investment.
    Now, I am glad both of you are here because we also enter 
into cooperative agreements with agencies, one of which is the 
EPA. One of our biggest partners is the Environmental 
Protection Agency, and two of the programs we run for them--one 
is in the Chesapeake Bay and it is the Nutrient Sediment 
Reduction Grants and Small Watershed Grants, $8 million and $2 
million respectively. At least that was last year's level. And 
then we run about $10 million in Great Lakes money to reduce 
invasive species, to improve water quality, et cetera. So we 
are really happy to be working with the EPA on those programs 
and we will continue to keep your staff up to date on the 
details and how that is going.
    Lastly, I just want to mention that our reauthorization 
bill has been introduced in the Senate. It is a bipartisan bill 
widely supported, noncontroversial. The only reason it has not 
been marked up yet is because it got bumped by the 
transportation bill in the Senate. We hope to be marked up in 
the near future, and when it gets over here to the House side, 
we hope for your support.
    Again, thank you for all you have done and we look forward 
to working with you.
    [The statement of Greg Knadle follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. LaTourette. Well, thank you very much to all of you for 
your testimony.
    And were you an Olympic athlete?
    Mr. Knadle. As you can tell, I am a world-class athlete.
    Mr. LaTourette. Just checking. And Mr. Brooks, you could do 
a lot to defend wildlife if you just got Boise State to change 
the color of their football fields so the birds did not----
    Mr. Brooks. I am working on it, Congressman.
    Mr. LaTourette. Thank you. I appreciate that very much.
    I did have just one thing for Ms. Beetham, the pesticide 
piece that you were talking about.
    Ms. Beetham. Um-hum.
    Mr. LaTourette. We had Administrator Jackson in here maybe 
a month ago and we got a big problem--thankfully, not in 
Cleveland--but in Ohio with bedbugs. We talked about where they 
are going to go with their pesticide rules and so forth and so 
on, but the anomaly to me is they have discretionary authority, 
if they choose, to regulate things that do not fall within the 
pesticide category. What we are finding is that all of these 
snake oil salesmen are popping up on the radio and they are 
saying if you buy this for 35 bucks, it is going to solve your 
bedbug problem and it does not do anything. I think it is a 
rip-off to the consumers. Down in Cincinnati, it was isopropyl 
alcohol and the apartment burned down, a whole family is out 
of--so anything you can do in your pesticide work with the 
Administrator and have her exercise her discretionary authority 
to protect consumers by the same time she is dealing with the 
protocols for pesticides would be greatly appreciated.
    Ms. Beetham. Okay.
    Mr. LaTourette. Thanks.
    Ms. Beetham. Thank you.
    Mr. LaTourette. Well, thank you very much.
    And Jim?
    Mr. Moran. I am all set for witnesses. Nice to see you 
again, Greg.
    Mr. LaTourette. Well, thanks for coming. Appreciate it.
    Our fourth panel this afternoon will be John Calvelli, who 
is with the Wildlife Conservation Society; Christy Plumer, who 
is with the Nature Conservancy; Reid----
    Mr. Haughey. Haughey.
    Mr. LaTourette [continuing]. Haughey. Thank you, Reid. Reid 
Haughey, the Wilderness Land Trust; Terra Rentz from the 
Wildlife Society; and Kevin Boling from the Land and Water 
Conservation Fund Coalition.
    Well, again, thank all of you for coming. The rules are the 
same, the lights are the same, and, again, we appreciate your 
patience while we went off and voted. But welcome, and we look 
forward to hearing from you.
    Mr. Calvelli, you are first.
                              ----------                              

                                         Wednesday, March 21, 2012.

                     WILDLIFE CONSERVATION SOCIETY 


                                WITNESS

JOHN F. CALVELLI
    Mr. Calvelli. Good afternoon, Mr. LaTourette and Ranking 
Member Moran. Thank you for the opportunity to testify again. 
My name is John Calvelli. I am the executive vice president of 
Public Affairs at the Wildlife Conservation Society. WCS was 
founded in 1895 through the efforts of Teddy Roosevelt with the 
mission of saving wildlife and wild places across the globe. 
Today, WCS manages the largest network of urban wildlife parks 
in the United States led by our flagship, the Bronx Zoo. And 
our fieldwork helps address threats to over 25 percent of the 
Earth's biodiversity in more than 60 countries around the 
world.
    WCS requests maintain fiscal year 2012 levels for the 
Forest Service International Program and supports the 
President's fiscal year 2013 request for Fish and Wildlife 
Service's Multinational Species Conservation Fund. Today, I 
would like to share stories about the U.S. investment in global 
conservation through these programs, specifically, help improve 
governance and conserve our planet's natural wealth.
    We are experiencing a crisis. The illegal trade in wildlife 
and timber is booming across Africa and Asia. Criminalized 
syndicates often also trading in narcotics and weapons are 
systematically capturing and killing wildlife to sell on the 
black market. CRS estimates that illegal wildlife trade is 
valued at approximately $20 billion a year, making it the 
third-largest illegal trade globally. This industry is fueled 
by demand from countries like China and the United States for 
exotic pets and goods such as bushmeat, ivory, pelts, and 
traditional medicines. And now with the internet, the illegal 
trade in wildlife and plant products can reach more buyers than 
ever before. Two U.S. agencies are combating these illicit 
activities: the Fish and Wildlife Service and the Forest 
Service International Program.
    In Sumatra, about 50 tigers were killed each year between 
1998 and 2002 to benefit illegal trade in East Asia. The number 
is significant as around 400 Sumatran tigers remain in the 
wild. In Chad, elephants of Zakouma National Park went from 
3,800 to 542. This 86 percent reduction was due to killing at 
the hands of organized poaching groups of Chadian origin. That 
killing trend has been halted by the creation of African parks 
and WCS' work over the past 2 years. Unfortunately, there is a 
similar crisis underway currently in Cameroon.
    This is not just the case with wildlife. Illegal timber 
trade is directly impacting American economic interests. For 
example, industry reports estimate that U.S. roundwood, sawn 
wood, and panel exports could increase by approximately $460 
million each year if illegal logging was eliminated.
    Despite these alarming examples, all hope is not lost. With 
support from the Fish and Wildlife Service and the Forest 
Service International Programs, WCS' work with local 
governments to build capacity and to improve governance in 
order to combat the illegal wildlife trade.
    I will give one example. In 2010, I visited Zambia's 
Luangwa Valley where WCS helped establish community markets for 
conservation, or COMACO, to combat extreme impacts of poaching 
and food insecurity. The purpose of COMACO is simple. By 
providing families with alternative sustainable livelihoods, 
poaching will be significantly reduced and wildlife will be 
preserved. COMACO now supports 47,000 farming families, many of 
whom have seen their annual income more than double. The sale 
of COMACO, its wild organic brand of food products developed 
with the assistance of General Mills, has injected more than 
$1.3 million into the rural economy, and surveys indicate that 
30 percent of wildlife species have significantly increased the 
number with others stable or showing a positive trend. This 
effort began with a small grant from the African Elephant 
Conservation Fund, one of the Multinational Species 
Conservation Funds.
    More than 100 years ago, President Teddy Roosevelt 
understood the importance of preserving and protecting our 
natural heritage for future generations. He also realized this 
required the United States to lead this effort globally to 
ensure success. We look forward to working with you and all of 
our partners in government to ensure that our Nation continues 
to be a global leader in conservation.
    Thank you for the opportunity to testify.
    [The statement of John Calvelli follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. LaTourette. Thank you very much for your testimony. We 
appreciate it.
    And Plummer or Plumer?
    Ms. Plumer. Plumer.
    Mr. LaTourette. Plumer, okay. Got it. Thank you for being 
here. You are up.
                              ----------                              

                                         Wednesday, March 21, 2012.

                     THE NATURE CONSERVANCY FISCAL 


                                WITNESS

CHRISTY PLUMER
    Ms. Plumer. Thank you. My name is Christy Plumer. I am the 
director of Federal Land Programs for the Nature Conservancy. 
Thank you for this opportunity to testify on the Nature 
Conservancy's recommendations for the fiscal year 2013 House 
Interior, Environment, and Related Agencies Appropriations 
Bill.
    The Nature Conservancy is an international nonprofit 
conservation organization working around the world to protect 
ecologically important lands and waters for nature and people. 
As we enter the fiscal year 2013 budget cycle and another year 
of this challenging physical environment, the Conservancy 
continues to recognize the need for fiscal austerity. The 
Conservancy wishes to thank the Subcommittee for the final 
fiscal year 2012 Consolidated Appropriations Act funding levels 
for the Department of Interior and U.S. Forest Service 
conservation programs.
    As the Subcommittee begins to tackle another difficult 
budget cycle, the Conservancy stresses our concerns that 
wildlife and land conservation programs should not shoulder a 
disproportionate share of cuts in this budget. Our budget 
recommendations this year do not exceed the President's budget 
request except for a few instances where we recommend fiscal 
year 2012 funding levels.
    Additionally, as a science-based and business-oriented 
organization, we believe strongly that the budget levels we 
support represent a prudent investment in our country's future 
based upon the tangible economic and society benefits natural 
resources provide to the American people.
    The Conservancy supports the President's fiscal year 2013 
budget request of $450 million for the Land and Water 
Conservation Fund with the aim of continuing to work toward 
full funding for this program. The President's America's Great 
Outdoors Initiative is the prominent focus in this annual LWCF 
budget and it includes several top-priority landscapes, 
including the Rocky Mountain Front/Crown of the Continent 
Conservation Area in Montana, Wyoming, and Idaho, as well as 
the Longleaf Pine Conservation Area in Florida, Georgia, and 
South Carolina.
    This year, the Conservancy is specifically supporting 18 
biologically rich LWCF project areas at a total of $94 million. 
The Conservancy is supporting $60 million for the Forest Legacy 
Program and the important partnership this program represents 
with the States to support public recreational access for 
hunting and fishing, to protect wildlife habitat for working 
forests, and to enhance outdoor experiences. The Conservancy 
enthusiastically supports $60 million for the Cooperative 
Endangered Species Conservation Fund. The Conservancy and its 
partners have used the Habitat Conservation Plan and Recovery 
Land Acquisition Programs to conserve key habitats for numerous 
threatened, endangered, and at-risk species to help avoid 
conflicts of ESA issues.
    The Conservancy appreciates the Subcommittee's ongoing 
commitment to both the USGS-led Climate Science Centers, as 
well as the Department of Interior's Landscape Conservation 
Cooperatives, and efforts to ensure integration and 
coordination of these initiatives with existing efforts such as 
the Joint Ventures and the National Fish Habitat Partnerships. 
The Conservancy supports the Cooperative Alliance for Refuge 
Enhancement Coalition's request of $495 million for the Refuge 
System O&M. We also appreciate the Subcommittee's support for 
Collaborative Forest Landscape Restoration Program and 
demonstration of collaboratively developed forest restoration 
plans at a large scale. We recommend fiscal year 2012 funding 
be sustained for this program with $40 million to restore large 
forest landscapes.
    We also appreciate the Subcommittee's ongoing support for 
the Hazardous Fuels Reduction Program to remove overgrown brush 
and trees through a variety of methods leaving the forest in a 
more natural condition that is resilient to wildfires. We 
believe it is essential to keep at least level funding for this 
program.
    The Conservancy also strongly endorses sustainable funding 
levels for cooperative programs such as the State and Tribal 
Wildlife Assistance Program, NAWCA, Joint Ventures, 
Multinational Species, and other programs such as Partners for 
Fish and Wildlife and the National Fish Habitat Initiative. We 
look forward to working with you, Mr. LaTourette, Mr. Moran, 
and members of the subcommittee and full committee as you 
address the ongoing needs for conservation investments to 
sustain our Nation's heritage of natural resources. Thank you.
    [The statement of Christy Plumer follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. LaTourette. Thank you very much for your time and 
testimony.
    Mr. Haughey, we are ready for you.
                              ----------                              

                                         Wednesday, March 21, 2012.

                         WILDERNESS LAND TRUST


                                WITNESS

REID HAUGHEY
    Mr. Haughey. Thank you. Mr. LaTourette, Mr. Moran, thank 
you for the opportunity to speak with you today. My name is 
Reid Haughey. I have the privilege of serving as the president 
of the Wilderness Land Trust. We are a small, focused non-
profit. We work cooperatively with landowners who have property 
within designated and proposed wilderness areas to acquire 
their lands and make them part of the wilderness that surrounds 
them.
    I am here in front of you today to thank you for your 
longstanding support for the in-holding accounts within the 
Land and Water Conservation Fund and specifically for the 
support last year in 2012 for those accounts and then to ask 
for that support yet again in this upcoming year.
    We believe that an appropriation of between 3 and 5 million 
to each of the land management agencies within the Land and 
Water Conservation Fund will enable them to acquire the high 
priority wilderness in-holdings that are within the system from 
willing sellers when they become available. We are not asking 
Congress to undertake a new program, but we are asking that the 
support be there to continue to complete the wildernesses that 
have already been designated.
    The fiscal year 2013 President's budget request does not 
include in-holding funding for the Forest Service. There is a 
new recreational access program that has been proposed. We are 
not here to comment on the merits of that program. It should be 
considered and funded as is appropriate, but we do not believe 
that it should be an either-or situation where in-holding 
accounts are cut in favor of that program. The in-holding 
accounts have a 50-year track record of success of completing 
projects that Congress has already undertaken through 
designation, treating landowners fairly and appropriately and 
furthering the mission of the wildernesses that have been 
preserved.
    The consistent funding for the in-holding accounts is 
vital. Our experience has been over our 20-year history of work 
is that these properties become available about once a 
generation. So a large program is not called for but a small 
program that is consistently there is very important to be able 
to accomplish the mission that it was trying to do.
    Since last year, when we came and spoke to the Committee, 
we have transferred a total of nine properties into federal 
ownership, and of those properties that were paid for out of 
the in-holding accounts, the average price of those properties 
was just under $77,000 a piece. These are small properties but 
they are vital to the lands that surround them. They are so 
vital to the lands that surround them that many of the 
constituents who support these properties in that same year 
donated $3,500,000 worth of property in support of the program.
    There is much more work to be done. There are roughly 
400,000 acres of in-holdings within the designated wilderness 
across the United States. We need to keep this small program in 
place so that we can continue to work on that, continue to 
treat the landowners who own land within wilderness areas 
respectfully and meet their wishes and the promises that they 
were made that the Federal Government would be willing to buy 
the property when the time came for them to sell.
    So in this upcoming year, the number of in-holders in a 
number of different States have approached us about acquiring 
their lands, and we hope to be back before you next year with 
stories of what funding was able to accomplish.
    I appreciate your support and time.
    [The statement of Reid Haughey follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. LaTourette. Listen, we appreciate your testimony and 
your patience.
    And Ms. Rentz, we are with you.
                              ----------                              

                                         Wednesday, March 21, 2012.

                          THE WILDLIFE SOCIETY


                                WITNESS

TERRA RENTZ
    Ms. Rentz. Excellent, thank you. Well, good afternoon. I 
really appreciate the opportunity to testify here before you 
today. My name is Terra Rentz. I am the assistant director of 
Government Affairs for the Wildlife Society.
    The Wildlife Society represents 11,000 professional 
wildlife biologists and managers across the U.S. and Canada who 
are dedicated to an excellence in wildlife stewardship through 
science and education, and I just want to talk to you briefly 
today about the Society's priorities for fiscal year 2013 and 
then refer you to my written testimony for a more detailed 
discussion.
    While the Wildlife Society fully understands the limits of 
the current fiscal situation, I am sure as you all also agree, 
we feel that Congress has the responsibility to serve as 
stewards of our Nation's wildlife and natural resources and to 
ensure that the investments of our previous generation's for 
wildlife conservation are not squandered.
    Our land and natural resource management agencies have 
built a strong foundation of responsible science-based wildlife 
management and conservation over the past century, and they 
need the resources necessary to sustain this work, particularly 
with increasing threats for invasive species, urban sprawl, and 
a changing climate. Within the U.S. Fish and Wildlife Service, 
the State and Tribal Wildlife Grants Program, which I know you 
are all very familiar with, is one of these key programs. It is 
the only federal program that supports States in preventing 
wildlife from becoming endangered, and it is also one of the 
primary programs supporting the implementation of the 
comprehensive wildlife conservation strategies or, as you know 
them, State Wildlife Action Plans. The Society recommends that 
Congress appropriate $70 million for the State and Tribal 
Wildlife Grants Program for 2013 and also support the 
continuation of a reduction in the nonfederal match 
requirements from 50 percent to 35 percent.
    The National Wildlife Refuge System provides an invaluable 
network of lands for wildlife conservation, and many years of 
stagnant budgets have increased the operations and maintenance 
backlog for the system. Refuge visitors often show up and find 
visitor centers closed, hiking trails in disrepair, and habitat 
restoration programs eliminated. The need for the Wildlife 
Refuge System is well over $900 million, but as a member of 
CARE this year, the Cooperative Alliance for Refuge 
Enhancement, we recommend that Congress provide $495 million 
for the operations and maintenance of the National Wildlife 
Refuge System.
    The Bureau of Land Management lands support over 3,000 
wildlife species and more than 300 listed and proposed listed 
species and more than 1,300 sensitive plant species. However, 
the BLM currently only has one biologist for every 591,000 
acres of land, and with rising costs for threatened and 
endangered species management continue to rise, this is an 
increasing concern. In addition, the Wildlife and Threatened 
and Endangered Species Management Programs have been forced to 
pay for the compliance activities of BLM's grazing, energy, and 
non-wildlife-related programs, eroding the ability to conduct 
proactive conservation activities on their lands. Given the 
underfunding of BLM's wildlife programs combined with the 
tremendous expansion of energy development across their lands, 
we recommend an appropriation of $55 million for BLM's Wildlife 
Management Program.
    The Society appreciates the commitment of the BLM for 
addressing the problems associated with wild horse and burro 
management, and it is on this point that we would actually have 
to disagree with our colleagues at SPCA and AWI earlier today. 
This year, the President requested an increase of $2 million 
for research and development of contraception and population 
control. However, we at the Society are concerned about the 
BLM's emphasis on fertility control and do not support the 
addition of no-kill language in that bill. Horse are already 
above appropriate management levels, which is a term set by the 
BLM in most areas and have been that way for many, many years. 
And we believe that additional funding should be requested to 
correct the habitat damage that has occurred due to 
overpopulation of these animals. The requested $77 million for 
BLM should be provided if they continue removing excess horses 
from the range at a reasonable rate and if they focus 
additional resources on habitat restoration.
    Within the U.S. Geological Survey, the Cooperative Fish and 
Wildlife Research Units provide technical assistance and 
consultation on natural resource issues, participate in 
education of graduate students, and provide continuing 
education for natural resource professionals. In fiscal year 
2001, Congress fully funded these units allowing productivity 
to rise to record levels. Since then, though, budgetary 
shortfalls have resulted in current staffing vacancies of 
nearly one-quarter the professional workforce. To fill these 
vacancies and restore seriously eroded operational funds and 
enhance national program coordination, $22 million should be 
appropriated for the Cooperative Fish and Wildlife Research 
Units.
    The Society appreciates the funding of $25.5 million fiscal 
year 2012 for the National Climate Change and Wildlife Science 
Centers. As these centers play a pivotal role in addressing the 
impacts of climate change on fish and wildlife by providing 
essential scientific support, and we recommend that Congress 
fund the centers at the requested $26.2 million.
    And finally, in fiscal year 2011, the Forest Service 
combined several programs and budgets, including vegetation and 
watershed management, wildlife and fisheries habitat 
management, and forest products into a single integrated 
resource restoration activity budget. Our national forest and 
grasslands are essential to the conservation of our Nation's 
wildlife and habitat and as such, much like our colleagues at 
Defenders, we are concerned with this merger because it makes 
accountability to stakeholders and to Congress more difficult. 
However, with these reservations noted, we urge Congress to 
support the request of $793 million for the Integrated Research 
Restoration Program.
    And with that, I want to thank you for considering the 
recommendations of wildlife professionals and we at the Society 
are happy to provide you with any assistance.
    [The statement of Terra Rentz follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. LaTourette. Well, thank you very much for your 
testimony. And I know we would eventually get conflict 
between----
    Ms. Rentz. It is interesting.
    Mr. LaTourette. Yeah, it was the Wild Horse and Burro 
issue.
    Mr. Boling, Land and Water Conservation Coalition, thank 
you for being here.
                              ----------                              --
--------

                                         Wednesday, March 21, 2012.

                             LWCF COALITION


                                WITNESS

KEVIN BOLING
    Mr. Boling. Thank you, Mr. LaTourette and Ranking Member 
Moran. I am Kevin Boling. I am a resident of Coeur d'Alene, 
Idaho, and I am pleased to appear here today on behalf of the 
Land and Water Conservation Fund in support of the $450 million 
Land and Water Conservation Fund budget proposed by the 
Administration for fiscal year 2013. The Coalition represents a 
broad array of groups across the Nation from the Trust for 
Public Land to the Nature Conservancy, ones you are familiar 
with to ones you may not be so familiar with like the Alaska 
Dirt Divas. But in all seriousness, the Coalition is large and 
diverse and it brings together people from all walks of life 
committed to conserving the Nation's natural resource heritage. 
I want to spend my time today talking to you about my personal 
experiences with the Forest Legacy Program and the acquisition 
of public access and in-holdings for the national monuments.
    Just a little bit of background about me. I spent summers 
with my grandfather on his Cat logging, decided that would be a 
good way for me to make a living, got a degree in forestry from 
the University of Idaho in 1974, spent the next three-and-a-
half decades managing major landowner properties in Idaho from 
logging manufacturing, saw wood manufacturing and public 
affairs, and in the last 5 years, closed approximately $90 
million worth of land sales and conservation easements.
    So I come here from a private sector perspective. And I 
have seen how Land and Water Conservation funding works to 
maintain privately owned working forests in these important 
small, rural communities. And I have worked with funds that 
this Committee has provided to create several conservation 
easements in North Idaho advantaged to put grizzly bears and 
working forest together and managed to preserve travel 
corridors between important ecosystems. And I have seen how 
important it is for the acquisition of properties that have 
been in effect captured by the creation of the national 
monument.
    McArthur Lake is located about halfway between Bonners 
Ferry and Sandpoint. It happens to be a critical link between 
two major ecosystems--one, the Bitterroot ecosystem from 
Montana with the Idaho Selkirk ecosystem on the west. This 
corridor has been subjected to a phenomenal amount of 
residential development over the last 20 to 25 years, except 
for the private forestland that remains in the center of this 
corridor. And the Forest Legacy Program Land and Water 
Conservation Fund allows the working forest in that corridor to 
in effect extinguish their development rights and continue to 
focus on managing those forests going forward for the taxes 
they provide, for the logs and jobs they provide, and managed 
by a private--not a public--agency, which we think is a good 
thing.
    The reason why these funds are important to continue this 
work is that a private owner sitting across the table from a 
public agency in terms of the negotiations takes several years 
and a phenomenal amount of human capital and company capital to 
make it happen, and it is important that if you enter into 
those negotiations, at the end of it you are dealing with a 
partner that can close the deal. And in the event that that 
funding disappears or is diminished, these opportunities are 
going to diminish and go away as well, because even in these 
tough economic times, many of these properties are still worth 
more with a home on them or a subdivision development than a 
forest investor can see their way to manage over the long term 
for that same property.
    So I personally believe it is an important expenditure of 
federal funds that in effect extinguishes the development 
rights and allows these lands to continue to be managed for 
forestry, working farms, working ranches.
    In other cases, outright fee purchase is the only option, 
and I understand that you, Mr. LaTourette and Ranking Member 
Moran, have had experience in the Cuyahoga National Forest and 
the Rappahannock National Refuge where that kind of opportunity 
was used where you have private lands captured within a 
national purpose. Frequently, the private lands and the 
national purpose lands are at odds with one another in terms of 
their eventual goals and it only seems right that a willing 
seller/private owner would have the opportunity to take that 
value of that property and invest it somewhere else.
    Finally, the Coalition understands the severe financial 
constraints under which you are operating. They also believe 
that America simply cannot afford to lose the private sector 
activity this program helps inject into the economy and the 
recreational opportunities it provides. And in closing, I would 
like to thank you for your dedication and service and ask that 
you support the $450 million appropriation.
    [The statement of Kevin Boling follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. LaTourette. Thank you very much. I will make sure that 
I mention to Chairman Simpson your observations.
    Just on Land and Water Conservation, I know that all of you 
know and the Senate marking the transportation bill they 
actually do $700 million, which is nice. If we ever do a 
transportation bill in the House, I have an amendment to double 
it to $600 million and it just sort of makes sense that the 
royalties and fees from drilling and exploration be utilized. 
It is already authorized to the tune of $900 million, and we 
should get it as high as we can.
    I would say, you know, a couple of you mentioned willing 
seller. And one of the hurdles that I and others have faced as 
we approach this is that it is not a Republican-Democrat thing; 
it is an East-West thing. The chairman of the Natural Resources 
Committee in particular, I mean he sees it as, the government 
is just out there looking around to snatch land from unwilling 
sellers. My biggest experience has been with the Trust for 
Public Land on the Cuyahoga Valley National Park and I would 
encourage you all to work with everybody to come up with the 
best willing seller language that eliminates that argument. And 
so anyway, that will help us move forward.
    And lastly, I am going to bite. What are the Alaskan Dirt 
Devils? Divas, excuse me. What might those be?
    Mr. Boling. It is a small group of folks near Anchorage, 
Alaska, who enjoy using outdoors for mountain biking, I 
believe.
    Mr. LaTourette. Okay. Great. I will Google them when we are 
done with the hearing.
    And Mr. Moran, have you got anything? Okay. Well, thank you 
all very much for your testimony. I appreciate it.
    Our last panel on this public witness day is going to be 
comprised of Ms. Sorenson-Groves of the National Wildlife 
Refuge Association, Mr. Chandler of the Marine Conservation 
Institute, Mr. Christensen of the Friends of Deer Flat Wildlife 
Refuge, Ms. Patterson from the Friends of the Potomac River 
Refuge, and Mr. Paddock from the Friends of Refuge Headwaters.
    Okay, same rules, same lights apply. And Ms. Sorenson-
Groves, welcome and we are anxious to hear from you.
                              ----------                              

                                         Wednesday, March 21, 2012.

                 NATIONAL WILDLIFE REFUGE ASSOCIATION 


                                WITNESS

DESIREE SORENSON-GROVES
    Ms. Sorenson-Groves. Thank you. And just for the record, we 
like the LWCF request but we are a little happier with the 
transportation, you know, number, too.
    But my name is Desiree Sorenson-Groves. I am with the 
National Wildlife Refuge Association, and I am speaking on 
behalf of our organization and over 190 refuge affiliate groups 
just like the other ones here on this fantastic refuge panel. 
Thank you so much for having this and having these friends 
appear. I mean I can talk about national issues and I can give 
you a big picture, but these folks who came here on their own 
dime can talk about what is happening on the ground in ways 
that I just cannot. I visit refuges but they know firsthand 
what is going on on the ground.
    So the Refuge Association, Friends Group, and the CARE 
group--you heard from a few of our partner organizations in the 
CARE group--sportsmen and conservation groups, we all agree 
that the refuge system--we hope that you will fund it at $495 
million for fiscal year 2013. And that represents just what is 
needed to maintain management capabilities, which is what we 
call it, simply what they are doing right now. And that is the 
minimum needed because we take into account the salary freeze. 
And to get these groups to all agree on something, as you might 
imagine, can be a little daunting, but we do.
    But we are all particularly concerned about what might 
happen to the refuge system should sequestration happen or a 
very large funding cut. So I am going to talk a little bit 
about what a 9 to 10 percent cut would do to the refuge system. 
We estimate a loss of about 500 positions, and of those, 300 
would be visitors' services staff. This is particularly 
concerning because these are the people who oversee friends and 
volunteers. And without the staff to oversee the volunteers, 
then you lose all that work and effort. And that is really 
important because friends and volunteers do 20 percent of the 
work on National Wildlife Refuges. To lose that is enormous, 
but that is one of the things that is on the table. We have 
talked to Fish and Wildlife Service and that is something that 
would be a realistic impact from a 10 percent cut. They would 
have to look at something like that.
    We also estimate that many refuges would have to simply 
close. That means no staff, no access, only an occasional visit 
by a law enforcement officer. Those would be probably small 
refuges, those with three to four staff, something like Mason 
Neck, perhaps. And then it would be refuges that use a lot of 
money to run them, so something like Midway out in the Pacific 
which costs an enormous amount to run.
    We are also concerned that the system could at least have 
some impacts to law enforcement officers, but, you know, even a 
loss of one officer could have a huge impact. An independent 
review in 2005 recommended a force of 845 full-time law 
enforcement officers, but the system has only about a quarter 
of that right now. And since that report, the system has grown 
by 50 million acres with the addition of the Pacific monuments 
by President Bush and visitation has grown by 15 percent.
    Another crucial program that could be severely impacted by 
cuts is the refuge system's fire budget. Over 50 percent of the 
lands in the system are actually fire-adapted ecosystems, which 
means that prescribed fire as a management tool is not just 
important; it is essential, so essential in fact that if funds 
from the Department of Interior's Hazardous Fuel Reduction 
Program are reduced as proposed in the President's budget, it 
would have dire consequences. Prescribed fire is one of the 
most effective habitat management tools for game species like 
elk and deer in the West, but also for endangered species like 
the Florida panther in the East. And prescribed fires reduce 
catastrophic wildfires which threaten people's lives and 
property.
    And last, I would like to talk briefly about an aspect of 
the refuge system's budget, which they actually have no control 
over but has severe impacts to their operations. From fiscal 
year 2005 to 2011, the refuge system sustained about a little 
under $700 million worth of damages from natural disasters. So 
tornados, fires, hurricane, flooding, a tsunami, you know, the 
earthquake here on the East Coast last year--damages just last 
year were $200 million but they have only received about $250 
million to address those so the rest has gone to the backlog.
    As you heard from Mr. Knadle earlier, refuges are economic 
engines and they are a good investment. According to a recent 
report by the Southwick Associates, refuges annually generate 
more than $32 billion in ecosystem services and $4.2 billion in 
economic activity. That means for every $1 that you appropriate 
to run the refuge system, $8 is returned in economic activity, 
$65 for ecosystems services. So it is a very good value.
    I hope that you will think about our request and do the 
best you can. I hope that you all visit a National Wildlife 
Refuge soon and, well, I guess none of us were invited to go 
down with James Cameron to the Marianas Trench, which is where 
he is, National Wildlife Refuge right now, but maybe we will 
all get to see the fruits of his labor in a new movie, perhaps 
the Abyss II.
    [The statement of Desiree Sorenson-Groves follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. LaTourette. Maybe. Well, thank you very much. And that 
necklace is beautiful by the way.
    Ms. Sorenson-Groves. Thank you. You know, I was hoping that 
Ms. Lummis might be here----
    Mr. LaTourette. Yeah, sure. Sure.
    Ms. Sorenson-Groves. Yes, because we have jewelry.
    Mr. LaTourette. I am actually glad my wife is not here 
because it would set me back a little bit. Thank you very much.
    Mr. Chandler, thank you. Welcome.
                              ----------                              

                                         Wednesday, March 21, 2012.

                     MARINE CONSERVATION INSTITUTE 


                                WITNESS

WILLIAM CHANDLER
    Mr. Chandler. Thank you, sir. Members of the committee, my 
name is Bill Chandler; I am vice president for Government 
Relations with Marine Conservation Institute, a nonprofit 
organization based in Bellevue, Washington. We are also a 
member of the CARE Alliance. I think this is sort of a CARE 
party today. We do support the President's request for $495 
million for the refuges operations and maintenance and we are 
especially interested in the marine monuments that President 
George W. Bush created in 2006 and 2009. These monuments 
included 12 National Wildlife Refuges, more than 20 coral 
islands and atolls and large areas of the oceans scattered 
across the Pacific. Together, they protect some of the most 
pristine coral reef ecosystems in the world and they are truly 
treasures that merit their status in the National Wildlife 
Refuge system.
    If I might, Mr. Chairman, I would like to share a map with 
you all to give you a little orientation about the vast area 
where the Fish and Wildlife Service must operate. This map 
indicates why managing the monuments is both challenging and 
expensive. The only way to move people and goods in this region 
is via ship or plane, and as you know, those are not cheap. But 
nevertheless, the Fish and Wildlife Service has to manage these 
places.
    Furthermore, although the monuments make up one-third of 
the refuge system in terms of area, they receive approximately 
$6 million a year right now out of the refuge budget. That is 
roughly 1.5 percent. Now, in the best of all possible worlds, 
we would love to see the budget for the monuments enhanced. In 
fact, we think it could use another $3.5 million allocated out 
of the request. And I know that there is probably going to be 
lots of requests from other people to try to squeeze that $495 
million in various ways. But I would like to point out that if 
we could bring the spending of the monuments to about $9.5 
million, there is a good rationale to do this.
    First of all, they get about $5.5 million now that is 
allocated to managing Papahanaumokuakea, which was the first 
monument established by Bush in the Northwestern Hawaiian 
Islands. Most of that covers the Fish and Wildlife Service's 
share of operating the Midway Airfield, which they are required 
by statute to do. The remainder pays for fuel, salaries, 
transportation of people and supplies, and so forth.
    In talking with the Fish and Wildlife Service, the estimate 
to maintain current capabilities at Midway and deal with the 
increased fuel costs, contract costs, staff salaries, and so 
forth that the Fish and Wildlife Service is facing, they really 
need a total of $7.4 million just to manage the Midway 
situation. We believe this $1.9 million gap should be closed. I 
should point out that the Midway Airport, of course, is the 
only safe harbor for a plane crossing the Pacific and that is 
why it is required to be maintained in an open situation. They 
could also use another $600,000 for a couple of staff people 
out there to actually do natural resource management work.
    Moving now to the three latest monuments established by the 
President, these in my opinion are severely underfunded and we 
think they could use an additional million dollars above their 
current budget. I should point out that the Fish and Wildlife 
Service has already missed its deadline for having these 
monument plans finished. They were supposed to have that done 
in 2011. They are not even close to getting those done, and one 
of the reasons is they just do not have the staff. So that 
million dollars would cover things like a manager for the 
Marianas Trench National Monument--they have never had one as 
yet--and also one for the remote Pacific islands. A manager has 
been put at Rose Atoll, but the other two have been vacant 
since the monuments were created.
    They also need a public planner to help get those plans 
done. They have got the usual costs of administration and 
travel. They have got a serious problem with eradicating 
endangered species to trespassers introduced to some of these 
islands without the Fish and Wildlife Service knowing it 
because there are no people on some of these places. So we have 
a law enforcement issue here that we are working with the 
Service, the Coast Guard, and NOAA to try to solve.
    That money would also pay for a cost assessment of the two 
wrecked vessels that we have mentioned to the Subcommittee 
before. They are lying on two of the islands. And it would help 
issue more scientific permits such as that requested by Mr. 
Cameron to do his dive. Right now, they only have enough time, 
money, and staff to put out about three research permits a year 
for each monument. They would like to increase that 
significantly because they are getting a lot of requests for 
scientific research and they have to vet those very carefully.
    So in summary, without additional funds, the Fish and 
Wildlife Service will not be able to meet its full operational 
requirements at Midway and that could cause some of the 
visitation out there to stop. Biological surveys and dealing 
with invasive species would be cut back significantly. The 
scientific exploration mandate would not be met. And the law 
enforcement efforts out there are going to remain spotty and 
nonexistent at some of the islands.
    So I thank you for your time, gentlemen, and I will be 
happy to answer any questions you may have, and we look forward 
to working with the Subcommittee. I go out to Hawaii quite a 
bit to find out what is going on at these places and I might 
have some information that would be useful to you.
    [The statement of William Chandler follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. LaTourette. That would be great.
    Mr. Chandler. Thank you.
    Mr. Moran. I am supposed to meet somebody at my office
    Mr. LaTourette. Sure.
    Mr. Moran [continuing]. At 4:00. I wonder if we could hear 
from John next if you do not mind.
    Mr. LaTourette. Do whatever you want. I just want to ask 
Mr. Christensen, is Deer Flat either in Idaho, Washington, or 
Virginia? I am developing a theme here. But with your 
understanding, Mr. Christensen, we will skip over you for a 
second and we will get to Joan Patterson to accommodate Mr. 
Moran's schedule.
    So welcome.
                              ----------                              --
--------

                                         Wednesday, March 21, 2012.

                 FRIENDS OF THE POTOMAC RIVER REFUGES 


                                WITNESS

JOAN PATTERSON
    Ms. Patterson. Good afternoon, Mr. LaTourette and Mr. 
Moran. My name is Joan Patterson and I am speaking on behalf of 
the Friends of the Potomac River Refuges and its 136 members. 
But perhaps more importantly, I am here speaking to you as a 
mother. I would like to share with you how important the 
National Wildlife Refuge System is to communities, families, 
and individuals, and how involvement in our Nation's effort to 
conserve our wildlife heritage can change lives and foster 
citizenship.
    I have been a volunteer and a Friends member on National 
Wildlife Refuges since 1995. Back then, my husband and I were 
living near Portland, Oregon, in a small community where a 
refuge had recently been established. At the time, we were 
anxiously awaiting an adoption assignment and I got involved in 
the Friends of the Tualatin River National Wildlife Refuge to 
keep from going crazy. My involvement in the refuge system 
began in Oregon but my commitment to it began in China.
    A few months after joining the Friends, we finally got 
approval from the U.S. and Chinese Government to adopt. Shortly 
thereafter, I stood along the Pearl River in Guangzhou with my 
baby girl in my arms and I was wondering if it was fair to take 
her away from this rich cultural heritage. What would life in 
America offer her? Standing there I could feel the smog in the 
city and I saw the river polluted and it was bubbling. And it 
struck me that what we could offer her was a culture rich in 
wildlife with incredible landscapes, clean air and water.
    Since that moment, Maggie and her younger sister have 
explored the wonders of refuges in Oregon and Northern 
Virginia. They have had the chance to observe and investigate 
many ecological concepts that most urban youth only read about. 
They have learned how their daily decisions impact habitats and 
their communities. They have come to Capitol Hill to advocate 
for refuge system needs. They are becoming good citizens. 
Maggie was in this building just last month speaking up for 
online education.
    Every child should have these same opportunities. We need 
to tap into resources at refuges to educate the next generation 
and foster civic responsibility. The Potomac River Refuges in 
Northern Virginia lack the resources to provide a robust 
education and volunteer program. In 2006, budget cuts suspended 
most of the biological programs and curtailed maintenance. The 
one full-time staff member who is responsible for visitor 
programs now must dedicate most of his time to managing the 
resources. We are that subsequent funding increases stopped the 
bleeding. However, if sequestration occurs, we expect all 
visitor services programs to be eliminated. And two of the 
three refuges in this complex could be closed. If this happens, 
the over a quarter of a million public school students in our 
area might never have the chance to connect with nature and 
further their development of civic skills.
    While volunteers can supplement some of these losses, they 
cannot do it all. Refuges need staffing and facilities to 
recruit and train volunteers. Friends groups and volunteers 
contribute nearly 20 percent of all the work hours on refuges. 
At Potomac, volunteers are picking up trash--we are doing it 
Saturday and you are welcome to join us--mowing, conducting 
outreach programs, and other things. Can we do more? Yes. But 
without staff to oversee and interact with volunteers, projects 
go undone. Volunteer retention is also difficult. Keeping these 
refuges open and functioning is important to your constituents.
    Last fall, on a bitterly cold, rainy day, we hosted a 
festival at Occoquan Bay National Wildlife Refuge. A young 
mother and her four children came and all were unprepared for 
the weather. Mom was wearing flip-flops and she and one of the 
little girls were wrapped in black garbage bags. The oldest boy 
came up to me and gave me a dollar saying my mother wants you 
to have this. His mother loves plants and was glad to have this 
place to take her children. This family was living in the 
homeless shelter. But that did not stop this wonderful woman 
from showing her appreciation for the natural heritage we all 
share and demonstrated to her children how important it is to 
support it. I hope all of us will follow her example.
    While we realize that our country is facing difficult 
economic times and we must all share in the challenges of the 
recovery, we respectfully ask you to support a budget of $495 
million for the National Wildlife Refuge System.
    I thank the Subcommittee for giving us the opportunity to 
provide this testimony.
    [The statement of Joan Patterson follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. LaTourette. I thank you very much. Mr. Moran, do you 
want a moment with Joan before you depart us? Do you have any 
questions of anybody?
    Mr. Moran. No, I am all set. Thank you.
    Mr. LaTourette. Okay. Thank you very much.
    Mr. Moran. Thank you very much.
    Mr. LaTourette. Thank you.
    And Mr. Christensen, thank you for your accommodation. Now 
we will hear from the Friends of Deer Flat. Welcome.
                              ----------                              

                                         Wednesday, March 21, 2012.

                 FRIENDS OF DEER FLAT WILDLIFE REFUGE 


                                WITNESS

ROBERT C. CHRISTENSEN
    Mr. Christensen. I appreciate the opportunity to be here 
today. At first, when I was selected, I am not sure I 
appreciated it but I do now.
    My name is Bob Christensen, and I am a retired wildlife 
biologist. I worked 30 years with the U.S. Bureau of 
Reclamation. I am here today on behalf of the Friends of Deer 
Flat Wildlife Refuge and its 80 members, also its 500 or more 
volunteers.
    My first experience with a wildlife refuge was at Fish 
Springs National Wildlife Refuge, which is on the south end of 
the Great Salt Lake Desert, one of the most remote wildlife 
refuges in the 48 States. I worked there a summer as a 
biological aide and I gained an appreciation for all of the 
planning and the work and the sweat that goes into creating, 
maintaining, and enhancing these icons of wild America. While I 
was there at Fish Springs, I met a man we call him Trapper Jim 
and he lived there at the refuge. He was granted lifelong, 
well, opportunity to live there and he lived in a dugout next 
to one of the desert springs. And most of the time he spent 
trapping muskrats and in the summertime he spent in his 
underground hole there just trying to keep cool. But he claimed 
that if you drank from the alkaline waters of the desert 
springs there and then walked to the refuge every day, it would 
keep you clean both inside and out.
    Anyway, my coworkers and I one time, we were listening to 
Jim in his little hut there; we like to listen to some of his 
stories he told. He told a lot of yarns. But we were listening 
to him. He had just skinned out a muskrat and he had put the 
glands up on a little shelf above his counter and he was 
drinking his coffee and talking to us and spinning his yarns, 
and meanwhile, these glands rolled off his dusty shelf and 
plopped into his coffee cup and we kind of looked at each other 
and snickered and wondered what was going to happen. And he 
eventually picked up the coffee cup and tasted it and his eyes 
kind of a puzzled look in his eyes and he took another sip and 
he kind of sloshed it around in his mouth and smacked his lip 
and gulped it down and he said, you know, that is the best cup 
of coffee I have ever had.
    Now, I tell you that because each refuge has its own 
history and heritage, each has its own story to tell, and each 
has its own intrinsic value on the American landscape. They are 
all different. They are all different characters. And this is 
true of Deer Flat National Wildlife Refuge where I have been a 
volunteer for many years. And it is one of the oldest refuges 
in the National Wildlife Refuge System. Last month, we 
celebrated its 103rd birthday.
    Deer Flat serves as a refuge and a breeding ground for 
migratory birds and other wildlife with emphasis on wintering 
water fowl. The refuge received about 225,000 visitors last 
year, and that is pretty significant for a pretty small refuge. 
And it is up from--we had about 100,000 in '96 and so now we 
are at 225. Interpretive and educational outreach programs 
provided by the refuge having in recent years reached over 
6,000 young people with different ethnic backgrounds and have 
also influenced another 9 to 11,000 people in our Environmental 
Education Programs. And much of this has been due to volunteers 
as well as to interns that we have been able to keep on staff.
    The Friends of Deer Flat realize the economic times that we 
are in and that funding increases are not necessarily feasible, 
but we know that at current budget levels, as Desiree 
explained, we can barely keep things moving along. And there 
will be actually some losses, particularly if we lose these 
Challenge Cost-Share Grants. We will have to reduce our 
volunteer outreach and environmental programs by 20 to 30 
percent. If we go to the 10 percent reduction, then that will 
kind of double that. If we lost all of our grant monies for 
Challenge Cost-Share, then our outreach programs would be 
reduced by 40 to 60 percent.
    And another thing that we are concerned about is fire 
suppression and invasive weed control programs, they will be 
seriously diminished also. And we have had public input on 
that. The people would like to see us do a better job on the 
refuge.
    The refuge currently has no law enforcement officer and, of 
course, maintaining the status quo or reducing the budget would 
not help us there at all. We would not be able to provide any 
law enforcement.
    We hope that you will support the Deer Flat Refuge and the 
other 556 refuges across the country by maintaining at least 
the status quo funding for the refuge system and the funding, 
particularly the Challenge Cost-Share Program at $3.6 million 
level.
    On behalf of the Friends of the Refuge, we thank you for 
the opportunity to come and testify today.
    [The statement of Robert Christensen follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. LaTourette. Well, I thank you very much for your 
testimony.
    And Mr. Paddock, we have come down to you. You are our last 
witness today. Welcome.
                              ----------                              

                                         Wednesday, March 21, 2012.

                   FRIENDS OF THE REFUGE HEADWATERS 


                                WITNESS

TODD PADDOCK
    Mr. Paddock. Thank you. And I guess I am the last and you 
are the last.
    Mr. LaTourette. That is right.
    Mr. Paddock. All the others have worn out the members of 
the Subcommittee. So I will try to be brief.
    The Upper Mississippi National Wildlife and Fish Refuge 
begins in Minnesota and it stretches 260 miles down through 
Wisconsin and Iowa and Illinois. So it is a very large refuge. 
And it is an important one. We get 3.7 million visitors a year 
and that is more than Yellowstone, for example. The reason is 
this is not a refuge that has fences. It is not distant from 
where people live. It is our backyard. You often can be in the 
refuge and not know it. And that does not mean, though, that it 
is not a vital refuge. For me, it is easy for me to talk about 
this because I am there probably a couple hundred hours a year. 
I fish, I hunt, I kayak, I canoe, I picnic, I swim with my 
wife, with friends. I am there a lot and I know how many other 
people use it as well. I am not that unusual to be honest.
    I have never been in a place in that refuge, no matter how 
far I would walk or canoe, gone over the ice where there was 
not another person nearby who might come around the corner. 
Over and over I thought I got away from everyone and I was 
wrong. And that is, again, because this is a place that is 
used. It is a wildlife refuge, it is for wildlife, but it is a 
paradise for people.
    I am sure you know that Minnesota is known as the land of 
10,000 lakes, but not where I live. We are the land of the 
upper Mississippi River. That is just the truth. I guess you 
could call it the land of 10,000 backwaters of the river and 
islands. It is 240,000 acres of marshes and wooded islands and 
bottomland forests and upland prairies and more. And we have 
300 species of birds, 100 species of fish, 150 species of 
mammals. We have 250 eagle nests, 5,000 nests of herons and 
egrets. We also are one of the four major flyways for the 
United States for migrating birds, and they need the water, the 
food, the protection that is there when they are migrating. And 
that is one of the things that a refuge provides. It is one of 
the reasons it began.
    If there was a 10 percent cut, the reason it would have a 
big impact for us is because we are already operating on an 
austere budget. For example, we have four law enforcement 
officers for four States and 3.7 million visitors. That is 
really an impossibility. We have no fisheries biologists. This 
is a refuge that is based entirely on the efforts--and no 
fisheries biologists when, like, Asian carp are coming and we 
know they are coming, there is not a lot we can do. Certainly, 
we cannot have an expert there to plan for how to address it 
because there is no such position. Similarly, we have no 
forester. Fifty thousand acres of bottomland forest and no 
forester. These positions exist, that part of our plan, but 
they are vacant. We do not have the money to hire them.
    If you were to visit the city I am from, Winona, and this 
is not unusual for river towns that are next to this refuge, 
you would see boats on the street and the side yards and the 
front yards and the backyards. They are kayaks, they are 
canoes, they are pleasure boats, they are fishing boats, they 
are hunting boats, they are airboats, which are what trappers 
use, and it is just another example of how important this 
refuge is. And people really do care. They truly care and they 
will pay for it.
    Minnesota, we passed a constitutional amendment to provide 
through sales tax on everything that is bought and sold that 
provides hundreds of millions of dollars a year to be spent on 
land purchases, water quality, and more. We care about 
environment to the point of saying we will spend more on it. 
They passed a similar law--although now they are waiting on 
their legislature to actually put it in effect.
    So I just want to let you know that if there was a cut of 
10 percent, there would be further reductions. I asked the 
staff, what would you do? They said, well, no weekend visitor 
hours, no weekend visitor services. Special services like 
hunting for the disabled will be eliminated. We will also 
reduce law enforcement. We will reduce school programs. These 
are things that I do not think anyone wants to happen and that 
is what I am asking you to help stop, to not let this happen.
    Thank you.
    [The statement of Todd Paddock follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. LaTourette. Well, listen, thank you and thank all of 
you. All of you touched upon sequestration. The good news is I 
do not think sequestration is going to occur because it was 
just too horrible. Nobody ever thought we would find ourselves 
with sequestration because we are supposed to have done our 
jobs, which we did not do. The budget that will be debated next 
week and some alternatives I think will accommodate 
sequestration without the 10 percent cuts that you are talking 
about. So that is the good news.
    The bad news is that people in your line of activity and 
others are going to have to get involved in this budget debate 
because all the pressure of last year's budget and this year's 
budget is on non-defense discretionary spending. Now, how does 
it get there? You have one party, my party that does not want 
to talk about revenues. You have the other party that wants to 
use the middle-class entitlement programs of Medicare and 
Social Security to beat the snot out of my party. You cannot 
get there unless you address both of these things. So the 
chicken way out of it is to continue to ratchet down this small 
percentage of the budget that is non-defense discretionary that 
has the disastrous effects that you are describing. If you all 
and people like you let us get away with it, well, then bad 
things are going to continue to happen.
    I have no problem saying to some of my wealthy friends, 
look, you got to be part of the solution, and, you know, you 
cannot pay 14 percent. You need to pay what I pay. And I have 
no problem saying to a retired person that Social Security was 
not designed to sustain you for as many years in retirement as 
you worked. But we got to get there. If we do not get there, 
again, you know, the average life expectancy of a Member of 
Congress is 8 years, and so the tendency is to just wait it 
out, and not have to make a tough decision, and nobody is ever 
going to be mad at us. But we are really at the point where we 
cannot do it. It is like the Asian carp. The clock is ticking.
    So as you go out and talk to all your members and your 
visitors and everybody else, America needs to get involved in 
this budget discussion because it is ordering priorities but it 
is also recognizing that there is a finite set of resources. 
Even if you tax the richest one percent, it does not fix the 
problem.
    So anyway, good news is no sequestration; bad news is we 
are in a lot of trouble. I want to thank you all for being 
here. I appreciate your testimony. And if you have anything 
come up as we begin our markup on some of the other things that 
occur, stay in touch with Mr. Simpson or Mr. Moran's staff and 
I am sure that we can accommodate you.
    So thanks so much for being here.
                                          Thursday, March 22, 2012.

         TESTIMONY OF INTERESTED INDIVIDUALS AND ORGANIZATIONS

                            PUBLIC WITNESSES

    Mr. Simpson. The Committee will come to order.
    Good morning, and welcome to the second day of our public 
witness hearing. This morning, the Subcommittee will be hearing 
from a cross-section of individuals representing a wide variety 
of issues addressed by this subcommittee.
    The Chair will call each panel of witnesses to the table, 
one panel at a time. Each witness will be provided with 5 
minutes to present their testimony. We will be using a timer to 
track the progress of each witness, and when the button turns 
yellow, the witness will have 1 minute remaining to conclude 
his or her remarks. Members will be provided an opportunity to 
ask questions of our witnesses, but in the interest of time, 
the Chair would request that we keep things moving in order to 
conclude this morning's testimony at a reasonable hour.
    Mr. Simpson. I am happy to yield to my friend, Mr. Moran, 
for any remarks that he might have.
    Mr. Moran. No, I am fine.
    Mr. Simpson. No quote of the day?
    Mr. Moran. Well, I do, but I think it is a little ponderous 
for this hearing. I am going to save it for another time.
    Mr. Simpson. I have a really----
    Mr. Moran. You really want it?
    Mr. Simpson. Yeah, yeah.
    Mr. Moran. Okay. Well, this one is from Margaret Mead.
    Mr. Simpson. Margaret Mead?
    Mr. Moran. Yeah, and since we have--representatives of the 
public here, and this is a day to hear from them, the quote is 
that ``Never doubt that a small group of thoughtful, committed 
citizens can change the world. Indeed, it is the only thing 
that ever has.'' So this is kind of a push for more civic 
advocacy on behalf of their priorities, and----
    Mr. Simpson. Are you going to put together a book of all 
these quotes?
    Mr. Moran. I do not know.
    Mr. Simpson. Because I like them.
    Mr. Moran. Do you really? Well, I appreciate that. I 
probably would not have sustained this if you had not shown 
some interest. It is getting to be a little bit of a burden for 
the staff.
    Mr. Simpson. I am going to have to go get a Bartlett's 
quotation book.
    Our first panel is Robert Lynch, President and CEO of 
Americans for the Arts, and Stanley Tucci, the award-winning 
actor, writer, producer and director, for Americans for the 
Arts.
    Welcome to our hearing this morning. Who is first? Okay. Go 
ahead, Bob.
                              ----------                              

                                          Thursday, March 22, 2012.

                         AMERICANS FOR THE ARTS

                               WITNESSES

ROBERT LYNCH
STANLEY TUCCI
    Mr. Lynch. Well, first of all, thank you so much for having 
us here for this testimony, and I have submitted written 
testimony to you, so I am not going to go through that written 
testimony but I wanted to make a few comments about the value 
of your support for the National Endowment for the Arts and for 
the appropriation level of $155 million that we have this year, 
and that figure, $155 million, aligns closely this year with 
President Obama's fiscal 2013 request, which is what we are 
supporting.
    For context, I will just point out that that gets us to the 
1980 level for the National Endowment for the Arts. Five years 
actually before I got here to Washington, it was at $155 
million, and some day the hope is to get back to the 1992 level 
of $176 million. But $155 million is the support level in these 
troubled times that we hope can occur.
    Mr. Moran. What would it be adjusted for inflation? Do you 
have that number?
    Mr. Lynch. It would be over $300 million adjusted for 
inflation from that high of 176.
    But I want to point out also that I want to thank both 
Chairman Simpson and Ranking Member Moran and fellow 
Subcommittee members for the work last year that you did in 
fighting off two amendments at least that were brought to the 
House Floor and would have greatly reduced or eliminated the 
National Endowment for the Arts, and that was noticed by the 
arts community and we thank you so much for that.
    This week is St. Patrick's Week, the week of celebration 
for Irish-Americans. It used to be St. Patrick's Day but now it 
is the entire week.
    Mr. Simpson. Some of us think it is St. Patrick's Year.
    Mr. Lynch. And I actually had the opportunity to take some 
time and Google every district of every member of the Committee 
and noticed in every district there were art and music and 
theater and dance and literature celebrations honoring St. 
Patrick's Day, some nonprofit organizations and many of them 
supported by the National Endowment for the Arts. And then I 
had the opportunity to go to an event on Tuesday night where 
the leader of the Republic of Ireland, the taoiseach, Enda 
Kenny, was speaking, and interestingly, he got up there and 
what he said is, come to Ireland this year, come to Ireland 
next year, and why should you come? He said hear our music, see 
our theater, enjoy our dance, visit our museums, bring your 
credit cards. And so I think it is interesting that I see 
nations have the opportunity to work with the French government 
last year and the Netherlands government and the Chinese 
government, all of them looking to have our American citizens 
come there to enjoy the arts that they support in those 
countries in order to create tourism abroad and also to be able 
to benefit the people from those countries.
    And so it is another example of what your support through 
the National Endowment for the Arts does. It creates the kind 
of opportunity here through the arts for people to come, and 
one of the things that is interesting that the Department of 
Tourism talks about is that cultural tourists, when they come 
here, they spend more money than any other kind of tourist and 
they stay longer, and they like to go to places that are not 
necessarily New York City but might be Boise, Idaho, or other 
parts of the country. They want an authentic experience. So I 
am excited about some of the things that we are seeing there 
that can attract people to our country.
    Now, the arts today, there is some tough news for the arts 
as there is for every other industry in America. We have seen 
that many nonprofit organizations are struggling to maintain 
their bottom lines. In fact, 45 percent of nonprofit arts 
organizations ended the year with a deficit in 2009, 45 
percent. Now, 2 years ago I came to the Committee and I talked 
about the fact that we at Americans for the Arts thought that 
nonprofit arts organizations were going to take a financial hit 
and that they might lose as much as 20 percent of their budgets 
across the board, and we were right about that. Nonprofit arts 
organizations have taken a hit.
    But I was wrong about a second thing that I brought to the 
attention of the committee. I thought that from the data we saw 
that some 10 percent of them were going to go out of business, 
but they proved very resilient. They proved very, very strong 
and far fewer than that went out of business. That is what you 
read about in the papers. But in fact, they are mission driven. 
They are not bottom line driven. They are looking to make 
better communities and they will do whatever it takes to stay 
in business and the kind of help that they get, the little tiny 
bits of help that they get from something like the National 
Endowment for the Arts makes all the difference in the world.
    Now, that is the tough news. The good news is, they 
continue to have, these nonprofit arts organizations, a 
wonderful reputation for being economic drivers in America, 
revitalizing communities, creating jobs. I have mentioned 
figures in the past from our arts and economic prosperity study 
but $166 billion economic impact for the arts in America from 
the nonprofit arts community, 5.7 million jobs created and 
sustained across America, and $30 billion of tax monies coming 
to federal, state and local coffers. That I think is a great 
contributor and a consistent and steady contributor.
    In the year of the founding of the National Endowment for 
the Arts, 1965, there were 7,000 of these nonprofit 
organizations. Today, we know that there is 113,000 of them in 
smaller places all across the country. Four state arts agencies 
have become 50 state arts agencies because of the investment of 
the National Endowment for the Arts and the matching money that 
you create, and the 200 local arts agencies that our 
organization served back in 1965 are now 5,000 local arts 
agencies funding, serving and sustaining those 113,000 other 
organizations, and that is only the nonprofit. There are 
800,000 other organizations that are for-profit businesses--a 
local music store, a dance school, Broadway Hollywood. And so 
with that, we are seeing that 4.25 percent of all businesses in 
America are arts businesses, small as they may be.
    I would point out that in Idaho's 2nd Congressional 
District, Reno, that there is 2,133 arts-related businesses 
that employ 6,539 people. Congratulations. And in Virginia's 
8th District, we know that there are 2,842 arts-related 
businesses employing 12,700 people. That is, I think, exciting 
and powerful at the local level, and nationally, we know that 
there is 904,000 of these businesses.
    What I see when I look at the National Endowment for the 
Arts is that through programs that they have, they are 
continuing to track on providing access to all Americans to the 
arts and at the same time fostering economic development, 
economic growth. And I looked at some of the Committee members 
and I saw that in Representative Cole's district in Oklahoma a 
$10,000 Challenge Grant supported Global Oklahoma, which 
fostered interest in and celebration of all the different 
diverse cultures that were there in that particular district. 
In Representative Calvert's district in Riverside----
    Mr. Moran. Would you just repeat--I did not hear that, Bob. 
Would you just repeat the last point that you made just once 
more?
    Mr. Lynch. I actually would like to say for a great example 
of arts activity in America something that happened in 
Representative Cole's district in Oklahoma a $10,000 Challenge 
Grant supported Global Oklahoma, a festival featuring different 
cultural traditions, and the festival brings together cultures 
of the world to promote appreciation and understanding of 
peoples that are in that district are from throughout the world 
through art and food, a terrific example. And in Representative 
Calvert's district, a $15,000 Access Grant supporting creation 
and presentation of a multidisciplinary work that celebrated 
the local Native American culture.
    On the placemaking side, the investments through things 
like Our Town and other programs are supporting livable, 
sustainable neighborhoods and enhanced quality of life through 
the arts, and I noticed that in Representative Lummis's 
district a $50,000 Our Town grant supports a pilot program in 
which public art is integrated into a low-income housing 
community in Casper. In Representative Simpson's district, 
Chairman Simpson's district, a $100,000 Our Town grant will 
support community engagement by the Trey McIntyre Company, 
allowing the Trey McIntyre Dance Company to stay home as 
opposed to touring and work with the people there.
    So with all of this, I think that we are seeing a valuable 
and a forward-thinking approach by Chairman Landesman at the 
National Endowment of the Arts, and the NEA seems to constantly 
be evolving with the times but still ensuring quality 
programming reaching all of our communities.
    I would like to take a moment simply to say a word of 
thanks to someone who is not here but I know that Congressman 
Norm Dicks, who has been a great member of this Committee for 
so long, is retiring and the arts are losing a friend with 
Congressman Dicks. He has worked with both of you very strongly 
and alongside Ranking Member Mike Simpson created increases in 
the National Endowment for the Arts and so I just wanted to say 
a word honoring him.
    So in conclusion, I respectfully request that the 
Subcommittee fund the National Endowment for the Arts at the 
President's request of $155 million. It is my profound hope, 
whether this time or in the future, that the Subcommittee can 
do even more for the citizen participation in the arts, and 
continue to demonstrate the wonderful leadership, the belief in 
the nonprofit arts sector and the support for the NEA that you 
have done. To me, if we continue to do that, we get what you 
are actually helping to create: a better citizenry, better 
towns, a better Nation, and even perhaps a better world. The 
cultural community is ready to assist you, and I thank you for 
the honor of testifying.
    [The statement of Robert Lynch follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Simpson. Thank you, and thanks for bringing up Norm. We 
are all losing a great friend, and unfortunately, the country 
is losing a great representative in having Norm retire. I 
called him a chicken the other day, a quitter.
    And I have to admit, when I think of Oklahoma, I think of 
football, not art.
    Stanley, go ahead.
    Mr. Tucci. Thank you.
    I am very honored to be here today before the House of 
Representatives Appropriations Subcommittee on the Interior, 
Environment and Related Agencies testifying on behalf of an 
increase to $155 million for the National Endowment for the 
Arts for fiscal year 2013.
    You asked me to speak extemporaneously, but I said I would 
not because if I did, all of the funding would be cut. So I am 
going to read what I wrote.
    I have always felt that the arts are a necessity and not a 
luxury. That is a bold statement, I know, but here is why. Both 
sets of my grandparents emigrated from Italy at the turn of the 
century. None were educated beyond the 8th grade. My father 
went to Buffalo State Teachers College, now part of the SUNY 
system. The SUNY system is also what I went through as well, 
the conservatory at SUNY Purchase. He studied fine art and then 
he went on to Columbia graduate school receiving his masters in 
fine art. He taught high school art for 40 years, everything 
from printmaking, sculpture, silkscreen, pottery, jewelry 
making, calligraphy, painting and drawing. He was given a 
sabbatical in 1972 to study figurative sculpture in Florence 
for a year, and we all followed.
    The exposure to the art, architecture and the food of Italy 
was life changing for me and it very strongly influenced my 
aesthetic as an actor, as a writer and a director, but this 
aesthetic was already being formed unbeknownst to me by my 
exposure to art on a regular basis since the day I was born. 
Besides his teaching job, my father sketched, painted and 
sculpted at home in the evenings after dinner, and he taught 
art on Saturdays and summers locally to make extra money, for 
as we know teachers' salaries are nothing to brag about. I will 
be back next year to talk about that.
    But along the way, I was very often by his side learning to 
work in all the mediums he was exploring himself and teaching 
his students. I spent many summers in the very well-equipped 
art room in the posh suburb of Chappaqua, New York, near where 
we lived and where he taught. The summer school class was 
filled with students, some of whom had come from poorer 
sections of New York City to stay with families in Westchester 
and take art courses, a sort of like fresh air program. All of 
them adored and respected my father because he treated them 
with respect by recognizing and bringing to the fore their 
individual artistic talents and abilities. These guys, these 
kids, had never before been given the time, the materials, the 
environment and the opportunity to create something of 
themselves, for themselves that ultimately ended up pleasing so 
many others around them.
    Now, why do I bring that up? I bring it up because art, not 
unlike athletics, is a sure way to find and make use of the 
best in all of us, and I do not mean just fine art, but music, 
dance and film. And so for this reason, I feel that we must not 
look at the arts as an adjunct to society, but as a vital and 
integral part of society. Sometimes the arts make us think, 
sometimes they make us see things as we have never before, 
sometimes they simply entertain and sometimes, if we are lucky, 
they do both.
    A society that nourishes art will always benefit not only 
culturally but economically, as Bob just pointed out. If we 
look at the number of jobs that are created by the arts alone 
and their positive fiscal impact on any given community, city, 
state or country, the numbers speak for themselves. You cannot 
really argue with it in the end. It is a great--it is a 
bargain, really. This is too often overlooked by so many who 
consider the arts a drain on the finances of any social entity. 
But an increase in funding, even during financially tough 
times, will only reap benefits in the long run.
    I have followed and know only too well the strained 
relationship that the NEA has had with Capitol Hill over the 
years, and I can understand the reticence on the part of 
legislators to increase or even continue its funding, but I 
urge that the focus not be on those few works that might offend 
a certain group or individual, but rather on all the 
extraordinary visual art, theatre, music and film that sprang 
from programs, schools, museums, theatre and dance companies 
funded and sustained by the NEA.
    But unfortunately, art is not a thing that is easily 
defined. It is amorphous, it is interpretive, it is subjective. 
If it were not, it would be mathematics. Now, imagine us all 
going to the theatre on a Saturday night and watching someone 
solve mathematical equations for two and a half hours. No, 
thank you. I will just meet you at the party afterward.
    But this inability to define art is what causes us great 
strife. Are we all to like the same music, painting or film? 
No. It is impossible. Why, even caring husbands and wives argue 
about such things. Except for my films, of course, which 
everyone loves.
    So art is elusive. Is it all good? No. Is it all bad? No. 
Is all dance beautiful? No. Some of it is just indulgent and 
annoying. Do we wish that some conceptual art would remain just 
that? Yes. Can art be elitist? Yes. Need it be? No. In fact the 
arts are a great leveler. They bring people of all walks of 
life together by giving them common experiences through so many 
mediums and in so many venues. They are an apparatus, a vehicle 
for healthy social interaction of people of all ages.
    Like sports programs, arts programs give all children and 
teens, but particularly those at risk, a place to go and create 
something positive during those rather ambiguous hours between 
the end of the school day and when a parent comes home from 
work. They teach the intellect. They grow the imagination. They 
strengthen the spirit. They encourage competition. They instill 
a work ethic. They inspire the soul. And they make us proud as 
individuals, as a culture and as a nation. The examining and 
reflective nature of all artistic disciplines helps us to 
better understand who we are as a people, for our generation 
and for other generations to come.
    It is true that art cannot always be good, but it can be 
and is good for us. As history shows us, the arts not only help 
define who we are as a people but they are one of the deciding 
factors that clarify the distinction between a society and a 
great nation.
    I respectfully ask the Subcommittee to increase the NEA 
budget for fiscal year 2013 to $355 million--oh, I am sorry. I 
said $155 million. And thank you for the opportunity to present 
witness testimony.
    I want to also take this time to publicly recognize and 
thank the Subcommittee for supporting the NEA and so many New 
York area nonprofit arts organizations and institutions that 
have specifically touched my life since its inception in 1965. 
They have helped shape my childhood, my career and now, as a 
father, my children's appreciation of the arts.
    Some of those that I have had direct contact with are the 
Katonah Art Museum, which is a Blue Star Museum in the town 
that I grew up in, that provides free admission to active 
military-duty families from Memorial Day to Labor Day; the 
Classic Stage Company where I worked, and the Classic Stage 
Company has received multiple NEA grants throughout the years 
including Shakespeare in American Communities grant, which 
supports performances and educational activities that introduce 
middle and high school students to the power of live theater. 
SUNY Purchase, which is my alma mater, has been repeatedly 
recognized by the NEA for its excellence in theater. There is 
no other school quite like it in the country, I think. The 
Ensemble Studio Theater where I worked when I was very young 
and had hair, they have received several NEA grants throughout 
their storied history including a Challenge America grant, a 
grant program for projects that extend the reach of the arts to 
underserved populations. The Jacob Burns Film Center, which is 
in Pleasantville, New York, not far from where I live, is a 
prime example of the access facilitated by NEA grants. This is 
an extraordinary center, a film center, that has received a 
grant every year since 2007, enabling it to bring big names to 
a small town and to present film series such as the 
International Understanding Through Film series. Sarasota Film 
Festival that I have participated in quite a few years in a 
row, they have received NEA recognition in 2007, in part for 
its commitment to community involvement. This is becoming a 
very important film festival that I also think brings, not that 
Sarasota needs a lot of money but, you know, it helps. And of 
course, the Tribeca Film Institute, which recently won two NEA 
Access to Artistic grants for their professional development 
program. The SUNY Purchase Neuberger Museum of Art, which is an 
extraordinary museum gallery on the campus of SUNY Purchase.
    And I think for me, one of the most important ones is, I 
would like to express my appreciation for the support the NEA 
has given to the Sundance Institute. The Sundance Institute 
began with a grant from the NEA and they have been repeatedly 
recognized for their commitment to the discovery and 
development of independent artists and audiences, and I serve 
on the board of trustees and as a creative advisor for the 
screenwriters and directors labs. Multiple Access to Artistic 
Excellence grants have provided critical support for the 
institute's Film Forward program, which offers emerging 
screenwriters, directors, producers and composers the 
opportunity to support and resources needed to successfully 
create work. This really is an extraordinary thing that has 
completely changed the landscape of filmmaking as we know it. 
Without Sundance and without the NEA's support for Sundance, 
independent film would have all but disappeared in this 
country.
    So thank you so much.
    [The statement of Stanley Tucci follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Simpson. Thank you. And I was just reading an article 
on Delta's magazine on the flight back this time and it was 
talking about the film festivals around the country, around the 
world actually. Cannes was number one. But if you looked at it, 
Sundance had the highest attendance of just about any of them.
    Mr. Tucci. Yes.
    Mr. Simpson. I appreciate your testimony and thanks to both 
of you for being here today. This Committee, as you noted, has 
been very supportive of the arts and will continue to be, and 
we will do what we can in this budget. I suspect this year we 
will also have to again fight off some amendments from some 
people that would like to do away with a lot of the arts.
    And it is very interesting when you talk about what the 
arts are, it is different for everybody. We had a gentleman 
from Idaho out here not too long ago who actually made saddles, 
an old cowboy, and he did the leather work. I mean, they were 
world class. He is as much an artist as anybody that sits down 
with a palette of paint and paints a picture. So they are 
different for everybody, and oftentimes, as you said, they are 
controversial and, you know, that is okay. That is what it is 
supposed to be.
    So I appreciate you both being here today and testifying, 
and we will do what we can. Jim?
    Mr. Moran. Thank you, Mike. I think we agree on the 
importance of the arts. Certainly, we have a pragmatic 
rationale that it is such an economic driver within 
communities, both urban and rural, but beyond that, it is a 
reflection of our values as a society. It is just so integrally 
important in defining who we are as a Nation. It helps us 
empathize with others, people who are different. More than any 
other vehicle for enabling us to do that, are the arts and 
humanities. So we appreciate your taking the time to testify, 
but most importantly thank you for what you do all year long on 
behalf of the betterment of our society.
    Mr. Simpson. Representative Cole.
    Mr. Cole. I was delighted to arrive in time to play my 
customary role as a foil for the Chairman. You remind me, 
however indirectly, of the 2005 Boise State-O.U. game. It has 
been going on a lot of years. It never stops.
    I do have one--and I was disappointed to see of all the 
grants you mentioned, mine was the smallest in the testimony. 
But seriously----
    Mr. Moran. But it had the highest impact. That was the 
point he was making. It was worldwide, yours. It was global.
    Mr. Cole. Well, we always do the most with the least, you 
know.
    But seriously, Chairman Simpson and I have the duty to sit 
on the Budget Committee, which frankly sets the overall targets 
for spending. It does not get down to programmatic levels. And 
we and others on that committee spend a lot of time defending 
the appropriated part of the budget, which this is a very small 
part of but a very important part. I could not agree more with 
what you had to say.
    But I would just ask you, as you advocate for the specific 
things, all these types of programs are under pressure because 
we have not been able to come to grips with our entitlement 
problem. We spend a lot of time talking about it. There is 
going to be a lot of different ways to do that and we are going 
to fight over them, hash over them, but sometime, probably next 
year, we are going to sit down, I think, as a Congress once we 
know what the distribution of positions are and hopefully come 
to grips with this because the biggest threat you face is not 
somebody crafting a piece of art that somebody did not like, 
and again, this is a miniscule part of an enormous budget, so 
it is pretty hard to argue that this would make any substantial 
contribution to the deficit problem. But if we do not have more 
people engaged in really working through how we deal with 
Medicare, Medicaid and Social Security, these things, they will 
disappear. Because people go after ``the easy things'' first. 
They do not want to deal with the real problems. The real 
problems are big.
    So I know that is not on your topic and not your 
responsibility but I would just ask, as you do have the 
opportunity to interact with a lot of members and influence a 
lot of people, just get them to think about the big problems 
and have the courage to put solutions on the table. And right 
now we are not seeing enough people in elected office willing 
to put solutions on the table and then split the different or 
divide, and I think that you could help your cause by trying to 
focus attention on that as well.
    And again, thank you for what you do. It is a wonderful 
organization. It has done enormously wonderful things and 
impacted lives, and thank you for taking your time to be here 
to testify.
    Mr. Tucci. It is a pleasure.
    Mr. Simpson. Thank you. And Tom brings up a very important 
point, that the biggest threat really is the deficit that we 
are facing. Unfortunately, there are people who are trying to 
focus more and more of the debt problem on a smaller and 
smaller part of the budget, and frankly, you cannot address the 
debt problem by focusing on small amounts of discretionary 
spending.
    So I appreciate you being here. Betty, did you have 
anything?
    Ms. McCollum. Good morning. I was with people in my 
district who are very passionate about supporting the arts, and 
I said I need to get down to show my public support for the 
arts. So all politics is local, but I really appreciate you 
being here. This is how we express ourselves in a democracy, so 
the arts are important to our democracy. Thank you for being 
here.
    Mr. Simpson. Thank you both.
    Mr. Tucci. Thank you.
    Mr. Lynch. I just wanted to point out one thing for 
Congresswoman McCollum, and that is that we had the opportunity 
to bring our conference to Minnesota and the economic impact of 
that, but my members wanted you to know that there is 2,037 
businesses that are arts-centered businesses in your district 
with 8,867 jobs, which you know of, but I think it is good to 
be in the record as well. And with Congressman Cole, the same 
thing. One of the things that I think the arts can do is to 
contribute back dollars to that budget process, even in a 
district in Oklahoma where the chairman of my board, Ken 
Ferguson, comes from and says to say hello, 1,389 businesses 
and 3,658 jobs. So we are trying to do our part to help you 
with the budget process.
    Mr. Simpson. Thank you. And for your annual conference, 
Boise is a beautiful place. I will just throw that out. Thank 
you for being here today.
    Next we have Hunter Rawlings, III, and Deborah Frances 
Tannen, Professor of Linguistics at Georgetown University, the 
National Endowment for the Humanities, and Mr. Rawlings, 
President of the Association of American Universities for the 
National Endowment for the Humanities.
                              ----------                              --
--------

                                          Thursday, March 22, 2012.

                 NATIONAL ENDOWMENT FOR THE HUMANITIES


                               WITNESSES

HUNTER RAWLINGS, III
DEBORAH FRANCES TANNEN
    Mr. Rawlings. Good morning. Thank you very much for 
inviting me to speak. I appreciate the opportunity. I am from 
the State of Virginia, and Ranking Member Moran, it is a 
pleasure to see you and other members of the Subcommittee.
    I want to take us back to August of 1769. In August of 
1769, the 18-year-old James Madison left his home in Orange, 
Virginia, and went up to the College of New Jersey. There, he 
took the exams that were given to the freshmen who had finished 
their first year at the college of New Jersey and he passed 
those exams, so he became a sophomore. And the reason he passed 
those exams was that his Latin and his Greek were very strong 
and that was the test of a student in those days. He was, in 
other words, a humanities student.
    At the College of New Jersey, he took the curriculum that 
all students took in those days, and that was primarily Latin 
and Greek and natural philosophy and philosophy of the Scottish 
Enlightenment, thinkers like Adam Smith and David Hume, and he 
did very well. He also learned how to debate, to discuss 
issues, to make an argument. He took the full curriculum for 2 
years, and by working very hard he graduated after 2 years. He, 
in other words, took advantage of advanced placement credit and 
he worked especially hard and skipped the senior year and he 
graduated.
    At the end of that period of 2 years of study, like most 
humanities majors, he had no idea what to do with himself. He 
did not get a job. He did not know what job to get, and so he 
did what most humanities majors do in these days. He went to 
the president of a college and he said could I stay and spend 
another year, I would like to study Hebrew and theology with 
you, and the president being a good president, said you may 
certainly do that, and James Madison thereby became Princeton's 
first graduate student. A year later, he had finished that 
course of study, and he still did not know what to do. So like 
many a humanities major, having now graduated twice, so to 
speak, he went home and lived with his parents.
    Now, we would consider this today a failed education. He 
had taken a bunch of useless courses, ancient stuff like Latin 
and Greek, and he had prepared himself for absolutely nothing 
in the way of a job and so he spent the next 4 years living at 
home with his parents tutoring his younger siblings and writing 
nostalgic letters to his friends from the old days at the 
College of New Jersey.
    James Madison never did find a job. Instead, a job of 
course found him. The revolution occurred, and James Madison 
became the founder of our republic. How did he do that? He did 
that because he had had a really strong humanities education, 
and so at the end of this period of time in 1776, he became one 
of those people that the Americans began to look up to, and 
within short order he had been elected from his own district in 
Virginia to the state assembly in Virginia. He was then the 
principal architect of the Constitution. Why was that? Because 
his friend, Thomas Jefferson, sent him two trunk loads of books 
from Paris where Jefferson was living and Madison began what 
became known as the most important piece of scholarship in 
American history. He studied what federations had been in 
history in order to prepare himself to go to Philadelphia to 
work on the federal convention.
    In Philadelphia, even though he was only 35 years old, he 
became the best known of all the advocates for the new 
Constitution. Why? Because he was trained well in the 
humanities. He was an oracle of information on European 
history, on ancient Greek and Roman history, on confederacies. 
He was the author of the Virginia Plan, which was eventually 
adopted as the basis for the Constitution.
    Once the Constitution was completed, it had to be ratified 
in the states. What did Madison do? He went to New York and 
joined Alexander Hamilton writing the Federalist Papers in 
order to promote ratification in New York. When he finished 
there, he rushed back to Virginia and led the fight for 
ratification in Virginia. During all of this time, he used his 
humanities education to make the case. The Constitution was 
ratified and you know what happened next. Madison went to 
become a member of the House of Representatives. There, he 
wrote the Bill of Rights and then became Secretary of State and 
then President for two terms.
    Now, the point I want to make in this story is, this was a 
person who finished college with a humanities major and had no 
idea what to do with himself, but his humanities education had 
prepared him for what would become a lifetime of service to the 
United States, and he died at the age of 85 having continued to 
work constantly in public service all his life. So the story of 
James Madison is a good story of a humanities major who, like 
me when I finished college, had no idea what to do with 
himself, and I remember very well when I decided I wanted to go 
into academia, all my uncles said what in the world are you 
going to do with an education in Latin and Greek; you cannot 
get a job. And even after I got a job teaching, they said when 
are you going to get a real job. Because the humanities are 
somehow seen as beneath the real world but I am here to tell 
you this morning they are not. They are in fact essential to an 
educated citizenry. And the reason the humanities are important 
is that we want to be training and educating citizens who can 
make complicated decisions in a complicated world.
    We spend in this country billions of dollars on science, 
and I am glad we do because we need good science, but many 
countries spend billions of dollars on science. Even 
autocratic, dictatorial countries spend money on science 
because they see it as a way forward. In the Soviet Union, 
science was prized. It was put up on a pedestal. It was 
important. It was critical. And today, China is spending 
billions of dollars on science in order to catch up with us.
    But those countries do not do the humanities well at all. 
Why not? Because the humanities require freedom. You cannot do 
the humanities without freedom. Why is that? Because the 
humanities are about values, and dictators do not like having 
values on the table for debate and discussion. One of the 
things that makes us a very great country and it is one of the 
reasons that Madison created us the way he did is that we are 
free to debate ideas, to take them wherever they will go, so in 
teaching and in scholarship, we can talk freely about our 
ideas, bad ideas, good ideas, and they all have to be put on 
the table and fought over, and that is the way James Madison 
foresaw the country, a place where you can have free debates 
about ideas so the humanities can only exist in a strong way in 
free countries, and that is why the humanities are weak in 
places like China because you cannot express yourself freely. 
In this country, we can.
    So to me, the humanities endowment is our way of saying as 
a Nation, we believe in freedom. We believe in the opportunity 
to discuss ideas wherever they will take us. Bad ideas, good 
ideas, they have to go into the public forum and they have to 
win debates. Otherwise they lose and they are discredited. At 
least we get to discuss them.
    So I am proud of being a humanist and I eventually did get 
a job in spite of my uncle's belief that I never would, and I 
am pleased to be able to come to you this morning and talk 
about the humanities because I am a really strong believer in 
them.
    I am not going to spend a lot of time on the budget. 
Clearly, I support Chairman Leach's request for $154 million. 
That seems to me to be a minimal commitment to something as 
important as the humanities. I hope that you will be able to 
support Chairman Leach's priorities. The Bridging Cultures 
project, which he has brought forward as chairman of NEH, is an 
important statement, I think, about what the country wants to 
do and to say to the world, and it seems to me that is one of 
the most important functions of the NEH, to say publicly to the 
world, we support freedom, we support free ideas, we support 
free debate. That is the only way, it seems to me, we are going 
to make James Madison proud of the product that he created. 
Thank you very much.
    [The statement of Hunter Rawlings, III, follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Cole [presiding]. Dr. Tannen.
    Ms. Tannen. I do thank you for the honor and privilege of 
addressing you today, and I am a resident of Virginia as well.
    I guess I am best known as the author of a book called You 
Just Don't Understand that was on the New York Times bestseller 
list for nearly 4 years. It was number one for 8 months. It has 
been translated into 31 languages, the 31st just added last 
week, Romanian. I have written 22 books, half of them for 
scholarly audiences, half for general audiences, and because of 
that book as well as two others that were New York Times 
bestsellers and others as well, I am often asked to comment on 
radio and television and image reviewed by newspapers.
    But what I want to talk about today is the early support 
that I got from the National Endowment for the Humanities and 
the role that that played in laying the foundation for the work 
that later led to this wide audience, so I guess I would say 
that the ways the NEH helped me helped so many other people, a 
wide range of people in their daily lives.
    I came to Georgetown in 1979. My salary was $17,000. It was 
not enough to live on in Washington. And I would have had to 
teach that first summer just to pay the rent. It was a little 
tiny place over a garage in Georgetown, but even that I would 
have needed to supplement it to pay the rent, but I got a 
summer stipend from NEH that was $2,000, but it made the 
difference between teaching that summer and actually having a 
summer to do my research, and maybe most important, it was an 
early sign of confidence that the work I was doing was worth 
something.
    In 1985, I organized a huge summer institute at Georgetown, 
self-supporting. Students paid. Six hundred people came from 
all over the United States as well as abroad to study the kind 
of linguistics I was doing. It was a summer institute. I got a 
grant from NEH to have a concurrent institute that brought 25 
college and university teachers from across the country and 
people came from New Hampshire to Hawaii, 25 college teachers 
who were able to take advantage of what the institute was doing 
and then take that back to their students, all the students 
that they would be teaching over the years. And that again was 
a very small grant, something like $25,000, that paid summer 
stipends for the 25 people as well as faculty to teach them.
    That same summer, I got a very small grant, $3,500 from the 
D.C. Humanities Council, and that is funded by the NEH's 
Division of State Programs, and what I did was put on a little 
program, a public program about conversations between women and 
men. So we hired actors from a little theater group and they 
acted out these scenarios. We got some free publicity because I 
and a couple of other faculty members went on the Donahue show, 
which at the time was a very small, just starting out local 
show, so because of that, people came from all over Washington, 
attended this, and it was one of the first signs that I had 
that this work on how communication between women and men could 
be understood as linguistic differences had a broad appeal, and 
so all of this was laying the seeds, planting seeds for what I 
later was able to write about.
    One more grant I got from NEH, a basic research grant that 
gave me a year off from teaching in order to develop in more 
detail my work which if you looked at it at the time would seem 
very technical, very academic, very limited, poetic features in 
every conversation, comparing the language of everyday 
conversation with the language of literature. But it is that 
scholarly work that may seem to be a very limited audience that 
really laid the foundation for the work that I was later able 
to build on in writing books that just about anybody could read 
and take advantage of.
    After the book You Just Don't Understand was published and 
the reaction that it got, I did not seek any more funding 
because I did not need it anymore. But I did try to repay my 
debt to NEH by serving on panels and by reading proposals, and 
I think this is--I want to mention that because it is another 
way that the work of NEH is enhanced by a lot of volunteer work 
by academics. Yeah, you get these proposals, nobody pays you. 
You read the proposals and rate them. If you are on a panel, 
you get hundreds of grants that you have to take your time that 
you do not get paid for reading them and rating them and then 
coming and spending days on those panels.
    It is maybe a little bit surprising to hear from a linguist 
at a panel like this because they get support from NSF, and 
that is true. There is a formal branch of the field that gets 
support from NSF. The work I do has something to do with human 
relationships and psychologists get a lot of support from NIMH 
for that. The kind of research that I do and linguists like me 
do that is the role of language in everyday life really does 
not have any other source of support. In fact, that institute 
that I ran was called Humanistic Approaches to Linguist 
Analysis, and that has kind of been my goal in all of this.
    But the amounts of money that are required for this kind of 
research are really very small compared to what is required for 
scientific laboratories or large psychological studies, and I 
will echo what my colleague said about we all know the 
importance of science. In the current issue of New York Review 
of Books, there is an essay by Freeman Dyson, the great 
Princeton physicist, and he said science is a creative 
interaction of observation with imagination, and he was talking 
about the importance of the arts for the sciences, and again 
echoing some of what you just heard, the United States has been 
the source of global innovation not because we are a nation of 
technicians. What informs our technology is our imagination and 
creativity and these are the domains of the humanities.
    So that is the gist of what I wanted to say, just to give 
you a personal account of the huge difference that can be made 
by these small grants in the humanities.
    Before I close, I want to thank you for one more thing. It 
is the hugest gift that anyone could be given, and I suspect I 
am not the only one to have gotten this gift from an NEH grant, 
but I do not think it could ever be guaranteed by a funding 
institution, but at that 1985 linguistic institute that I ran 
that was supported by the NEH institute, one of those college 
and university professors who came to take part in that became 
my husband. So for that very special gift, I want to thank you.
    [The statement of Deborah Frances Tannen follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Moran. We will give NEH a tip.
    Ms. Tannen. And he was born on St. Patrick's Day, by the 
way.
    Mr. Cole. Let me just say as an old Victorian historian, as 
the father of a son who is writing, I hope to God, finally his 
dissertation in philosophy, both of you give me enormous hope.
    Mr. Moran.
    Mr. Moran. I know that you share my love of the humanities, 
Tom, and this is one of the nice things about this Committee, 
that we have some tangential input into promoting them. Tom is 
always reading every time I go on a trip. He is always deep 
into a book. And I do not know what we would do without the 
humanities. The little push that this program provides to 
people who otherwise would have to give up is useful. Some 
potential authors would say, you know, that there is no way I 
can spend the summer writing a book or the ideas that are in my 
head, because I am just going to have to go and do something 
else to put food on the table. NEH helps and oftentimes is 
there for them. So I thank you for your comments, Deborah.
    And Mr. Rawlings, how wonderful it would have been to be an 
undergraduate in your classics course at Cornell. Here you are 
the President of the university and you went back and you 
taught a classics course to undergraduates. Cornell is such an 
outstanding institution, and I know they were having some 
trouble and they brought you back after you had been president 
for many years. To pull that sprawling campus together and give 
it some meaning, some focus, some purposefulness in terms of 
what students and graduate students do when they get out, and 
your impact on so many thousands, countless lives, is just 
priceless. I appreciate you for all that you have done 
throughout your life on behalf of the humanities and others' 
ability to appreciate them. So thank you.
    Mr. Rawlings. Well, thank you very much. I just thought if 
James Madison could go up and help Alexander Hamilton with the 
ratification process in New York, it was the least that I as a 
Virginian could do for New Yorkers.
    Mr. Moran. Well, I appreciate that perspective too. But, 
you know, your whole statement was extemporaneous. I wish it 
had been written down, but it was just from the mind and heart, 
and we thank you.
    Mr. Rawlings. Thank you.
    Mr. Cole. Mrs. Lummis.
    Mrs. Lummis. No questions, but I deeply appreciate you 
being here today and your advocacy for the humanities.
    Mr. Rawlings. Thanks.
    Mr. Cole. Ms. McCollum.
    Ms. McCollum. Well, I wish I would have studied Latin 
harder. That is all I can say.
    Mr. Rawlings. It is not too late.
    Ms. McCollum. Talk to my Latin teacher. And tell my son 
there are other careers for linguists besides living abroad in 
Japan, teaching at Japanese universities. Maybe you can help me 
bring him home with us.
    I think the story that you tell is impactful. If we are to 
be creative, if we are to be successful as human beings and if 
we are to be successful as a country, we have to take the time 
to sit, reflect, read and have an open mind. The humanities, 
the arts, the environment, the sciences, religion, they all 
come together, and you are the home of all that. Thank you for 
being here today, and sharing stories both past and present 
that remind us of how interconnected the humanities are to 
everything that we do. We all are, after all, human, so thank 
you.
    Ms. Tannen. In the spirit of there is hope, I started out 
just moving to Greece and teaching English there for several 
years, and I came back.
    Mr. Moran. That is so true about China and Russia. No 
matter how much they invest in science, no matter how many 
people they put into ``productivity'', they are never going to 
have the innovative and creative capacity that we have, and it 
is because of the humanities. Thanks for coming.
    Mrs. Lummis [presiding]. Thank you both so much.
    Mr. Rawlings. Thank you for the opportunity.
    Mrs. Lummis. We would now like to call up our next panel. 
It consists of Mr. Ulrich, Dr. Grossman, Mr. Hein, Mr. Cassidy 
and Ms. Pierpont, and so if you would all join us at the table? 
So Ulrich on the end. Next to Mr. Ulrich, Dr. Grossman, please. 
Next to Dr. Grossman, Mr. Hein. Next to Mr. Hein, Mr. Cassidy. 
And certainly last but not least, Ms. Pierpont.
    Ms. McCollum. And I think for the first time in history, 
two women are sitting at the head of this table.
    Mrs. Lummis. It is my pleasure and honor actually to 
welcome you to the table, and especially my dear friend Paul 
Ulrich, who is from Wyoming.
    Now, let me tell you a little bit about Paul before we all 
began. Paul Ulrich and his family are the perfect marriage 
between what our previous speaker spoke of, and that is the 
intersection of science and art. Paul's grandparents, Carl and 
Shirley Ulrich, are world-class fossil preparers, and for 
people who are artists in the preparation of artistic fossils 
for display, people who know them can walk in a room and across 
the room they can tell that a fossil was prepared by Carl 
Ulrich. He is a world-class fossil artist, preparer. These 
people have for three generations been an intersection of art 
and geology, and Paul is here in his capacity as a member of 
the board of directors of the Wyoming Humanities Council. But 
it shows you how the geologist in him, and he is an oil and gas 
company executive by professor, but he is by avocation and 
first love someone who works in that intersection between art 
and geology and science and the humanities, and he is also just 
a wonderful, dear individual. So I am delighted, Paul, that you 
are here today and delighted to welcome you. Would you begin?
                              ----------                              --
--------

                                          Thursday, March 22, 2012.

   WYOMING HUMANITIES COUNCIL, REPRESENTING THE FEDERATION OF STATE 
                          HUMANITIES COUNCILS


                                WITNESS

PAUL ULRICH
    Mr. Ulrich. Madam Chair, Representative, thank you very, 
very much. It is a significant honor for me to be here 
testifying, and testifying in front of you, my dear friend. 
Thank you for the kind words for the family. I will carry that 
message on.
    First and foremost, though, I need to carry a message about 
the Wyoming Humanities Council and the state-federal 
partnership, and I will walk through that and then I would love 
to take some questions.
    I have got a bit of written testimony here that I will try 
to walk through, but I will probably talk a little bit off the 
cuff as well. As mentioned, my name is Paul Ulrich. I am from 
Wyoming. And given some of the previous speakers, I think it is 
important to cover a little bit of background. First and 
foremost, several years ago, if you would have asked me to 
describe what the humanities was, I would have had a very, very 
difficult time doing that. Today is a different story. I had 
the opportunity to enter the board of directors of the Wyoming 
Humanities Council and I have learned over the past several 
years truly what humanities is, and bottom line is, it is the 
experiences, it is the stories, it is the ideas and the words 
that we share every day amongst ourselves, whether it is around 
a beer or a water cooler or through a music festival or an arts 
festival or a reading discussion. It is all those wonderful 
things that make us, us, and all those wonderful things that we 
share.
    So I wrote down a few notes, stories and ideas and words 
that connect us. They allow us to address challenges. Most 
importantly for me, they have allowed me and others in Wyoming 
to listen and learn from each other, and not only from my 
neighbor but from somebody from back East or somebody from 
across the world that I may have not or others may have not 
ever had experience before. When you grow up in a small town in 
Wyoming, Matetsi, Wyoming, where I went to elementary school, 
we had a population of a little over 500. We are at about 300 
today. So my 10 classmates and I did not have much of a chance 
to explore the world except for the library and the programs 
that the Wyoming Humanities Council bring to small libraries 
like that across our great state. It allows us to explore and 
to learn.
    Most importantly, when you come from a science background, 
as the chairman mentioned, my family are all scientists, 
geologists, paleontologists, you lean that direction during the 
day. In the evenings when you are reading and discussing what 
you have read and discussing what you have learned, that is the 
human experience. That is what humanities is all about. And 
that is why I and I suspect all of us have a passion for it, 
whether or not we identify it as humanities. Our lives are 
meant to be shared, and the humanities is a perfect vehicle for 
that. It brings us together. It allows us to listen and learn 
from each other.
    And the reason I am here to testify today, down to the 
brass tacks, I am here to request $154.255 million for the 
National Endowment for the Humanities, and out of that, $44 
million for the state humanities councils for fiscal year 2013. 
Last year, councils reached 5,700 communities across the 
Nation. Hundreds of programs in each Congressional district 
serve hundreds of thousands of students, teachers, health care 
professionals, veterans and more. And in 2011, on average, 
these local councils, these state councils, 56 of them, are 
leveraging $5 for every dollar that the NEH provides us. That 
is a heck of a return on your investment. And these are 
leveraged in the small communities across the Nation. We 
receive our core funding through the state-federal partnership 
as a line of the NEA budget, and we have received throughout 
the past through special initiatives such as We the People 
funding as well, and that has been awfully important to these 
state humanities council budgets.
    Real-world needs--dozens of councils offer family literacy 
programs which in the past year alone have benefited hundreds 
of families in rural and urban communities. Dear to my heart, I 
am a veteran. Councils serve veterans. The Missouri council 
offers creative writing workshops and mentoring for veterans, 
literature and medicine in Maine now offered by 26 other 
councils, provides invaluable resources for caregivers of 
returning veterans.
    After Hurricanes Irene and Lee hit last year, the New York 
council swiftly distributed funds from the NEH chairman's 
discretionary grant to provide relief to 31 small cultural 
organizations.
    Most importantly from my standpoint in Wyoming, these 
councils reach small communities that do not get reached. 
Idaho, Let's Talk About It, a reading and discussion program, 
has been very successful. In Wyoming, we are doing things this 
year regarding Giving Voice, which is an outcome of Civility 
Matters, and that program in itself is going to give us an 
opportunity to listen and learn from under-heard individuals, 
most importantly, as I mentioned, veterans, to some extent also 
youth, individuals and families below the poverty line and 
those struggling with mental health issues. We work with about 
9,800 organizations across the Nation including Minnesota's 
council traveling exhibit, Why Treaties Matter, and many other 
organizations.
    We touch a lot of small museums, small populations that 
otherwise would not be reached by the humanities and would not 
understand what these dollars are leveraged for. In sum, we 
serve the citizens' real-world needs. We nurture their 
communities' cultural institutions and we preserve our Nation's 
cultural heritage.
    By partnering with over 9,800 local organizations, our 
councils achieve a fivefold return on your federal funding, the 
funding you provide us. The councils ensure that this federal 
investment benefits the public as a whole, citizens in every 
Congressional district and 5,700 communities in ways both 
intangible and concrete. The humanities programs made possible 
by the federal funding to the councils simply make our 
communities a better place to live.
    Mr. Chairman, thank you.
    [The statement of Paul Ulrich follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mrs. Lummis. Thank you so much, Paul. I deeply appreciate 
your testimony and your presence here today and your 
friendship.
    Rather than take questions now, we will go through the 
panel and take questions then. So I now would like to welcome 
Dr. Grossman.
                              ----------                              

                                          Thursday, March 22, 2012.

                    AMERICAN HISTORICAL ASSOCIATION


                                WITNESS

DR. JAMES GROSSMAN
    Mr. Grossman. Thank you, and I want to thank the members of 
the Subcommittee for the opportunity and the honor of 
testifying in support of funding for the National Endowment for 
the Humanities.
    Congresswoman McCollum, I can share your sensibilities, 
having one daughter who has spent the last 2 years teaching 
English in a Spanish public school and another one who is about 
to head off to Tbilisi to learn Georgian and Chechen. So we can 
discuss this issue of parenting at some other point long 
distance. Thank God for Skype.
    I am testifying on behalf of both the American Historical 
Association, which I serve as the Executive Director, and the 
National Humanities Alliance, a coalition on which I serve as a 
member of the board of directors.
    For fiscal year 2013, we strongly urge the Subcommittee to 
provide no less than $154.3 million in funding--I have rounded 
a little bit. Outside of the sciences, we tend to be somewhat 
less exact sometimes. This is what we humanists do. We trade in 
uncertainty, and that is what we contribute to our national 
culture--which is the same amount requested by the 
Administration. This represents a modest $8.2 million increase 
over the final 2012 appropriation of $146 million. The NEH 
budget has suffered a significant reduction over the last 2 
years, more than $21 million, which is 13.2 percent, in the 
last two fiscal years.
    I have had the privilege and the good fortune to co-direct 
an NEH summer seminar for college teachers, similar to the one 
that Professor Tannen referred to earlier, on how historians 
use biography in our teaching and research. The participants 
were faculty members from teaching-oriented colleges and 
universities. We read biographies of individuals who shaped 
American history. We talked about how historians reach broad 
audiences by writing biography and how we use biographical 
materials in our classrooms to bring history alive to students 
interested in individual stories. We exchanged ideas about how 
we integrate our reaching and research and how we create new 
knowledge through the study of individuals in historical 
context. This is what the NEH does, supports programs like 
this. And this work is important beyond our campuses. The 
research and teaching supported by the NEH are central to 
understanding not only our own heritage but also foreign 
cultures and languages.
    We can neither formulate informed foreign policy or even 
military strategy nor compete in the global marketplace without 
continuing to support research and teaching in these areas. 
That support is currently inadequate, especially given the 
limits of other sources of funding. Our inability to support 
the work of young scholars through the fellowships program that 
I benefited from early in my career and that Professor Tannen 
referred to is akin to plowing under our seed corn. Young 
scholars need the kind of opportunity that I had in 1985 to 
write books that launch careers. Currently, NEH funds only one-
sixth of its applicants. I have served on enough peer review 
panels to know that many more proposals merit support.
    I have also worked with NEH staff for more than two decades 
and have been consistently impressed by the efficiency and 
fairness with which they have dealt with a budget that has 
precipitously declined in real dollars. I have also seen the 
damage that has taken place because the endowment can no longer 
support humanities infrastructure and projects in the way that 
it should.
    We do our humanities work well in the United States. 
American higher education remains the best in the world, a 
beacon for students across the liberal arts disciplines and an 
inspiration for the teaching and modeling of creative and 
critical thinking. I was at a conference in Beijing in October 
and had the opportunity through a translator--I do not have 
those sorts of linguistic skills--to speak with many of my 
colleagues. What was interesting was that the younger Chinese 
scholars are planning to send their children to the United 
States for liberal arts education. They know where one gets a 
good education.
    The research and education programs funded by the NEH are 
essential to maintaining the quality that enables American 
universities to attract these students from across the world. 
This brings money into our economy and it builds ongoing 
networks as graduates return home as leaders in business and 
government.
    The work of the NEH benefits all Americans in other ways as 
well. The humanities are a lifelong enterprise and a public 
resource. Think about the educational role of our museums and 
libraries for Americans of all ages and backgrounds. Perhaps 
some of you might have seen the exhibition a few blocks away at 
the Folger Shakespeare Library last year on the history of the 
King James Bible. NEH support enables a version of that 
exhibition and others on Ben Franklin and Abe Lincoln to travel 
to Laramie, Wyoming, and other towns and cities across the 
Nation. NEH grants enable institutions like the Idaho State 
Historical Society--sorry the chairman has left--and the 
Mountain Home Public Library to preserve the thousands of 
photographs, maps and oral histories that document our 
heritage.
    The NEH has also moved aggressively in developing digital 
resources that have transformed how people discover and 
experience the past. To this generation of students, if it is 
not online, it does not exist. From a first grader doing a 
school report on Abraham Lincoln to high school seniors trying 
to understand the complexities and historical context of the 
American experience in Central Asia, their first destination is 
the Internet. Digital humanities programs supported by the NEH 
help ensure that students have ready access to the best 
scholarship. Through its EDSITEment website, the NEH makes it 
easy for high school teachers to find high-quality materials 
specifically oriented towards teaching and learning.
    In light of what Congressman Cole said earlier, I recognize 
that the subcommittee confronts difficult and complex choices 
in allocating priorities. My colleagues and I remain grateful 
for the strong support that the Subcommittee has demonstrated 
for the NEH in the past, and we hope that you will continue to 
consider the endowment as a vital investment in the Nation's 
global competitiveness, the strength and vitality of our civic 
institutions, the preservation and understanding of our diverse 
cultural heritage and the lives of our citizens. Thank you.
    [The statement of James Grossman follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mrs. Lummis. Thank you, Dr. Grossman. If I were a 
basketball referee, I would be fired because I have been pretty 
liberal with the clock.
    So I will ask Mr. Hein to pay note to the little device in 
front of you, and when you see it go red, start to wrap up, and 
we gratefully welcome your attendance today. Welcome.
                              ----------                              

                                          Thursday, March 22, 2012.

                          PRESERVATION ACTION


                                WITNESS

ERIK M. HEIN
    Mr. Hein. Thank you very much for the opportunity to be 
here today, and I will try very hard to keep my remarks to the 
5-minute limit. The pressure is on.
    I would like to shift gears slightly and talk about 
historic preservation. I am Erik Hein. I am the President of 
Preservation Action, which is the only national grassroots 
advocacy organization dedicated only to federal preservation 
policy, and I am also a graduate of the humanities program at 
Penn State University, so I am very sympathetic to the remarks 
of those who preceded me.
    The National Historic Preservation Act is an amazing 
document. It establishes core principles for the preservation 
of our heritage and a collaborative process that lets people 
help determine what is worth saving, and it rejects the notion 
that the only way to preserve something is for the government 
to own it. It is designed to encourage partnerships and to give 
every American community the opportunity to access our 
collective heritage, and at the same time helping them to find 
their own sense of place.
    Key to this process was the creation of the State Historic 
Preservation Offices. To help fund the SHPO offices, as we 
often refer to them, in 1976 Congress established the Historic 
Preservation Fund. Modeled after the Land and Water 
Conservation Fund, it is authorized to receive $150 million per 
year, although it has never actually received that, and it is 
derived from lease revenues from the Outer Continental Shelf. A 
portion of this funding on a matching basis is given to SHPOs 
to help them complete federal reviews, National Register 
nominations and to administer the Federal Rehabilitation Tax 
Credit program, which in 2011 leveraged over $4 billion in 
investment and created over 55,000 jobs. And to keep these 
programs moving, we would like to request level funding, which 
is in line with the Administration's request, of $46.925 
million, to be precise, for fiscal year 2013.
    Also key to this process are Tribal Historic Preservation 
Offices, or THPOs, who carry out many of the same functions as 
SHPOs but on tribal lands. Each year, as we recognize more 
tribes, new THPOs are added. In 1996 when the program began, 
there were only 12. Today, there are over 130. Unfortunately, 
funding has not kept pace so each new THPO means less money to 
go around. Therefore, we would like to see a small increase in 
THPO funding to $9.7 million from the Administration's request 
for level funding at $8.9 million.
    The National Historic Preservation Act also recognizes the 
funding need for the restoration of nationally significant 
places. With this in mind, we would also like to request $10 
million from the Historic Preservation Fund for a fully 
competitive grant program administered by the SHPOs. This 
represents only one-third of the total previously funded 
through the Save America's Treasures and Preserve America 
programs that used to serve this purpose. Last year, rather 
than reducing funding for these programs, the Administration 
requested the elimination of all $30 million in funding by 
saying it would allow the Park Service to focus available 
resources on managing national parks and other primary 
responsibilities. As a steward of more than 27,000 historic 
structures and 66,000 archaeological sites and the department 
managing components of the National Historic Preservation Act, 
we would argue that preservation is our primary responsibility.
    Unfortunately, the Administration also proposes a $1.4 
million reduction in cultural resource stewardship, a reduction 
in construction and major maintenance, and a 50 percent cut for 
National Heritage Areas which for the record we would like to 
see level funded. At the same time, there is $215 million 
proposed for natural resource stewardship programs, which is 
twice the amount of cultural stewardship programs, and a more 
than 50 percent increase to the Land and Water Conservation 
Fund, which is used primarily for land acquisition. But why 
does there have to be this tension between natural and cultural 
resources or between park and non-park programs? Why does it 
have to be feast versus famine? Last year, Preservation Action 
convened a task force that included 11 national historic 
preservation organizations and we issued a report that analyzes 
this problem and concludes there needs to be increased levels 
of leadership, partnership, innovation and, above all, 
visibility.
    To achieve this, we have issued a set of no-nonsense 
solutions that do not require a great deal of funding, and they 
attempt to maximize return on investment. You will find those 
recommendations in our written testimony. We would welcome the 
opportunity to work with members of this committee to find a 
way to help facilitate these changes.
    Our Nation's cultural resources and natural resources are 
both important. We believe that they are not an either/or 
proposition. During this time of widespread discussion on jobs 
and investment in infrastructure, we respectfully ask that you 
consider investment in our cultural resources, the preservation 
of our great American heritage and the jobs that go along with 
historic preservation as a vital part of the equation.
    [The statement of Erik Hein follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mrs. Lummis. Thank you, Mr. Hein, and we deeply appreciate 
your testimony too. As someone who is married to a guy who has 
never seen an old building he did not want to fix up, and who 
has probably taken more buildings to the National Trust for 
Historic Preservation process in Wyoming than anybody else and 
who was on the board of advisors of the National Trust for 
Historic Preservation for many years, loved it, and I have done 
many, many historic preservation trips and tours in my role as 
a spouse, so I have a certain affinity for what you are trying 
to accomplish, and if I did not, I could never go home.
    I would like to welcome now Mr. Cassidy, who is the Vice 
President of the National Trust.
                              ----------                              --
--------

                                          Thursday, March 22, 2012.

                NATIONAL TRUST FOR HISTORIC PRESERVATION


                                WITNESS

TOM CASSIDY
    Mr. Cassidy. Thank you, Madam Chairman and members of the 
Subcommittee. I appreciate this opportunity to present the 
National Trust for Historic Preservation's fiscal year 2013 
budget recommendations. My name is Tom Cassidy and I am the 
Vice President of Government Relations.
    The Nation faces a challenging fiscal environment. We 
recognize the need for fiscal restraint and cost-effective 
federal investments. However, we do not believe that 
preservation, conservation and recreation programs should 
suffer from disproportionate funding reductions. We look 
forward to working with the Committee as it addresses the 
challenge of sustaining our Nation's rich heritage of cultural 
and historical resources but also generates the economic 
vitality of communities throughout the Nation.
    The Historic Preservation Fund, as Erik described, is the 
principal source of funding to implement the Nation's historic 
preservation programs. The President proposes level funding. 
While we appreciate that is not a cut, we recommend the 
Committee provide a modest increase for the HPF, reflecting 
both the ongoing demands of preservation services from SHPOs 
and the increasing number of tribes who qualify for HPF 
funding.
    We would also like to work with the Committee to restore a 
program of competitive matching grant funding such as was 
formerly provided by Save America's Treasures to restore and 
preserve significant historic resources.
    I would also like to address the cultural resources 
stewardship account within the Park Service operations budget. 
Two-thirds of our national parks were created to protect our 
most important cultural and historic resources yet there is a 
longstanding disparity between funding for cultural and natural 
resource programs. This problem continues in the fiscal year 
2013 budget, which proposes an increase in natural resources 
stewardship but a reduction for cultural resources. We urge the 
Committee to at least restore the cultural resources account to 
its fiscal year 2012 enacted level.
    Of the nearly $11 billion of deferred maintenance needs for 
NPS, $3 billion is for the 27,000 properties in park units 
listed on the National Register. More than 40 percent of 
historic buildings in our parks are in fair or poor condition. 
Without funding, the condition of these properties will 
continue to deteriorate and become more expensive to repair and 
preserve in the future. Therefore, we recommend the Committee 
restore the proposed $15 million cut from the repair, 
rehabilitation and maintenance accounts and provide funding at 
the fiscal year 2012 enacted level.
    The National Trust is conducting fundraising efforts to 
address this gap, most recently and successfully in Wyoming at 
the White Grass Dude Ranch in Grand Teton National Park but 
private money must be matched by federal funds. We also very 
much appreciate the Committee's inclusion of language in the 
fiscal year 2012 conference report recognizing that historic 
leases can provide a cost-effective and innovative solution to 
mitigate the maintenance backlog of historic properties. We are 
working with the Park Service and private partners to 
successfully implement such leases and bring investment to 
rehabilitation expenses.
    We also are disappointed the Administration has proposed a 
50 percent decrease in funding for the National Heritage Areas. 
The proposed reduction would severely impair the sustainability 
of individual NHAs. A recent actually 2012 study of the Park 
Service found that without funding to replace the NPS 
investment, few NHAs are expected to survive longer than a few 
years. During these challenging times, every program that 
receives federal funding needs to justify its worth and deliver 
substantial benefits to the American public. NHAs more than 
meet this test. They are community-driven partnerships that 
advance conservation and economic development and where each 
federal dollar is leveraged by $5\1/2\ of non-federal 
investments. We urge the Committee to maintain funding at the 
enacted level.
    Finally, the Bureau of Land Management oversees the largest 
and most diverse body of cultural resources of any federal land 
management agency yet BLM receives the least amount of cultural 
resources money per acre of any agency. We strongly support the 
president's fiscal year 2013 request of a modest and well-
justified increase for the cultural resources management 
account.
    I feel that I have to talk about the Land and Water 
Conservation Fund since I still have 18 seconds left to go, and 
we would support robust funding for the LWCF. Many of the 
Nation's most significant and cultural landscapes have been 
permanently protected through LWCF investments including the 
Flight 93 National Memorial, Minidoka National Historical Park, 
Gettysburg National Military Park, and we support the 
Administration's request for the Park Service Civil War 
Sesquicentennial Units and the American Battlefield Protection 
program grant.
    Thank you very much.
    [The statement of Tom Cassidy follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mrs. Lummis. Thank you, Mr. Cassidy, and you are right 
about White Grass. It is fantastic and I highly recommend 
anybody who has a chance to get out to Grand Teton National 
Park, go see the efforts they are making to preserve those 
historic structures.
    Ms. Pierpont is with the preservation officers, and we 
welcome you.
                              ----------                              

                                          Thursday, March 22, 2012.

      NATIONAL CONFERENCE OF STATE HISTORIC PRESERVATION OFFICERS


                                WITNESS

RUTH PIERPONT
    Ms. Pierpont. Thank you very much. I am Ruth Pierpont, 
President of the National Conference of State Historic 
Preservation Officers, and I am also the New York Deputy State 
Historic Preservation Officer, or SHPO for short, as Erik said.
    On behalf of Jan Gallimore, the Idaho SHPO, Mary Hopkins, 
the Wyoming SHPO, Kathleen Kilpatrick, who is the Virginia 
SHPO, and all the SHPOs across the country, I would like to 
thank the chairman, Ranking Member Moran and all the members of 
the subcommittee for your support of SHPOs and for the 
opportunity to testify before you today. I also want to take 
one second to thank Mr. Hinchey and Mr. Serrano as a New Yorker 
for all their support, and Mr. Hinchey should not be allowed to 
retire but nobody asked me, so anyway.
    The National Historic Preservation Program is an 
outstanding example of federalism with the National Historic 
Preservation Act setting the policy and the states through the 
SHPOs administering the program which has flourished for the 
past 46 years. This year, our theme is Preservation Equals 
Return on Investment. This return on investment takes many 
forms including economic development, job creation, community 
livability and sustainment of America's heritage. Even in an 
economic downturn, investment in preservation has been 
sustained and continues to be a driving force. The Federal 
Historic Preservation Tax Credit program, which is administered 
by the SHPOs in partnership with the National Park Service, is 
a shining example of how this program works. As Erik mentioned, 
in 2011 these rehabilitation task credits stimulated over $4 
billion in private investment and created over 55,000 jobs in a 
wide range of both general and specialized skills. 
Preservation's return on investment also equals heritage 
tourism. In 2010, the Department of Commerce conducted a survey 
of international visitors' activities. This survey found that 
visiting America's national parks ranked tenth but visiting 
America's non-national park historic sites ranked third. And, 
by the way, number one and two were shopping and dining, so I 
cannot complain about that.
    As you know, it is the SHPOs who assist these non-federal 
historic sites and work with the communities to help maintain, 
rehabilitate and use their historic assets and resources. These 
are the places that international and domestic tourists alike 
come to visit, places like Chesterfield, Idaho, Alexandria, 
Virginia, Summit Avenue in St. Paul, Minnesota, and closer to 
my home, Ithaca, New York, and of course Jackson Hole, Wyoming, 
which I had the pleasure to visit a couple of years ago. And we 
do this on a shoestring budget of less than 50 million federal 
dollars which is a small fraction of the National Park 
Service's $2.6 billion budget. As they say in infomercials, but 
that is not all. For less than that $50 million, in 2011 the 
return on investment for American taxpayers also included 
reviews of over 140,000 federal undertakings, over 100,000 
National Register eligibility opinions, over 1,000 new listings 
on the National Register, surveys of over 20 million acres to 
determine the presence or absence of cultural resources, and 
this is all in addition to the $4 billion in private investment 
and 55,000 jobs through the tax credit program.
    In a brief aside, while these statistics are I think very 
impressive, I do need to underscore what has been mentioned 
previously, the continued need for a historic preservation 
grant program. In the states, we certainly understand the need 
for fiscal austerity but it is disappointing to see job-
creating grant programs such as Save America's Treasures and 
Preserve America go unfunded. And while these were successful 
programs, Congress also has the option of running a grant 
program through the SHPOs as authorized by the National 
Historic Preservation Act. While a much greater need exists, 
there is no question that a $5 million to $10 million capital 
grant program would create jobs, spur economic development and 
help communities preserve their historic heritage, catalyzing 
even greater economic opportunities.
    I want to emphasize that SHPOs are very grateful to have 
experienced modest operating funding increases over the past 
couple of years. This is why our fiscal year 2013 operational 
funding request is level funding from fiscal year 2012 at 
$46.925 million. We also support $9.7 million for the Tribal 
Historic Preservation Offices.
    And here is a quick trivia question. You do not really have 
to get this but I will ask it anyway. Aside from fiscal year 
2012, which other year did SHPOs receive around $27 million, 
the highest year? It was 1979. So inflation aside, you can see 
that SHPOs are very efficient with their resources although we 
are reduced to maintaining very basic and minimal services and 
unable to take on other activities that are called for under 
the National Historic Preservation Act.
    So in conclusion, thanks to this very efficient federal-
state partnership, people across the Nation from rural 
communities to large metropolitan cities can walk down the 
streets and realize that the historic structures that make up 
the places that they live in are more than just bricks and 
mortar. Rather, they are building blocks from our past 
fulfilling the needs of today. Thank you.
    [The statement of Ruth Pierpont follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mrs. Lummis. Thank you very much, and I want to thank the 
whole panel for their testimony.
    Before I yield to my colleagues, I have a quick question 
for Mr. Ulrich. The We the People program was something that 
NEH funded through the councils but the reduction of about $7 
million in funding has caused to the councils specifically over 
time has caused the elimination of such programs as We the 
People from being funded at the council level. Have you been 
able to make up for those funds through other sources?
    Mr. Ulrich. Chairman Lummis, most of the councils are 
struggling to make up those significant reductions in funds. A 
lot of that is through obviously working towards increasing 
private donations and et cetera but the short answer is no. We 
are hopeful, however, that through NEH's line item on Bridging 
Cultures that the majority of those funds can flow to the state 
humanities councils. We are certainly strong believers that the 
closer you can get those tax dollars to the communities and the 
small and rural communities we certainly deal with in Wyoming, 
the better off you are going to be and the more effective those 
dollars are going to be spent, but the short answer, not yet.
    Mrs. Lummis. Thank you. And once again, I want to thank the 
panel and yield to my colleague, Mr. Moran.
    Mr. Moran. Thanks, Ms. Lummis. We have votes, we are told, 
between 11:00 and 11:30 so I think in consideration of our 
subsequent panelists, I am going to pass on asking questions 
and we will try to get as many in because it is probably going 
to be almost an hour of votes that we have ahead of us.
    Mrs. Lummis. Ms. McCollum.
    Ms. McCollum. Well, I would just like to say that this 
committee took a strong bipartisan stance, with the chairman's 
leadership with Saving America's Treasures; I was glad to see 
the President did not zero out in his budget but was 
disappointed at the funding level. So we thank you for your 
testimony.
    Mrs. Lummis. Thank you, panel. You are dismissed, and we 
are very grateful for your being here today.
    The next panel includes Mr. Kiernan, Mr. Werner, Mr. 
Lightizer--did I get that right? What is the correct 
pronunciation?
    Mr. Lightizer. Lightizer.
    Mrs. Lummis. Lighthizer, of course. Ms. Tulipane.
    Ms. Tulipane. I am right here.
    Mrs. Lummis. And did I pronounce that correctly? Okay. And 
Ms. DeCoster, um-hum. It would help if I had my reading glasses 
on. And Mr. Doyle, please. Okay. So do we have you in order? 
Kiernan----
    Mr. Kiernan. Right here.
    Mrs. Lummis [continuing]. Werner, Lighthizer, Tulipane, 
DeCoster, Doyle. Thank you and welcome. We will begin with Mr. 
Kiernan with our apologies if we have to interrupt you for 
votes. But please do begin. Welcome.
                              ----------                              

                                          Thursday, March 22, 2012.

                NATIONAL PARKS CONSERVATION ASSOCIATION


                                WITNESS

THOMAS C. KIERNAN
    Mr. Kiernan. Great, thank you very much. Madam Chairman, 
thank you very much, and members of the committee, thank you. 
Tom Kiernan with NPCA. And Mr. Chairman, it is wonderful that 
you joined us this morning.
    Since 1919, NPCA has been the leading voice of the American 
public to protect and enhance our National Parks. And on behalf 
of our over 600,000 members and supporters throughout the 
country and in every State, we are pleased to be here to 
testify before you.
    Mr. Chairman, we do recognize the extraordinary challenging 
times that you and the Committee have in this budget climate to 
identify spending priorities. First, we do want to thank you 
for your work over the last couple years. This committee has 
been doing its absolute best to protect the funding for the 
National Parks. And we want to recognize that, thank you for 
that. We also want to acknowledge the work of this committee to 
keep the Appropriations Bill free from policy riders and we 
very much appreciate that. And last thanks to you, personally, 
Mr. Chairman. You spearheaded a letter back to the Super 
Committee for commonsense approach to dealing with the deficit 
and we want to particularly thank you very much for that letter 
this past fall.
    I am here to argue on behalf of healthy funding for the 
National Parks. We believe that they very much need to be, in 
these challenging times, a high priority for funding. Investing 
in our National Parks is something that is investing in our 
future as a country and very much in the economic vitality 
throughout the country. And my written testimony includes a 
number of new studies but to summarize it by saying that 
National Parks create American jobs. In particular, they 
generate $31 billion of economic activity and support 258,000 
jobs throughout the country.
    The Obama Administration acknowledges quite recently with 
the President's announcement in the executive order to increase 
tourism throughout the country, which we wholly support. 
Unfortunately, the budget that they proposed is not fully 
consistent with that because they are putting forward a budget 
with a $22 million reduction in base operations to the Park 
Service. And that does clearly concern us. It could lead to 
approximately 200 FTEs in the Park Service being eliminated, 
could potentially be--depending upon how they do it--600 
seasonal employees. And it is, as this committee knows well, 
the seasonal employees that are the frontlines in meeting, 
greeting, ensuring the safety of the visitors throughout the 
National Parks.
    We cannot realistically hope to encourage tourism to the 
National Parks at the same time that we are cutting the budget. 
And we are duly concerned we may be sliding back into that era 
of endangered rangers and of shuttered visitors' centers and of 
dirty or closed bathrooms through the country and unsafe roads 
and buildings and visitors' centers in the National Parks. That 
is not what we want to go back to, especially at a time that we 
are trying to increase tourist activity through the National 
Parks throughout the country.
    So a concern on the park funding side, also want to talk 
about the construction budget for the National Parks. Over the 
last two years, that budget has been cut by 35 percent, an $84 
million reduction in the construction budget. And we can 
empathize with the viewpoint that delaying some of those 
construction projects may need to be needed to deal with the 
budget challenges, but in reality what we are doing is 
increasing the backlog, the maintenance backlog, which is 
currently $11 billion in total, $3 billion for critical systems 
in the park system. And at the current funding level, that 
backlog is growing. The Park Service estimates it is increasing 
by $300 million per year. So we believe we need to increase the 
construction budget; otherwise, we are just making that backlog 
larger and more of a problem for future years.
    The third main program that I want to speak about is the 
LWCF program. We do understand that it can be an easy target 
from a budget perspective, but LWCF is not a luxury program 
from our viewpoint. Funding the Land and Water Conservation 
Fund is about improving the management efficiency, at least in 
the Parks domain in our National Parks. It enables the Park 
Service to more efficiently deal with the fire risks; it helps 
them more efficiently deal with invasive species, removing some 
of the obstacles to recreation and wildlife movement in the 
Parks and it helps facilitate the conservation of historic 
resources.
    So LWCF we strongly support and very much want to thank 
you, Congresswoman Lummis, for your and other members of the 
committee's support for the Wyoming State School lands 
purchase. That is a very high priority for us to help protect 
Grand Teton National Park.
    From the American public's perspective, the polling and 
support for the National Parks could not be stronger. Even 
during the very significant economic recession over the last 
many years, 85 percent of the American public is still calling 
for funding increases in our National Parks so that they are 
ready to serve the American public for a second hundred years.
    With that mentioned of the coming Centennial in 2016, let 
me just say that NPCA, the National Park Foundation, the 
National Park Hospitality Association in collaboration with the 
Park Service held America's Summit on National Parks this past 
January. The parks community is coming together to craft a 
common agenda for the parks as we approach the 100th 
anniversary. And that community is very much looking forward to 
working with this Committee and supporting this committee in 
giving the parks the right budget so that the parks can be 
prepared for a second hundred years of extraordinary service to 
the American public.
    So thank you very much again for your past support for 
parks. We have got the Centennial out there and we have got the 
community organized to support you in well funding the parks.
    [The statement of Tom Kiernan follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Simpson. Thank you.
    Mr. Kiernan. Thank you very much.
    Mr. Simpson. Mr. Werner.
                              ----------                              

                                          Thursday, March 22, 2012.

               PARTNERSHIP FOR THE NATIONAL TRAILS SYSTEM


                                WITNESS

GARY WERNER
    Mr. Werner. Mr. Chair, members of the Committee, I am Gary 
Werner. I am here from Wisconsin representing the 35 
organizations that are partners with the Park Service, the 
Forest Service, Bureau of Land Management, and indeed with you 
in the stewardship of an important portion of our public land 
heritage. And I want to thank you and your predecessors on this 
Committee for the strong support over the last two decades that 
you have given for the 30 congressionally authorized National 
Scenic and Historic Trails--and actually I should pass a map 
down this way--which, as you can see, Mr. Chairman, they extend 
for over 50,000 miles through 49 of the States, through 80 
National Parks, 70 National Wildlife Refuges, over 100 
wilderness areas, and just as importantly, through 465 state 
parks. And also, just as importantly, they extend the values of 
these public lands but they also go through 100 of the 
metropolitan areas of over 50,000 population in the country, so 
providing opportunities to connect people close to home with 
our natural, historic, and cultural heritage.
    And Wyoming, of course, has the distinction of having the 
most trails, five national historic trails and one scenic 
trail. Idaho of course has a crossroads of Continental Divide, 
Nez Perce, Oregon, California trails. Minnesota has the 
distinction of having some of the more spectacular portions of 
the longest national scenic trail, the North Country Trail. And 
Virginia here, you have Potomac Heritage, you have Appalachian, 
you have the Overmountain Victory, and you have the Captain 
John Smith Chesapeake, so a real treasure house of these 
resources.
    You know that you authorized these trails as public-private 
partnerships, and we are proud to say that our commitment as 
your partners remains strong. We are proud to report to you 
that for the second year in a row in 2011 we conservatively 
recorded over 1,150,000 volunteer hours among our 
organizations. That amounted to over $24 million of labor value 
plus another $8 million of financial value, about 33 million 
that we are directly contributing to the 26 million or so that 
you are providing to the three agencies that administer and 
manage these trails. That amount of volunteer labor amounts to 
556 full-time employees, so we are extending the federal 
workforce, your workforce by that amount. But we are also, more 
importantly, engaging thousands of citizens all across the 
country in stewardship of our American public heritage. And we 
think that is one of the geniuses of the National Trail System 
to have this public-private involvement.
    For 2013, we have a couple of requests. In the operations 
for the three agencies for the trails, we are asking for 16.2 
million for the Park Service for the 23 trails that it 
administers; for the Bureau of Land Management, about 8.9 
million for the three trails it administers and the 10 trails 
it manages on the public lands in the west; for the Forest 
Service, 9.1 million for six trails it administers and 16 
trails that it manages.
    We also support very strongly the Administration's request 
of 69.5 million to fund the overall 26 million acres of the 
National Landscape Conservation System in the Bureau of Land 
Management. We also, like the National Parks Conservation 
Association and others, strongly support the Administration's 
$49 million for the Land and Water Conservation Fund and 
including about $40 million for acquisitions along 17 of the 
trails.
    There are two quick things I want to say that we need some 
specific help from the committee. You have tried in the past 
and it did not quite work. The Bureau of Land Management budget 
does not recognize funding directly for the National Scenic and 
Historic Trails, nor the wild and scenic rivers. Rather, they 
draw funding from about 15 to 20 sub-activity accounts to fund 
the trails. We are asking that you provide direction to the 
Agency to set up sub-activity accounts for these components of 
the National Landscape Conservation System. You did that two 
years ago in your report language, but the Office of Management 
and Budget told the Agency to disregard your guidance. And the 
Agency would love to comply if they were given the right nudge 
I think.
    The second thing is the agency budgets are putting travel 
ceilings on the ability of their staff to go out and meet with 
the partners that are essential for making these trails work. 
And we would hope that you could give some guidance to perhaps 
revisit the understanding that being able to meet with your 
partners is essential to doing the work of particularly 
projects that are as extensive as the National Trail System.
    So once again, I want to thank you for your strong support.
    [The statement of Gary Werner follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Simpson. Thank you. We are going to have votes. In fact 
they started right now, but I would like to get through this 
panel if we could please. So if everybody could summarize their 
remarks because the next panel is going to have to wait until 
12:30 when votes will be over. And I figured you would rather 
be here than wait until 12:30. So go ahead, Jim.
                              ----------                              

                                          Thursday, March 22, 2012.

                            CIVIL WAR TRUST


                                WITNESS

O. JAMES LIGHTHIZER
    Mr. Lighthizer. Thank you. Mr. Chairman, members of the 
Committee, my name is Jim Lighthizer. I am president of the 
Civil War Trust. I would like to echo what the two previous 
figures say and thank you all for your support and the staff I 
might add over the past two years. I know it has been a very, 
very difficult time economically but you all have been 
tremendously supportive and I thank you.
    The Civil War Trust is a membership-based organization with 
55,000 members around the country, and I come here to speak in 
support of the American Battlefield Protection Program and the 
funding that goes with it. I think the members of this 
committee are very much aware of how it works. Suffice it to 
say it is the sesquicentennial and it is a one-to-one match 
program, and since I got to come up with the one, it is helpful 
when you have a heightened public awareness like we have got 
during the sesquicentennial. It is kind of get while the 
getting is good.
    So I come before you to thank you for your past support to 
ask that you do the best job you can consistent with reality 
and funding going forward and to tell the Congresswoman from 
Wyoming that my wife and I are going to be spending a large sum 
of money for us in your state at a dude ranch this summer. So 
just remember the door swings both ways, okay?
    Thank you, Mr. Chairman.
    [The statement of O. James Lighthizer follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Simpson. And, you know, you can come over the pass, 
into Idaho, too.
    Mr. Lighthizer. That is where all the rich people are.
    Mr. Simpson. Go ahead.
                              ----------                              

                                          Thursday, March 22, 2012.

                NATIONAL RECREATION AND PARK ASSOCIATION


                                WITNESS

BARBARA TULIPANE
    Ms. Tulipane. Hi, I am Barbara Tulipane with the National 
Recreation and Park Association. Thank you for this 
opportunity.
    NRPA represents local parks so although we like parks, we 
really focus on the community parks and the state parks. I am 
here today to talk about funding for LWCF, specifically, the 
State Assistance Program. I am trying to be very fast so I am 
going to cut right to the chase.
    First, we ask that you provide ample funding for LWCF, 
especially for the State Assistance Program. Second, we ask 
that you choose to direct the LWCF investment to state and 
local communities by allocating 40 percent of total LWCF 
appropriations to the State Assistance Program. It is important 
to note that over the last 25 years, the State Assistance 
Program has received only 11 percent of total LWCF funding, but 
the reality is that local parks are where the Americans are. We 
do not have to worry about attracting visitors. Our parks are 
being overrun and yet we only receive 11 percent.
    Third, we ask that you specify that no state assistance 
dollars are to be used for the DOI's proposed Competitive Grant 
Program, which will diminish the current ability of this 
program to serve more people in more communities.
    Funding LWCF in 2013 is a sound fiscal policy and good for 
national health and the economy for all the reasons you know, 
investment in local economies, jobs, et cetera, et cetera. We 
strongly oppose changing the funding formula to allow a new 
Competitive Grant Program. The distribution formula to the 
States is tried and true and it does not need fixing. One 
hundred percent of the funding is equitably distributed among 
States based on a formula approach which does not favor one 
Congressional District or partisan affiliation over another. We 
urge the Committee to prohibit any diversion of LWCF State 
Assistance Funds from their original intended purpose.
    We ask that you adopt three simple recommendations: provide 
ample funding for LWCF, allocate a minimum of 40 percent of 
total LWCF funding to the State Assistance Program, prohibit 
any diversion of formula funds to a DOI Competitive Grant 
Program. Local parks and recreation agencies are not merely 
amenities; they are essential for the health and the vitality 
of the American public. As the authors of this Act clearly 
understood nearly 50 years ago when they mandated that 60 
percent of LWCF funding should go to the State Assistance 
Program, the benefits of this program have been invaluable and 
every member of this subcommittee can point to what it has done 
to his or her community. Please continue to strengthen this 
legacy of conservation for all Americans.
    Thank you.
    [The statement of Barbara Tulipane follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Simpson. Thank you, Barbara.
    Katherine.
                              ----------                              

                                          Thursday, March 22, 2012.

                       THE TRUST FOR PUBLIC LAND


                                WITNESS

KATHERINE DECOSTER
    Ms. DeCoster. Thank you, Mr. Chairman and members of the 
Subcommittee. My name is Kathy DeCoster and I am representing 
the Trust for Public Lands today. And I did want to thank the 
members of the Subcommittee for the time you spend listening to 
the public over these two days and every year. I think it is 
unrecognized how much time you spend doing this. I wanted to 
say that.
    Quickly, we are here to reiterate what many on this panel 
have already said, which is support for the Land and Water 
Conservation Fund, which in this budget we see it as a balance 
between the needs at the federal level and through the State 
Grants Programs for parks as Barbara mentioned and also for the 
Forest Legacy Program, the Civil War Grants that Jim mentioned, 
and the Section 6 Program. All of that money goes to States and 
localities to do community-based conservation at that level.
    Often people ask why there needs to still be an investment 
on the federal level, and I think, you know, we are very 
appreciative of the understanding you have of the needs in 
Idaho and other members in their own States. I wanted to raise 
one example that we are experiencing with the challenges of the 
funding level right now at Kennesaw Mountain National 
Battlefield Park right outside of Atlanta. We have been working 
with a landowner for two years on a property. It was in the 
budget last year. It did not get funded. The landowner informed 
us last week that they would not be renewing their option and 
they are putting it on the market on a short sale. We hope that 
does not occur but that is the stress and the strain that is 
occurring. They were a very willing landowner, very patient 
landowner, and we are afraid that sesquicentennial is 2014 that 
we will actually be seeing houses built rather than a great 
park celebration. So we hope we can work that out but I just 
wanted to point that out.
    And then on the issue of the Competitive Grants, you know, 
we are in a slightly different place than Barbara is in that 
our work at the state and local level creating parks in cities, 
we see a need missing. There is not a program directed at urban 
parks or parks in cities. When those come up, advocates have to 
figure out which program they can go to but there is not one 
just for parks and cities. So we see this Competitive Grants 
Program as meeting that need, how we balance out, you know, 
where it comes from and all that kind of stuff. We look forward 
to working with you on trying to figure that out, but there is 
an urgent need at the very local level that we see continuing 
to be unmet.
    And lastly, just wanted to mention quickly the Community 
Forest Program. You have appropriated three years increasing 
amounts each year so they can finally get the first grant 
round-out. There is a huge demand for that. It allows local 
communities and tribes to buy forests locally and control them 
and generate revenue through sustainable timber harvesting or 
outdoor recreation and benefit that local community. So it is 
kind of a new program but we appreciate your past support and 
hope you will continue to do that.
    Thank you.
    [The statement of Katherine DeCoster follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Simpson. Thanks, Katherine.
    Go ahead, Robert.
                              ----------                              

                                          Thursday, March 22, 2012.

                    EAST BAY REGIONAL PARK DISTRICT


                                WITNESS

ROBERT E. DOYLE
    Mr. Doyle. Thank you very much, Chairman Simpson and 
Ranking Member Moran and members of the Committee. My name is 
Robert Doyle. I am the general manager of the East Bay Regional 
Park District in Oakland, California. We are the largest and 
oldest regional park agency in the Nation. I guess that would 
mean that we were the first created. Another way of saying it, 
we were created in the Depression and we are mindful of the 
Depression and what my parents went through and probably what 
your parents went through and what people did to get through 
that. So people in the Depression in East Bay decided to create 
a park system, a small miracle at that time. And we take that 
very seriously.
    We operate 65 parks, 100,000 acres, but we also now are 
operating state parks, the unprecedented closing of 70 of the 
state parks in California because of the budget. So what falls 
to the locals is to pick up the slack. So as was mentioned 
earlier, our agency and other agencies are trying to step up 
and operate state parks. We also operate federal lands, Bureau 
of Reclamation lands, Water District lands, things like that. 
So we have a long history of competing for money because we are 
not a state agency. We are often not even recognized in some of 
the grant programs, so we have to really compete.
    We also employ 200 young people every year in summer 
seasonal jobs. Those young people are getting their college 
education goals met by having jobs in parks. Many of them come 
back to the institution; many of them go on to better things. 
And so we are very happy and that is very important. Kids are 
really having a hard time funding their education, and parks 
help do that.
    We are here today to support funding for stateside LWCF and 
LWCF in general and we think it is critical at this time that 
stateside funding be increased because of the impact on urban 
parks, because of the impact on state park closures, because of 
the impact on urban communities. Both rural and urban 
communities have felt this recession really tremendously. They 
are not traveling as much. They are going to those local parks. 
And those local parks, therefore, are really crowded and I 
think what I really want to leave you with today is we have a 
national crisis on obesity and health for kids.
    Mr. Simpson. Oh, thanks for bringing that up.
    Mr. Doyle. You are very welcome. But our parks make life 
better for families dealing with health. Our parks make life 
healthier for kids. And our urban parks create the opportunity 
for people to learn about these beautiful lands you have up 
here behind you, but they come from cities more and more now 
and so stateside LWCF really helps with that.
    We do think that a competitive program through Land and 
Water Conservation Fund is healthy; competition is healthy. We 
know that from what we do and we hope there is a way that we 
can find to do that.
    We thank you for the time to do that and hope that 
specifically that local and regional parks could qualify for 
any Competitive grant Program. Thank you very much for your 
time.
    [The statement of Robert E. Doyle follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Simpson. Thank you. And thank all of you for being here 
today. And I am sorry that we have to rush off. We have got 
about one minute left in this vote, which means I have to make 
it over to the Capitol by then. And by the way, Jim, all of 
these pictures are from Idaho.
    We will start our next panel at about 12:30 when we 
anticipate being done with these votes. Thank you all.
    [Recess.]
    Mr. Simpson. I apologize for keeping you around for however 
the heck long we were over there voting, but unfortunately, 
they make us do that every now and then. We appreciate you all 
staying and I guess I do not have to call up this panel because 
this panel is now up. We appreciate it. It is sometimes hard 
getting hearings completed here, especially on the last day of 
voting. Normally they do not have votes until one o'clock and 
so you can do things in the morning and get them done without 
the interruption of votes. But on the last day, they vote 
whenever they can because after last votes, people are headed 
home for the weekend. So I appreciate you all waiting around.
    First of all, Ken Pimlott, Director of the California 
Department of Forestry and Fire Protection for the National 
Association of State Foresters.
                              ----------                              

                                          Thursday, March 22, 2012.

                NATIONAL ASSOCIATION OF STATE FORESTERS


                                WITNESS

KEN PIMLOTT
    Mr. Pimlott. Yes, that is me, thank you.
    Mr. Simpson. Yes.
    Mr. Pimlott. And we know you all are busy so we very much 
appreciate the time in allowing us to speak, great opportunity 
to represent NASF today.
    As State Foresters, we are stewards of over two-thirds of 
America's forests in state and private ownership. We deliver 
outreach, technical, financial assistance, as well as wildfire 
protection--that is a particular issue in the West and 
California--in partnership with the Forest Service state and 
private forestry programs. Difficult, difficult fiscal times 
around the country and State Foresters fully appreciate the 
difficult decisions that need to be made relative to spending.
    Our fiscal year 2013 funding recommendations are tied to 
the priority Forest Action Plans that were approved as part of 
last year's Farm Bill. My written statements include a complete 
set of our priority recommendations from NASF and include that 
as part of our program today and particularly the Forest 
Stewardship and Urban and Community Forestry Programs. However, 
this afternoon, I just wish to highlight a few of the key areas 
that are important to us.
    State Forest Action Plans like this one provide an 
assessment of forest conditions and trends in each State and 
identify the priority rural and urban forest landscape areas 
within those States. These plans depend on a robust forest 
inventory and analysis program. They are managed by the USDA 
Forest Service Research Forest Inventory and Analysis Program 
and it provides unbiased data for assessing wildlife risk, 
insect and disease threats, and other resource questions which 
often span across forest ownerships. And certainly in 
California like the West we have multiple small landowners that 
make up the bulk of our forest land, and so it is important 
that we have the ability to reach out and work with each of 
those small and non-industrial as well as industrial 
landowners.
    NASF recommends an FIA funding level of $69 million for 
fiscal year 2013 and supports the proposal to consolidate the 
program under the Forest Service Research and Development 
Program. We ask that direction be provided to the Forest 
Service to look for the most efficient ways to deliver the 
program, including contracting with partners such as the State 
Foresters who can accomplish necessary fieldwork, oftentimes at 
lower costs.
    These Forest Action Plans provide long-term strategies for 
investing state, federal, and other resources to where they can 
make the most impact on the ground. Among the issues that the 
Forest Action Plans have identified as priorities include 
wildlife preparedness and response. Over 74,000 wild land fires 
burned and over 5,200 structures were destroyed in fiscal year 
2011 alone. State fire assistance funding helps communities 
prepare for, mitigate, and respond to wildlife threats. And 
this is certainly important and critical to California as well 
as the West. We have invested numerous state fire assistance 
dollars both in urban interface vegetation treatments to help 
those communities in the Sierra Foothills that are plagued by 
wildfire, as well as in Southern California we have focused 
equipping and training firefighters in a regional training 
facility that help not only Cal fire but our local and federal 
partners in the region.
    NASF supports funding for the program at no less than 
current enacted levels of $86 million and endorses the proposal 
to consolidate the program into one line item under wild land 
fire management. This recommended funding level was also 
endorsed by a broad coalition of stakeholders, and we ask that 
the March 19 letter be entered into the record.
    Mr. Simpson. It will be.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Pimlott. Thank you.
    The State Forest Action Plans also identify forest health 
threats as a major priority around the country. Hundreds of 
invasive pests and diseases damage our Nation's forests every 
year. The Forest Action Plans utilize funding from the 
Cooperative Forest Health Management Program to maintain 
healthy and productive forest ecosystems. Again, California 
like the West is facing a number of forest pest, insect, and 
disease issues. As an example, the gold-spotted oak borer is 
attacking thousands of native oak trees in the San Diego area 
and there is the potential for that to spread throughout many 
of the native oaks in California creating significant fire 
hazard and, you know, devastation to the ecosystem and wildlife 
habitats. So just one of many issues that the Forest Health 
Program is focusing on and assisting us with in California.
    NASF supports the proposed consolidation of that program, 
Forest Health Program, under State and private forestry and 
urges the program to be at the fiscal year 2012 enacted levels. 
The program at current levels is also supported by many diverse 
organizations, and we also ask that our letter of March 19 on 
that be entered into the record.
    Mr. Simpson. It will be.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Pimlott. Thank you.
    NASF supports the proposed landscapes scale restoration 
line item with the understanding expressed in the fiscal year 
2013 budget. One, that the current competitive process would be 
formalized; and two, that options for providing flexibility for 
the State Foresters to apply cooperative forestry funding to 
respond to priorities in their Forest Action Plans are not 
eliminated. It is critical that we have that ability to utilize 
that funding in those plans.
    NASF greatly appreciates and requests the continued support 
from the Subcommittee to further explore options for States to 
apply federal funds in the highest-priority areas. We believe 
this can be accomplished through the new landscape scale 
restoration line item, as well as other flexible spending 
options under the Cooperative Forestry Program.
    In conclusion, we recognize again the difficult budget 
climate and are not recommending any funding increases in our 
priority programs. The Cooperative Forest Programs we deliver 
are matched dollar for dollar at the state and local level, 
really leveraging those funds in significant return on the 
federal investment.
    Again, I thank you for the opportunity to testify today and 
happy to answer any questions or further information if you 
would like.
    [The statement of Ken Pimlott follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Simpson. Thank you. You get your funding from both 
State government and Federal Government, right?
    Mr. Pimlott. Correct.
    Mr. Simpson. What has happened to the State government 
funding over the last several years?
    Mr. Pimlott. California, like many other States, are facing 
significant fiscal crisis. Our department alone in the last 2 
years has faced about an $80 million reduction primarily to our 
fire protection program but we have also had to close the last 
of our forest nurseries and we have had to scale back some of 
our Forestry Assistance Programs again as we try to be more 
efficient and consolidate. But we are facing some difficult 
times with our budget. And the funding from these programs are 
critical to help offset some of those cuts. We are able to 
again leverage these dollars with what we have to really make 
it go further and continue to support some of the programs that 
we may not be able to do otherwise.
    Mr. Simpson. Thank you.
    Next, we have Tom Martin, President and CEO of the American 
Forest Foundation.
                              ----------                              --
--------

                                          Thursday, March 22, 2012.

                       AMERICAN FOREST FOUNDATION


                                WITNESS

TOM MARTIN
    Mr. Martin. Thank you, sir. Good to see you again.
    Mr. Simpson. Good to see you.
    Mr. Martin. Thanks for having us here and I appreciate your 
taking time out of such a busy schedule. I know it is tough, 
these things----
    Mr. Simpson. No problem, this is what we do.
    Mr. Martin. And we are darn glad you are doing it.
    The American Forest Foundation, as you probably remember, 
works on the ground with educators, with policymakers, and with 
landowners to make them better stewards. Our American Tree Farm 
System has 90,000 members across the country, 27 million acres, 
and all of them produce sustainably managed timber, certified 
to international standards. In addition, our Project Learning 
Tree Program work provides professional development for 30,000 
educators a year in environmental education. So that is what we 
do, who we are. You have got my testimony so I do not really 
want to reiterate that but maybe a couple of stories.
    I was out in Idaho earlier this week; I was in Moscow at 
the Idaho Forest Owners Association meeting and gave the 
keynote out there. But what was cool is I got a chance to talk 
to Steve and Janet Funk. Now, they are the national outstanding 
tree farmers of the year that steal sponsors. Terrific stuff. 
And why do they get it? Why is their forestry better than 
anybody else's? Well, a big part of it is they see their land 
being absolutely interdependent with that of their neighbors', 
including the Forest Service, the state-owned lands, as well as 
other private lands. And a few years ago--they have this 
beautiful creek, Wolf Lodge Creek, big blowout because there 
had been a massive clear-cut up on the public forest land. The 
runoff came in, blew everything out. And they were able to use 
stewardship dollars to begin to get together a plan to restore 
the creek. They put in most of the money to make it work. There 
is a little bit of EQIP dollars in it but almost all of it was 
theirs. And then using stewardship dollars, they were able to 
get the State Service Foresters to work with the other 
neighbors and come up with a restoration plan for the entire 
creek.
    The Stewardship Program is one we think is terrific because 
in so many ways it is the glue that holds together the forestry 
that happens on the ground, its connection to clean water, its 
connection to clean air, good habitat and, yeah, good-paying 
jobs. So for us, it is that kind of investment that brings 
together States, private folks, and the Federal Government in a 
way that really allows us to address problems.
    The other kind of help that it gives is in areas of 
interdependency, and Idaho, what, 80 percent of the forest land 
is publicly owned? But there is this interdependency. If you 
are going to fight the tussock moth, if you are going to fight 
the emerald ash borer, you have got to figure out how to get 
everybody to play in the game. The help that folks get there is 
enormous through the Service Foresters that are supported by 
the Stewardship Program. So we hope that you guys will give due 
consideration to that program.
    As well, I would like echo Ken's support for the research 
portion of the Forest Service budget. All of us depend on that 
to make good long-term decisions.
    So with that, thank you. I am happy to answer any 
questions.
    [The statement of Tom Martin follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Simpson. Thank you. I appreciate you being here today, 
Tom.
    Robert Malmsheimer----
    Mr. Malmsheimer. Yes.
    Mr. Simpson [continuing]. Ph.D., J.D., Chairman, Committee 
of Forest Policy, the Society of American Foresters.
                              ----------                              

                                          Thursday, March 22, 2012.

                     SOCIETY OF AMERICAN FORESTERS


                                WITNESS

ROBERT MALMSHEIMER
    Mr. Malmsheimer. Good afternoon, Mr. Chairman.
    Mr. Simpson. Good afternoon.
    Mr. Malmsheimer. How are you today?
    Mr. Simpson. Good.
    Mr. Malmsheimer. My name is Bob Malmsheimer. I am a 
professor at the State University of New York, College of 
Environmental Science and Forestry in Syracuse. I am here today 
to testify on behalf of the Society of American Foresters, SAF. 
My testimony will focus on three key areas that directly affect 
programs within the Department of Interior and Forest Service 
budgets, forest health on public and private lands, barriers to 
active forest management, and specific budget recommendations. 
I will start with forest health.
    Annual growth on U.S. forests is 32 percent higher than 
annual removals and greater than harvest immortality combined. 
This in part has led to the need for restoration on 65 to 82 
million acres of national forest. We are encouraged by the 
Forest Service's goal to complete 4 million acres of 
restoration in 2012. But this is not enough to address the 
threats to forest ecosystems and the surrounding rural 
communities. Constraints on forests and forest management have 
led to a steady decline in the forestry-related jobs sector. 
From 2005 to 2010, the U.S. lost 920,000 primary and secondary 
forest jobs. U.S. annual timber harvests are at their lowest 
level since 1960s. The lack of production has led to more than 
1,000 mill closures from 2005 to 2009 and lowered production 
levels below the 50 percent capacity at the remaining mills.
    Congress took steps to increase restoration and forest 
treatments last year by requiring the Forest Service to 
increase National Forest System timber harvest from 2.4 billion 
board feet to 3 billion board feet. SAF supports this effort. 
Thank you.
    Mr. Simpson. Um-hum.
    Mr. Malmsheimer. I would like to next speak about one of 
the perceived barriers to active forest management--the Equal 
Access to Justice Act, also known as EAJA. Last year, the 
Committee included report language in its budget recommendation 
that addressed the complexity and conflicts often associated 
with EAJA. A recent study that examined Forest Service EAJA 
payments by Dr. Michael Mortimer and myself demonstrates the 
need for this language. Our results documented that EAJA fee 
records differ considerably among agencies. Given these 
inconsistencies and the controversy surrounding EAJA payments, 
SAF supports the inclusion of reporting requirements in this 
year's budget.
    I would like to finish today with SAF budget 
recommendations on several of our top priorities. SAF 
recommends that Congress support FIA at no less than $69 
million for fiscal year 2013. SAF supports the Forest Service's 
state and private forestry funding, including Forest Health 
Management for both federal and cooperative lands. We recommend 
funding at fiscal year 2012 enacted levels of $112 million.
    SAF supports the Administration's request to permanently 
reauthorize stewardship contracting within the Forest Service 
budget. SAF also commends the Administration for its request to 
fully fund the Collaborative Forest Landscape Restoration 
Program at $40 million. Hazardous Fuels funding is a critical 
component to Forest Service and DOI fuels reduction efforts. 
SAF recommends maintaining the fiscal year 2012 funding levels 
of $318 million for the Forest Service and $184 million for 
DOI.
    Forest product funding is important to SAF and its members 
also. If Congress does not fund the proposed Integrated 
Resource Restoration line item, SAF recommends funding the 
budget line item at enacted 2012 fiscal year levels.
    I would like to close by noting that the 41 percent 
decrease in the BLM's Public Domain Program would reduce from 
80 to approximately 50 employees, the employees that are 
managing 60 million forested acres. SAF recommends funding this 
program at enacted fiscal year 2012 levels.
    We also have two additional documents supporting elements 
of my testimony that we would like to submit for the record.
    Mr. Simpson. You bet.
    Mr. Malmsheimer. And I would like to thank you for the 
opportunity and I would welcome any questions that you have.
    [The statement of Robert Malmsheimer follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Simpson. Thank you. You bring up a couple of really 
good points about the EAJA funding. The reason we got on that 
is because nobody could really tell us who was paying out these 
funds. One time I asked the former chief of the Forest Service, 
when they go out and make any given decision--whether to, you 
know, do a timber sale or whatever--how much of the money is 
spent on making what they believe to be a good, sound 
scientific decision and how much trying to make it bulletproof 
from lawsuits? And he said between 25 and 50 percent is making 
a decision; between 50 and 75 percent is probably made in 
trying to make it bulletproof. Would we all not be better off 
if those resources--or at least a majority of those resources--
were used in managing public lands rather than in courts? We 
are trying to get a handle on that but first we have to find 
out where the money is going which is why we put the EAJA 
language in there.
    Stewardship contracting is something that I think everybody 
on this committee supports. We ran into a budgetary problem 
last year with the Budget Committee and how it scored and all 
that kind of just gobbledygook nonsense. But we are going to 
still push forward with that and try to get it done.
    Mr. Malmsheimer. Great.
    Mr. Simpson. Thank you.
    Bill--hi, Bill. The executive director of the Federal 
Forest Resources Coalition--do you want to say your last name 
for me?
    Mr. Imbergamo. Sure. It is Imbergamo.
    Mr. Simpson. Imbergamo. I would have screwed it up totally; 
that is why I did not say it.
    Mr. Imbergamo. There are debates within my family about the 
pronunciation so I do not take offense.
                              ----------                              --
--------

                                          Thursday, March 22, 2012.

                   FEDERAL FOREST RESOURCE COALITION


                                WITNESS

WILLIAM IMBERGAMO
    Mr. Imbergamo. Appreciate the opportunity to be here on 
behalf of the Federal Forest Resource Coalition. Our members 
are mostly family-owned sawmills, mostly independent sawmills 
around the country. We have over 650 member companies with 
350,000 workers and $19 billion in payroll, including Idaho 
Forest Group. Bob Bay from Idaho Forest Group is on my board. 
And we appreciate the support you and this Subcommittee have 
shown for sustainable management on these lands. Obviously, 
these are the lands that we need to be sustainably managed. Our 
mills are the ones that have to do business with the Forest 
Service and we have survived this downturn and we would like to 
persist into the future and be there for the Forest Service so 
they can actually manage their lands.
    Sustainably managing these lands produces a lot of 
benefits. I do not need to tell you. You are from Idaho; it 
produces habitat, it produces clean water, and it produces jobs 
in our rural communities. And they can do more and the chiefs 
acknowledge this with the announcement in February about 
increasing the pace of management.
    And while we appreciate that announcement that would 
involve both the chief and the secretary, we do not think it 
goes either far or fast enough. At the current pace that they 
proposed in February for treatment, it will take them 59 years 
to treat the 12.5 million acres that they identified as needing 
mechanical treatment. And as I have talked with staff about 
there are several Forest Service studies out there that show 
the actual acreage that needs treatment is considerably higher 
than that. To do this, they have got to reduce their unit 
costs.
    They spend--I think Region 1, which includes north Idaho--I 
was just in a meeting with the deputy regional forester and 
they spend $35 million on NEPA compliance and they do about 
7,500 acres in mechanical treatment a year. That is not 
tenable. So we have been trying to work with them to find ways 
of reducing these unit costs and they are making as many 
administrative steps as they can that we think some new 
authorities, quite designation by description, which they are 
currently using on stewardship contracts, using those in normal 
timber sales would be a way of reducing unit costs. They are 
frequently spending an awful lot of money marking trees that 
are very low value. In essence, they are still running the 
program as if it was a 12 billion board-foot program with very 
valuable timber when the reality is it is much smaller than 
that.
    We are very thankful for your efforts in directing the 
Agency to increase outputs to 3.0 billion board feet in 2012 
and we urge you to continue raising the bar for them in the 
fiscal year 2013 budget and set a goal of 3.5 billion board 
feet to be right now less than 10 percent of growth and less 
than half of the ASQs on the existing forest plans. You know, 
this activity takes place in counties that frequently have 20 
percent or more unemployment and where poverty averages well 
above state averages, even in some States where some of the 
poverty rates are pretty stunning.
    We do urge the Committee to make some new investments in 
National Forest Timber Management. The program has not received 
an increase since about 2008 and overhead, including cost 
pools, is eating up 124 million or 37 percent of the program. 
To help them keep moving in the right direction, we urge you to 
move that up by 36 million to 371 million and set that target 
of 3.5 billion board feet.
    Our other two key priorities are restoring if possible the 
cuts in Capital Improvement and Maintenance roads budget and in 
the wild land Hazardous Fuels Reduction Program. We have 
millions of acres throughout the mountain west that did not 
improve in condition dramatically since 2011 and there is a 
real backlog and they need to keep making that investment.
    And we also oppose the Administration's blanket prohibition 
on new roads. This would prevent the Agency from doing even 
prudent steps like relocating poorly designed or poorly located 
roads. So combined with more efforts to reduce NEPA compliance 
costs--and by the way, the Natural Resources Committee asked 
the Forest Service what they were spending on NEPA compliance, 
and nationwide I think the number that I got was $356 million, 
which is more than they are spending on state and private 
forestry and more than they are spending on Forest Service 
research----
    Mr. Simpson. Yeah.
    Mr. Imbergamo [continuing]. Right now. So, you know, a more 
focused effort to reduce NEPA compliance cost, collaboration 
that involves timber sales and hazardous fuel reduction will 
help improve the health of all the National Forests. We 
recognize that you are in a tough fiscal situation. Obviously, 
that has kind of been a refrain today. It has not been in the 
headlines this week either. But we think that a big part of 
that solution would be stopping the investments in land 
acquisition. We understand the priority that some place on this 
but right now it does not make sense to be cutting the 
management and infrastructure that you need to be acquiring new 
lands.
    Last year was a demonstration of the relationship between 
forest health and all users of the forests, not just my 
members, the recreationists. The fires in Arizona destroyed 
hundreds of recreation cabins and caused the cancellation of 
4th of July celebrations. There are still lots of campgrounds 
and roads that are closed. There is a campground owner in the 
Black Hills who is spending $100,000 a year to try to keep pine 
beetles out of his campground. And then the Pagami Creek fire 
in Minnesota closed the Boundary Waters Canoe Area for the 
majority of August and September last year.
    So hikers, hunters, skiers all want healthy, green and 
growing forests and that is what my members need as well. And 
investing in managing those forests does not just yield timber 
to the mills I work for; it yields healthier forests for all 
those users.
    So I appreciate the chance to be here and I appreciate the 
chance to be with some of my colleagues.
    Mr. Simpson. Thank you, Bill.
    Mr. Imbergamo. And thank you for letting us come out.
    [The statement of William Imbergamo follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Simpson. Appreciate your testimony. Thank you.
    Elena Daly.
    Ms. Daly. Daly.
    Mr. Simpson. Daly, you are up.
    Ms. Daly. Thank you, Mr. Chairman.
    Mr. Simpson. You bet.
    Ms. Daly. How do I turn this on?
    Mr. Simpson. There you go.
    Ms. Daly. There I go. Okay.
                              ----------                              --
--------

                                          Thursday, March 22, 2012.

                        PUBLIC LANDS FOUNDATION


                                WITNESS

ELENA DALY
    Ms. Daly. I really do appreciate the opportunity to address 
you and the Committee, present the views from the Public Lands 
Foundation. And as you may know, we are a nonprofit 
organization with more than 700 members, primarily BLM 
employees who remain engaged and interested in public lands 
issues. We are independent of the Bureau, although we support 
it. Sometimes we are a little too independent. That is okay and 
really want to help make the Bureau's job better.
    Some of the most significant management challenges facing 
the Bureau, as you are well aware, is urban development and the 
increased demand for access and use of public lands by a 
growing population, particularly in the West. And the BLM's 
customers are as diverse as the natural resources it manages. 
The public lands provide the Nation with opportunities for 
expanding the development of renewable energy, as well as 
traditional needs for oil, natural gas, coal, non-energy 
minerals, grazing land, and timber. Recreation, wildlife, wild 
horses, cultural resources, and special places are also 
significant attributes. And I know you are aware of that with 
what Idaho has particularly.
    Management activities contribute to the vitality of state 
and local economies generating an expected $4.5 billion in 
2012, primarily from energy development.
    PLF, like everybody else, recognizes the reality of the 
funding constraints and the need to reduce the federal budget 
deficit. In general, we feel the Administration is seeking a 
very constrained budget in consideration of the fiscal issues 
being faced, and in that light, we are pleased with several 
aspects of the overall budget.
    The America's Great Outdoors Initiative would provide 
funding for some of BLM's most underfunded programs--
Recreation, Cultural Resources, and the National Landscape 
Conservation System. The NLCS is a unique compilation of 
incredible landscapes within the BLM's National System of 
Public Lands, which have been designated for their outstanding 
cultural, ecological, and scientific values. We feel that the 
management of NLCS has long been under-funded.
    We believe that BLM's energy programs need to be fully 
funded as well. These programs generate the bulk of receipts 
from the public lands, can have significant impacts on the 
ground, and should be primarily funded from appropriations or 
the receipts generated by the leases. Increased oil and gas 
inspections are important and must be funded, but we are very 
concerned that some of the new fees being proposed are coming 
ahead of the actual legislative proposals where the program 
changes could be fully vetted.
    Of particular concern is production accountability to 
ensure that all producers of energy or minerals under the 
Mineral Leasing Act and Federal Land Policy and Management Act 
are accurately reporting their production to the United States. 
More funding for this purpose would mean improved oversight and 
ultimately more money for the U.S. Treasury.
    The potential listing of the sage grouse as an endangered 
species has major implications for energy development and other 
uses of BLM public lands. It is essential that the BLM's 
funding increase be supported so that it can continue to make 
progress in preventing the need to list the sage grouse.
    We believe the Abandoned Mine Lands fees combined with a 
proposed budget increase will provide a process to begin 
reclaiming both the safety and environmental hazards that 
remain after 150 years of hard rock mining on millions of acres 
in the West and are also pleased to see increases in several 
other programs which are listed in my testimony for you.
    We are really pleased that in recent testimony before 
Congress, the Secretary announced a scaled-back proposal for 
the realignment of functions of the Office of Surface Mining, 
Reclamation and Enforcement, and the BLM. There was simply too 
much opposition to this effort.
    However, we do have some concerns. We are very concerned 
about Rangeland Management Program. We know that administrative 
costs are being driven up by numerous factors, not the least of 
which is the cost of litigation. And while we support BLM's 
proposed pilot grazing administrative processing fee of $1 per 
animal unit month to assist the BLM in processing permits, we 
are very concerned with the proposed reduction in the Rangeland 
Management Program for administration of livestock grazing. The 
reduction far exceeds the increased revenue from the pilot 
program and will deeply impair the BLM's ability to meet its 
legal requirements on the ground. We believe funding for this 
program should be restored.
    We are also concerned about the reduction of $12.4 million 
from the Alaska Conveyance Program and we consider it to be 
devastating to the BLM in Alaska and the U.S. Government's 
commitment to the State of Alaska, the Native Corporations and 
individual native allottees to transfer lands that have been 
promised to them for over 40 years. This would be roughly a 20 
percent reduction in land transfer capability and will result 
not only in reductions in force but the loss of many of the 
Survey Contracts that go to individual villages in Alaska.
    And last but certainly not least, while we are pleased that 
the Administration has requested sufficient funds to support 
efforts for the Wild Horse program, we remain dismayed at the 
seemingly unsolvable issues that continue to haunt efforts to 
maintain healthy horses on healthy ranges. We would like to see 
Congress step in at some point and write more effective 
legislation and provide specific guidance, particularly to 
resolve the issue of spending many millions of dollars 
maintaining unadoptable horses. The current situation is simply 
not sustainable.
    Mr. Chairman, we hope these comments and concerns assist 
you in your deliberations for the budget for BLM and we remain 
sincere in our efforts to assure proper management of for the 
National System of Public Lands. Thank you.
    [The statement of Elena Daly follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Simpson. Thank you. And thank you for your testimony. 
We, too, are dismayed by the proposed reductions in Rangeland 
Management. We have been trying to put resources in there so 
that the BLM can adequately manage range. The proposed 
reductions are unacceptable as far as I am concerned, but we 
will see how the Committee reacts when we start putting this 
budget together once we find out what our allocation is going 
to be.
    Ms. Daly. Um-hum.
    Mr. Simpson. If you can find a solution for these sources, 
let me know.
    Ms. Daly. I have several but none would be popular.
    Mr. Simpson. That is exactly the problem. I thought maybe 
we ought to just give them over to--what is her name? Madeleine 
Pickens----
    Ms. Daly. Ms. Pickens.
    Mr. Simpson [continuing]. Who wants to take them over.
    Ms. Daly. At one point we offered them to the Forest 
Service but they were not interested.
    Mr. Simpson. You mentioned in your testimony how much of 
the forest land in this country is private and state versus how 
much is the Federal Government's. What was that percentage?
    Mr. Pimlott. Two-thirds. And I would probably have to defer 
to staff or the other panel members to get you exact numbers. 
Maybe Tom knows the----
    Mr. Martin. Yeah, it is about almost 60 percent of the land 
is privately owned forested landscape, and most of that is 
owned not by the Plum Creeks or the warehouses or the IFTs. It 
is owned by family forest owners.
    Mr. Simpson. It is really surprising. I had never really 
thought about it before and one day I saw a map that showed all 
the forested lands in the country and listed how much of them 
were privately owned and state-owned and how much of them were 
owned by the Forest Service. In the West it is primarily Forest 
Service and in the East, it is almost all privately owned.
    Mr. Pimlott. And California is kind of a mix. It is about 
one-third federal land, one-third private ownership, which is 
predominantly what we as the State Forester in California 
protect and the remaining third are in local government and 
incorporated cities. And so it is true everybody thinks of 
forest land, big companies; well, certainly in California and 
other parts of the West it is the small landowner that makes up 
again in California probably two-thirds of the ownership of 
forest land is the small landowner.
    Mr. Simpson. Did you put these plans together?
    Mr. Pimlott. Yes. And every State under this Farm Bill has 
one.
    Mr. Simpson. Do they then use that to determine where fuels 
reductions would be----
    Mr. Pimlott. Yes.
    Mr. Simpson [continuing]. Most effective and so forth?
    Mr. Pimlott. Correct. We identify our priorities as 
required under this and that is where we focus--we actually 
take this as our parent document and then build a state fire 
plan to mirror these priorities so that we can implement it 
across the State.
    Mr. Simpson. Okay. Jim, welcome. Do you have any questions 
or anything?
    Mr. Moran. No, I am fine, Mike.
    Mr. Simpson. We thank you for being here today. It is, as 
each of you mentioned, a tight budget year and I do not see 
anything in the foreseeable future but tight budget years until 
we get our deficit under control, but there are certainly some 
important programs in our bill and we appreciate your input. 
And as we work through our budget, we will certainly keep those 
issues and your testimony in mind. Thank you.
                                           Tuesday, March 27, 2012.

         TESTIMONY OF INTERESTED INDIVIDUALS AND ORGANIZATIONS

         PUBLIC WITNESSES--AMERICAN INDIANS AND ALASKA NATIVES

    Mr. Simpson. The Committee will come to order.
    Mr. Moran is apparently on his way and will be here in a 
few minutes, but good morning and welcome to the first of three 
public witness hearings specifically for American Indians and 
Alaska Native programs. Despite a somewhat abbreviated hearing 
schedule this year, I am proud that the Subcommittee is able to 
hold hearings on these very important programs. They have been 
and will continue to be a funding priority for this 
Subcommittee in a bipartisan way.
    The chair will call each panel of witnesses to the table 
one panel at a time. Each witness will be provided with 5 
minutes to present their testimony. We will be using a timer to 
track the progress of each witness. When the button turns 
yellow, the witnesses will have 1 minute remaining to conclude 
his or her remarks. Members will be provided an opportunity to 
ask questions of our witnesses, but in the interest of time, 
the chair requests that we keep things moving in order to 
conclude this morning's testimony at a reasonable hour.
    I am happy now to yield to my good friend from Virginia, 
Mr. Moran, for any remarks he may have.
    Mr. Moran. Amen. Let's get on with the hearing.
    Mr. Simpson. Okay. Let me tell you, I am going to screw up 
so many names today. Do not be offended by it.
    The first panel will be Jefferson Keel, President of the 
National Congress of American Indians; Stacy Bohlen, National 
Indian Health Board; D'Shane Barnett, the National Council of 
Urban Indian Health; Brooklyn Baptiste, the Nez Perce Tribal 
Executive Committee, Tino Batt, Council Member and Treasurer of 
the Fort Hall Business Council; and Affie Ellis and Tom Gede, 
Commissioners of the Tribal Law and Order Commission. Did I get 
those all somewhat correct? Everybody pretty much knew who they 
were?
    Mr. Moran. Thank you all for making the effort to come 
here. You know, we are here every day, but I know it takes a 
lot of logistics and cost and disruptions in your schedules to 
get here, but Chairman Simpson and I very much appreciate this 
opportunity to hear from you. It is very important to us and we 
do appreciate the effort.
    Mr. Simpson. It is not easy to get here from Idaho. You 
have to take a boat down the Missouri and then--no, I am just 
kidding.
    Tom, do you have any opening statement?
    Mr. Cole. No.
    Mr. Simpson. Okay. Mr. Keel, you are up first.
                              ----------                              

                                           Tuesday, March 27, 2012.

                 NATIONAL CONGRESS OF AMERICAN INDIANS

                                WITNESS

JEFFERSON KEEL
    Mr. Keel. Good morning. Thank you, Mr. Chairman, 
Representative Moran, Representative Cole. Thank you for the 
opportunity to allow us to testify this morning. This is an 
important matter, and we certainly appreciate all that you do 
on behalf of Indian Country. My name is Jefferson Keel. I am 
the President of the National Congress of American Indians, and 
I am the Lieutenant Governor of the Chickasaw Nation, and I am 
honored to be here on behalf of Indian Country.
    In my role as the National Congress of American Indians' 
President, I have an opportunity to visit with tribal leaders 
across the country, and I know that you will hear significant 
testimony from many of those tribal leaders today, so I will 
abbreviate my time here and summarize mine as quickly as 
possible.
    Mr. Simpson. Your written remarks will be included in the 
record.
    Mr. Keel. Thank you, sir.
    Recommendations from Indian Country that were included in 
the President's fiscal year 2013 proposal include increases for 
contract support costs, some natural resources and 
environmental protection programs, public safety initiatives, 
and Contract Health Services. While the Administration's budget 
proposal maintains support for many critical programs, some 
cuts proposed represent significant setbacks to progress in 
Indian Country such as for education construction. NCAI looks 
forward to working with this Subcommittee to ensure that 
federal programs that fulfill the trust responsibilities to 
tribes continue to receive bipartisan support in the 
appropriations process.
    Indian Country recognizes the state of the economy, the 
pressures on government at all levels, and the related 
challenges for job seekers. Tribes take the responsibility to 
manage federal funds as seriously as we do the federal trust 
responsibility to provide them, and we propose the following 
general recommendations for the fiscal year 2013 budget.
    Continue to promote successful efficient initiatives in 
Indian Country that work such as self-determination programs. 
Critical to implementing these policies are the Bureau of 
Indian Affairs' funding streams for tribal priority 
allocations, contract support costs at the BIA and the Indian 
Health Service, and tribal grant support costs for tribal 
schools. NCAI also urges Congress to support legislation that 
will fully restore the Secretary of Interior's authority to 
take land into trust for tribes, particularly regarding the 
Carcieri decision. We urge Congress to retain the language 
included in the President's budget addressing the Carcieri 
decision.
    I would like to discuss public safety and justice at the 
BIA. NCAI supports Interior's Protecting Indian Country 
Initiative and the Priority Goal to reduce violent crime in 
Indian communities. Since its inception, there has been a 35 
percent overall decrease in violent crime across the four 
tribal communities, far exceeding the 5 percent goal. The 
successful program is now being expanded to two additional 
Recovery Act. We would like to see it expanded even further to 
reach even more tribes.
    In the Indian Health Service, we commend the Administration 
for including targeted funding increases that have long been a 
priority for the Tribal Budget Workgroup such as for Contract 
Health Services, staffing and contract support costs. While all 
these increases are much needed, the IHS budget remains 
woefully short of providing full funding to the IHS system.
    A very concerning cut is in Indian school construction. The 
fiscal year 2013 budget request for construction programs is 
$17.7 million below fiscal year 2012, eliminating new school 
construction. NCAI urges this funding to be restored. All 
students in America deserve a safe, secure and culturally 
appropriate environment in which to attend school.
    A reduction affecting economic development is the proposed 
reduction to the Indian Guaranteed Loan Program, which would be 
reduced by $2.1 million. This program is the most appropriate 
and urgently needed source of financing for business and energy 
and other economic development in Indian Country. NCAI 
encourages Congress to restore funding for the Indian 
Guaranteed Loan Program.
    We would also like to note that the President's budget 
includes a rather large reduction due to streamlining measures 
in the BIA, $19.7 million in streamlining measures and $13.8 
million in administrative savings. We would urge respectfully 
that caution be taken when cutting so deeply into the BIA 
functions.
    We look forward to working with the Members of Congress to 
continue to build upon our successes. Tribal leaders urge 
Congress to uphold its solemn promises to tribes, even as 
policymakers seek to reduce the deficit through spending 
reductions and revenue generation, and we look forward to again 
working with this Committee and any other of your staff to 
continue that progress. Thank you again.
    [The statement of Jefferson Keel follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Simpson. Thank you. Thank you for being here.
    Stacy.
                              ----------                              

                                           Tuesday, March 27, 2012.

                      NATIONAL INDIAN HEALTH BOARD

                                WITNESS

STACY A. BOHLEN
    Ms. Bohlen. Chairman Simpson, Ranking Member Moran, who is 
my long-time Congressman, and Congressman Cole, thank you so 
much for allowing me to be here today on behalf of the National 
Indian Health Board. Our organization serves all 566 federally 
recognized tribes solely on the provision of health care for 
American Indians and Alaska Natives and improving that health 
care. My name is Stacy Bohlen. I am the Executive Director of 
the National Indian Health Board. I am a Sault Ste. Marie 
Chippewa from Michigan, and today my remarks will only be about 
the Indian Health Service 2013 budget.
    The National Indian Health Board is very grateful to this 
Congress and to this Administration for the 6 percent increase 
in funding to the Indian Health Service in 2012. The recent 
increases over the past year have made but small real gains in 
health for our people, and together we must protect and advance 
the progress that we have made.
    For fiscal year 2013, for the IHS budget, we were pleased 
to learn that the Administration recommends a $116 million 
increase over fiscal year 2012. Under the new discretionary 
limits with 3 percent increases, that is significant, and it 
represents the continued commitment of the United States to 
honor its legal obligations and the sacred trust responsibility 
to American Indians and Alaska Natives. However, the increase 
only allows for the continuation of IHS's current services. 
While we recognize the budget realities we face as a Nation, we 
urge this Congress to adopt funding levels for the Indian 
Health Service that are closer to the fiscal year 2013 National 
Tribal Budget Formulation Workgroup's recommendations, which 
President Keel mentioned in his testimony as well. This 
workgroup recommends preserving the basic health care programs 
currently being funded and that would require an increase. The 
funding levels that are needed to enable the Indian health 
system to simply continue operating at its current level of 
service. Also contained in this category are the binding 
obligations that represent financial commitments previously 
made by the Indian Health Service. Without these increases, 
IHS's system would experience a decrease in its ability to care 
for its current service population.
    Inflation, both medical and non-medical, and population 
growth, we urge you also to please consider this. Funding for 
IHS programs has not kept pace with inflation. Medicare and 
Medicaid accrue 5 to 10 percent increases. Not true for IHS. 
NIHB urges this Congress to consider inflation during the 
appropriations process, and we recommend a $59.9 million 
increase just to address those costs.
    The Indian Health Service currently serves 2 million 
American Indian and Alaska Natives, and the service population 
increases at an average of 2 percent per year. In accordance 
with the Tribal Workgroup's recommendations, we propose a $52.4 
million increase to the current services to account for 
population growth.
    Another majority priority under current services is funding 
for contract support costs, as the president mentioned. Native 
nations in all areas operate one or more such contracts, and 
the ability of tribes to successfully operate their own health 
care systems, whether they be substance abuse or entire medical 
systems and hospitals, depends on this contract support cost 
funding. The workgroup recommends addressing the CHS shortfalls 
with full funding.
    A current major service priority is funding for health care 
facilities construction for the 5-year plan. The workgroup's 
recommendations include $343 million for previously approved 
health facility construction projects in accordance with the 
Indian Health Service health care facilities fiscal year 2012 
plan construction budget. Unfortunately, the Administration's 
request does not reflect this binding obligation. NIHB along 
with the tribes supports a $343 million increase for this 
purpose.
    Significant program increases are required to address the 
overwhelming health needs in Indian Country. The recommended 
increases are targeted and very realistic. The workgroup 
recommends $688 million be added to identified programs and 
facilities accounts. Under that increase is the Contract Health 
Service program, and it is a major priority. Unfortunately, 
this program is so grossly underfunded that Indian Country 
cannot purchase the quantity and types of care needed for our 
people, and many of our patients are left untreated and often 
with very painful conditions that if addressed in a timely way 
would both improve the quality of life and do so at a lower 
cost, and the workgroup proposes, and we support, a $200 
million increase for Contract Health Services.
    Behavioral health was identified uniformly as a top 
national priority. We propose an $80 million increase. I think 
the Committee is aware that suicide is the number two cause of 
death of our children. It is an untenable statistic that needs 
to be addressed. This would go a long way toward helping with 
that goal.
    We also respectfully request that the Subcommittee work to 
exempt the Indian Health Service from budget cuts, freezes or 
sequestration. Should sequestration occur, there is some 
protection for the Indian Health Service under the Budget 
Control Act but the consequences of these reductions will be 
tangible in terms of loss of life when it comes to American 
Indian and Alaska Native health. So we urge you to work and 
commit to protecting the Indian Health Service and our people 
from budget cuts and sequestration.
    Finally, we ask Congress to work toward full funding of IHS 
and make a long-term commitment to that goal. IHS is currently 
funded at about 56 percent of its true need. In 2010, IHS 
spending for medical care was about $2,700 per person, and the 
average federal health care expenditure was about $7,200 per 
person. And on behalf of all the 566 federally recognized 
tribes, we ask the federal government to design and implement 
true funding that will fully fund the Indian Health Service.
    Thank you very much for your time today and for allowing me 
to make these remarks on behalf of our people.
    [The statement of Stacy Bohlen follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Simpson. Thank you, Stacy. We appreciate it.
    D'Shane.
                              ----------                              

                                           Tuesday, March 27, 2012.

                NATIONAL COUNCIL OF URBAN INDIAN HEALTH


                                WITNESS

D'SHANE BARNETT
    Mr. Barnett. Good morning. My name is D'Shane Barnett. I 
currently serve as the Executive Director of the National 
Council of Urban Indian Health, also known as NCUIH. On behalf 
of our 36 member organizations and the more than 160,000 urban 
Indians that our programs serve annually, I appreciate the 
opportunity to provide testimony today for the House Interior 
Appropriations Subcommittee.
    This year, NCUIH would like to make two recommendations 
regarding the critical challenges facing our health programs. 
First, we are requesting additional funding for the Urban 
Indian Health Program line item. Funding for the Title V line 
item currently stands at $42.9 million. This number is 
estimated to represent approximately one-quarter of the total 
health care need faced by Native American and Alaska Native 
people who are living in urban areas. While NCUIH respectfully 
and strenuously advocates for full funding of the entire Indian 
health system, we find it necessary to point out that for the 
past two fiscal years, the breakdown of the Congressional 
appropriations process and relentless pressure to cut spending 
has resulted in two consecutive years of reductions to the 
Urban Indian Health Program line item. These reductions 
threaten our base funding and limit our ability to provide 
services to American Indians and Alaska Natives living in 
America's cities.
    In addition, the fiscal year 2012 IHS budget eliminated 
nearly $1 million in grant funding that our urban communities 
relied upon for health promotion, disease prevention, sexual 
assault and domestic violence prevention, health care services 
for our elders, long-term care, and health services for women, 
children and youth, the most vulnerable members of our 
communities. These cuts have forced our programs to discontinue 
services to our patients and to lay off staff at a time when 
employment and job creation are more important than ever.
    In addition, the challenges posed by health care reform 
will require that all of our programs acquire the staff and 
resources necessary to bill private insurance offered through 
state exchanges and public insurance like Medicaid, Medicare 
and CHIP. Cuts to state budgets and dwindling grant 
opportunities make our Title V base funding even more important 
during these difficult times. In light of the imminent 
challenges facing the urban Indian health programs from health 
care reform, the bleak budget environment on both state and 
federal levels, and emerging census data that is showing that 
more than two-thirds of American Indians and Alaska Natives are 
living in urban areas, NCUIH respectfully requests an increase 
to the Urban Indian Health Program line item of $15 million, 
bringing total funding to $58 million. This increase is needed 
to offset the loss of both public and private funding 
opportunities to compensate for the loss of State funding, 
given relentless state budget cuts, to enable all of our 
programs to access third-party insurance dollars as health care 
reform is implemented and to remedy the longstanding 
underfunding of the urban Indian health line item.
    Second, NCUIH would like to call attention to the 
precarious situation faced by our residential treatment 
centers, or RTCs. RTCs promote healing and wellness in the 
American Indian community by providing a continuum of substance 
abuse prevention, treatment and recovery services that 
integrate traditional American Indian healing practices with 
state-of-the-art clinical substance abuse treatment 
methodology. RTCs offer a variety of culturally competent 
services such as talking circles, sweat lodges and other 
ceremonies that have thousands of years of proven success for 
our people. Traditional medicine and traditional healers are 
made available to our patients, and many of these patients do 
not reside in urban areas but travel from their reservation to 
our programs because of the quality of the services that we are 
able to provide and the holistic and traditional medical care 
we can offer. Our RTCs create an environment of culturally 
appropriate support for patients that are seeking to recover 
from drug and alcohol addictions. By integrating patient 
medical care into a structured social support network, RTCs 
assist patients in recovering from their illness and 
rehabilitating their lives. RTCs reduce overall health care 
costs, help people recover from their addictions, return to 
their jobs, stay off public assistance and form positive 
relationships with their communities.
    In the past, most of our RTCs have relied on state funding 
to augment modest funding from the Indian Health Service. As 
states are forced to make cuts in services due to their budget 
shortfalls, residential treatment programs have been frequently 
targeted for elimination. One example, in Portland, they have 
reduced $1.25 million to a single RTC. In Seattle, cuts took 
place in November of 2011 that resulted in a 50 percent loss of 
long-term funding, which equaled a reduction of 10 beds and a 
layoff of residential treatment staff who have now had to seek 
other employment or rely on public assistance.
    In conclusion, I would just like to express my gratitude 
for the opportunity to testify here today. Funding for our line 
item has fallen far short of the parity required to keep up 
with medical inflation, and it falls even short of the full 
funding required to address the health care needs of native 
people living in urban areas. Even if the $58 million figure 
suggested by NCUIH were appropriated by Congress, this would 
still amount to only $362 per patient served. We are 
respectfully requesting your support for long-delayed funding 
increases in order for our programs to carry out their mission 
of serving the American Indian and Alaska Native people in this 
country regardless of where they reside. Thank you.
    [The statement of D'Shane Barnett follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Simpson. Thank you. We appreciate it.
    Brooklyn.
                              ----------                              

                                           Tuesday, March 27, 2012.

                  NEZ PERCE TRIBAL EXECUTIVE COMMITTEE


                                WITNESS

BROOKLYN D. BAPTISTE
    Mr. Baptiste. Good morning, everyone. I appreciate your 
time this morning. My name is Brooklyn Baptiste. I serve as the 
Chairman for the Nez Perce Tribal Executive Committee. I would 
like to give you guys a huge thank you for allowing us to come 
here this morning, especially the chairman, who is from the 
beautiful State of Idaho as well. We would like to say thank 
you to the Committee as it evaluates and prioritizes the 
spending needs of the United States regarding IHS, BIA, EPA, 
the Forest Service and the U.S. Fish and Wildlife Service as it 
pertains to the Nez Perce Tribe.
    The Nez Perce Tribe clinic on the reservation has two 
facilities which last year served close to 4,000 patients, and 
not all tribal members but descendents as well and other tribes 
as well. These patients represent close to 80,000 visits, which 
included pharmacy and laboratory visits in addition to medical 
provider visits as well. You have heard testimony from the last 
three about the contract support costs and how vital it is and 
how underfunded it is and what it does actually to kind of 
hamstring the clinic itself as it tries to provide the best 
quality service. Contract support cost is huge and continually 
underfunded.
    In addition, the tribe shortfall for fiscal year 2011 for 
contract support costs was close to $9 million, and this is 
what we are looking at for the next year as well. The 
Committee's work on maintaining and increasing funding is vital 
for the Nez Perce tribe and for our membership as they try to 
serve the best quality health for the members and the patients 
that visit the clinic as well.
    The Nez Perce tribe also seeks restoration of past contract 
support cost claims where the tribe was not fully funded. H.R. 
4031 would help provide an avenue for the affected tribes from 
the shortfall to find their day in court and try to explain the 
claims that we have, and like I said, it is trying to play 
catch-up on a lot of those things, but as years go on and those 
annual shortfalls seem to add up, it really weighs on the 
burden of the clinics and the health care on each reservation, 
even in the urban areas as well.
    So we would hope that you will do your best. I know you 
guys do a lot of hard work for the tribes and the people out 
there in the Nation for their health care, and we would 
appreciate any help that you can give us.
    The Nez Perce Tribe entered an agreement with the United 
States in 2005 known as the Snake River Basin Water Rights Act 
of 2004. A component of the agreement was to transfer 
approximately 11,000 acres from the Bureau of Land Management 
to the tribe. The lands were supposed to be surveyed in that 
agreement and to this day that funding has not been met, so 
those surveys have not occurred. Full funding for those surveys 
in fiscal year 2011 budget request called for $695,000 for that 
fiscal year to begin that process. The tribes support a renewal 
of that appropriation request in the fiscal year 2013 budget. I 
know, Mr. Simpson, you are very familiar with the SRB and the 
process and how hard that was to get to that point, so we are 
just trying to make sure that we can follow to the letter of 
the agreement itself.
    The Nez Perce Tribe is a founding member of the Columbia 
River Intertribal Fish Commission, our policy and technical 
coordinating agency for treaty fisheries, management for 
Columbia River and international fisheries. We support the 
testimony you will hear tomorrow Chairman Gerald Lewis. While 
we support the funding increase for rights protection 
implementation, we are concerned with the way allocations to 
that account have been made since 2009. Individual accounts 
have been reduced by as much as 40 percent and raised as much 
as 60 percent without explanation or rationale. We ask the 
Committee here that you direct the bureau to return to the 2008 
allocation formula, which is consistent and effective, and we 
see it as the best methodology.
    The Pacific Coast Salmon Recovery Fund is an example of the 
projects that we use under that fund. The Nez Perce Tribe 
utilizes the Pacific Coast Salmon Recovery Fund to stock coho 
smolts hatcheries in the Clearwater River Basin. We also add 
additional smolts from Columbia River hatchery, Eagle Creek and 
up to the Clearwater River for relief. Based on the PIT tag 
information, 15,000 coho adults from our Clearwater releases 
provided fishing for tribal and non-tribal members as well. 
Chairman Simpson is very well aware of the impact that the 
fisheries have on the local economy and subsistence for the 
tribe as well. Continued appropriation for this fund will allow 
this successful work to continue, and we appreciate any work 
that you could help us on restoring this endangered species.
    Finally, the Big Horn sheep. The Nez Perce Tribe 
respectfully requests that the Committee not renew 2012 
appropriations language contained in section 431 that prohibits 
federal agencies from implementing existing federal management 
decisions that protect struggling Big Horn sheep populations on 
public lands. Big Horn sheep are an important resource for the 
Nez Perce tribe economy but also the history and culture. We 
are trying to save the last pure stock of Big Horn sheep in 
Idaho. It is vital for the United States to honor the tribes' 
treaty reserve rights to continue to hunt this culturally 
important species on federal public land off the reservation 
but within the ceded territory and protected by our treaty.
    On behalf of the Nez Perce Tribe, I would like to say thank 
you for your hard work and your due diligence on all the 
budgets in Indian Country. I know it is not easy defending 
these, and when we have such a budget crisis, it is always hard 
for us to move forward. So thank you very much.
    [The statement of Brooklyn D. Baptiste follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Simpson. Thank you. We appreciate it.
    Tino.
    Mr. Batt. Good morning.
    Mr. Simpson. Good morning.
                              ----------                              

                                           Tuesday, March 27, 2012.

      SHOSHONE-BANNOCK TRIBES OF THE FORT HALL INDIAN RESERVATION


                                WITNESS

TINO BATT
    Mr. Batt. Good morning, Chairman Simpson, Ranking Member 
Moran and other members of the Committee. My name is Tino Batt. 
I serve as the Treasurer of the Fort Hall Business Council, the 
governing body of the Shoshone and Bannock tribes of Idaho.
    First, on behalf of the tribes, I would like to thank you, 
Congressman Simpson, for your friendship and commitment to make 
sure the federal government fulfills its trust responsibility. 
My testimony will focus on the following areas: one, juvenile 
detention center as a regional facility; two, funding for 
educational and mental health services for our juvenile 
detention center; three, funding for 6th grade expansion for 
the Shoshone-Bannock Junior and Senior High School; and four, 
EPA support to clean up the Eastern Michaud Flats Superfund 
Site on the reservation; and five, funding increase for road 
maintenance on BIA Indian reservation roads.
    Juvenile justice system in Indian Country, like the broader 
tribal justice system, has been crippled by federal laws and 
court decisions more than a century. The tribe has many of the 
same public safety concerns that other tribes have. However, we 
face the added pressure of dealing with Public Law 280. In 
1963, the State of Idaho, without consent, assumed 
responsibility over juvenile crimes on our reservation. For 
almost 50 years, the state has ignored its responsibility under 
Public Law 280 and our youth has suffered as a result.
    With no help at the state level and little help at the 
federal level, we took matters into our own hands and built a 
new justice center, which houses our police department, our 
courts, adult and juvenile detention center. We built a 
juvenile center for the vision of having it serve as a regional 
facility. Congress through the enactment of the Tribal Law and 
Order Act approved of this regional detention center aspect. We 
must also provide education, substance abuse and mental health 
services to juveniles in our custody. The detention center is 
often the final opportunity for rehabilitation. Our hope is 
that the facility can help our juveniles turn their lives 
around instead of becoming career criminals.
    Unfortunately, the fiscal year 2013 BIA budget requests 
zero funding for juvenile education, and BIA refuses to let us 
use correctional dollars for education for our juveniles. There 
are 24 juvenile facilities in the BIA system, and none are 
receiving funding for education. We urge you to include funding 
for juvenile education in fiscal year 2013.
    Also, to assist us in improving our juvenile program, we 
respectfully make two requests that would help us stretch 
existing dollars. First, we seek designation of our juvenile 
center as a regional facility. Second, we seek authorization to 
use detention funding for educational and mental health 
services for juveniles.
    I would like to turn to the needs of the Shoshone-Bannock 
High School, a tribally controlled BIE school, which relies on 
Tribal Grant Support Costs (TGSC) to pay for administrative 
costs. The fiscal year 2013 budget request only meets 65 
percent of our needs. We ask that we receive funding to meet 
100 percent of our needs. Two years ago, the tribe added a 6th-
grade program to the high school. Given that the elementary 
school on the reservation ends at 5th grade and the high school 
starts at the 7th grade, this left a big gap where our children 
had to go to different schools off the reservation for one year 
and then come back to the reservation. However, the BIE has 
refused our request to use TGSC funding for our new 6th grade 
by pointing to riders in the fiscal year 1995 and 1996 Interior 
appropriation bill as a moratorium on grade expansion. To 
overcome this barrier, we request report language clarifying 
that BIE funding can be used for costs of our 6th grade.
    I have two last items. We request support in our efforts as 
we work with EPA to clean up the Eastern Michaud Flats 
Superfund Site located on the reservation due to phosphate 
mining. The hazardous waste from the mining is stored in 
unlined holding ponds causing serious contamination to the 
earth and groundwater. This contamination has affected our 
sacred hunting grounds. The EPA wants to just cover it, but 
southeast Idaho wants to clean it up.
    Lastly, we request consideration of a one-time 
appropriation of $50 million to address the growing deferred 
road maintenance needed in Indian Country.
    At this time I would like to thank you for your time and 
your efforts to ensure the needs of Indian people are met. 
Thank you.
    [The statement of Tino Batt follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Simpson. Thank you, Tino.
    Affie.
                              ----------                              

                                           Tuesday, March 27, 2012.

                    TRIBAL LAW AND ORDER COMMISSION


                               WITNESSES

AFFIE ELLIS
TOM GEDE
    Ms. Ellis. Good morning, Mr. Chairman, Ranking Member 
Moran, other members of the Committee, including my neighbor, 
Representative Lummis from Cheyenne, Wyoming. My name is Affie 
Ellis, and I appreciate the opportunity to testify on behalf of 
the Indian Law and Order Commission. I serve as a member of the 
commission along with the Tom Gede, who will address a few 
other matters in just a moment.
    Our commission was created by the Tribal Law and Order Act, 
which was signed into law in July 2010. The President and 
leaders of Congress appointed nine commissioners, who are all 
volunteers, during the winter of 2010 through 2011. The 
commission has received funding from the U.S. Departments of 
Justice and Interior in the late summer of 2011 to carry out 
its statutory responsibilities. The commission is charged with 
conducting a comprehensive study of law enforcement and 
criminal justice in tribal communities and will recommend to 
the President and to Congress modifications and improvements to 
justice systems at the tribal, federal and state levels. The 
Tribal Law and Order Act made clear, however, that the 
commission's report would be due within 2 years of enactment. 
Thus, our report is due in July of this year.
    Commissioner Tom Gede and I are here today to urge Congress 
to extend the life of the commission to allow us to complete 
our study, our field hearings and our analysis in order to 
develop a meaningful and comprehensive report. I was appointed 
to the commission to serve by Senate Republican Leader Mitch 
McConnell at the recommendation of U.S. Senator John Barrasso.
    By way of background, I am a member of the Navajo Nation 
and I currently operate a public and government affairs firm 
based out of Cheyenne, Wyoming. Prior to that, I served as an 
Assistant Attorney General in the Wyoming Attorney General's 
Office. I have also spent some time working on Capitol Hill 
working for the late U.S. Senator Craig Thomas of Wyoming, and 
I also worked at the National Gaming Commission. I currently 
serve as an Adjunct Professor at the University of Wyoming 
where I teach a class on Indian law and policy. It was an honor 
to be selected to serve on this commission, and it is an honor 
to appear before you today.
    The commission did not receive its funding until August of 
2011, more than a year after the enactment of the Tribal Law 
and Order Act, and thus one of the two years that Congress 
anticipated for our review and study was lost. The commission 
organized itself throughout 2011 and it held its first public 
hearing in September 2011 at the Tulalip Indian Reservation in 
Washington State. The commission has thus far traveled to or 
near Indian Country for hearings on a monthly basis since then 
and has met with tribal, state and federal officials with deep 
experience and knowledge of the problems in Indian Country.
    We currently have eight upcoming hearings throughout Indian 
Country scheduled to occur through October 2012. This active 
and high-paced work is essential for the commission to 
accomplish its task but our work is not complete and cannot be 
reasonably be completed by July 2012.
    The commission respectfully requests that you consider 
legislation that extends the life of our commission for an 
additional year at no cost and with no additional appropriation 
so that we can complete our work.
    Thank you again for the opportunity to testify. 
Commissioner Gede will now testify as to some of the key duties 
assigned to the commission.
    [The statement of Affie Ellis follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Simpson. Tom.
    Mr. Gede. Thank you, and good morning, Chairman Simpson, 
Ranking Member Moran and members of the Committee. My name is 
Tom Gede, and I was appointed to the Indian Law and Order 
Commission in December 2010 by then-House Minority Leader John 
Boehner. I am an attorney in Sacramento, California, and 
previously served as a Special Assistant and Deputy Attorney 
General in the California Attorney General's Office under 
former Congressman, then Attorney General, then again 
Congressman Dan Lundgren, and also teach federal Indian law at 
University of Pacific-McGeorge School of Law.
    In my written testimony, I provided an introduction to all 
the members of the Committee of our nine-member commission, one 
of whom is our distinguished President Keel here today with us 
as well of the nine members of the commission, and as Affie 
pointed out, we are facing a very short deadline to complete 
this comprehensive study of improvements to public safety for 
American Indian and Alaska Native communities at all levels of 
the government. The charge Congress gave us was to examine law 
enforcement and public safety in Indian Country including the 
complex issues of jurisdiction over crimes committed in Indian 
Country, tribal jail and federal prison systems, rehabilitation 
of offenders, tribal juvenile justice systems, the prevention 
of juvenile crime, rehabilitation of Indian youth in custody 
and reducing recidivism among Indian youth. The commission is 
to provide the President and this Congress with a report of our 
recommendations for improvements to the justice system at all 
levels. This may include consideration of simplifying 
jurisdiction in Indian Country, improving services and programs 
focused on preventing juvenile crime on Indian lands, 
adjustment to the penal authority of tribal courts, and changes 
to the tribal jails and federal prison systems. I join 
Commissioner Ellis in respectfully requesting the support of 
the Committee and Congress for an extension of one year for the 
commission to complete its work.
    As you may know, Congress provided that $2 million in 
unallocated funds from the Department of Interior and 
Department of Justice be used to support the commission, and so 
we seek no appropriation but we do need an additional year of 
life to the commission in order to get this comprehensive 
completed and our report to the Congress and the President 
finished. Thank you.
    [The statement of Tom Gede follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Simpson. I thank all of you for testifying.
    If you can simplify the jurisdictional issues in Indian 
Country over crimes committed on reservations or by tribal 
members or against tribal members and whether it is by tribal 
members or non-tribal members, I have been trying to understand 
it now for about a year. I got a book on it, and I am confused, 
to tell you the truth, so I suspect everyone else is too. 
Simplifying that would be a huge step forward. But it was a 
year before you got funding to start this actual commission 
work, so we will look at seeing what we can do to extend it. I 
apologize for calling you Alfie instead of Affie, but I do not 
have my glasses on and I grew up in a time when the song was 
``What's It All About, Alfie.''
    Ms. Ellis. No problem, Mr. Chairman. Thanks.
    Mr. Simpson. You bring up many other important issues that 
this Committee will address in this budget. Obviously we have 
been somewhat focused on health care and trying to address the 
health care needs in Indian Country. It is an important subject 
to this Committee, and we will do what is necessary to get that 
done. We have both a treaty responsibility plus a moral 
responsibility to make sure of that. And I have had Members of 
Congress say to me, we spend so much money on health care in 
Indian Country, way more than we do on veterans, and that is 
just not the case. In fact, it is just the opposite. We need a 
good educational program within Congress to educate Members to 
the amount of money we spent on health care in Indian Country 
versus the rest of whatever government does.
    I am concerned, as you are, that the President's budget for 
educational services would actually build no new schools, and 
the need in Indian Country for new schools is truly out there. 
We went through some of schools that frankly you should not 
send children to, and we have to do something about that. So 
this Committee will continue to focus on those issues.
    Jim.
    Mr. Moran. Just a word on the Tribal Law and Order 
Commission. One of the concerns that I am very much hoping can 
be addressed by the Commission are crimes committed 
particularly against Indian women off reservation that are 
committed with basic impunity. Too many of them have been 
brought to my attention that have not been prosecuted, and I 
would hope that there is a section of your report that 
addresses that. Maybe these were atypical incidents. I do not 
think so, though, because the statistics were troubling. It was 
almost culturally accepted in some areas of the country that 
you could commit crimes against Indian women with impunity as 
long as it was kind of around the margins of the reservation. 
Among many issues that need to be addressed, that is one of the 
ones I do hope that you focus on.
    Mr. Gede. If I may, Mr. Moran, that is one of the highest 
priorities of the commission to examine and grapple with. It is 
a very difficult issue and we know that the Congress is looking 
at some of the issues in the VAWA reauthorization but we 
definitely are making that one of the highest priorities.
    Mr. Moran. Good for you. Thank you.
    Ms. Ellis. Thank you.
    Mr. Simpson. I agree with what the ranking member says. 
When you look at the rate of crimes against women on 
reservations, it is appalling, and I have talked with Secretary 
Echo Hawk about how they have made a concentrated effort to try 
to put more officers on some reservations to try to reduce the 
crime rate, and I understand it has been fairly successful. I 
talked with him about doing an oversight hearing, having him 
come in and testify about what is going on with these programs 
and how successful they have been and trying to bring in some 
of the other individuals that are involved. We will continue to 
pursue that.
    Representative Cole.
    Mr. Cole. Thank you, Mr. Chairman. I thank all of you for 
being here, and again, I would be remiss not to thank the 
chairman and thank him for the great work he has done in this 
area and building on the work Chairman Moran and before him 
Chairman Dicks did. We really do have a bipartisan and frankly 
unanimous commitment on this committee to try and do better 
than historically we have done. I think we have made a 
difference in the last few years.
    I want to focus most of my questions on health care, 
although I share the chairman's concern on education and law 
enforcement too. I think we all do. But on contract support 
services, and Stacy, if I can use your first name?
    Ms. Bohlen. Yes.
    Mr. Cole. If I can maybe start with you, but anybody else 
that wants to can chime in. This Committee tried to make a lot 
of progress last year on that front, and we appropriated a lot 
of money and were able to hold on to a lot of it through the 
conference process, and at that point--I am not being critical 
of the Administration, I am trying to get at what our problem 
is--we had the Administration come back and say gosh, you guys 
are giving us too much money in this area, contract support. 
You need to take some of it back, we are going to redirect it 
other places. In the course of that, I know the Chairman has 
this concern as I did. I said, once you start redirecting this 
money, there is no assurance we are going to get to redirect 
it. They wanted to redirect it toward dealing with our non-
tribal providers and contract services so that there was a 
legitimate point but, again, they had one set of numbers as to 
what contract support was, we had a very different view, and 
they have since told us what the disparity us and why in their 
view, and are trying to work with us on it. But from your 
standpoint, you have considerable expertise here. What is the 
problem? How do we get at what the right amount to appropriate 
is in this particular area? And if you have any kind of idea 
what that would be beyond what we have been doing, that would 
be very helpful.
    Ms. Bohlen. Well, there is a great deal of work that is 
done in that area, and if I can comment just briefly on what 
you said previously, it is not--Indian health care is not a 
place where you can sort of pick a line item over another line 
item and have an aggregate outcome. The work that has been done 
on contract support costs has been absolutely critical and 
necessary, and while Contract Health Services is an absolutely 
critical area of need as well, the two cannot really be in 
competition with each other as I think you recognize. But there 
is an individual at the table who I think can answer this 
question better than I because he is the former chair of the 
Tribal Self Governance Advisory Committee, and I would like to 
defer to President Keel if I may.
    Mr. Cole. Sure.
    Mr. Keel. I will try. Contract Health Services, if you look 
at the Indian Health Service across the board, 331 tribes are 
self-governing tribes, and more than that, there are a number 
of tribes who have contracts with the federal government. The 
tribes in this country are the only government contractors that 
do not get their full contract support costs up front. If you 
look at Halliburton and all the other government contractors, 
they get their administrative costs and contract support costs 
up front. It is built into the contract, and they get those in 
order to operate those contracts right off the bat. Tribes are 
not in that same pool. So the bottom line, tribes are not able 
to fulfill those contracts because of a lack of resources, and 
they are simply not able to hire the right people, the right 
amount and the number of people to fulfill those contracts and 
those services to the people that they serve. And so that is 
the real problem.
    But if you look at the difference in Contract Health, many 
of our tribes, many of the clinics and hospitals simply do not 
have the staff or the equipment to provide the services to 
specialized medicine that is needed and so they simply have to 
hire that out and they hire and send that out to other 
resources to provide their services. And so there is the 
difference.
    But actually, Lloyd Miller is here. I might ask him if it 
is okay with you, Mr. Chairman, that he might provide just a 
30-second overview of that. He will probably charge me for 
this.
    Mr. Cole. That is why you are limiting him to 30 seconds.
    Mr. Simpson. Identify yourself for the record.
    Mr. Miller. Thank you, Mr. Chairman and Mr. Cole, members 
of the Committee. My name is Lloyd Miller. I am an attorney. I 
represent the National Tribal Contract Support Cost Coalition. 
Mr. Moran, good morning, and Ms. McCollum, Ms. Lummis.
    The problem last year was that the Indian Health Service 
did not disclose its data and this year once again is not 
disclosing any data it uses to make the projections it gives to 
the Committee. Last year in the supplemental information the 
Service provided this Committee, there was a fundamental error 
in the numbers. They compared a requirement from one year with 
the funding amount of another year. We called that error to the 
attention of the Service. The Service did not correct the 
numbers to the Committee. The Committee was told there would be 
an over-appropriation at the levels you were proposing. The 
number was dropped. Now the Service acknowledges there will be 
a $50 million to $60 million shortfall because they agree they 
made an error.
    The Committee was misled by the Administration and it is 
compounded by the fact that now in the President's budget, the 
President no longer--the Indian Health Service is no longer 
telling this Committee how much the contract support 
requirement is projected to be in 2013. In 25 years, we have 
never seen a President's budget that excluded a projection of 
the need. So you are shooting in the dark. I will testify 
tomorrow on behalf of the coalition with the data we have 
produced from the expertise of a former Indian Health Service 
contract support cost expert who left the Service 2 years ago 
but we project that the 2013 budget will be about $99 million 
short.
    Mr. Cole. First of all, thank you, and I would invite you 
to work with us because we really did try last year to get the 
number.
    If I can just make one other point, Mr. Chairman, you have 
been very generous with your time. I just wanted to focus on 
the urban Indian just a second, Mr. Barnett. Number one, I did 
not realize, to tell you the truth, that we had for 2 years not 
increased--because the aim has been to try and do more in this 
area, and we certainly have two clinics in Oklahoma that do 
unbelievably important service for us, particularly in areas 
outside tribal jurisdiction. We have a lot of citizens with a 
lot of needs but they are in the middle of Oklahoma City where 
no tribe has any jurisdiction and very little in the way of--I 
know the Chickasaws maintain a presence now in that community.
    You put a minimum dollar figure but I would like you just 
for a moment to make a statement about what happens to the 
people you cannot serve, because the reality is, they flood the 
institutions around them anyway. We are going to pay for this 
one way or the other. They almost always get better care and 
they would prefer to be at an urban facility, but it is not 
like these patients if we cannot take care of them in Oklahoma 
City or in Tulsa or wherever else in the country are not going 
to another hospital, and quite often it is indigent, 
uncompensated care.
    Mr. Barnett. Thank you very much, Representative Cole. That 
is a question that has been proposed in the past when the prior 
Administration actually targeted the urban Indian line item for 
elimination completely and they asked that same question, why 
are the services needed, what happens, you know, when these 
clinics are not there. And you steered toward the answer, which 
is when these clinics are not there, the patients do not 
receive services, and that is for several reasons. First, you 
know, the safety net is stretched to its capacity in almost 
every state that I know of. The community health centers came 
together and supported the urban Indian health programs because 
they could not serve the patients if those clinics were not 
present. They do not have the resources or the capacity and 
they do not have the ability to provide the culturally 
competent care that is needed as well as the individuals living 
in those areas often come to our programs because they do not 
qualify for other programs, either private or public. So when 
you remove the Indian Health Service out of the equation, even 
though they are in an urban area, they are left with no care 
whatsoever or they are left with county care that does not meet 
their needs either medically or culturally. That leads them 
oftentimes without services, and there is an inherent distrust 
between American Indians and government-run services for 
obvious reasons, and that does actually trickle over into 
county and public health services. So Indian people will at 
times flat out refuse to go to a county or state-run health 
program, and if there is not an urban Indian health program in 
the area, they simply will go without care until they are in 
the emergency room and the care becomes much more expensive, 
life threatening and, you know, much more difficult to address.
    Mr. Cole. Thank you, Mr. Chairman.
    Mr. Simpson. Ms. McCollum.
    Ms. McCollum. Thank you, Mr. Chair. I apologize for not 
hearing all the testimony this morning. I have been looking 
through it. All politics is local, and I was with MAST this 
morning. So, based on some of the discussion that I had with 
them and some of the things that you have said and the 
questioning, I am just going to build on this a little more.

                          URBAN INDIAN HEALTH

    I represent the St. Paul area. We have a large urban 
population in Minneapolis and a significant one in St. Paul, 
but they are really invisible. That is because a lot of the 
services are not there for them. So it does put a lot of 
pressure onto some of our health clinics. I think we do have a 
good relationship in the Twin Cities between the Native 
American community and Ramsey and Hennepin County. But they are 
not being compensated properly for the care that they are 
giving. We have 11 Ojibwe nations and Sioux nations plus people 
who travel from Wisconsin in for parts of the winter or parts 
of the summer, back and forth, and mixed marriages where 
children are of both tribes. We really need to figure this out 
in a way that is friendly to families for a whole host of 
reasons. So I am planning on delving more in depth just in the 
Twin Cities to understand what is going on, and anything you 
can do to help me in my journey would be appreciated.

                          INDIAN YOUTH HEALTH

    We talked about a lot of things, including schools. You 
know, I am a high school teacher. Sixth grade is important, so 
we need to fix that for you somehow. Another thing that is 
becoming a reoccurring theme that I have heard a lot, including 
when I was just in Wisconsin visiting with three tribes there 
and then again at MAST, is alcohol and prescription drug abuse. 
We are seeing cocaine, heroin and meth on the rise, and that 
was a concern in our conversation was with MAST today. It boils 
down to what you are working on with law and order, what health 
care works on with diagnosis and treatment, and what ultimately 
makes successful students because they have parents who are 
engaged. Those students are not becoming involved in gateway 
drugs, suicidal behavior, domestic violence, on and on.
    One of the things that we saw when I was with the 
chairman--and it was a fabulous, enlightening trip he put 
together--was talking about that juvenile treatment center 
there and how far kids come from there? I met tribal members in 
Green Bay, Wisconsin, and that is the closest juvenile facility 
that they have. That does not support health and it does not 
support good outcomes and it does not support families, because 
the whole family has to be treated. Where are we in talking 
about this? I am a child of an alcoholic. It is a dirty little 
family secret, folks, and it needs to come out in the public if 
we are going to work on this. So is anybody going to talk about 
it here?
    Mr. Barnett. If I can just jump in briefly--oh, I am sorry, 
President Keel.
    Mr. Keel. Go ahead.
    Mr. Barnett. I wanted to say two quick things. One of the 
really sad things in your testimony is that the Green Bay Urban 
Indian Health Program actually closed. The resources were not 
there to support it. Our programs get some base funding from 
Indian Health Service that they are expected to leverage with 
other resources, and unfortunately, when other resources go 
away, the base funding is not enough to sustain the program. So 
the Green Bay program closed.
    As far as the substance abuse treatment programs, what we 
are seeing, you know, our programs can offer culturally 
competent care that impacts our community, that makes a 
difference, that when you look at the completion rate and the 
recidivism rate for our programs, it is phenomenal. They have 
done things that, you know, are justifiable and have a long-
lasting impact, but what we are seeing is that because it is 
residential treatment and because it is, you know, considered a 
high cost of care, the funding is dwindling. Well, that care if 
culturally competent. That care supports the entire holistic 
health of that person including their education, including 
their employment, including their primary care, including their 
dental care, including all of the things that we know these 
people need to be healthy members of our communities, and those 
programs are the ones that are being targeted.
    You know, our Portland program lost over a million. Our 
Seattle program has lost millions of dollars, has turned people 
away and is now laying staff off. That is not going to address 
the problem that you are bringing to the forefront. It is 
actually going to do the opposite. It is going to make it 
worse.
    Ms. Ellis. Mr. Chairman, I just wanted to add, the Tribal 
Law and Order Commission is also looking at juvenile justice 
systems in depth. You know, throughout travels so far, I think 
we have seen some real bright spots and places that are trying 
to tackle the issues head on. I mentioned the Tulalip 
Reservation. We looked at some of their juvenile justice 
facilities, and you know, they are really taking some steps 
forward, but we are also looking at other places where the 
system is not quite there and it is really not being helpful to 
young Indian kids. So it is a huge focus of our commission and 
something that we will discuss, I am guessing, at length in our 
report.
    Mr. Keel. Thank you for the question. When you talk about 
the health and welfare of our children, our youth, education 
systems within--you know, treatment facilities within Indian 
Country are lacking because of the lack of resources. Even in 
our school systems, the BIE schools, there is not enough staff 
because of the lack of resources. There is not staff available. 
And oftentimes many of these children come from broken homes. 
They come from backgrounds of abuse, whether it be alcohol, 
drugs, other types of abuse, and they struggle to find a place 
to fit in, and many times, and Representative Cole touched on 
it, when they cannot get the services in the urban areas, they 
do come to our facilities and they show up. The problem is, by 
the time they come to our facilities, they are in an acute 
situation so that treatment--you know, long-term treatment is 
not available to them so we simply put a band-aid on them and 
send them home.
    The problem with that treatment is that we send them back 
to the same old environment. They go back home, and in a few 
years they are then the problem. And so it is a cycle that we 
simply need to break. We simply do not have the resources to 
break that right now.
    Mr. Simpson. Ms. Lummis.
    Mrs. Lummis. Thank you, Mr. Chairman.
    I want to thank you all for being here, and in light of the 
lengthy day ahead, I want to first of all thank the 
commissioners for their volunteer work. I was once on a 
commission similar, and I know that it is a lot of personal 
out-of-pocket expense as well as tremendous commitment of time, 
and I know Mrs. Ellis is well aware of the issues on the Wind 
River Reservation in Wyoming, and I am sure you are seeing 
similar problems elsewhere that local reservations are 
grappling with, so thank you both for your service there.
    Mr. Chairman, I will follow up with you on Mr. Baptiste's 
discussion about the 11,000 acres and the survey and first of 
all why so much money for a survey, and secondly, why has it 
not been done already, and then also I share Mrs. McCollum's 
concern about the 6th grade. That does seem to be a strange 
lapse in continuity in youth education. So I will just follow 
up with you all on that. And again, I want to thank you all for 
your testimony this morning and acknowledge gratefully the 
attendance of my friend Affie Ellis from Wyoming.
    Mr. Simpson. When I was in the 6th grade, I figured I 
needed a year off. You get a different answer if you talk to 
those kids, huh?
    Thank you all for being here today. We appreciate it very 
much. The information you have given to us will help us in 
crafting the next bill.
    Our next panel: Stoney Anketell, Tracy ``Ching'' King, John 
Yellow Bird Steele and Troy Weston, Richard Greenwald, Tex Hall 
and David Gipp. If you would kind of sit in order? Stoney down 
here, Tracy next. John, you are third. Good to see you again. 
Richard Greenwald, Tex Hall and then David Gipp. I have to run 
upstairs for just a second.
    Mr. Cole [presiding]. All right. Thank you for very much. 
Stoney, we will start with you, if we may, and we are going to 
try to follow the order that we have on the panel. It makes it 
a lot easier on the court reporter.
                              ----------                              

                                           Tuesday, March 27, 2012.

     THE ASSINIBOINE AND SIOUX TRIBES OF THE FORT PECK RESERVATION


                                WITNESS

STONEY ANKETELL
    Mr. Anketell. I was going to say good morning, Chairman 
Simpson and members of the Subcommittee. My name is Thomas 
``Stoney'' Anketell. I am a member of the Executive Board of 
the Assiniboine and Sioux Tribes of the Fort Peck Reservation. 
Thank you for inviting me to testify.
    The Fort Peck Reservation is a large land-based reservation 
in northeastern Montana that encompasses approximately 2.1 
million acres. About 8,000 of our 12,000 tribal members reside 
on the reservation. Our greatest need is for economic 
development, infrastructure, public safety and health care. I 
will address my comments in that order.
    In economic development, our unemployment rate on our 
reservation is nearly 60 percent. Four in ten families live 
below poverty level. In order to generate more economic 
development, I ask this Subcommittee to take two specific steps 
to help us increase energy exploration on our reservation 
which, like the Fort Berthold Reservation, lies within the 
Bakken Formation.
    First, direct the Department of the Interior to set 
drilling permits on Indian reservations at state permit levels 
or exempt them altogether. A BLM drilling permit on Indian land 
costs $6,500. That is too high. It makes us less competitive. 
For the same permit, a Montana drilling permit on fee lands, 
$75. So $75 versus $6,500.
    Second, increase funding for the BIA's Office of Indian 
Energy and Economic Development above the $8.5 million the 
Administration requests so that the Department can increase 
full-time hires to process mineral leases and other energy 
development leases on Indian reservations. BIA regional and 
agency staffs do not have adequate expertise in energy 
development to issue lease and drilling permits in a timely 
manner so our tribe can take advantage of this unique 
opportunity. More staffing with better training could help 
clear up this backlog.
    Infrastructure--the health of our community is tied to the 
quality of our drinking water. Since enactment of the Fort Peck 
Reservation Rural Water System Act of 2000, we are developing a 
rural water system to serve our reservation and surrounding 
communities with safe drinking water. EPA has determined that 
well water in the area is contaminated by brine plume. This 
project is a $200 million project. Through our Indian Self-
Determination Act contracts, we have completed construction of 
the raw water intake facility, the water treatment plant and 
laid miles of pipeline. Under the federal law, operation and 
maintenance funding is the responsibility of the BIA. The BIA 
is not doing its job correctly. The BIA is behind schedule in 
requesting adequate operation and maintenance funding to ensure 
that we have adequate funds to safely operate and maintain the 
project. Please see that the BIA has the $1 million in 
operation and maintenance funding that we need for fiscal year 
2013 operations of our rural water system. The BIA has only 
requested $750,000 for fiscal year 2013. We currently receive 
$200,000 in recurring operation and maintenance dollars.
    Another infrastructure need is adequate funding for the BIA 
Road Maintenance Program. Funding for the BIA Road Maintenance 
Program has been flat at around $25 million for the last 30 
years. It has not gone up. And it has actually been dropping 
over the last 5 years. This is wrongheaded. Native Americans 
die in motor vehicle crashes at rates two to three times the 
national average each year, partly because our roads were not 
safely designed and are not adequately maintained. Please find 
at least an additional $10 million from the Park Service, Fish 
and Wildlife Service, or other non-BIA programs at Interior to 
help keep reservation public roads and bridges safe.
    Public safety--we greatly appreciate the increases Congress 
has recently provided for public safety programs but given the 
large shortfall in law enforcement and correction officers, 
these increases do not fulfill the United States' basic trust 
responsibility in the area of public safety. We support the 
Administration's $6.5 million increase requested to fund the 
operations of the newly constructed detention facilities. The 
Fort Peck tribes received a grant from the Department of 
Justice to rebuild our detention facilities, which will be 
operational in fiscal year 2013. Please ensure that the BIA and 
the Interior Department's Office of Facilities Management and 
Construction have the resources needed to maintain detention 
facilities after they are built by increasing funding in fiscal 
year 2013.
    I will end on health care. Our tribes desperately need to 
extend our Fort Peck Tribal Dialysis Unit from 10 to 18 
stations or to construct a new dialysis on the reservation. We 
are at capacity, serving 33 patients six days a week. We have 
an additional 73 to 100 pre-renal patients, and this is a 
tribal program. We built this thing, we run it ourselves and we 
need help. We are not asking for much because we have done it 
all on our own, but we need help, because as you know, diabetes 
is such a severe problem in Indian Country, and this is the 
final phase of diabetes, dialysis. So if we cannot serve them, 
they will have to travel great distances for dialysis 
treatment. We ask the Subcommittee to direct the IHS to report 
to Congress on its efforts to address the need for dialysis 
treatment in Indian Country as required under the Indian Health 
Care Improvement Act, especially in rural regions such as the 
Rocky Mountain region.
    Finally, we support and ask the Subcommittee to increase 
the Administration's $54 million increase to the Contract 
Health Services budget. These funds pay private health 
providers for services that tribes nor the IHS can perform in 
IHS-funded clinics and hospitals. The IHS is failing our 
members by not advocating for adequate health care funding, and 
for not promptly referring our members to private providers 
because they--IHS--lacks the funds to cover members' copay 
requirement. Only when it is life or limb does IHS authorize 
the use of CHS funds, oftentimes too late for the patient. I 
ask that this Subcommittee direct a study be conducted to 
examine how Contract Health Services dollars are expended by 
the IHS with an eye towards making recommendations to help save 
Native American lives and use CHS dollars more effectively. 
Thank you.
    [The statement of Stoney Anketell follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Cole. Thank you very much.
    Now Tracy King, Fort Belknap Indian Community.
                              ----------                              

                                           Tuesday, March 27, 2012.

                     FORT BELKNAP INDIAN COMMUNITY


                                WITNESS

TRACY ``CHING'' KING
    Mr. King. Thank you, Mr. Chairman. For the record, my name 
is Tracy King. I serve as the President of the Assiniboine and 
Gros Ventre nations. I apologize for being late, Mr. Chairman.
    Just like everybody else, our needs, especially in law 
enforcement, I believe that one meeting with the Fort Peck 
Nation we are looking at the oil boom in the State of Montana 
as well as North Dakota where law enforcement is critical 
because of a lot of crimes that are happening in that area with 
a big increase of people coming to make some dollars. Also, 
with our roads department, we have concerns about road 
maintenance because one of the things we are seeing is the 
folks will be coming in during the oil boom and our maintenance 
budget as short as it is, it is going to be more so once the 
movement of machinery. So it is critical that law enforcement 
and roads--the State of Montana collects taxes in the name of 
our roads so, you know, we have been trying for 20 years to 
make an agreement so that we could--it is probably close to a 
million dollars that they use us for inventory but at the same 
time they cannot agree to give us any money, so it puts a 
burden on our budget system.
    We look at the roads. On December 7, 2011, I was in a car 
wreck, and it took, like, probably over an hour for someone 
to--the ambulance crew to pick me up because of a snowstorm, 
and so firsthand I know the system not only the roads but the 
IHS system where, you know, sitting on a road for an hour 
waiting for an ambulance, you know, I totaled my car. A cow was 
in the wrong lane and came over on top of me, and I broke my 
neck and was severely injured. According to the statistics, I 
should have been buried. And so those kind of things we look at 
is our roads are in need of repair as well as looking at the 
gentleman to my right, looking at health care is something that 
is needed.
    My CEO was with me but his younger brother, who is probably 
in his 50s, died yesterday of diabetes, and so we have an 
epidemic of diabetes and cancer on Fort Belknap, so we are in a 
crisis with our health. And so we are in desperate need of 
services, especially looking--the people that were before me, 
any kind of a medical, you know, if there is a heart attack out 
south, you know, it is often two or three hours. And so I was 
very fortunate that I was able to walk away from a wreck, and 
some of the people that had heart attacks or whatnot, the cops 
end up being the EMTs and the ambulance because of lack of 
services out south.
    So with all the issues we have, you know, we are wanting to 
build the economy within our reservations, and if we could have 
a little dollars into our--I believe that we could economically 
survive. Too many times, non-Indians come and become 
millionaires off the backs of our people. And so everything is 
against us but hopefully, I mean, I do not believe it is--I am 
not against the millionaires. I respect what they make. But, 
you know, we as Indian people need that chance as well to 
become self-sufficient instead of roadblocks that are put in 
front of us all the time.
    So thank you, Mr. Chairman.
    [The statement of Tracy King follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Cole. Thank you very much.
    John Yellow Bird Steele, Troy Weston, good to see you 
again. Thanks for your hospitality. Just for the record, 
Chairman Simpson, Ms. McCollum and I had the opportunity to 
visit with you last summer, and thanks again. It was helpful 
and your hospitality was just unbelievably generous. Thank you.
                              ----------                              

                                           Tuesday, March 27, 2012.

                           OGLALA SIOUX TRIBE


                               WITNESSES

JOHN YELLOW BIRD STEELE
TROY WESTON
    Mr. Steele. Congressman Cole, I thank you and Congresswoman 
McCollum for coming down to Pine Ridge and seeing the 
conditions firsthand. I am here once again like last year 
before your Committee. I got my council person here to address 
yourselves, but I would like to address something, Congressmen, 
to yourselves.
    We got an 1868 treaty, and in 1871, your Committee in their 
appropriations bill put language in there that said no more 
treaties would be made with Indian tribes hereafter. Our 
relationship would be by statutes. But nothing in the prior 
treaties could be changed by these statutes. Now, we followed 
that, yourselves and ourselves, to today, that language that 
was put into your Appropriations Committee. I would request, 
Honorable Congressmen, that possibly you consider a request 
from myself to put some additional language into your 
appropriations bill, and I have got a very big concern. I can 
work with your staff in the very near future on this. But 
preserving the rights that are going to be taken from Indians 
across America in a settlement that Congress approved in the 
Cobell litigation, and I have got language here, and you can 
develop your own language. This is just an example of what I 
would request, and it is nothing in the Cobell litigation 
settlement shall waive any Indian tribe's right to self-
government, tribal government rights under treaty or agreement, 
special trust relationship with the United States, property 
rights or land rights or the rights of any individual Indian 
class member which are unrelated to the claims in the 
litigation. That is very important. Nothing in said settlement 
shall affect the political relationship between the Indian 
tribes and its tribal citizens or members. That settlement, 
Honorable Congressmen, has the Indian give up all future 
claims, not just the claims in the historic accounting error. 
We understand that. That is common in lawsuits. But to give up 
all claims? Please.
    We have got a special relationship with yourselves. We are 
not a special-interest group. We are not a minority. Our 
relationship goes back to when you first came to our country, 
and we want to keep that. Because of the poverty situation, 
four of the poorest counties in the whole United States, one, 
two, three and seven, are in South Dakota. I would like my 
councilman, Mr. Westonon, to continue, please.
    [The statement of John Yellow Bird Steele follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Cole. Mr. Weston, you are recognized.
    Mr. Weston. Thank you very much. Good morning to each and 
every one of you, and thank you for giving me this time.
    I had this big speech planned out, but our president took 
all of our time.
    Mr. Cole. You can take the 5 minutes the president had.
    Mr. Weston. Let me begin by reiterating what the other 
councilman and the president have said. Our health care needs 
are to the point where our people die every day because of the 
lack of money within Contract Health, because of the priority 
systems that do not work at all. The priority system is that 
you have to--it is a life, limb and property deal. We have 
become a property now. We only get referred out if it is a 
priority one, and it does not work because we have to go 
travel. The nearest hospital is an hour and a half away by car 
driving 65 mile an hour. We bring helicopters and airplanes in 
there for life flight services at $22,000 a pop for the 
helicopter and then $9,000 on the airplane. And they are 
spending how much money to send them out and we take them to 
Rapid City and we give them Tylenol, we give them Motrin and 
send them home. That is the mode of our health care today.
    We do not get--it costs--I have got a figure here real 
quick. We have--it costs our Native American people, our tribal 
membership, the IHS spends $2,700 per Indian patient. The U.S. 
average is $7,200. Now, where is the catch there?
    We talk about alcoholism. The Congresswoman alluded to that 
earlier. We have White Clay, Nebraska, that sits 2\1/2\ miles 
south of Pine Ridge. Four million cans of beer per day is what 
they sell, and we are a dry state, or dry reservation, and we 
still have to prioritize if we are going to haul somebody that 
is drunk or a legitimate wreck or whatever. You know, something 
that--there is no legitimacy to this but the bottom line is, at 
the end of this fiscal year, the contracts, CHS does not get to 
pay for everybody, so they just get put on the back burner and 
we do not have that.
    I have a lot more time, but I think I am well over limit, 
so I just want to say thank you for giving me this time because 
we have a lot of issues.
    Mr. Cole. Thank you very much.
    Mr. Steele. If I may, Congressman?
    Mr. Cole. Oh, certainly.
    Mr. Steele. This is my Chief of Police, Mr. Richard 
Greenwald. I read his testimony and he has nothing in there 
about the full judicial responsibility on the 100-mile by 60-
mile area that he has to cover because the Supreme Court's 
Hicks versus Nevada where state police can operate on 
reservations does not apply to Pine Ridge Reservation, so they 
cannot come on to our reservation, and he has full 
responsibility for everything in the judiciary area.
    Mr. Cole. Chief Greenwald.
    Mr. Greenwald. Good morning, sir.
    Mr. Cole. Good morning. Good to see you again.
                              ----------                              

                                           Tuesday, March 27, 2012.

             OGLALA SIOUX TRIBE DEPARTMENT OF PUBLIC SAFETY


                                WITNESS

RICHARD GREENWALD
    Mr. Greenwald. Good morning, everybody. Good to see you 
again. It was good to have you down at Pine Ridge, and it is 
odd that Mr. Gipp is sitting next to me because I graduated at 
United Tribes Technical College.
    Thank you for having us here today again. We spoke a little 
bit about our reservation, Pine Ridge, roughly the size of the 
State of Connecticut. We have a population of over 43,000 
members and an unemployment rate of over 80 percent.
    Overcrowding in our housing--most families, housing areas 
are 15 to 20 people living within a household, which causes 
chaos and many social and public safety issues for us. 
Currently, we are funded at 49 police officers, less than half 
of what we need according to the BIA. I brought some charts 
here today and stuff just to show you some numbers and some 
discrepancies. Sioux Falls and Rapid City are our largest two 
cities in the State of South Dakota, Sioux Falls with a 
membership of 165,000, and 67,000 in Rapid City. The total 
calls for service this year in 2011 shows that we surpassed 
both of the big cities surrounding our Indian Country here, so 
our--and the other thing is our officers' ratio, you know, 49. 
They have 115 in Rapid City and 233 in Sioux Falls. Those are 
not counting the county officers or the state highway patrol 
that are also there in their area.
    Currently, because of our shortages in law enforcement and 
122,000 calls for service, imagine 49 police officers trying to 
handle those calls for service. It is wearing my officers to 
the limit. I have lost probably 10 officers in the last 3 or 4 
months either due to stress--we had a standoff with one of my 
police officers for 4 hours at gunpoint because his wife left 
him, because why? Because public safety took him away from her 
for 12-, 16-hour shifts a day, no days, did not get any time to 
spend at home. These are realities for my officers. They do not 
have backup, you know.
    I come to Washington, D.C., and I wanted to grab one 
officer from each block and take them back with me, you know, 
because there is one on every corner, it seems like, and I want 
to take some home with me, you know.
    Those are realities for us here on the Pine Ridge. One of 
the things that I wanted to say is that if we continue to 
ignore the issues that are going on on the reservation, it is 
going to get worse. I know I spoke to you about that when you 
were down in Pine Ridge. A week later, two officers of our 
friendship department in Rapid City who do have friendships 
with me--we work a big basketball tournament that is up in 
Rapid City together, we walk side by side with rapid City 
officers. They lost two police officers to a Native American 
that killed both of them, gunned them down in Rapid City. And 
the story will go on and on about property crimes, violence 
against each other off of the reservation. These are our 
memberships from our reservations moving to the cities and 
bringing our social unrest to their cities because we are 
ignoring the issues that are on reservation.
    Our court staff cannot handle this type of call service. I 
have three prosecutors and five judges on Pine Ridge, sorely 
understaffed. The last time they received any increases to 
their funding was in 1979. We gave them last year, with all 
these calls, 58,000 cases. There is no way the prosecutors can 
handle that caseload. So a lot of these things are falling 
through the cracks. When people are not paying for their 
misbehaviors, they think it is okay. It becomes a social norm 
for them. But when they leave our reservations and go to your 
cities, they bring that with them.
    Two weeks ago, three weeks ago, there was a shootout in 
Rapid City. Five Native Americans robbed a store and shot it 
out with the Rapid City Police Department. Last week, another 
one of our Native Americans was murdered in Rapid City, 
possibly by another Native American. So if we keep ignoring 
that stuff--and these stories that I am talking about, if you 
look across Indian Country, it is happening to their outside 
neighborhoods, Mobridge, South Dakota, Rushville, Nebraska, 
Gordon, Nebraska, any place that is surrounding Indian Country 
because we have failed to properly handle what is going on in 
our backyard. It is ending up in your backyard.
    Some good things that I want to talk about is, we have a 
highway safety program that we brought to Pine Ridge. It is 
called Sacred Cargo, and it was with funding with NHTSA, CDC 
and IHS, and I was to go out and educate all the people using 
media or local ratio stations in a way that we could get the 
message out to our people. We showed that we could reduce the 
fatality rates by over 75 percent, the serious crash injuries 
by over 70 percent. When I talked to the CDC at some of our 
meetings across the state, I asked them to start putting out 
numbers whenever I talk to them just about our numbers, I said, 
you know, I am sure the IHS is probably saving a few thousand 
dollars off of this, and there was a guy from CDC that said all 
I do is crunch numbers. He said Rich, your program has saved 
the government millions of dollars, not just thousands of 
dollars. So if we could show that if we put a little money and 
effort into fixing things on our reservation, in return we will 
save money in the long run.
    So what I am here to say today is that, you know, last 2 
years, we spoke about this before, there was $80 million that 
came down for Indian Country law enforcement while Pine Ridge 
and one other reservation were left out of that funding. We got 
zero dollars. I do not know why or what the deal was. But if 
you look at the chart below and you look at some of the other 
reservations down south as it pertains to--there are variances 
from the down south region to our Great Plains region. Look at 
the differences. Hundreds of officers in these really small 
reservations yet the big land-based reservation that we have 
got here in South Dakota and North Dakota and Montana, there is 
a huge discrepancy there. We are not able to handle what is 
coming and it is getting higher and higher.
    So I know our time is getting short here, and I guess for 
right now, that is it, and it is really good to see you guys 
again and thank you for having us here.
    [The statement of Richard Greenwald follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Cole. Chief, thank you very much.
    Tex.
                              ----------                              

                                           Tuesday, March 27, 2012.

          MANDAN, HIDATSA AND ARIKARA NATION OF FORT BERTHOLD


                                WITNESS

TEX HALL
    Mr. Hall. Thank you, Chairman Cole, Ranking Member Moran, 
and Congresswoman McCollum.
    I am Tex Hall, the Chairman of the Mandan, Hidatsa, and 
Ankara Tribes on the Fort Berthold Reservation in North Dakota. 
I want to make a few comments about my tribe and then one about 
the Great Plains because I have been regional chairman for the 
Great Plains.
    On my tribe on staffing and quarters, we have got a new 
clinic and that was through the efforts of Senator Dorgan. And 
it went kind of a roundabout way. Instead of going through the 
IHS, it went through the Army Corps of Engineers because that 
is who flooded us in 1953. But I think that kind of became a 
problem because then it was trouble getting staffing. But IHS 
did work with us and we were able to get the staffing. But the 
third holdup now is the quarters. We need about $12 million for 
60 units of quarters. We have put in several million dollars to 
take down a property. We are developing lots, water, sewer, 
curb, and gutters, streetlights, and we just need the help from 
the IHS for this last piece of quarters.
    So it is real critical because we are in the Bakken 
Formation right here and this is an Oil and Gas Expo 
Conference. And as you know, the Bakken is the hottest oil 
plain in U.S. right now and we are right smack in the middle. I 
call it Ground Zero because there are about 2,500 trucks coming 
at you every morning when you get up to try to get on the 
roadways. And, you know, so it is definitely a challenge to be 
on top of this oil plain. It is pretty hard just to say, oh, 
yeah, let's have oil plain right now. You have to be able to 
have planned development, energy corridors, infrastructure, 
electricity, housing, water, sewer, law enforcement. You have 
to have all of that or you are not going to do very well.
    And so the second thing I want to talk about on oil and gas 
is the BLM's misguided rule called hydrofracking. And this 
misguided rule has never taken any tribal consultation 
whatsoever, which violates the Presidential Executive Order 
13175 where any federal agency that is going to propose a rule 
that potentially has an effect either negative or whatever on a 
tribe must consult. Well, this rule is about to into effect and 
so we met with Michael Nedd, Associate Director, yesterday, and 
will meet with our regional director in Dickinson, North 
Dakota, this Thursday. And I honestly think if I did not call, 
BLM would have never responded. This is going to require 
another permit.
    We have gone through boxes of permits for BIA in 2007, 
boxes, cardboard boxes. Where is this lease? Where is that 
lease? Oh, I do not know, got to go. Here, grab it over there. 
And you try to find a box and you will try to find the allottee 
or you will try to find a travel track and then we went through 
the APD, the Application Permit to Drill, and then BLM gets 
staffed up and then they lose their staff. So they are sitting 
there with a lack of staff in Dickinson, North Dakota. And then 
EPA comes in and says you need an Air Quality Permit. I said 
where are you going to do that from? Denver? Yeah, yeah. Well, 
we can do a good job from Denver. I said no, you cannot. You 
cannot manage an office from Denver or Billings or Dickinson, 
North Dakota, when the oil plain is in Fort Berthold, North 
Dakota. You cannot do it. I will tell you that right now unless 
you are a better manager than I.
    And so now, on top of that, now there is hydrofracking. It 
just seems like this merry-go-round never ends. And this will 
require another permit in the middle of the game. And we 
already have over 225 active wells on Fort Berthold in these 
last 2-1/2, maybe 3 years, and think our economy is really 
growing. We passed an environmental code that would fine a 
company up to a million dollars if you intentionally dump on 
our reservation. That has seemed to slow a lot of that stuff 
down. We passed a traffic civil code that gives us the 
authority to arrest--I call them--what kind of truckers do you 
call them? They will not listen. And it gives us the authority 
to finally arrest.
    And so things are moving but now we have federal agencies 
now putting another obstacle in the middle of what we are 
trying to do. So I guess the only thing I could ask is through 
the appropriations process--this is how serious I am. This has 
to occur now through the appropriations process, especially 
when Michael Nedd is sitting across from you saying well, you 
know, it is over at OMB. And I said oh, I know what that means; 
it means you cannot do anything now. You know, but you could 
have talked to us a long time ago. This continues to happen to 
tribe after tribe over and over. It is ridiculous. This is 
2012. And some of us have economies that are getting to Fortune 
500 economies. For goodness sakes, we are getting slowed down 
by things like this. We will never have an opportunity like 
this. So this is again something I will request from the 
committee and is something I asked all three of my own 
congressional delegation as well.
    And I will just say something briefly on roads. I do not 
know if Patty--oh, okay. Patty has got my picture over there. 
This will always be a problem for us. We get $2 million in 
Indian Reservation roads. The State will not help us fix our 
roads and the BIA has no money. We have done an engineering 
estimate from Interstate Engineering out of Bismarck, $100 
million to fix over 1,100 miles of roads on Fort Berthold. And 
this crack here goes out west to Watford City. That is a state 
highway. And so really the road now to the left of that goes 
right in the ditch. And the road over to the left, well, last 
year we were in a flood; this year we are in a drought so we do 
not have to worry too much about that mud this year for now 
anyway. But we have to water the roads. We are going to have to 
lay some magnesium chloride down. And it is not cheap. I do not 
know the exact price but it is not cheap. But landowners or 
tribal members, cattle producers, horse producers, they are all 
complaining about pneumonia, they are all complaining about 
their livestock, and they are all saying you guys got to get on 
top of it. Again, everybody is looking at the tribe. Nobody 
else wants to step forward.
    And so we are looking at other avenues, but there has got 
to be consideration for oil and gas tribes. You know, if we 
could get more money that goes to the State, like I said, the 
State does not return $1 in taxes and we split that with the 
State of North Dakota. And if we could get some of those 
dollars back, that would go a long--I would not even be here 
asking for anything like that. If people who should pony up and 
ante up would do it, I would not even be here asking for it 
because the money is there. It is just not coming back to the 
reservation.
    And so I think there was just one other thing I wanted to 
mention. I will just finish with one comment on the Great 
Plains. The Great Plains is 16 tribes, North Dakota, South 
Dakota, Nebraska. We have about 200,000 trust acres and about 
200,000 members of those 16 tribes. We are the largest allotted 
reservation trust lands in the U.S. And we really had to almost 
drag or pull the car across the finish line to get consultation 
on the Cabell Trust Commission. And we do not know why; it went 
everywhere else--Chicago, Los Angeles, wherever else except for 
our region which was affected most. And so this has a huge 
impact on the Great Plains. And so we are going to try to 
continue to work and hopefully you can help us be an advocate 
to get the Commission to understand that anything to do with 
the trust fix or the fractionation or buying up fractionated 
shares, your biggest fractionations in the Great Plains are 
those 200,000 acres. It would go a long way towards addressing 
the problem instead of scattering all over the country. Focus 
on those parts of the country that need it the most.
    Thank you very much. I appreciate your time.
    [The statement of Tex Hall follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Cole. Thank you very much. I may sit in this chair but 
the real chairman of the committee has arrived, so I am going 
to start with Chairman Simpson.
    Mr. Simpson. I do not have any questions.
    Mr. Cole. Let me go ahead and quickly--because there are so 
many subjects we will not be able to obviously cover them all, 
but I do want to get back to this issue which a number of you 
raised for the use tax on the whole issue of energy development 
on some of these reservations, the permitting process, and the 
revenue problems that you have, legitimate governmental 
functions that are not flowing back.
    And I guess the questions are in terms of permitting, what 
do you think we can do to streamline this process? Because this 
is like a once-in-a-lifetime opportunity. This is what gaming 
can be for other tribes. This is an incredible resource here 
that could be a game-changer on a number of these reservations. 
And, you know, we have seen what the uses were able to do, for 
instance, with their energy revenue. It has been a big changer 
of life for them and it has improved the quality of life.
    I forgot the last witness. I was so taken by your testimony 
today. So I apologize. I will hold my question. Thank you very 
much. And I apologize very, very much, Mr. Gibb. I am an oil-
and-gas guy, man. I was in this deal. Okay. Thank you very 
much. And I apologize. Thank you, Ms. McCollum.
                              ----------                              

                                           Tuesday, March 27, 2012.

                    UNITED TRIBES TECHNICAL COLLEGE


                                WITNESS

DAVID GIPP
    Mr. Gipp. Thank you, Representative Cole and Mr. Chairman, 
Ranking Member Moran. Thank you, Representative McCollum, for 
being the reminder on this. I appreciate that very much.
    Ms. McCollum. We have got it covered, oil and gas and 
education.
    Mr. Gipp. Well, you know, it is very unique that this 
subcommittee is hearing all of these witnesses because I am 
from United Tribes Technical College originally from the 
Standing Rock Sioux, which is in North and South Dakota, but 
our institution serves all of these tribes plus about another 
70 or so numbers of other tribes around the Nation. And what is 
so unique about this panel is that we are going through 
tremendous change in this whole region in North and South 
Dakota. You look at what is happening in western North Dakota 
and northeast Montana. Economic change, health, education, 
transportation, certainly all of those things are very crucial 
to the development, particularly public safety.
    And we note that in the 43 years that we have served as an 
institution and as an inter-tribal organization out of the 
Bismarck, North Dakota. We occupy an old military fort, 
originally called Fort Abraham Lincoln, the second one 
actually. The first one is where George Custer rode out to his 
great fame and I will not go into the details of that one. We 
are at the second one built about 1900. And so we took it over 
in 1968, '69, and I would say it is a good example of the 
Indians taking over the fort this time for peaceful purposes, 
and we continue that mandate today. We have served thousands of 
students over the past 43 years.
    I will get to my request very briefly and then I would like 
to expand a bit on some of the topics that I just mentioned. 
First, we are requesting that $7 million is provided through 
the Bureau of Indian education to United Tribes Technical 
College under its Indian Self-Determination Program or 
contract. That would be about a $2.5 million increase over our 
fiscal year 2012 level and under Title V of the Tribally 
Controlled Colleges and Universities Act.
    Second, we are asking that one-time forward funding is 
provided for United Tribes Technical College and our colleague 
school located on the Navajo Reservation, the Navajo Technical 
College where we were left out of forward-funding program that 
began in fiscal year 2010. This would be one-time funding and 
would be about three-quarters of our appropriation for fiscal 
year 2012.
    Third, Congressional support for a tribally administered 
law enforcement training center, which we have been focusing on 
for a number of years in light of what has been happening with 
the lack of public safety and issues that relate to our 20-
some-odd tribes that we serve in a three-state region.
    And last, we support $73.5 million request for our 27 
sister tribal colleges that are funded under Titles I, II, and 
III of the Tribally Controlled Colleges and Universities Act. 
And those are the four basic things that I would speak to. I 
mention our base funding and I will go back a little bit on 
that one.
    We have administered a program under appropriations 
authorized by Congress and through this subcommittee for the 
past 35 years under the Indian Self-Determination Act. This 
would help us maintain and continue to utilize the over 100-
year-old education facilities and the 50-year-old housing that 
we have for our students. Second, it would help us upgrade our 
technology capabilities; and third, provide adequate salaries 
for our faculty and staff who only receive about a 2.9 percent 
increase this past year in terms of cost-of-living. And fourth, 
fund programs and curriculum improvements to address many of 
the things that are going on in terms of economic development 
in our area, particularly when you talk about the Bakken, the 
oil formations, the coal, and all of those other minerals that 
are affecting our tribes hopefully in a positive way. But the 
issue of training an adequately trained American Indians is a 
crucial part of that thing. It is not just for the corporate 
community; it is also for the worker. And that is what we can 
do and will continue to do if we have this additional funding 
that I speak to.
    I would also point out that our issue of forward funding 
will be an important part of us continuing to be able to 
address these issues by a one-time extra appropriation of about 
three-quarters of our year's funding.
    One of the final pieces I point out is that there is a 
great need for a Northern Plains Indian law enforcement 
academy, something we have been working on for a good 10 years, 
at least in terms of concept. We have an MOU with the BIA and 
the American Indian Higher Education Consortium to do 
supplemental training. But we note--and I have been listening 
to our tribal leaders for the past 30 years--talking about the 
need for public safety, talking about the issue of attrition, 
of police officers that Mr. Greenwald pointed out has happened 
just in his area alone, the high pressure and all of those 
things, the need for additional training. But the issue of 
basic training is so crucial to the Northern Plains region. And 
that is what our tribes have been asking and belaboring the 
Bureau of Indian Affairs about for all of these years.
    It simply has not been forthcoming, mostly because the 
current training facility at Artesia, New Mexico, is unable to 
really meet the demand. They are equipped to only train a 
maximum of 150 people at any one time throughout a given year. 
Unfortunately, their attrition rate is also high. We think we 
can do the job as well as any by providing the basic training 
on our campus if we have the additional assistance to be able 
to establish some of those things.
    We have, by the way, I only have two copies but I have a 
copy of a simulator that we have in our law enforcement 
training that has been in use for the past year or so. We think 
we can begin to help our tribes begin to address this issue of 
public safety. There is a lot of data and statistics that we 
can provide to back up what I am talking about, but I just 
remind the subcommittee to take a hard look at that because we 
think that will be a major investment for assuring that there 
are safe communities and that the development we are talking 
about, whether we are talking about the safety of our children, 
our elders, or newcomers that are in our communities in terms 
of economic development are so necessary and crucial.
    I will just point out a few other statistics very briefly. 
We have an 83 to 90 percent placement rate. We have about a 
retention rate that is 80 to 85 percent. We have a K-8 
elementary school that serves our families. Here is a picture 
of one of our families and an outstanding student here. We 
cater to the needs of families and the values of American 
Indian families by the way.
    I would just point those things out. We are accredited 
again from this past 2011 for 10 more years for our 25 
different programs at the one- and two-year levels and we have 
just added three baccalaureate degree programs, one in criminal 
justice by the way. And so I just point those out in terms of 
the needs and what we think we can do in a very successful way 
as have in the past 43 years.
    Thank you, Mr. Chairman. We appreciate all of your time.
    [The statement of David Gipp follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Cole. Well, thank you. And again my apologies for 
rushing us toward the Q&A and almost missing your testimony.
    But let me go back. I will relay the predicate of what I 
was going to ask about. I do think we are in a once-in-a-
hundred-year opportunity right in front of us that could be 
transformative for some of the poorest areas in the country. 
But the problems you touched on--permitting, infrastructure 
where we have underinvested for a long time and really need to 
invest at a higher level to be able to take advantage of this, 
and cost-sharing on a government-to-government basis really 
stand in the way of some of these and we could end up 
squandering a great opportunity.
    So I would ask any of you that care to comment on those 
things, number one, what do we need to do specifically on the 
permitting? And we are not a legislative committee but we have 
the ability to encourage sometimes the BIA and other people 
since we control their budgets. Second, on the cost-sharing I 
would ask if any of you have sat down with your state 
governments? In Oklahoma we had a similar problem. We 
eventually have an Indian fuel tax arrangement for a certain 
percentage of money from our fuel tax statewide flows back to 
Tribal Nations to spend. In exchange, we then charge the state 
tax on our facilities. That is the agreement. And it comes 
back; it is used for governmental purposes. It is not for a per 
capita distribution. We build roads, education, healthcare, 
things that governments do with it. Are those things possible 
in your area?
    And then, finally, in terms of the human dimension to this. 
I do worry--I had the opportunity to visit a number of the 
reservations in South and North Dakota and it was pointed out, 
obviously, these are pockets of very high unemployment. We have 
job opportunities beginning to develop here. You know, we may 
not always have the most trained people but we need to make 
sure that as many of those folks as possible have the 
opportunity to get work, not just tribal income but the 
opportunity to go work for their families. So what are the 
sorts of things that we can do in that regard that might help 
some of you that are dealing with high unemployment issues? Why 
do we not start with you and anybody else wants to come in, 
come in.
    Mr. King. Well, thank you, Mr. Cole, Congressman. I think 
before I get started I would just like to give you a little 
background on my career. You know, I got a degree in petroleum 
land management out of Rocky Mountain College in Billings. I 
went to work for the BIA for 14 years running the Oil and Gas 
Leasing office on the Fort Peck Reservation. Then I started a 
career--lost an election actually--and then went for--
    Mr. Cole. That is where good careers often start.
    Mr. King. Then went to work over at Fort Berthold as a land 
consultant to ExxonMobil XTO/Hunt Petroleum. So things that are 
working I think I know about; things that do not work I think I 
know about. I said the same thing to the Senate. Our attorneys 
came up with that.
    So, you know, my big frustration really is the fact that 
our BIA--it is not set up--let's just start at the very 
beginning. The leasing process, without leases there is no 
exploration. Fort Peck can take anywhere from a year to three 
years before it is approved by the superintendent. That is when 
it becomes a legal document, binding document is when the 
superintendent signs off on it. And if it takes 3 years on a 5-
year lease, that is basically tying up my land, my allotted 
lands for eight years. And so this is grossly unfair. So that 
is where we need more expertise and more staffing.
    Now, at Fort Berthold, what they did was they started 
bringing down from Aberdeen all these realty people and kind of 
got them caught up--this was three or four years ago. What Tex 
said was absolutely right. There are boxes everywhere. Boxes, 
not file cabinets, boxes full of leases that needed to be 
approved or if they were not approvable should have been 
returned to the companies. And the same thing was going on at 
Fort Peck. What happens is sometimes when a company submits a 
lease for approval, there is a probate on there. The 
superintendent can sign for a probate but if it sits there and 
sits there for month after month after month, year after year, 
that probate will close. Now the superintendent can no longer 
sign that. That lease is no longer approvable. You have to go 
back and get all the new errors that have been established 
through the administrative law judge and you go back to square 
one. And I cannot tell you how frustrating that is to the oil 
and gas industry. And the federal employees act sometimes like 
it is no big deal. But it is a big deal and we need to make 
sure that we have enough staffing and enough expertise to do 
what needs to be done to get those leases approved.
    And the same is true for the BLM. They are understaffed. 
They are not set up for an oil boom. This is a once-in-a-
lifetime deal. We want to be economically independent, 
economically sovereign. That is our goal. And so we need to 
really staff up, gear up, get ready for this boom. Fort 
Berthold is way ahead of us. It is right at our doorstep. In 
fact, our tribe drilled the first two Bakken horizontal wells. 
We are the ones through our strategic partnerships that paid 
for the well, that drilled it, fracked it. It is just 
happening. They are fracking one of them as I am sitting here 
right now. So we are taking a proactive role in this thing. We 
want to be in control of our own destiny, not as a lessor.
    Mr. Cole. Well, whether you address this or not--and I am 
taking a lot of time because I think this is an important issue 
and I am going to ask you guys to be briefer than I was--but 
could you sort of give the committee an idea of what the income 
flow potential here is at the tribal level and obviously 
sometimes this is individual allotment land for individuals as 
well. And I would assume you have got sort of checker-boarded 
jurisdiction here.
    Mr. Hall. It can vary, Mr. Chairman, and we started in '07 
at about 50 bucks an acre. Soon went to 100 bucks an area, and 
then the BIA decided to do an auction bid sale in November of 
'07. I think EOG Resources out of Houston bid 625. And from 
then it went to 1,000 and over. And so if there is another 
round of leasing, you can bet your dollar the allottee is in a 
very strong position. Nobody knew what it was. Actually, the 
BIA is supposed to have an appraisal on every trust 
transaction, so every lease should have had an appraisal. It 
never happened so we are just assuming the auction bid sale 
kind of took care of that, you know.
    And so the royalty rates will go anywhere from 18 to about 
22.5 percent, maybe 25 if it is a tribal drilling company. I 
think we started the tribal drilling company and we are 
promising the tribe and the allottees, you know, I know a lot 
more than 18 to 22.5. And so if you can average about 800 to 
1,000 barrels a day on a good Bakken horizontal well, you are 
doing quite well. And some of these areas are very mature on 
Fort Berthold, especially that partial field up on the 
northeastern part. And as it comes across west and then down to 
the river, that whole west side is in a very mature Bakken 
formation. And so that is kind of like in the Badlands area it 
costs a little bit more but you can do what they call a multi-
pad. What is his name from Oklahoma?
    Mr. Cole. Mr. Hamm.
    Mr. Hall. Yeah, Harold Hamm originally from North Dakota is 
going at that. And if you have a super pad that you can drill 
off of, that is perfect for the Badlands because we want to 
maintain that scenic beauty and it is nothing better to see an 
oil well drilling that has got a clean, specked oil pad that is 
very minimal, no dust, and it is happening right in the beauty 
of the Badlands pumping up and down, nothing better to see 
that. So I think that is kind of the best practices that we are 
looking at, you know, to continue on. Especially at our 
conference coming up, we want to promote companies that are 
having the best practices.
    And we are closing the closed-loop system where they got 
the pits, you know. The pad will have a pit where they got, you 
know, material, crude fracking material and they are basically 
dump pits. And so they are going to a closed-loop system. They 
are covering those up and everything is trucked out. You start 
eliminating those things in the Badlands and all that and now 
you are talking best practices.
    So that is where we are reaching to, Mr. Chairman. We are 
reaching to that, you know, from finding a cardboard box for 
Stoney's lease to getting the best practices. And you know, I 
want to make this one last point and that is the one-stop shop 
has never really taken off. And I keep raising this issue and I 
am going to raise it again with Secretary Salazar. But the 
whole idea was to have a coordinator position at Fort Berthold 
to tell BLM in Dickenson and Billings you need to get here to 
tell BLM in Denver and EPA in Denver and all these federal 
agencies we have got a problem. We have got a probate that is 
soon to expire. We have got an active lease. We have got 60 
days. You guys get over here right now and let's see what we 
can do to get this salvaged, this lease, because there has 
already been x-amount of man hours put into this lease, 
landowners, allottees, tribes are waiting, oil companies 
waiting, we are all waiting on guess who. We are all waiting on 
the BIA.
    So that is what the one-stop shop was supposed to do. That 
was its intention and I cannot believe it when people will say, 
well, what is your idea of the one-stop? No, no. We got to get 
beyond that what is your idea of the one-stop shop. It is to 
coordinate, streamline, and to troubleshoot and get to these 
issues quickly and bring everybody to the table.
    Mr. Cole. Thank you very much.
    Mr. Moran. Ms. McCollum.

                       OIL BOOM LEASING AND CRIME

    Ms. McCollum. Thank you. And I thank my friends to the west 
of me from the Great Plains, who did a great job talking about 
what is going on there because this is a once-in-a-lifetime 
opportunity. You folks were not able to participate in the last 
oil boom that went through very much, were you? No. You got 
left out then and you do not want to get left out now. So I get 
it. My grandfather was from that area. I have got pictures of 
my kids, which might surprise Mr. Cole a little bit, standing 
in front of oil derricks that have our family name on them.
    This is, a sudden storm. Some people saw the oil boom 
coming and gathering, but all of a sudden it just hit. And some 
of the things that you are seeing are not the fault of the 
federal employees in the EPA and the BIA and the BLM. They do 
not want to give you bad service. There are just not enough of 
them. Right now, the good ones are being snapped up by private 
industry so there is a competition going on. We have frozen 
federal salaries. We have increased the number of employees 
that are needed in order for them to feel successful every 
morning when they are getting to work. There must be a way to 
use the money that is out there from the leasing to hire the 
necessary employees. The revenue is there to pay for the 
employees. There has got to be a way that we can figure this 
out.
    I just wanted to take a second, though, and tie this into 
two things. Minnesota Public Radio did a big story about some 
of the crime and some of the missed opportunities for local 
people to be trained up into some of these good-paying, high-
paying jobs. There are people coming from all across the 
country into North Dakota and into Montana and these are not 
tribal lands. We want the employment going to tribal lands. I 
am wondering how many people are really being employed from the 
reservation areas into these jobs. Are people getting a fair 
shake at them? If they need training, what we need to do to get 
them trained up to have access to these jobs that pay fantastic 
money?
    The other thing that was coming up was the increase people 
are seeing in crime rates, with assault and murder. There is a 
bad side to oil booms, too. So if you could, please talk about 
that. The problem has been defined about what we need to do 
about getting these leases moving, but what are some of the 
challenges this committee should be aware that you are facing? 
North St. Paul, the city I represented, in three square miles, 
had 11,000 people, and eight officers.
    Mr. Greenwald. I do not know how the funding cycle was put 
together and I am sure it was not anything that you guys had to 
do with it. It is probably something in the past, historical 
numbers and stuff. But you are right. A lot of these things are 
going to bring crime into your area. I mean you are bringing 
multimillion dollar machinery, different things. I went up to 
Bismarck to visit my son who is also in the United Tribes 
College right now going to college, and it costs me almost $300 
a night. Before you could get a hotel for $70 a night, and 
their hotels are filled with these workers that are there going 
back and forth north from there. I mean it is crazy when you go 
to North Dakota. It is hard to get a motel; it is hard to do 
things anymore.
    With that comes crime and it is not going to be just the 
reservations that are going to be dealing with that. You are 
talking about the cities. I mean people are going to be 
breaking into these people's vehicles. You do not know who is 
coming to work in your state. You know, who are these guys that 
are coming to your reservations that are coming to work? We 
already know that one in four of our women are going to be 
raped in their lifetime. That is higher than anywhere in this 
country. You know, but who are we bringing to our reservations 
and how is that going to affect our law enforcement when we are 
already so strapped already, you know? So definitely some food 
for thought.
    I mean we need to prepare for this stuff that is going on, 
including these big rigs that are coming through our 
reservation. Those roads are going to be torn apart like crazy. 
We are already dealing with that on our reservation in Pine 
Ridge, you know. So we anticipate that there is going to be 
some pipeline vehicles coming through there. They have already 
been routed through our reservation, so we are anticipating 
that is going to happen more, you know.
    Mr. Gipp. To the answer, training a lot of the incoming 
workforce are those who have got some training talent or 
experience in these kinds of enterprises, so that is good. On 
the other hand, we have Native Americans in the tribal 
communities who are not yet trained. And so we are beginning to 
try to mobilize that effort with at least five or six of our 
tribal colleges that are located either right on these 
reservation areas, including United Tribes. And one of our 
goals is to train about 1,400 workers in, for example, welding. 
Now, that is just one of the technologies; it is not all of 
them. And so we need more help to make sure that we can 
galvanize and train all of those who want to work in this kind 
of a field. So that is kind of the effort and what we have 
begun to put together.
    We are working in our case with the Nakoda College up at 
Fort Belknap, Fort Peck Community College, and Cankdeska Cikana 
at Spirit Lake as well as ourselves, and also Fort Berthold 
Community College could begin that process right now. But it 
does take some time to mobilize even if you are a community 
college. But we see more of our workforce becoming integrally 
involved with this, but we need the support to be able to do 
that.
    Mr. Cole. Mr. Calvert.
    Mr. Calvert. I apologize for coming in late. There are a 
lot of things going on here at once.
    Just a quick question on the BIA oil and gas exploration 
permitting process. Has the BIA ever used outside contractors, 
to process permits using fees from applicants to accelerate 
permit reviews?
    Mr. King. They have used outside contractors for other 
things, but not in oil and gas. Go ahead.
    Mr. Calvert. I guess the question I have is, can an outside 
contractor be brought in--there are a number of people who do 
this type of thing--to process applications for permits, make 
sure everything is filled out properly, and the forms and 
necessary studies have been completed, and then turn that 
application over to an officer at the BIA----
    Mr. King. Right.
    Mr. Calvert [continuing]. To review, to make sure the 
paperwork is in correct form, and then merely sign off on that 
application, rather than having the bureaucracy get caught up 
in this type of thing? Do you think that might help streamline 
the process? I would imagine the applicant would happily pay 
the outside contractor, which could be picked just as one picks 
contractors for environmental impact reports.
    Mr. King. I actually broached that subject to the 
superintendent last week, just exactly what you are suggesting. 
And I think it is a great idea. We need to bring in experts 
that can get these leases done and we need to streamline that 
process to bring in contractors to do the work like this. The 
superintendent's words were do you know how long that is going 
to take? You know, so let's not get lost in this thing. Let's 
go for it.
    Mr. Calvert. I was going to say to Mr. Chairman that this 
might be something we ought to look at as a possibility of 
moving this permitting process along. It would free up the time 
of the agency employees that may be, quite frankly, a little 
over their head in some of these issues, with respect to some 
of the technical issues on these applications and so forth.
    Mr. King. As I said earlier, we have strategic partnerships 
in place now that enabled us to drill our own wells. And that 
expertise that they got, they fund their own software program 
that was better than the Bureau's. I am very familiar with the 
BIA's program so it was better than TAMS. They are ideally 
suited for just what you are suggesting. That would be the way 
to go I think. And then you would not have to train, you know, 
federal employees, you know, and bring them up to GS-12 wages 
and then have them, you know, forever. Just bring in when the 
expert piece is needed.
    Mr. Calvert. Sure. This is a mature industry. It has been 
around, obviously, for well over 100 years.
    Mr. King. Um-hum.
    Mr. Calvert. We enter into these contracts; forms are 
filled out all the time. An applicant should not be dragged 
through a long process that, quite frankly, can be handled in 
an expedited manner. We can assist the BIA in putting together 
a process to use outside contractors to expedite what should be 
a relatively simple process.
    Mr. King. And one of the bad effects of letting it sit in 
the Bureau for a year, two years, three years--I have seen it 
three years--is that where is my money? Where is my money? They 
are always coming up to us, you know, the oil company paid it 
in. They paid it in a year ago. Where is my money? Where is my 
money?
    Mr. Calvert. Yeah. And----
    Mr. King. And I just cannot tell you, you know, how 
important it is that these people do--if what you are 
suggesting, Congressman Calvert, if that was implemented, we 
could get these leases in and out very rapidly. I even 
volunteered to go as a tribal councilman, go back to the 
Bureau--keep my seat on the council of course--but that is my 
expertise. I could have gotten them caught up.
    Mr. Calvert. That might be a little bit of a conflict.
    Mr. King. Yeah, they did not go for that. They did not go 
for that.
    Mr. Cole. Just quickly because we have run a little bit 
over here--my fault.
    Mr. Anketell. Mr. Chairman, I believe that, you know, all 
of us are wanting to be economically efficient but, you know, 
even with the tribal, you know, resources that we have, we 
could take care of our own destiny, but at the same time we 
have to have approval of like what you are talking about, sir. 
You have to have the blessings from the BIA. But I think if we 
could build up infrastructure, I am always thinking about our 
veterans that, you know, coming back from war that we need to 
include them in some of the different areas of this economic 
plan.
    So I think it could be done. It is just sometimes the 
superintendent or the area director, they do not know what they 
are talking about so they just sit on it so they can pretend 
they are smart. Thank you.
    Mr. Cole. Mr. Chairman.
    Mr. Simpson. You guys know a lot more about this oil and 
gas stuff than I do because we do not have a lot of oil in 
Idaho. So I am going to have to learn more about that.
    Mr. Anketell. You may find out you have more than you 
think.
    Mr. Simpson. Yeah, that is right. We can hope. We can hope. 
I just did want to say, President Steele, thank you for the 
hospitality you showed us while we were out on the reservation. 
We enjoyed it very much. It was very educational for, I think, 
all the Members that were there and the staff. And Chief 
Greenwald, you told us out there what kept you up at night. As 
I think you put it--the size of the reservation, the overworked 
officers, and the problems that they have in trying to address 
the needs. And I said at the time if it keeps you up at night, 
it keeps me up at night. We are going to work on this, try to 
solve it. So I appreciate you being here today.
    Mr. Greenwald. Thank you, sir.
    Mr. Cole. Last point before we move to the next panel, it 
should never cost $6,500 to get permits on Indian land when 
right next door it is $75 on non-Indian land. So that is 
something we need to look at, too.
    Okay. I am yielding the chair back to where it belongs. We 
will move along a lot faster now.
    Mr. Simpson. Okay. The final morning panel as we move in 
toward afternoon is Mickey Peercy, George Thurman, Charles 
Head, Virginia Thomas, and Harold Dustybull. I see three of the 
five. Okay.
    Ms. Thomas. Harold stepped out for a moment.
    Mr. Simpson. Okay. Mickey, you are up first.
                              ----------                              

                                           Tuesday, March 27, 2012.

                       CHOCTAW NATION OF OKLAHOMA


                                WITNESS

MICKEY PEERCY
    Mr. Peercy. Thank you, sir.
    Mr. Simpson. You bet.
    Mr. Peercy. Hopefully, we will speed our part up so you can 
get out and have lunch. I have to tell you a story. I am 
probably the only person who remembers seeing him fast dance 
with Mary Fallin, Congressman Fallin. Now she is governor. 
Anyway, thank you.
    I am Mickey Peercy, Executive Director of Health, Choctaw 
Nation of Oklahoma. I want to thank you for allowing us to come 
today. Also I wanted to thank the committee for coming to 
Oklahoma and coming to Choctaw, especially in August when it is 
hot. It was hot but we were--yeah, we can do that. We can do 
that. But we want to thank you for being there. It was a good 
chance for you to kind of see what we have going there.
    So my comments today are going to be entirely on health and 
I am representing Chief Pyle. He sends his regards.
    Appropriations in Indian Country remain severely deficient 
for each of the programs that we are going to talk about. It is 
really not acceptable. We all know that healthcare in Indian 
Country is seen as rationed care. In the testimony today I am 
going to focus on programs. I will give you some dollar 
figures, probably just try to stay on three or four. But in my 
written testimony pretty much speaks to all the programs, as 
well as to let you know that we do support the comments and the 
stances taken by the National Congress of American Indians on 
healthcare and also the National Indian Health Board.
    So first of all, we are requesting Joint Venture increase 
to $90 million. We know that Joint Venture is one of those 
programs in Indian Country that is a win-win for everyone. The 
tribe is able to go in with the cooperative agreement within 
Indian Health Service, build a facility, and then Congress, 
through the Indian Health Service, provides staffing. I think 
that can be seen very much right now, Congressmen, with the 
Chickasaw Hospital as well as the clinics going in in 
Tishomingo and Ardmore. So that is very much a win-win 
situation.
    Contract Health Service, you have heard discussions on 
that. We are asking for an increase of $200 million. I am a 
participant on the workgroup with the Indian Health Service, a 
tribal rep that is looking at trying to figure out where that 
800-pound gorilla is in Contract Health and what that number 
is. And GAO has informed IHS to come up with the number and we 
are working on that and hopefully that is going to come to 
fruition pretty quick.
    Contract support cost--I will probably spend the majority 
of my time talking about that and I know you had a long 
discussion this morning on contract support costs. Contract 
support costs do go directly to the tribal nations to support 
their health endeavors. Keep in mind if you were ever offered 
to get paid $50,000 a year to do a job and then someone just 
paid you 66 percent of that, you know, it would not be good. 
You have to decide to get out of the program, not starting that 
program initially, or come to you and ask for more money. That 
is what we are doing. And I think good things were said this 
morning in terms of the only contractor in the Nation probably 
that does not receive full contract support funding. We are 
asking an increase of $100 million over the President's 
request.
    I want to just point out reported contract support costs 
shortfall is nearly $5 million annual just for the Choctaw 
Nation. The President, in his '13 budget has requested $5 
million increase. That would not even take care of the Choctaw 
Nation, not considering the rest of the Nations. So we really 
do need to get a handle on contract support costs and be able 
to fund that at 100 percent. So we certainly see that as a 
focal point for my testimony today and our encouragement for 
you to look at that more closely. $5 million is a drop in the 
bucket and it is almost an embarrassment. We appreciate the 
money but it is certainly going nowhere to take care of the 
problem.
    And then real quickly--it is not in my written testimony 
but I just heard about it this weekend--is the potential 
decrease in funding for Office of Environmental Health and 
Engineering. We are looking in Indian Health Service at a 
potential 20 percent decrease in funding. Keep in mind that is 
the line item that takes care of infrastructure in terms of 
sanitation facilities, clean water in Indian Country. And if 
you do not have clean water, you do not have sewer systems, the 
sanitations in, you know, that whole public health concept goes 
down the tubes. So I do not know if it where it is coming from, 
whether that be the President or I sense that it is the 
director of the agency. So we need to look into that, and I 
will send you, gentlemen and ladies, a supplement once we 
figure out that, but we have to keep that in mind.
    Thank you. Thanks for your time.
    [The statement of Mickey Peercy follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Simpson. George.
                              ----------                              

                                           Tuesday, March 27, 2012.

                            SAC & FOX NATION


                                WITNESS

GEORGE THURMAN
    Mr. Thurman. Chairman Simpson and members of the committee, 
I thank you for allowing the Sac & Fox Nation time to come here 
for testimony. My name is George Thurman. I am the principal 
chief of the Sac & Fox Nation. We are a humble tribe of 
approximately 4,000 enrolled tribal members headquartered in 
Stroud, Oklahoma. And we are proud of the fact that we have a 
tribal member who was named the best athlete of all time, Jim 
Thorpe. And like Mickey said, at Sac & Fox we support the 
request of the National Indian Health Board and the National 
Congress for American Indians that have been put forward from 
all tribes.
    But I am here to talk about two tribal-specific requests. 
First one is $4.8 million for our juvenile detention center. In 
1996, the detention center opened its doors and was the first 
juvenile facility designed for American Indians and Alaska 
natives. It is a 60-bed, full-service, 24-hour facility 
providing basic detention services to all. In a recent 
appropriations testimony, the Department of Interior Assistant 
Secretary of Indian Affairs Larry Echo Hawk requested $6.5 
million for staff increases at newly constructed tribal and 
bureau detention centers. We take great exception to this 
request inasmuch as the Department of Interior Bureau of Indian 
Affairs has never provided the full funding that was committed 
for the planning, construction, and operation of our juvenile 
detention center.
    Due to the failure of the full funding commitment by 
federal officials not being honored and without the promise of 
full funding being realized, the detention center has not been 
able to meet the needs of tribes who need our help in guiding 
their children toward a successful future in a culturally and 
spiritually sensitive environment.
    Our second tribal-specific request deals with federal 
corporate charters. Also within Assistant Secretary Echo Hawk's 
recent appropriations testimony, he states the Department of 
Interior is seeking an increase for $43.8 million in funding 
for the Strengthening Tribal Nations Initiative, yet the 
Department of Interior does not support our federal charters, 
which require no increase in federal funding and they directly 
address the BIA's initiatives.
    We have two charters in accordance with the Indian 
Reorganization Act of 1934 and the Oklahoma Indian Welfare Act 
of 1936. In 1987, the first charter was signed by then-
assistant secretary Ross Swimmer. Years upon years we have 
tried to put land in the trust, parcels of land, and I remember 
one parcel is over 30 years trying to get it in a trust. 
Finally, one day, we said no more. We are going to use our 
charter. And after we started using that charter, we have put 
24 parcels of land into trust. The only opposition came in a 
letter from the BIA South Plains Region stating, ``it is a well 
established legal precedent that absent the Secretary's 
approval of such conveyance, trust status is not imposed.'' The 
transparent allusion that we do not understand the traditional 
trusteeship of the United States Government is insulting. The 
implications of that single sentence are the cornerstone of the 
resistance that has built of a wall of federal supervision and 
held back tribal self-sufficiency.
    And now the last, we hold firm that secretarial approval 
was granted in the signing of the charter. Our second charter 
was signed May 22, 2008, by then-assistant secretary Carl 
Artman after consulting with him on several occasions. And I am 
sad to report to you today we face opposition again. The 2008 
charter waits to be scrutinized by the solicitor of the 
Department of Interior in advisement to the National Indian 
Gaming Commission. While Interior review was neither solicited 
nor warranted, the historical resistance of the Office of the 
Secretary of Interior is peeking over the shoulders of the 
National Indian Gaming Commission.
    Meanwhile, at projected $295 million in revenue is awaiting 
to revive a deprived economy in central Oklahoma as Assistant 
Secretary Echo Hawk fails to recognize the approving actions of 
two former assistant secretaries of Indian Affairs. As a leader 
of our sovereign nation, I am asking you to direct the 
assistant secretary of Indian Affairs to continue to federal 
corporate charters from the Sac & Fox Nation.
    Full funding of our juvenile detention center and support 
of our federal charters would further the economic growth for 
our tribe, the community and the State of Oklahoma. The Sac & 
Fox Nation is proud to say we are a self-governance tribe. 
Given the opportunity to exercise our right of self-governance, 
we can make contributions to our local economies and serve the 
needs of our people.
    Thank you.
    [The statement of George Thurman follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Simpson. Thank you. Charles.
                              ----------                              

                                           Tuesday, March 27, 2012.

                            CHEROKEE NATION


                                WITNESS

CHARLES HEAD
    Mr. Head. Good morning, Mr. Chairman, members. Thank you 
for this hearing. I am Charles Head, Secretary of State for the 
Cherokee Nation. I am here representing Chief Baker and our 
tribal government. And thank you for the opportunity to share 
my information with you.
    For several decades, Cherokee Nation has administered the 
Bureau of Indian Affairs, Indian Health Service Programs, and 
other federal programs, and this operation under contracting 
and compacting has allowed us to control and to administer 
these programs for our people.
    Currently, the Cherokee Nation is the largest employer in 
northeastern Oklahoma and based on a recent economic 
development study, which shows that we have more than a $1 
billion impact on northeastern Oklahoma each year. The combined 
revenue of the tribes' business operations helps fund the 
central government services while offering foundation to expand 
and diversify economic development and job opportunity in 
Oklahoma. Adequate funding for both Indian Health Service and 
BIA is vital to the increase of this progress and keep this 
progress going.
    One of the most important budgetary issues facing Indian 
Country is insufficient funding of contract support costs, 
mostly for the Indian Health Service. In Indian Country, every 
dollar lost in contract support is one dollar diverted from 
direct services for healthcare, education, law enforcement, and 
other critical services. Under a self-governance compact with 
Indian Health Service and utilizing their contract support 
dollars, Cherokee Nation operates a sophisticated network of 
eight rural outpatient health clinics and W.W. Hastings Indian 
Hospital. Hastings Hospital is a 60-bed facility designed for 
30,000 outpatient visits per year, and in 2011, we conducted 
330,000 patient visits. Our overall system provided more than 
one million patient visits during 2011.
    Cherokee Nation utilizes our contract support funds to 
support health services. These are fixed costs that a 
contractor must incur. When sufficient support cost funding is 
not provided, tribes must either reduce funds budgeted for 
critical healthcare, education, law enforcement, or other 
services under contract to cover the shortfall or divert tribal 
dollars to subsidize the federal contracts. For every $1 
million that Cherokee Nation must divert from direct patient 
care to cover the shortfall, our health system must forgo 5,800 
patient visits.
    While we appreciate the President's budget for our Indian 
Health Services this year showing $115 million increase over 
2012, the proposal calls for only a one percent increase in 
contract support costs. And as you have heard from other people 
today, this will cause more than $100 million shortfall in 
2013. Fortunately, we do not have the same shortfall for 
contract support for Bureau of Indian Affairs programs. 
However, we do also call for the protection of the BIA budget 
so that we can at least hold the line so that the government 
can help fulfill its trust responsibilities.
    Cherokee Nation also joins fellow self-governance tribes in 
continuing to request funding increases for fundamental 
services provided as tribal party allocations. Of the 566 
federally recognized tribes, 235 manage their own affairs under 
self-governance agreements with the BIA. Although these funds 
account for 42 percent of the federally recognized tribes, they 
receive only 15 percent of the funding from the BIA. The fiscal 
year 2013 budget being basically level with 2012 appropriation 
President's proposal, tribal party allocations must be 
protected during the budget process.
    The shining example of what happens when tribes administer 
their own programs is our Sequoyah Schools. In 1985, the 
Cherokee Nation gained control of Sequoyah Schools, a former 
under-provided, under-performing BIA boarding school. Now, 
Sequoyah creates an academic environment that mirrors college 
preparatory schools utilizing an advantage curriculum and data 
collection to track student progress and school performance. 
Sequoyah meets Adequate Yearly Progress goals and is 
flourishing. And in 2011, the school produced five Gates 
Millennium Scholars. Just as our students strive to achieve 
great success, we should strive to support these students by 
hiring capable teachers to provide our children with equitable 
education.
    In 2012, Congress appropriated $2 million for the STEP 
pilot project in the Department of Education budget. Therefore, 
we request the protection of the $2 million requested in 2013 
for the pilot in hopes that the Subcommittee will work with the 
Appropriations Subcommittee on Labor, Health, and Human 
Services, Education and Related Agencies to ensure the pilot's 
funding.
    It is also necessary that appropriations language direct 
the Department of Interior and Education to directly provide 
ESEA funding to the tribes chosen to participate in the pilot. 
Direct funding without being submitted through the state would 
more closely resemble self-governance funding model for the BIA 
and the Indian Health Service. This system has proven efficient 
and effective and strengthens tribal self-determination.
    In conclusion, Cherokee Nation is committed to provided 
federal services and direct local-level programs including job 
creation, education, health, and law enforcement services. 
However, the Federal Government's current fiscal situation 
should and does not negate its trust responsibility to Cherokee 
Nation and Indian Country.
    Thank you.
    [The statement of Charles Head follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Simpson. Thank you.
    Virginia.
                              ----------                              

                                           Tuesday, March 27, 2012.

                 NATIONAL JOHNSON-O'MALLEY ASSOCIATION


                               WITNESSES

VIRGINIA THOMAS
HAROLD DUSTYBULL
    Ms. Thomas. Thank you, Mr. Chair, and to the committee. 
Thank you for your time. My name is Virginia Thomas. I am a 
member of the Muscogee Creek Nation. I feel like I am in 
Oklahoma rural right here. I am here with Harold Dustybull from 
the Blackfeet Nation so we can kind of hit him on this side 
between us. And we are here representing the National Johnson 
O'Malley Association. I serve as the president and Harold 
serves as the vice president of our association. And we thank 
you for allowing us this time.
    We represent all the JOM programs nationwide. Well, not all 
of them because we do not have the accountability of all of 
them and we will get to that. But we have been entrusted to 
speak on their behalf.
    I have heard earlier and I really am touched by it, you 
know, all that happened this morning, all the things that are 
happening, it comes down to the education of our children. 
Period. That is where it starts from. If you are talking about 
people to get into colleges, to have the jobs that they need to 
have developed right now, it starts with our children. And our 
children are in the K through 12. We serve public schools. We 
are not involved in the bureau of schools. This is just the 
public schools. We serve close to 90 percent of the students in 
our programs in the public schools, both urban and rural and 
tribal schools that we have. It is with our program that we 
deal with.
    We fully understand how this committee has saved us over 
the years, have really worked with us to see what we can do for 
our programs and for the children that we serve. We are 
grateful for that. We are grateful to be back in the budget 
again after eight years of not being there, but we are back in 
and we are really grateful for that. And we understand how 
important this committee has played in the past to making the 
assurances of the trust responsibility is there for us.
    So at this time, I am going to let Harold speak on the main 
points of recovery.
    Mr. Dustybull. Thank you. Thank you for this opportunity. 
And first of all, I want to say ditto to all the former 
testimonies. I live on an Indian reservation so I know the 
impacts and the true reality that is faced there.
    We have four major concerns in the JOM program. The first 
one is we oppose combining JOM with Title VII. And the reasons 
are JOM served Indian children who are enrolled members of 
federally recognized tribes. Title VII serves students who fill 
out a 506 form and declare themselves Indians. JOM falls under 
the Snyder Act and the United States trust responsibility which 
was established by treaties. Title VII falls under the 
Department of Ed. JOM and Title VII have different regulations. 
They are different programs for different purposes. JOM is 
administered by Indian tribes. Title VII is administered by 
state agencies.
    And our second request is we request that JOM be restored 
to the 24 million. This is the level that it was at in 1994 
when the BIA and the Bureau of Education froze our student 
account. Now, I truly believe that this funding is still within 
the Bureau of Indian Education. It just has been moved out when 
they were trying to eliminate the program at that time, and 
that is why they froze our account. We request a new student 
account, a current student account. The last one was made in 
1994. That was 13 years ago. You know, the census takes a count 
every 10 years because of population changes and so it is here, 
too.
    We urge the Department of the Interior to reinstate the JOM 
position in the Bureau of Indian Education in the central 
office. As of to date and after many requests, we still have 
not been able to meet with the Bureau of Indian Education 
officials and that is probably because we do not have any 
representation there. We are not seen there.
    And last and most importantly is that JOM does an excellent 
job on Indian reservations but you folks never hear of it 
because our chain to you is cut off at the Bureau of Indian 
Education. We need that position there. We need that new 
account. We need that 24 million back to move back into the 
program. And those are our concerns. But most importantly, we 
do not want to be combined with Title VII. We are different.
    Thank you.
    [The statement of Virginia Thomas and Harold Dustybull 
follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Simpson. Thank you.
    Ms. McCollum.
    Ms. McCollum. Thank you, Mr. Chair.

                       TRIBAL HEALTHCARE CLINICS

    Getting back to healthcare for a second, let's discuss what 
you are seeing with your hospitals, and with your resources. I 
was just with a tribe in Wisconsin, in Green Bay, the other 
night. They have so many people coming to their hospital right 
now that are tribally enrolled but they are not tribal members. 
They are getting to the point where they are going to have to 
start turning them away. In the other areas of Wisconsin 
nearby, there were not clinics. There were not hospitals. There 
is nothing out there. So, I asked the folks from Oneida--they 
were building on some more space, ``Do you have the work-
through with the Bureau of Indian Affairs for the staffing?'' 
They kind of do, but it is really not at the level that is 
meeting everybody's needs, and they would like to do some more 
expansions. However, they do not know if they can get more 
funding for the full-time equivalents to get people out there.
    We have heard this a little bit in our travels last summer. 
Can you elaborate with some specifics from your own 
experiences? We saw some fabulous places in Oklahoma where good 
things were happening, but I know there are still waiting lists 
in Oklahoma.
    Mr. Peercy. And again you all came down to our facility in 
Talihina, which was a joint venture also. But what we are 
seeing--and we are a little lucky and unlucky; we are down in, 
you know, rural southeast Oklahoma so you really got to want to 
get to our place to get there to the hospital. But we have the 
eight clinics that I think you saw one of the clinics----
    Ms. McCollum. Um-hum.
    Mr. Peercy [continuing]. Also in McAlester. The problem is 
our numbers are increasing, you know, every month. We are 
opening new charts. And, you know, when we talk about excluding 
folks, with the federal money that we get, we sign on with the 
open-door policy that anybody that is a tribal member of any 
tribe that walks in the door that those folks will be taken 
care of. And the problems that folks are running into--because 
we have 200,000 tribal members and they are all across the 
Nation a lot of them--and they are getting denied services at 
other facilities because they are just focusing in on their own 
tribal members. And if you receive federal money, you know, you 
are not supposed to be able to do that. But if it got to the 
point with us, we would probably do the same. You know, we 
would take care of our tribal members and then if somebody from 
Alaska is living in Talihina, Oklahoma, they can come to our 
facility. But with the economy the way it is, with people 
losing insurance the way they are even though they are not 
supposed to, our numbers are increasing. And so we are looking 
at things like expanding hours, you know, but with that is 
expanding cost.
    Ms. McCollum. Right.
    Mr. Peercy. And so we are fortunate enough that the tribe 
does supplement our health system to a small degree, but 
keeping in mind some tribal nations cannot. And you know, where 
does it end and where is the obligation the government has to 
fully fund? So I guess to answer your question, yeah, what you 
are seeing out there is true. The numbers are increasing; the 
dollars are staying fairly flat. We are trying to be 
innovative. Those tribal systems that can supplement do and 
those that cannot, do not.
    Charles.
    Mr. Head. Well, like everyone else, we are maxed out and if 
using our dollars from our businesses to supplement, if we were 
to take a significant sequestration hit or budget cut, you 
know, we would have to make decisions on how to focus our 
tribal dollars and where to put those. We would probably focus 
on healthcare, law enforcement, and education. That leaves a 
whole range of programs all across the board where we are 
providing important services to hundreds of thousands of people 
each year that we are going to have to think about cutting. It 
is not going to be a very nice process.
    Do you agree with that, Mickey?
    Mr. Peercy. Yeah. Because really the folks do not have any 
place else to go. You know, and if you cut services, you got to 
start selecting what services you cut. And politically, it is 
certainly not a good thing that you do that but you also, the 
humanity of it of those folks who are chronically ill, they 
have to go somewhere and there is nowhere else in the system.
    Mr. Head. I believe that Congressman Cole--excuse me.
    Ms. McCollum. We have run over and I appreciate the 
indulgence.
    If I understood correctly--and I might not have--the Oneida 
said that they lose money by caring for non-tribally enrolled 
individuals. Even though there is federal money coming in, that 
does not make them whole. By closing off and not taking other 
patients, they could make their operation more business 
effective and do some of the things that they want to do with 
enhanced diabetes care for their own tribal members. Would you 
agree with that?
    Mr. Peercy. I would think that is true what they are 
saying. We have a fairly small population. If you get x number 
of dollars and you say--just like having a panel if you are a 
physician. You have got x number of patients you see and you 
focus on those folks, but then where do the other folks who are 
of another tribe go to? You know, they end up in the urban 
center or at somebody else's center and they have to drive many 
miles. But, you know, to close off the open-door policy and 
just treat your tribal members is something that everyone is 
looking at right now. Hopefully, we will never get to that 
point but they are in other places because I get calls from 
California, from Oregon, from up north in Bemidji that says 
they will not see me. Or they say they will give me an 
appointment but it is going to be a year and a half, which is 
basically a form of excluding you from service.
    Ms. McCollum. Bemidji, Minnesota?
    Mr. Peercy. Um-hum, Bemidji area.
    Ms. McCollum. Straight down. Okay.
    Mr. Peercy. Bemidji area.
    Mr. Simpson. Mr. Cole.
    Mr. Cole. Thank you, Mr. Chairman. I will try to be brief 
but I think these are such important issues. I want to address 
this question to Charles and to Mickey. And it is sort of two 
questions I think just to help the committee.
    One, I know both of these tribes supplement what the 
Federal Government provides for healthcare so if you could give 
us some sort of idea the order of magnitude how many tribal 
dollars are on top of federal dollars, either percentage or 
whatever.
    And the second one, these are both very large tribes, you 
know, both well over 200,000 members. They are two of the 
largest tribes in the country. From your standpoint on not 
contract services but contract support, how many dollars are 
you sort of out because you are not whole on the contracts? 
Because that is an issue that we have really struggled with on 
this committee.
    Mr. Peercy. I think with our contract support cost 
shortfall is $5.5 million. And so that is what it is.
    Mr. Cole. By your request for this year's $5 million 
addition, is that correct?
    Mr. Peercy. Yeah. So we are $500,000 off if it all came to 
Choctaw, which would be fine if you want to send it all down 
but the other----
    Mr. Cole. I will let you and Charles argue that out.
    Mr. Peercy. Well, we might work a deal. But----
    Mr. Head. Or we could take two-and-a-half each.
    Mr. Peercy. There you go, two-and-a-half apiece.
    Mr. Cole. It would have to be a three-way deal here, some 
Chickasaw.
    Mr. Peercy. So you see the problem. So ours is $5.5 million 
and for our contract that would make us whole at about $18 
million. And I know OMB has got a circular out and they are 
trying to talk about flat rates for contract support cost and 
we definitely are against that because you are going to end up 
at a 15 percent, which would cost us a lot in shortfall. So we 
still like to negotiate and use the rules that we play under.
    Secondly, we got about $78 million from the Indian Health 
Service to the Title V contract. The tribe puts in for this 
contract alone $7 million. And then for what I mentioned 
earlier, the OEH program, we get $1 million. So $8 million 
total from the Tribal Nation.
    Mr. Cole. All right. Charles.
    Mr. Head. Our contract support shortfall is over $5 million 
also. And another area of need is contract health dollars. We 
just passed a bill taking 5 percent of our gaming revenues and 
putting it into contract health on top of what we get. I do not 
have the figures in front of me for the rest of our health 
programs, but we supplement a considerable amount of money each 
year for patient care, for dental and eyeglasses, as well as 
contract health.
    Mr. Peercy. And to add to that, Charles, I forgot about the 
EDH. That is another $2.5 million. And as Charles and I talk 
about contract health, them putting more money in contract 
health, it still does not get out of category one, priority 
one. That does not do anything other than, you know, it does 
not pay for anything that would be elective. You know, I know 
some areas to use contract health dollars to pay for 
orthodontics and transportation to the orthodontist. And, you 
know, we do not get anywhere like that. We do not get out of 
the CHS category one even spending $14 million a year. Seven is 
from the feds and seven is from the tribal CHS.
    Mr. Cole. And to our folks from JOM just again for the 
record and I know you do not have an exact student count 
because we have not done the census as you pointed out, do you 
happen to know what the overall budget for BIA schools and how 
many Native American kids we have there are and then how many 
Native American kids we have in the public school system that 
we are trying to cover with a very limited, you know, JOM 
budget?
    Mr. Dustybull. Well, as far as the BIA schools, they serve 
about 6 percent of the Indian students nationwide and the JOM 
serves 93 percent of the students nationwide.
    Ms. Thomas. I would like to give an example here because 
you can realize how important this is. We have not had a count. 
My tribe, the Muscogee Nation, we were counted at 10,919 
students in '94. That is how much I get. I serve over 17,000. 
How can I turn away--as they said earlier, you cannot say oh, 
no, you are not in my tribe because we serve--we have 39 tribes 
in Oklahoma alone and we serve all of these. We have Alaska 
natives that come in and we do not say oh, no, we are not going 
to serve you. We have to take them in. So we have this count.
    I am truly blessed to be from the Muscogee Nation. I am 
truly blessed that my Chief Tiger and my council members 
believe in education and they subsidize what we cannot make for 
the other ones. And here, we are giving our students $60 per 
student to use. That is just one-time supplies almost. How can 
you meet the rest of their needs? I mean we are not trying to 
say we want to make our students better than anybody else. We 
are just trying to bring them up to the norm. You know, if they 
do not have these tennis shoes, they do not have the school 
supplies, how can they be successful? You know, you just heard 
how many students in one tribe gets gate scholarships. All of 
our tribes, you know, we encourage this. That happens. We try 
to make them go along but we do not have the money either. And 
then you look at smaller tribes who do not have gaming, who do 
not have other commercial ventures that can, you know, 
subsidize these programs where you are looking at little rural 
tribes that that is all they have got. That is what we are here 
for. We are here fighting for the small as well as the large.
    So our counts are much needed and we have to show that 
there has been growth because I know when we first started 
coming to Congress years and years ago--I know I do not look 
it, but I have been here a long time--see, see, see. But the 
problem is is that they do not understand that that count is 
frozen. You see that count and you think oh, that program just 
stays all the same this whole time, but we do not. We have 
never been able to show you the count. We have never been able 
to get it passed into the BIA--BIE now. You know, we were told 
flat out to our faces that it was too much trouble to do a 
count.
    Mr. Cole. You know, Mr. Chairman, maybe we could solve our 
Medicare and Social Security problem if we just said we froze a 
number of people on it right now and there is never going to be 
anymore no matter what. We are not counting and then we will 
balance this budget in short order.
    Thank you, Mr. Chairman.
    Mr. Simpson. Thank you. Thank all of you for being here 
today, for your testimony. It will be very helpful to us as we 
try to put together the budget for the next year. I appreciate 
the information. Thank you.
    And the committee will stand adjourned for 34 minutes.
    [Recess.]
    Mr. Simpson. Dr. Robert Martin, President of the Institute 
of American Indian Arts, Ervin Chavez and Faye BlueEyes, 
President and Director of Finance and Facilities, Nancy 
Martine-Alonzo, President of the Board of Trustees, Ramah 
Navajo School Board, and Edward Begay, Chairperson of the 
Navajo Agricultural Products Industry Board of Directors. Same 
procedure as we had this morning, and we will have again 
tomorrow morning. Five minutes for your opening statements, and 
then questions from the members of the committee. And we will 
have some drifting in and out, I suspect, during the hearing 
because there are a lot of weird things going on in Congress 
right now. So, Dr. Martin.
                              ----------                              

                                           Tuesday, March 27, 2012.

                   INSTITUTE OF AMERICAN INDIAN ARTS


                                WITNESS

ROBERT MARTIN
    Mr. Martin. Good afternoon, Mr. Chairman and members of the 
committee. It is a pleasure for me to be here to speak on 
behalf of the Institute of American Indian Arts. We are located 
in Santa Fe, New Mexico, and we are chartered by the United 
States Congress to empower creativity and leadership in Native 
arts and cultures, and we do that through our academic 
programs. And, of course, we have all of the studio arts. We 
also have new media arts, creative writing, museum studies, and 
indigenous liberal studies. And we also operate a museum that 
has the largest collection of contemporary Native art in the 
world, a magnificent collection, and we are also a 1994 
Landgren Institution, so we operate the Center for Lifelong 
Education that does outreach and training for tribes.
    Mr. Simpson. I planned on being out there to have a look at 
the place this September.
    Mr. Martin. We are looking forward to the visit, Mr. 
Chairman. From 2000 to now we finally have a permanent campus, 
so when you come, you are going to see a beautiful 140 acres 
and mountain views, vistas. You are also going to see 10 
buildings, four of which were just constructed in the last 
several years, so we have got additional square footage that we 
are operating and maintaining, beautiful campus. Our student 
body is really, though, you know, the most important thing that 
we have going for us. And we have 400 students, and student 
enrollment is more than doubled in the last five years, and we 
have 84 tribes represented in our student body, and it is 
continuing to grow.
    Also, this year is 2012, and we have been in existence 50 
years. We are celebrating our 50th anniversary, and we are 
going to have a number of celebrations where we really 
highlight our contributions to contemporary Native art, and 
also the contributions of our more than 4,000 alumni. And many 
of them you have probably heard of, Dan Dominga, T.C. Cannon, 
Tony Abeyta, just to name a few. So we are looking forward to 
that celebration, and hopefully you will be a part of that when 
you come out.
    I am here to ask you to support the President's request for 
fiscal year 2013 for Institute of American Indian Arts, and 
that is at $9.369 million, and we are asking you to support 
that. That is about an $850,000 increase over what we are 
receiving this year, but for the last 2 years we have been at 
more or less flat line funding. And as a result, you know, we 
have had challenges with additional square footage, and 
maintaining that. We have added, as I said, new buildings, and 
that is 60,000 square feet of additional space that we have to 
operate and maintain, so we have had increased custodial 
expenses, security. Utility costs have gone up. And as we add 
new students, we have had to add new faculty, so that has been 
a real challenge for us as well.
    So the increase would permit us to reinstate a summer 
school that we had to cancel the last year. That would allow 
our students to expedite their graduation, and would also allow 
our new students to come in that need remedial work, or get a 
head start on their college educations. You know, with Native 
Americans, we have the lowest participation rates in higher 
education, the highest retention rate, so this would really 
help our students. We would also add to our counseling 
programs. We had to cut back in that as well, and we know 
student support is so important to success of our students.
    Also capital improvements, it would permit that as well. 
Our buildings now are 13 years old. When we built the first 
couple of buildings, they cut corners, and the HVAC system is 
totally inadequate, especially for studio arts. We are not able 
to permit oil based painting instruction in our classrooms 
because the ventilation is just not good enough. And then we 
have students and professors coming in and say we are doing a 
disservice to our students, so we have got to address that 
issue.
    It would also allow for some technology enhancements for 
your databases in finance, human resources, student 
advancement. They are not integrated and talking with one 
another, so that would allow us to upgrade our technology then. 
And then we would also like to give our faculty and stuff a 
modest two percent increase in their pay. It has been two years 
since they have had any increase at all.
    So, in conclusion, we are hoping you will support the 
President's request, and we take it very seriously. For the 
last 5 years we have more than matched our federal 
appropriation with funding from individuals, corporations, 
foundations, and other Federal sources, as well as the State of 
New Mexico. They have been very supportive. So, again, thank 
you for the opportunity to speak to you today, Mr. Chairman and 
members of the committee, and I invite you to visit our campus 
in Santa Fe, New Mexico. Thank you.
    [The statement of Robert Martin follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Simpson. Thank you, Dr. Martin. We look forward to 
coming out. And I am going to be in New Mexico and Arizona in 
September, so we will stop and say hi and let you take us on a 
tour of the place.
    Mr. Martin. We are looking forward to that.
    Mr. Simpson. You bet.
    Mr. Martin. Thank you.
    Mr. Simpson. Ervin Chavez.
                              ----------                              

                                           Tuesday, March 27, 2012.

        DZILTH-NA-O-DITH-HLE COMMUNITY GRANT (DCG) SCHOOL BOARD


                               WITNESSES

ERVIN CHAVEZ
FAYE BLUEEYES
    Mr. Chavez. Good afternoon, Mr. Chairman and members of the 
subcommittee. My name is Ervin Chavez, School Board President 
of Dzilth-Na-O-Dith-Hle Community Grant School, a tribally 
controlled grant school located in New Mexico.
    Mr. Simpson. Could you pronounce the name of the school for 
me?
    Mr. Chavez. Dzilth-Na-O-Dith-Hle.
    Mr. Simpson. Okay.
    Mr. Chavez. Okay. It is a tribally controlled grant school 
in New Mexico, part of the Navajo Reservation. With me is Faye 
BlueEyes, Director of Finance, who will be presenting our 
testimony on behalf of the Board. We will focus on three areas 
of concerns regarding fiscal year 2013 funding requests for the 
Bureau of Indian Education. One is facility operation and 
maintenance, tribally controlled support costs, and the 
proposed cuts to Indian School Equalization Program funding 
formula.
    Ms. BlueEyes. And yes, my eyes are blue, and it is Navajo 
blue.
    Mr. Simpson. Okay.
    Ms. BlueEyes. Facilities operation and maintenance funding 
has been chronically and significantly underfunded for a number 
of years. BIE reported in the fiscal year budget justification 
that 63 of 181 BIE schools are rated in poor condition, the 
same number as in fiscal year 2012. According to an objective 
report, Facility Condition Index For fiscal year 2011, there 
were 150 projects with deferred maintenance needs, totaling 
$304.4 million. Our school, which is among the poorest rated 
facilities, is not able to provide a safe, healthy learning 
environment for our students, based on the limited funds we 
get. And some of our health and safety problems include closure 
of the restrooms servicing our junior high classrooms because 
of leaking sewer lines, and water lines are so corroded and 
filled with sediment that we are having to bring in bottled 
water for our students, an additional cost that most public 
school do not face.
    For the health and safety of our students and staff, we 
urge that Congress provide the NCAI recommended $76 million for 
facilities and $109.8 million in facilities operation funding. 
Tribal grant support costs, which is light and contract support 
for school, the BIE requests a two million dollar increase in 
order to provide a TGS rate of 65 percent of the administrative 
cost need for the 125 tribally operated schools. The TGS for 
this school year is only 63.7 percent. Our school, which should 
be getting around $700,000, is instead receiving only $445,000. 
Thus we have had to consolidate internal controls, streamline 
checks and balances, and scale back significantly on our 
management staff due to litigation brought by tribes to correct 
BIA and IHS failures to fully fund CSC and all other BIA 
program areas, except education.
    Funding increases for those support costs have been 
tremendous. From fiscal year 2009 to 2012, the non-school BIE-
BIA-CSC account has grown by an astounding $73.9 million, which 
raised the percentage of CSC need pay from 75 percent to nearly 
100 percent. In contrast, for school programs, the tribal grant 
Support funding during the same period increased by a mere $2.8 
million, with the TGS rate rising from 61 percent to 63.7 
during that period.
    Congress needs to fix this problem and fully fund tribal 
grant support at $72.3 million for the indirect cost 
requirements of current tribally controlled schools, and 
provide two million in startup funds for newly converting 
schools. We ask that Congress restore the 4.4 million to Indian 
School Equalization Program funds account that the BIA proposes 
to cut. Although BIE says the reduction reflects a one percent 
decline in student population, please recognize that schools 
still have costs that are not directly tied to the number of 
students enrolled.
    Although not appropriations related, we want you to support 
the Native Class Act, S. 1262 and H.R. 3568, which addresses 
many of our concerns, while also recognizing and supporting the 
role of tribes to direct the education of their students. More 
importantly, we ask that you oppose any attempts to transfer 
the BIE from the Department of Interior, Indian Affairs, to the 
Department of Education. Such a transfer would seriously 
undermine the separate and distinct trust responsibility that 
the United States has with American Indians regarding 
education.
    In conclusion, it is widely acknowledged that investments 
in education have a direct economic impact, as well as benefits 
to the individual. Studies have also shown that reductions in 
education expenditures have negatively impacted employment 
rates. With our Native students coming from some of the hardest 
hit areas in these times of economic downturn, we ask Congress 
to provide the levels of education funding that will enable us 
to provide a quality education and safe and secure environments 
for our students. We thank you for any assistance you can 
provide. Thank you.
    [The statement of Faye BlueEyes follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Simpson. Thank you. Nancy.
                              ----------                              

                                           Tuesday, March 27, 2012.

                    RAMAH NAVAJO SCHOOL BOARD, INC.


                                WITNESS

NANCY MARTINE-ALONZO
    Ms. Martine-Alonzo. Mr. Chairman and members of the 
subcommittee, on behalf of the Board of Trustees for the Ramah 
Navajo School Board, that is located in Cibola County in Pine 
Hill, New Mexico, we come here to address three major areas of 
need that we have.
    The first is appropriating 2.1 million for a new BIE early 
childhood education center at our school and reservation in 
Pine Hill, New Mexico. Second is to appropriate 3.63 million 
for a Ramah Navajo community elder center, and then three is to 
appropriate 2,925,000 for replacement construction for a new 
central administration for the Ramah Navajo School Board, and 
our organization was founded in 1970.
    I think some of you are familiar that we had come here and 
got direct appropriate from Congress to establish our K-12 
school. And it has been in existence now 42 years, and we have 
graduated over 800 Native American students from the Ramah 
community, and we are proud to say that a lot of our students 
have gone on to college, and we have doctors, pharmacists, and 
lawyers. You know, we are just starting at the beginning level 
with many other various professionals, but we are grateful to 
Congress for the partnership and the help they have given us 
year after year over the 42 years.
    And today we are here, and the background for the 
appropriation request, for the first one, the early childhood 
education center, is because we have four preschool programs, 
and this includes a Head Start, a family and child education, 
early intervention program, and a child care center, and the 
four programs are currently housed in portable buildings that 
are separated. And we would like to consolidate it under one 
building so they can share dining facilities, they can share a 
playground, they can share other support system and network for 
them. And this will accommodate a little over 200 students that 
are in this category.
    The second appropriation request is for the Ramah Navajo 
Community elder center. While we are able to provide a lot of 
the medical services through the Pine Hill Health, our 
reservation is located geographically in rural, you know, 
isolated, scattered housing. And it is very labor intensive for 
our nurses or our doctors to do homebound care, and so it would 
really accommodate the services provided, and streamline some 
of those services if we can build a community elderly center 
right within close proximity to the health facilities. That way 
we can take care of the illnesses or other medical attention, 
short term, long term, or other personal kinds of needs that 
our elders have.
    And the population we are talking about, the ages, there 
are 50 years to 64 years, we have close to 1,000. And then 
those that are 65 and older, we have 500. So that is about 
1,500 population. Our reservation population is around 4,000, 
so it is over, like, over a third of our population. You know 
how all the baby boomers, we are all coming to that age, and 
there is a growing need for that.
    And then the third request is appropriation for a new 
central administration. And the buildings we have were 
established way back in the early 1970s, so they are about 35 
years old. And just due to the wear and tear of the building, 
they have some challenges. And we have environmental health 
hazard, just because of the old age of the building. We have 
rodents and different kinds of snakes and other lizards that 
get into the building. And, you know, it always poses the 
potential for hanta virus. And we know how the infestation of 
that plays out, and so we know that that is a challenge we are 
having to deal with.
    And then we need to update the automatic sprinklers, you 
know, to prevent fires. We are among a lot of vegetation and 
trees. We are very potential to fire. If something should 
happen in our area, we are unable to address it quickly enough. 
It would really pose a threat to our buildings, and especially 
to this building. We also have frequent power outages and 
hazards. Because we are at 8,000 feet, we have a lot of rain, a 
lot of electrical storms, a lot of snow that impede, you know, 
the wiring in some of our buildings. And we put in a new 
infrastructure for our finance and business, where we have 
computers and service systems that require 24/7 maintenance and 
operation. And with the kind of wiring that needs to be updated 
and improved, you know, that is also a need. And then, of 
course, just the technology needs that we have to try to get 
our building up to par in all these areas.
    And so we are very grateful for the financial assistance, 
the support system, that Congress has given us in the years 
prior to this, and then we look forward to the same assistance 
this year, and we are so grateful for everything that you have 
provided. And this is respectfully submitted by myself, Nancy 
Alonzo, as president of the Board of Trustees. Thank you so 
much.
    [The statement of Nancy Martine-Alonzo follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Simpson. Thank you. Edward.
                              ----------                              

                                           Tuesday, March 27, 2012.

    NAVAJO AGRICULTURAL PRODUCTS INDUSTRY (NAPI) BOARD OF DIRECTORS


                                WITNESS

EDWARD T. BEGAY
    Mr. Begay. Thank you. Good afternoon, Mr. Chairman, and 
distinguished members of the subcommittee. I am here on behalf 
of Navajo Agricultural Product Industry. It is established by 
Navajo National Council as an entity that are doing farming 
110,630 acres of land. We are up to 72,000 acres of land that 
we cultivating.
    Under this is an organization called Navajo Indian 
Irrigation Project, which is United States government's 
program, supposed to be manned by Bureau of Indian Affairs, 
Navajo Region. BOI, BIA supposed to oversee this, under the 
statute that was signed into law, 1962. And in there, the 
Navajo Nation was promised, I will just use NIIP, as 110,630 
acres irrigable land, commitment of Federal government to 
shoulder operation and maintenance to do this development.
    However, the NIIP was to be completed the same timeline as 
San Juan-Chama Diversion project as a companion, which the 
Navajo Nation agreed to relinquish some of the water rights 
that has been diverted into the Rio Grande River, and that was 
done decades ago, while the Navajo portion is still lacking, 40 
years after that was agreed to.
    So now I will refer to the chart here. Despite commitments, 
funding for NIIP has been very erratic. The President's budget 
fiscal year 2013 request is woefully inadequate, $3.381 
million. In addition to the initial budget, NIIP has eight 
percent Federal overhead for the project, which Bureau of 
Reclamation and Bureau of Indian Affairs overhead consumes 58 
percent. Yes, 58 percent of the funding. So we get very little 
of none at all.
    Mr. Moran. BIA's overhead? No, Bureau of Reclamation you 
said?
    Mr. Begay. Yeah, combined, in all the----
    Mr. Moran. Combined?
    Mr. Begay. Yeah. See, the----
    Mr. Moran. So you get less than half the total money that 
was allocated?
    Mr. Begay. That is right.
    Mr. Moran. Excuse me for the interruption.
    Mr. Begay. That is okay.
    Mr. Moran. I just wanted to clarify that.
    Mr. Begay. Yes.
    Mr. Moran. That is the point you wanted clarified.
    Mr. Begay. That is right. Yes. So Bureau of Indian Affairs 
and Bureau of Reclamation readily admits the inadequate funding 
for operation and maintenance, creating deferred maintenance 
year after year. Now, to do this adequately, in the initial 
budgeting process and all that, it is either the Bureau of 
Indian Affairs or Bureau of Reclamation failed to do its 
responsibility in budgeting. All the Federal budgets that I am 
aware of have a base budget, okay? NIIP has a zero base budget. 
And they should be the one justifying that, but no. Ed T. 
Begay, on behalf of NAPI, is here to emphasize that there is a 
failing of the fulfillment of the obligation, Federal 
government. As the chart shows, somebody is not turning to the 
farm.
    So that is the reason why, on the backs of the Navajos, the 
Federal employees are getting the pension, sick leave pay, and 
retirement pay, while the end product, they got nothing to show 
for at this point. So I am here to just emphasize that NAPI is 
fulfilling its job as to right now. I said 72,000 acres being 
farmed. Yes, we got a turnaround, making the profit, but the 
profits that we make, we get it back and plow back into the 
business.
    So I am asking the subcommittee to assist in accomplishing 
the fulfillment of the United States government. So I am asking 
a restoration of $35 million annually to do the job that was 
agreed upon in 1962. And I think this is the body that would 
really help us. I go to OMB, I go to BIA, and they just said, 
go over there, and they said, go to the Hill. I think this is 
the Hill, right? And I thank you very much for your attention. 
The detailed testament is received by your staff, for further 
analytical stuff and so forth. I do appreciate the time, and 
you have a good week.
    [The statement of Edward T. Begay follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Simpson. Okay. Thank you. Mr. Moran.
    Mr. Moran. Well, I am going to say this probably only once, 
Mr. Chairman, but I say it to everyone in the room here. If you 
do not get what you think you deserve, and have every right to 
expect, it is not the fault of any of the members sitting at 
the table right now. People assume that Democrats are easier to 
get money out of than Republicans, but in the case of Chairman 
Simpson and Mr. Cole, they are in there fighting, but they are 
fighting within an environment that is going to be 
extraordinarily difficult this year. Anything that is put into 
Indian programs is going to have to come out of something else. 
And so I just want to make sure you all understand how 
extraordinarily difficult this budget process, this 
appropriations process is going to be. But you should also know 
that you just happen to be speaking to four allies right now 
who will do everything they can to put as much as we can into 
funding Indian programs. Thanks, Mr. Chairman.
    Mr. Simpson. Mr. Cole.
    Mr. Cole. I just want to associate myself with Mr. Moran's 
remarks. This is a tough budget cycle, and, you know, we have 
got a large deficit. We have got, obviously, a lot of 
differences, but this committee has worked through those 
things, really, the last several years under both Democratic 
and Republican leadership. And so it is pretty committed, and I 
think we actually led certainly the Senate, and, with all due 
respect, the administration in many areas last year, and I know 
we will do our best to do that again this year. But, again, it 
is going to be a tough year. But thank you for coming. I have 
to tell you, that is the most beautiful set of squash blossoms. 
My eyes have been on those ever since I walked in the room. If 
my wife was here, she would say, get them somehow. That is just 
a beautiful array.
    Mr. Simpson. So that is what the tribal wars were about for 
years?
    Mr. Cole. Well, back then we actually brought the women 
back with the squash.
    Mr. Simpson. Ms. McCollum.
    Ms. McCollum. In Minnesota we have the pipe stolen, so 
nobody wore it around.
    I have had the opportunity to be down in Santa Fe and see 
the fabulous facility there. Anything we can do so that our 
kids are engaged year round in school, it reinforces what they 
are learning. Learning about culture, you are reading. Learning 
about art, you are learning math. It is all so interrelated for 
success, so I am going to look at this some more.

                       EARLY CHILDHOOD EDUCATION

    Now let's talk about early childhood for a second. Your 
school is in a trailer? How is Head Start allowing you to stay 
open? In a trailer, you do not have the right bathroom 
facilities for that age group. I was just at a reservation 
where they got cited and were threatened to be shut down for 
having a plunger on the site in one of the restrooms, because 
this tribe has sewer challenges. So tell me about your Head 
Start. I have been to Laguna. Now, a lot of their facility is 
paid for, so that is one of the reasons why they have what they 
have. But what is your enrollment list, and are you fearful of 
losing your Head Start program? We need to figure out a way in 
this committee to get the education folks, our colleagues, to 
pay a little more attention about what is going on with Head 
Start and some of these issues, because they are just so 
interconnected.
    Ms. Martine-Alonzo. Thank you for the question, and request 
for clarification. I am happy to respond. Our early childhood 
programs are in portable buildings, and they are disconnected. 
They are not all, you know, in one complex. They have been 
acquired over the years, the different programs, and so that is 
how they are situated. And we contract the different programs. 
Head Start is direct with Federal headquarters, and so we work 
closely with them to be in compliance. We are in good 
compliance on every level because we have been able to try to 
keep everything adequately as much as we can. But we feel that, 
in the long term, we need to have more coordination among the 
early childhood programs because we know that that is where it 
is the most important place to put the investment, is at the 
early years. Those are the formative years, and those are the 
place that you need that good seamless coordination, you know, 
with the programs, because these serve the zero to age 12 
category. And you are talking to somebody that is very 
passionate about education.
    Ms. McCollum. Um-hum.
    Ms. Martine-Alonzo. I retired from State government a year 
ago after 37 years as an educator and a principal, so I hear 
your concern. And I know that we try very hard to be in 
compliance, but we need our programs to be improved in that 
ways.
    Ms. McCollum. So, one more question to you, and then I will 
switch to the secondary topic. All your teachers are in 
compliance, correct? With Head Start, you are not worried about 
that? You have native speakers in the Head Start program?
    Ms. Martine-Alonzo. Yes, we do. We do. It has taken us a 
while to really find qualified certified people because the 
reason the Ramah Navajo School Board established their own 
education system is we truly believe in educating children to 
be bicultural, bi-literate, and bilingual, knowing both their 
native language and culture, read and write, as well as to be 
able to know the English and get the education, be able to be 
successful in both worlds. And that is what we strive for, so 
we make sure we provide that.

                   AGENCY CONTROL OF INDIAN EDUCATION

    Ms. McCollum. And, Mr. Chairman, if I could ask Ms. 
BlueEyes, you made it very clear that you did want the 
Department of Education taking over your schools. We heard you 
loud and clear. Should some of the programming in the 
Department of Education be coming over into BIA? Part of it is 
that programming is very fragmented, but you are doing a 
holistic approach in your schools. Esther Martinez Johnson 
O'Malley and a lot of Indian Education Programs are handled 
through State education. Do you want us to leave the status quo 
as is? What are your suggestions?
    Ms. BlueEyes. Our school does not get some of those 
fundings, but we do get the Title VII through the Department of 
Ed as a flow through, and it goes to the BIA, then it comes 
down to our school. I think we like the way things are set up, 
because then the BIA is the one that we pretty much deal. And 
we also fear, if we were under the Department of Ed, we are 
going to be lost, because they are a huge program. But the 
concern that we do see is our BIA, BIE operated schools, like, 
we do not qualify for Race To The Top funds, so we are left out 
many times on certain fundings for public school. BIA funded is 
left out. So we would like to be included for those types of 
opportunities.
    Ms. McCollum. Mr. Chairman, we did get that fixed 
legislatively with the Race To The Top, but there is still not 
enough money. That we could not fix. Thank you, Mr. Chairman.
    Mr. Simpson. Thank you all for being here today. It is very 
interesting. We look forward to using the information that you 
have given us as we try to develop our budget for the coming 
fiscal year. I will tell everyone that we have some votes going 
on right now. We have a 15 minute vote, and then three five 
minute votes, so the next panel we will call as soon as we get 
back from this recess, which will be probably 30 minutes.
    Mr. Cole. At least.
    Mr. Simpson. In that neighborhood.
    Mr. Cole. Probably longer than that, Mike.
    Mr. Simpson. Thirty to 35. But I would encourage members, 
as soon as the last vote is over, to hurry back, and we will 
start on the next panel, because we still have three panels 
that we need to do today. So I apologize for the delay, but 
that is kind of the way it goes. They make us vote here. 
Committee will be in recess.
    [Recess.]
    Mr. Simpson. We apologize for that brief delay. The next 
panel is Irene Cuch, Ben Shelly, Lorenzo Curley, and Richard 
Trujillo. Is that close? So you see once again we are an hour 
behind. Yeah, that is right. Thank you all for being here 
today. Irene, you are up first. Can you see the red light?
    Ms. Cuch. There.
    Mr. Simpson. There you go.
                              ----------                              

                                           Tuesday, March 27, 2012.

             UTE TRIBE OF THE UINTAH AND OURAY RESERVATION


                                WITNESS

IRENE CUCH
    Ms. Cuch. Good afternoon, Mr. Chairman, and members of the 
subcommittee. My name is Irene Cuch. I am the Chairwoman of the 
Ute Indian Tribe. Our reservation is located in the State of 
Utah. Thank you for the opportunity to testify. In my 
testimony, I am going to focus on appropriations needed for 
energy and law enforcement.
    We need Congress to begin taking Indian energy seriously. 
Excuse me. The Bureau of Indian Affairs, BIA, is filled with 
staff that can process a lease for agricultural grazing, but 
the BIA lacks the staff and expertise needed to oversee energy 
permits. Excuse me again. On our reservation there are two or 
three BIA staff involved in processing oil and gas permits. It 
can take a year or longer for a permit to be approved. The 
tribe knows these issues all too well. Production of oil and 
gas began on our reservation in the 1940s. Over the past 70 
years the tribe has become a major oil and gas producer. We 
have about 7,000 wells that produce 45,000 barrels of oil a 
day. We also produce about 900 million cubic feet of gas per 
day.
    Despite our progress, the tribe's ability to benefit from 
these energy resources is directly limited by the agencies who 
oversee permitting. Just ask the oil and gas companies who 
operate on our reservation. These companies say that the 
permitting process is the single biggest risk factor in 
conducting business on the reservation. The lack of BIA staff 
and expertise has a real impact on the tribe. Tribal earnings 
from energy development are not spent on luxuries or sit in 
some investment account. We use those revenues as primary 
source of funding for our tribal government and the services we 
provide to our members.
    We also need the Federal agencies to work more efficiently. 
Funding is needed to increase Indian energy development offices 
that would bring all of the agencies together under one roof to 
streamline processing. Former Senator Dorgan called these one 
stop shops. There are three one stop shops already in Indian 
country. Senator Dorgan reported that the one at Fort Dorthal 
helped to increase oil and gas permit approvals by four times. 
On our reservation we need 10 times as many permits approved. 
Currently only 48 application for permits to drill APDs are 
approved each year. The tribe and its business partners 
estimate that 450 APDs will be needed each year as the tribe 
expands operations. We believe that a one stop shop is the best 
way to get Federal agencies working together to manage the high 
level of permitting needed on our reservation.
    We also need funding to protect our rights once a permit is 
issued. Without explanation, the President's Fiscal Year 2012 
budget eliminated funding for lease compliance and surveys 
performed by the BIA Western Regional Office. This funding is 
needed to address title boundary, trespass issues, and should 
be restored.
    Finally, increase appropriations are needed for Federal law 
enforcement responsibilities. Our reservation is the second 
largest in the United States, but the Federal government, 
excuse me, only funds eight police officers. At the most, that 
is three officers per shift. With only three officers on duty, 
calls for police assistance are not answered in a timely 
manner. Our officers are forced to work alone, and police cars 
travel over 500 miles per shift.
    To make matters worse, our BIA funded jail was recently 
condemned and closed. Currently the BIA only pays to house 10 
criminals at local non-Indian jails. This means that the 
criminals who are caught and convicted are released back into 
the public instead of being held. The situation is serious that 
the tribe is using its own money to construct a new detention 
facility.
    We are doing our part by funding three additional police 
officers, building our own detention facility. Congress needs 
to do its part, fulfill its Federal trust responsibilities, and 
provide at least 20 more police officers and the staff needed 
for our new detention facility. Thank you for the opportunity 
to testify today. Nothing is more important to the tribe than 
keeping our members safe and developing energy resources that 
will provide for long term economic security of our members, 
our children, and grandchildren. I will be happy to answer any 
questions that you may have. Thank you.
    [The statement of Irene Cuch follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Simpson. Thank you very much.
                              ----------                              

                                           Tuesday, March 27, 2012.

                             NAVAJO NATION


                                WITNESS

BEN SHELLY
    Mr. Shelly. Mr. Chairman, members of the subcommittee, it 
is an honor to testify today regarding the Navajo Nation 2013 
budget priorities, and discuss our plan to develop a 
sustainable economy. Our priorities include infrastructure, 
development, public safety, and education. We continue to be 
concerned that our plan for economic development will be 
stopped by Federal regulation.
    Economic and infrastructure development supports job 
creation, as we all know. Projects like the Navajo Agricultural 
Products Industry fulfill our goals of economic development and 
job creation. The NAPI farm is supported by water brought by 
the Navajo Indian Irrigation Projects. The Federal Government 
promised to fund the NIIP as part of settling water rights in 
New Mexico. The President's 2013 budget again reduced funding 
for the NIIP. This level of funding is unsustainable for 
operation and new construction. The Navajo Nation asked the 
committee to restore full funding to these long overdue 
projects to a close.
    Another essential infrastructure project is the Navajo-
Gallup Water Supply Projects. This prioritized project for the 
administration will bring much needed water to Navajo and bring 
thousands of jobs to the Navajo Nation. We support the 
President's budget requests and urge the committee to retain 
the full funding level.
    Health care facility construction projects are also 
essential for community infrastructure. Hospital facility 
construction is underfunded. The Navajo Nation has five 
priority hospitals due for replacement, Winslow-Dilkon, 
Kayenta, Pueblo Pintado, our Gallup Indian Medical Center, and 
Bodaway-Gap. These projects bring health care viable, as well 
as jobs to rural community. We applaud the President's request 
for IHS funding, but the majority of increase went to funding 
for staffing joint venture, not for long overdue priority 
hospital projects and for needed water and sanitation fund.
    In addition to infrastructure, another priority of the 
Navajo Nation is public safety. Our court and law enforcement 
program needs full funding to make our community safe and 
prosper. The Interior budget is inadequate to put Navajo Nation 
on the same level as other rural community. The Navajo Nation 
has fewer officer per person than other comparable rural 
community. At time there is only one law enforcement officer to 
cover up to 5,000 square miles. The President's 2013 budget is 
also inadequate for facility replacement of jails and employee 
housing.
    Another priority of the Navajo Nation is supporting 
education. The Interior budget for fiscal year 2013 eliminates 
facilities and school and construction program. The Navajo 
Nation has many schools that need replacement. Further, this 
past fiscal year many students did not receive their 
scholarship funding due to delay in appropriation. The Navajo 
Nation urge Congress to fund the BIA higher education program 
as it does for other BIA programs, such as K-12 school and 
tribal college.
    Additionally, Congress should support a building study to 
determine the true facility need for the college and the Navajo 
Technical College. The Navajo Nation has renewable resource, as 
well as large resource of non-renewable resource, like large 
reserve of coal, oil, and natural gas. The Navajo Nation 
support full funding for development and technical assistance 
to help us develop our resources.
    Unfortunately, the Navajo Nation face many regulatory 
burdens placed on us and our energy development by the EPA 
negative view toward further coal development. The Navajo 
Nation is trying to create sustainable economy that will reduce 
our dependence on the Federal government. We urge support on 
projects and program that build infrastructure in creating jobs 
and clear the path for Indian energy independence innovation by 
reducing regulatory burden on us. And I also would like to add 
on too I was asked by Darema to ask them for funding. They are 
a member of the Navajo Nation, even though they have a grant. 
They use grant money. Again, they are the citizen of the Navajo 
Nation, so my support for what they ask for is right along with 
them. So, again, thank you very much for listening to me.
    [The statement of Ben Shelly follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                                           Tuesday, March 27, 2012.

               NAVAJO HOPI LAND COMMISSION, NAVAJO NATION


                                WITNESS

LORENZO CURLEY
    Mr. Curley. Chairman Simpson, Ranking Member Moran, and 
members of the subcommittee, my name is Lorenzo Curley. I am a 
member of the Navajo Nation Council, also the chair of the 
Navajo Nation, Navajo Hopi Land Commission, and I represent the 
Nahata Dziil chapter of the new lands, which was created 
primarily as a relocation site for those families that were 
moved off their former lands.
    I thank you for the opportunity to testify in what is 
perhaps the most difficult chapter in modern Federal tribal 
relations, the Navajo Hopi land dispute, which has resulted in 
the relocation of nearly 15,000 Navajos, and a building freeze 
which has prevented development on western Navajo lands for 
over 45 years. Although the legal dispute between and among the 
Navajo Nation, Hopi Tribe, and United States are largely 
resolved, there still remains a large and ongoing toll on 
Navajo families affected by the land dispute.
    As a representative of the Nahata Dziil chapter, I know 
personally the pain and sense of disorientation which comes 
from being forced off ancestral lands. Virtually every day my 
constituents approach me to talk about hardship that they have 
suffered because of the relocation law and the construction 
freezes, including lots of young people whose families have 
relocated, but who cannot themselves build homes on relocation 
lands, making them effectively homeless and landless. The 
impact of the land dispute and building freeze will be with the 
Navajo Nation for many generations.
    The Federal agency which oversees the relocation process is 
the Office of Navajo Hopi Indian Relocation, also known as 
ONHIR. ONHIR has had a very difficult job that has taken far 
longer and cost far more than originally anticipated. However, 
this is not the fault of the Navajo Nation, which opposed the 
relocation program, but must now live with the awful 
consequences.
    ONHIR has two primary missions, relocation of Navajo 
families, and supporting relocatees through important economic 
development programs. In this regard, we would ask the ONHIR 
budget be doubled to $18 million in order to accelerate the 
conclusion of the relocation process for those many families 
who have relocated, but have not yet received their benefits, 
and to provide critical support for programs within the 
relocation communities, such as my own chapter, Nahata Dziil.
    I also urge the subcommittee to increase funding for 
housing and other improvements in the former Bennett freeze 
area of the Navajo Nation with $10 million from the BIA Trust 
Natural Resources Account and $10 million from the BIA Housing 
Improvement Funds, Department of Interior.
    As the administration noted in 2011, the building freeze 
was the product of a longstanding land dispute between the 
Navajo and the Hopi relocation boundaries. More than 12,000 
Navajos living in the area were subjected to a 41-year freeze 
on development. During this era, the Navajo people were 
prohibited from building new schools, homes, health facilities, 
construction of water, roads, and electricity projects, and 
other community and economic development ventures. As a result, 
the Bennett freeze area is locked into the poverty if 1966, 
when the freeze was imposed. It was only in the 111th Congress 
that the freeze legislation was finally repealed.
    The President's fiscal year 2013 budget indicates that some 
funds will be allocated for the former Bennett freeze area from 
the Natural Resource Sublicate Activity to address 
rehabilitation, but provide no amount. I urge the subcommittee 
to make a bold statement by supporting substantial funding to 
rehabilitate the area.
    Although the Navajo Hopi land dispute and the Bennett 
freeze are painful issues, I thank the committee for this 
opportunity to provide testimony on a path forward to ensure 
that many Navajo families who have suffered under these Federal 
actions can have hope for a better life. I thank you for your 
attention. Thank you very much.
    [The statement of Lorenzo Curley follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Simpson. Thank you. Richard Trujillo.
    Mr. Trujillo. Trujillo.
    Mr. Simpson. Trujillo.
                              ----------                              

                                           Tuesday, March 27, 2012.

                           HOPI TRIBAL COURT


                                WITNESS

RICHARD TRUJILLO
    Mr. Trujillo. Trujillo, if you do it. Yeah, that is the 
Spanish teacher in me. Thank you, Mr. Chairman, for this 
opportunity to speak, and members of the committee, staff. I am 
the Chief Judge of the Hopis, and it is an honor to have this 
position. I am a retired Superior Court Judge from Maricopa 
County. You know, that is the county where we have a sheriff 
that is the meanest sheriff in the world, and the people wear 
pink underwear, et cetera.
    One thing that is not mentioned with the national cuts with 
respect to the Maricopa County Sheriff's Office, and it really 
has nothing to do with the gentleman who attracts the camera 
every place he goes, it is the professionals who have been 
there for years. We have got a lot of very good law enforcement 
people running the jail system.
    As I was on a criminal assignment for five years, and 
sentenced people to jail for substantial periods of time, and 
oftentimes, as conditions of probation, they would receive up 
to one year in the County Jail as a condition of probation. The 
jail would offer programs for people who had problems with 
alcohol, even programs for sex offenders, basic adult 
education. And oftentimes that gave the inmate an opportunity 
to work their way out of jail earlier than the one year 
probation term.
    In December of 2010 I met a gentleman by the name of Leroy 
Shingoitewa, and he is the Chairman of the Hopi Tribe, and he 
invited me to have lunch with him and have dinner. We did, and 
he says, I would like you to be the Chief Judge for Hopi. And I 
am a fourth generation Arizonan. I know where Hopi is located, 
but I had never visited. I said, okay. He said, come up and 
visit and see how you like it, and then maybe you can help us 
with some of our problems.
    Well, that invitation I am extending to you, Mr. Simpson, 
and Ms. McCollum, on behalf of the tribe. Come and visit Hopi. 
I can tell you that in the course of my year there, and now 
into my second year, during the summer, you see busloads of 
people come in to visit. And I have been at the various hotels, 
La Posada in Winslow, the cultural center on Hopi at the Legacy 
and Tuba City, and you hear German being spoken, and Italian, 
and busloads of people from Germany and from France.
    And when they describe Hopi, they say mystical, land of 
enchantment. Not to borrow from New Mexico, but they describe 
the area, and they are enchanted by this culture, this people 
that live up on mesas that extend, you know, the breadth of 100 
miles. And I am hearing the comments of my neighbor here, 
suggesting that Hopi Navajo land has created a lot of hard 
feelings, and I am sure that is all accurate. But nonetheless, 
we in law enforcement, and I consider myself in the Justice 
Department of Hopi, patrol from Tuba City to King's Canyon. It 
is about a distance of about 100 miles. We have our chief of 
police present, Jamie, was it? Yeah. And his staff responds to 
a call, and sometimes it takes an hour, an hour and a half to 
get to the location of where the call is coming from.
    And if you have looked at the written materials we have 
submitted, you will see that in 2011 there were almost 7,500 
calls. Almost 3,000 of those calls had to do with intoxication. 
Jamie tells me that there are times that by the time the police 
officer arrives, the intoxicated person has moved on, or passed 
out, and sometimes the families do not want the person 
arrested, sometimes they do. And Jamie's police force is 23. 
And I heard this morning the young officer, I think from North 
Dakota, who talked about the need to double the number of 
officers on that reservation, for a lot of good reasons, and I 
am sure you hear that endlessly when you have these hearings.
    The message I received when I was hired by the chairman, 
and the vice-chairman Honanie, was we need to do something 
about, you know, law and order. We need to address law and 
order, and, Judge Trujillo, we want you to implement the new 
Federal Tribal Law and Order Act. And the chairman said, are 
you familiar with it? I said, well, vaguely. He said, well, I 
want you to become an expert on it, meet with the U.S. 
Attorney's Office, and implement the Law and Order Act on Hopi. 
We now have rewritten the code. The council has not passed on 
it, but the law and order committee of the council has, and 
that has taken every bit of a year, and we are now at the stage 
where if the council passes on it, the law may be effective in 
2012. Maybe July 1, maybe August 1, maybe September 1.
    As I understand the Law and Order Act, I do not mean to use 
political terms here, but it is another unfunded mandate. 
Because Law and Order is going to require people to go to jail 
for longer periods of time, and maybe that will turn things 
around, in terms of people's attitudes and their conduct.
    I was there about three months and decided to convene 
meetings of various community leaders. And at one time I told 
Judge Leslie, who had been a Hopi Judge there for 26, 27 years, 
I said, Judge Leslie, why do we not convene all the leadership 
of the villages, we have 12 villages, and let us talk about 
this whole area of intoxication in Law and Order. It was an 
interesting experience because we had, I believe, six 
governors. That is the term they give to the elected person who 
heads up the village. We had six governors present. Probably 
70, 80 people were present, and one of the governors stood up 
and said, what do you call this committee? I says, well, we 
really have not given it a name, but we call it the Hopi 
Justice Committee. We are trying to bring about some 
significant change in our community.
    He looked at me, and he said, you are the Chief Judge? I 
said, yes, sir. He says, well, justice on Hopi is a joke, and 
the jail is a revolving door, and you Judges, I do not know 
what you are doing about the problem, but you are not helping 
the villages. Well, that is another aspect of my learning 
experience of Hopi.
    I had mentioned that when I was a Superior Court Judge I 
would sentence people, and the Italian Stallion sheriff that we 
have would house them and make sure that, you know, they move 
on into the prison system. But on Hopi, the Judges meet every 
Wednesday, and the prosecutor meets with Jamie and the people 
who are running the detention facility, and we determined how 
many people to release, because we are at capacity. And 
capacity is anywhere from 70 to 100. And this weekend we know 
there are going to be another 10 to 15 people arrested, and the 
violent offenders we want to make sure are locked up and not 
released.
    So it is kind of like, who is running the show here, in 
terms of Hopi justice? And I do not think it takes the students 
very long, and we have a whole group of Hopi students present. 
And I guess I am really speaking for them, because it is their 
community that we want to talk about, you know, public safety 
for them. It is the BIA that runs the jail. It is the BIA that 
runs the detention facility, and it is a two headed monster, I 
learned. They have different supervisors. And I do not know at 
what level you can reach someone who speaks for both detention 
and the police, but you have to deal with the various 
supervisors.
    And, for the most part, there does not seem to be any 
urgency about doing anything about it, from the BIA's 
perspective. That is my view. The good news is Dorothy Fulton. 
There is a lady named Dorothy Fulton who I met recently, 
representing BIA, and she does seem to be interested in 
bringing about significant change on Hopi.
    I have mentioned the Law and Order Act, July 29, 2010. 
Another significant date in Hopi justice is 1981. In 1981, and 
I do not know who the Secretary of Interior was, but I suppose 
there was rejoicing among BIA people because there was a new 
building that was constructed on Hopi, and it was a 
rehabilitation facility. And I suppose the people at that time, 
if this committee was constituted at that time were talking 
about, we need to set up a rehab program to deal with 
alcoholism. Well, that facility is now our jail. It has been 
converted to a jail, and it is inadequate, obviously not 
sufficient words to describe the condition of the jail. Just 
this past weekend I hear from our chief of police that the 
electronic doors failed and two prisoners walked out.
    We have had a reconstruction effort, meaning they had to 
really redesign and reconstruct this building to meet 
specifications. And in 2004 it was learned that the condition 
of the facility was such that we could not house our juveniles. 
So the juveniles had to be transported, if they were going to 
be detained, to Colorado, or McKinley County in New Mexico.
    I come on the scene, and I learn that there is a negotiated 
contract with Navajo County. The county seat is Holbrook, that 
is about an hour and a half away, and that agreement has been 
in place for about 18 months, but the BIA has not approved it 
yet, and eventually, in 2011, in April or May, it was approved, 
so that was almost two years later it was approved. We now 
house our juveniles in Holbrook, an hour and a half away.
    The stress to families, the inability to provide support to 
children, is obvious. We need the facility that this written 
proposal speaks of. And I know you have been listening to the 
presenters all day, asking for millions and millions and 
millions of dollars. You know, I asked the chairman before I 
left, I says, Chairman, what do you expect to accomplish by 
sending me to represent you? He said, well, you know, just hope 
for the best.
    So I am here on a plea, asking that this committee visit 
this land of enchantment, this group of mystical people, and 
they are. You know, you have got bad apples, but for the most 
part you have got a wonderful community and a great culture. At 
one of the Justice Committee meetings, one of the ladies spoke 
up and said, you know, alcohol is destroying our culture, and 
jail is not the answer. Well, that is one view, in terms of 
punishment.
    The chairman, and some of the leadership currently, believe 
that the Law and Order Act is going to make a difference, and 
that we need to prepare. And by preparation, meaning we need to 
develop the jail facility that can provide services. And if we 
sentence to three years, where are they going to go? Are we 
going to come to you and say, we need you to talk to the Bureau 
of Prisons and try to find some facility for us? That is not 
going to work. At least, based upon what I have seen so far, it 
is not going to work. So we need to house them there, and 
hopefully rehabilitate these people before they return to 
society. And under the Law and Order Act, as you are, I am 
sure, well aware, we can stack three times, so conceivably 6 
year sentences, 9 year sentences.
    My final remark has to do with the violence that occurs, 
and the need for officers to concentrate more on those cases. 
And Jamie and I have talked about this, but some of the cases 
that I am aware of, the violence against women, and the need 
for appropriate punishment for those that violate, is something 
that Law and Order can bring about.
    The U.S. Attorney's Office is not the answer. U.S. 
Attorney's Office position is if you do not have a rape kit, if 
you do not have hard evidence, if it is just he said, she said, 
we are not going to prosecute. So the only place justice is 
going to occur is at the Tribal Court. Thank you.
    [The statement of Richard Trujillo follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Simpson. Thank you. Ms. McCollum.

                           EDUCATION CONCERNS

    Ms. McCollum. Mr. Chair, members, the one thing that I had 
noted to ask you about was education. Is there anything more 
you would like to add about education?
    Ms. Cuch. Education? Yeah.
    Ms. McCollum. If you would like to----
    Mr. Simpson. Are you asking her?
    Ms. McCollum. Yes.
    Ms. Cuch. Are you asking about education?
    Ms. McCollum. I am sorry. Yes.
    Ms. Cuch. My testimony did not focus on education.
    Ms. McCollum. Yes, I know. But I am asking----
    Ms. Cuch. You are asking----
    Ms. McCollum [continuing]. If there is anything anyone 
would like to add on education, because I know when you come 
here you only have five minutes----
    Ms. Cuch. Yeah.
    Ms. McCollum [continuing]. You cannot talk about----
    Ms. Cuch. Yeah.
    Ms. McCollum [continuing]. Everything.
    Ms. Cuch. Okay. Education, what comes to my mind is the 
Johnson-O'Malley Program, and that is funded through the Bureau 
of Indian Affairs, and that helps the students that are 
attending local public schools.
    Ms. McCollum. Right.
    Ms. Cuch. And it is supposed to provide, well, they call it 
the unique problems of Indian students. It has to do with 
addressing their learning, and it has to do with their culture, 
and providing the counseling to the Indian students that are 
attending public schools. I know from time to time that is 
sometimes stricken from the BIA budget, but I think it needs to 
be put in there permanently. It should be a permanent program 
in the BIA. And it is called the Johnson-O'Malley Program. That 
comes to my mind. And I have worked with Indian students 
attending public schools, and yes, they do have problems, and 
they are at times maybe two or three grades behind their non-
Indian peers. So that counseling, and also tutoring, is needed 
to help our Indian students to move up. So that would be my 
comment, to keep it in there. Let it be a permanent fixture in 
the BIA budget----
    Ms. McCollum. Thank you.
    Ms. Cuch [continuing]. For the education.
    Ms. McCollum. Thank you.
    Mr. Simpson. Mr. Cole.
    Mr. Cole. Thank you, Mr. Chairman. And Ms. Cuch, I have a 
question for you, and then for President Shelly as well. You 
talked at length, obviously, about the problems you have with 
energy permitting, and recently the Department of Interior and 
BIA announced a new policy for surface and renewable energy 
policies, whereby they would allow the tribes to license 
development. You would sort of get your procedures approved by 
the BIA, and hope that that would expedite energy. And I know 
there is at least some thought at the BIA about doing the same 
thing, in other words, turning over to Utes on the land after a 
regulatory regime had been agreed to. You would administer that 
there. So would that help, and do you feel comfortable that is 
an appropriate solution for the problems you have?
    Ms. Cuch. My answer to that is yes, it would help, because 
there is a lot of red tape. BIA, like I mentioned, is not 
funded adequately. And unless they have more funding to hire 
more people to process the APDs, yes, that would help. But, 
again, as far as my comment on one stop shop, put everything 
together, all the Federal agencies, that would help too, rather 
than going to each one.
    Mr. Cole. And the Chairman just reminded me of something. 
In report language, at least, we asked the BIA to look at this 
for sub-surface mineral rights on coal, and oil, and natural 
gas, and try to assess tribes who carry. And Mr. Shelly, you 
mentioned the problems you were having with coal, and we all 
know there is a lot of opposition to coal sometimes. You 
mentioned the EPA in particular. Do you have any reason to 
believe that that opposition is just, well, are they opposed, 
or are they just not equipped to handle this, or are they 
putting roadblocks in your way, in terms of development of coal 
resources, in your opinion?
    Mr. Shelly. What I think is that the green energy, the 
environmental, and the EPA is the one that is driving this, the 
green energy probably driving this whole thing. And new rules 
and laws, like BARK and others are popping up, and it is really 
shutting down a lot of our uses of coal. And these are things 
that have to go through tribal consultation, and working 
together with each other on these to alleviate some of those 
regulatory burdens that we get.
    Mr. Cole. Do you----
    Mr. Shelly. And I think that is one way of doing it. Now, I 
would like to add one more thing.
    Mr. Cole. Please do.
    Mr. Shelly. On the permitting, the BIA----
    Mr. Cole. EPA?
    Mr. Shelly [continuing]. We--yeah. And what we did is we 
did the MOU with Lawrence Livermore to do a study on oil and 
resource on our nation, and to do a blueprint and a roadmap for 
developers to come in. And we would like to handle the 
permitting ourself, and that is what I want, not to get BIA 
involved so much. Because once they get involved, it takes too 
long, you know? So if we do it ourself, since we are going to 
have the blueprint and the roadmap, the developers would know 
what they want. And whatever they want, they come in to deal 
with us, we will negotiate with them right away on it because 
you do not have to do any----
    Mr. Cole. Last question. Is the permitting process, in your 
opinion, or to your understanding, faster off of non-Indian 
lands? In other words, you see private developers basically 
bypassing opportunities in Indian country because they can 
permit faster, cheaper in lands just outside your reservation, 
as opposed to coming on the reservation?
    Mr. Shelly. It is faster out of the reservation than it 
does in the reservation, so that is what I mean. I think Navajo 
Nation should permit with developers within our nation, instead 
of going through another agency, because it takes longer that 
way. So what we are saying is, we will have the blueprint and 
the roadmap. We will exactly know what we have with a national 
resource, or whatever it is. Developer comes in, we deal with 
them, we permit them where they want to set up their business.
    Mr. Cole. Thank you very much. Thank you, Mr. Chairman.
    Mr. Simpson. Thank you. I thank all the panelists for being 
here today, and look forward to working with you as we develop 
this upcoming budget. The next panel is Chairman Randy King, 
Jimmie Mitchell, Director of Natural Resources, Energy 
``Ribs'', or Eugene ``Ribs'' Whitebird----
    Ms. McCollum. He is full of energy, though.
    Mr. Simpson. Yeah, full of energy. Tom Maulson, and Jim 
Zorn. Where did Ribs go?
    Ms. McCollum. He was out there.
    Mr. Simpson. You saw him out in the hall?
    Ms. McCollum. I saw him out in the hall earlier. There he 
is. You can sit down here by me, Ribs.
    Mr. Whitebird. Okay.
    Mr. Simpson. Randy, you are first.
                              ----------                              

                                           Tuesday, March 27, 2012.

                        SHINNECOCK INDIAN NATION


                                WITNESS

RANDY KING
    Mr. King. Good afternoon, Mr. Chairman and members of the 
subcommittee. I am Randy King, Chairman of the Shinnecock 
Indian Nation Board of Trustees. Thank you for the opportunity 
to testify today concerning our need for new tribes funding.
    We are located in Suffolk County, New York, at the eastern 
end of Long Island. We have lived there as a self-governing 
nation exercising jurisdiction over our lands since time 
immemorial. Despite this history, we only recently were 
reaffirmed as a federally-recognized tribe on October 1, 2010, 
having spent over 3 decades in the interior petition process.
    Over many decades we preserved our community using revenues 
from our annual powwow, limited New York State and federal 
grants, and private foundations. While these funds provided 
some resources, they fell far short of the monies needed to 
maintain a proper tribal government and to meet the most basic 
needs of the our tribal members.
    Today, the nation numbers over 1,400 enrolled members with 
approximately 662 tribe members residing on the reservation. 
The services we provide as a tribal government are funded 
primarily with non-federal dollars and limited federal funding. 
These services include community center, a cemetery, health 
center, family preservation education center, and environmental 
protection programs.
    Through our acknowledgement the Bureau of Indian Affairs 
concluded that we existed as a tribe well before the arrival of 
non-Indians on our shores. However, our nation and our members 
have not been able to access most federal services and benefits 
for decades. It is our understanding that tribes recognized 
after 1997 simply have not had access to the same level of 
funding as those recognized before then. This resulted from a 
policy change at the BIA on new tribes funding that set annual 
base funding levels based on population. We are significantly 
underfunded compared to other tribes under BIA jurisdiction 
prior to '97.
    All we are asking for is a level playing field to allow 
those tribes recognized after '97, the tribes that need federal 
support the most, to obtain our fair share of federal funding 
to meet our tribal government responsibilities. As a nation, we 
are moving forward on pursuing economic development initiatives 
to increase our self-sufficiency, however, in the meantime we 
do not have the necessary monies to support our tribal 
government operations, capacity building, and infrastructure.
    We are grateful that the Bureau of Indian Affairs has made 
the fiscal year 2013 budget new tribes funding request on our 
behalf. We ask that the Congress appropriate these monies and 
also review and consider the extent to which post '97 new 
tribes like ours are underfunded. We know that the Congress is 
facing severe budget constraints, but we have been living with 
minimal federal support for many decades.
    Thank you for the opportunity to hear me today, and I will 
answer any questions you have.
    [The statement of Randy King follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Simpson. Thank you. Jimmie Mitchell.
    Mr. Mitchell. Yes. With all due respect, out of the culture 
of our nation I would like my elders to go and speak before me 
out of respect for them, if it is all right.
    Mr. Simpson. Who wants to speak? Ribs?
                              ----------                              

                                            Tuesday, March 27, 2012

                       LEECH LAKE BAND OF OJIBWE


                                WITNESS

EUGENE ``RIBS'' WHITEBIRD
    Mr. Whitebird. Thank you, Chairman Simpson, Ranking Member 
Moran, Representative McCollum, and other members of the 
committee to allow me to testify today. My name is Ribs 
Whitebird. I am a member of the Leech Lake Tribal Council. Our 
reservation is located in northern Minnesota.
    I would like to recognize the delegation from Leech Lake 
here today with me, including Jackie Ward, the superintendent 
of the Bug O Nay Ge Shig High School, please stand.
    Like last year, today my testimony focuses solely on the 
band's need to replace its high school facility at the Bug O 
Nay Ge Shig High School. The school is administered and funded 
by the BIE. We estimate the cost to replace the high school is 
about $25 million. My hope is that I can come back next year to 
give a verbal report on the replacement of the school.
    Under our treaty of 1855, the Leech Lake Reservation was 
established. The bank gave up millions of acres of our 
homelands. In return the U.S. was supposed to provide for the 
band's welfare, which included providing kids decent and safe 
schools.
    Further, the U.S. Congress passed the Nelson Act of 1889, a 
Dawes Act for Minnesota and other federal law specific to 
Minnesota will take more of our land. Logging companies wanted 
our valuable white pine, and homesteaders wanted our land for 
farming. In return proceeds from land and timber sales were 
supposed to be used for our schools. The U.S. has never met 
these obligations.
    The schools are standard Indian children in grades K 
through 12. The students commute to the school, which is from 
14 communities within a 70-mile radius. The school has won many 
awards for its academic achievement and its native language 
programs. The elementary and middle school facilities are in 
satisfactory condition, but the high school needs to be 
replaced.
    The current facility is a metal pole barn. One-third of the 
facility was destroyed in a gas explosion in 1992. The facility 
has severe structural and mechanical deficiencies and lacks 
proper insulation. The facility does not meet safety, fire, and 
security standards.
    Also, the facility has electrical problems and lacks an 
alarm system. Further, the building lacks a communication 
intercom system, telecom technology, and safe zones, which puts 
everyone at risk during emergencies. Also, the facility 
jeopardizes the health of the students and faculty due to poor 
indoor air quality from mold, fungus, and a faulty HVAC system.
    The facility suffers from rodents, roof leaks, sagging 
roofs, roof holes, uneven floors, poor lighting, severe sewer 
problems, lack of handicap access, and lack of classroom and 
other space. These are just a few of the numerous deficiencies.
    I have a set of folders here. Due to unsafe and undesirable 
conditions of the high school, many students leave after middle 
school to attend other schools. Students are embarrassed about 
the condition of the high school, resulting in negative image 
of the school in the community and a lower enrollment rate.
    The school is on the BIA list of schools in need of 
replacement. The BIA has acknowledged that the school has 
exceeded its life expectancy by decades. The BIA categories the 
high school facilities as being in poor condition. The BIA's 
fiscal year 2013 budget proposes eliminating funding for 
replacing BIE school facilities and focusing instead solely on 
facilities' improvements and repair. This is unacceptable.
    We urge the committee to provide funding to replace school 
facilities. You can only put so many Band-aids on something. 
Our school is one big Band-aid, and no amount of improvements 
or repairs will address the serious deficiencies in the 
facility. Why keep throwing money at temporary fixtures? The 
BIA just needs to build a new high school. Our kids deserve 
this.
    This change in BIA school construction policy to eliminate 
funding to replace facilities and instead focus on improvement 
and repairs was done without any government-to-government 
consultation. There must be consultation. BIA should not be 
allowed to make these decisions without talking or listening to 
our point of view. The high school is among more than 63 
schools funded by the BIE that are in poor condition. The BIE 
construction backlog is at least $1.3 billion. There needs to 
be some funding to address the backlog.
    We appreciate that times are tough financially, but our 
kids should not be the ones supposed to shoulder the burden. 
The Administration's fiscal year 2013 budget request is 
extremely disappointing. The Administration proposes only $52.9 
million for BIE school construction. This is a huge cut from 
past levels. You cannot do much with that. To address the 
backlog we need adequate funding over a sustained period of 
time.
    In conclusion, the fact is that the high school is not safe 
and should not be a place where our kids go to school. As I 
said last year, I doubt that anyone sitting at this table would 
allow their children to attend school in this type of facility 
that our children go to school in. We respectfully request the 
committee's assistance in replacing our high school facility.
    Thank you.
    [The statement of Eugene ``Ribs'' Whitebird follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Simpson. Thank you. Jimmie, you are next.
                              ----------                              

                                           Tuesday, March 27, 2012.

                  LITTLE RIVER BAND OF OTTAWA INDIANS


                                WITNESS

JIMMIE MITCHELL
    Mr. Mitchell. Yeah. My name is Jimmie Mitchell, and first 
of all, Mr. Chairman, thank you.
    Mr. Simpson. Is the mic on?
    Mr. Mitchell. Yeah, it is. I will move it a little closer 
here.
    Mr. Simpson. Okay.
    Mr. Mitchell. I am here as a tribal member for the Little 
River Band of Ottawa Indians, as well as representative for the 
Chippewa Ottawa Resource Authority. It is a five-tribe resource 
management authority that exercises management, over not only 
our commercial fishing rights but also in conjunction with the 
Inland Treaty Right which was just recently established.
    And today as I speak I think back to the history that we 
have in Michigan. It was exactly to this date 176 years ago 
that 29 of our chiefs came to Washington, DC, to negotiate a 
treaty, which became the treaty of 1836. During that treaty the 
Ceded Territory in Michigan was established, which is roughly 
13.8 million acres of Michigan. It is within the northern lower 
peninsula of Michigan as well as the eastern portion of the 
peninsula of Michigan.
    In living that we have the ability to have co-management 
within that area, but unfortunately, without the funds to do so 
it really limits our ability to exercise that treaty to its 
fullest extent, and with the current conditions that the 
environment is in, the depletion of resources, not only within 
the natural resources, but within the state and Federal 
Government's abilities to adequately manage those, much of that 
burden has fallen back on the tribes to try to fill in that 
niche to help not only ensure that the species are not further 
degraded from the condition that they are now but also to be 
able to have the restoration reclamation enhancement abilities 
to make sure that the sustainability is there as well as 
looking at other species that we need to bring back in to help 
our cultural needs within our communities to be realized again.
    Many of those things are missing and have really caused a 
detriment within the communities, and it is wonderful to see 
some of those identifiers coming back, to be able to look up in 
the sky and see the eagle again, for instance. You know, that 
was really, to us as Indian people, a severe detriment to us, 
and the reasons why, you know, with it being as part of our 
culture.
    In 2004, the tribes were challenged with our right again by 
the State of Michigan. They felt that the right did not exist 
any longer, and so we went into a lengthy negotiation process, 
and during that process not only did we fight to preserve our 
rights to hunt, fish, and gather, but we also fought for co-
management, which we were able to achieve.
    And so with that looking at the responsibilities, again, we 
have within the consent decree, there are mechanisms within 
there that if we do not manage it appropriately, that there is 
mechanisms that will come into place that limit our ability to 
have access to fish, called regression models, and so the 
tribes are really forced to continue the management aspects, 
again, that the state and the Federal Government can uphold.
    And so with that, you know, I want to thank the support 
that we have had from this, from you as being the supreme 
protector of our environment. We would not be able to do what 
we do without having that support, and, again, I think in 
looking at the collaborative efforts that we have with the 
tribes, looking at our responsibilities, not just, again, as 
part of our culture but also with all peoples within our areas, 
these things are important to everyone.
    One of the things that we have been doing back home at 
Little River, we have been working on our sturgeon restoration 
program. We have a remnant population of sturgeon that were 
just about extinct, and so we developed a sturgeon-rearing 
facility that actually uses water from the big river, and it 
has been successfully running for 8 years, and we have 
introduced probably, I am going to guess close to 600 sturgeon 
back into the system that most likely would not have made it.
    We went as far as we have created a DVD that I would like 
to share with the committee here just to have an idea of the 
kind of collaboration and efforts, again, we did not do that by 
ourselves. We used Fish and Wildlife monies. We used forester 
cooperation as well, and so it is really a collection of 
sovereigns coming together to help these things, help the 
environment, help our cultures.
    And so with that I just wanted to, again, thank you for the 
support. The President's budget does have a base funding 
established finally for our consent decree for the inland 
portion of it, and we would like to respectfully ask your 
consideration in this process, and I am here to answer any 
questions you may have about that.
    [The statement of Jimmie Mitchell follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Simpson. Thank you.
    Mr. Mitchell. Thank you.
    Mr. Simpson. Appreciate it. Tom is next.
                              ----------                              

                                           Tuesday, March 27, 2012.

         LAC DU FLAMBEAU BAND OF CHIPPEWA INDIANS IN WISCONSIN


                                WITNESS

TOM MAULSON
    Mr. Maulson. I just want to let you know that my Indian 
name is Wind Coming, otherwise in a Christian way Tom Maulson, 
and I am the President of the Lac du Flambeau Band in Lake 
Superior Chippewa Indians with my relatives that is with us 
here.
    You know, Mr. Chairman, I want to sort of give you a book 
here, and my colleague to my right will definitely--this is a 
good story. You know, sitting here a good part of the 
afternoon, and I know you people are busy people, we, too, have 
some priorities coming from Indian Country. And I sat back 
there and listened to the Holocaust that is still going on in 
Indian Country, you know, here, not only in, you know, in my 
reservation or across this country. We need a lot of help. We 
have many priorities. Same as the other tribes out there. 
Protection of our natural resources, education, welfare, and 
these things are just, you know, funded at their base funding. 
We need more support, Mr. Chairman, in many other issues out 
there.
    And I have got my natural resources program right here, and 
I will turn it over to him when I get to about that point right 
there. We have got a lot of issues there to represent to EPA at 
the national level.
    I have been, you know, cross country dealing with, you 
know, about what mining has done to my colleagues back home in 
the northern part of Wisconsin and what they have done to the 
Oklahoma tribes, and I can just go on and on.
    But I think there can be some resolutions instead of coming 
back every year like Rib said over there. He talks about, you 
know, I remember him when I was sitting here, he talked about 
that school again, knowing that money just goes so far. We know 
that. I think we are quality people today, educated, and we 
know the system today.
    And all we ask is maybe another opportunity that this 
committee can take a look at setting us as Indians off to one 
side because you all have the fiduciary responsibility to me as 
a tribal president of my nation of what that treaty rights, you 
know, the bearing that we have on each other. Maybe we need to 
take a look at all those fundings, instead of putting us into 
the melting pot of America today, there is more people that 
come in every year than Indians across this country. We need to 
maybe put those type of dollars off to one side so we can have 
new schools, we can have better prosperity for our natural 
resources, and we can have healthcare and all these, you know, 
type of things that we are trying back home.
    I think, you know, Martin Luther said he had a dream. We 
have visions. We want to be free. We want to make sure that we 
can make our own decisions, where tribal presidents can put 
their own initials down for certification, may be whatever 
level. We are starting to get that qualification back home.
    In education we are just playing catch up today. You know, 
our young people are still having tough times, you know, 
understanding what we call the Tamuccachoma Inn, where that 
white language or those white process and what our kids have to 
go through. We still have somewhat of the old boarding schools 
back home, and I think, you know, and we have the quality of 
what we want as Indian people, and you can help us. You can put 
that money aside. You can work on these things and make it a 
lot easier and safer and more wealth for our people, because 
sometimes we are bitter poor. We are happy people.
    But I hope that this year's subcommittee can take a look at 
all the things that are owed to Indian people, and I say it in 
a good way. You owe us all that. You people that sit there as 
our leaders. You owe us that.
    I am going to turn it over to the Natural Resource Program 
for Larry to expound on in a minute.
    [The statement of Tom Maulson follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Simpson. Would you state your name for the record?
    Mr. Wawronowicz. Larry Wawronowicz. I am the Natural 
Resources Director for the Lac du Flambeau Band of Lake 
Superior Chippewa Indians. I do not know how much more I could 
say that the chairman could say so eloquently, but the clean 
air, water, and land is very, very important to Lac du Flambeau 
tribal members in order to be able to exercise their treaty 
rights on and off the reservation.
    And our testimony that is being presented today in written 
and oral form really, you know, concentrates on funding for 
environmental programs like EPA Program GAP, $28 million 
increase. We really strongly support and hopefully that you do 
to see that we could get that money into the EPA GAP Programs 
that increases our environmental capabilities.
    Great Lakes Restoration Initiative is very, very important 
to the tribes along with the Circle of Flight. In order to be 
able to document some of the things that we are able to do with 
Circle of Flight and the Great Lakes Restoration Initiative 
dollars, we put together a brochure for all the tribes in the 
Great Lakes region in Minnesota, Michigan, and Wisconsin.
    So basically we are asking you to take a look at that. You 
are appropriating the money. We are putting it to good use in a 
good way and in a quick way. We are able to take the money from 
the EPA, put it through the Bureau of Indian Affairs, through a 
638 contract, and get it at the Indian Country to work and make 
a difference really fast.
    The other things that are important here are conservation 
law enforcement, our tribal management development program, 
there is a pretty good increase in the Bureau budget for Lac du 
Flambeau. I think it comes down to $60,000, but in Indian 
Country $60,000 goes a long way. It is going to take our tribal 
management development program from $181,000 annual budget to 
$241,000. So that is pretty good.
    But when you consider it in terms of how much healthcare 
costs, for example, it is costing us $23,000 per individual 
that has a family life insurance policy on the reservation. So 
$61,000 will pay for approximately three health insurance 
policies. So it is a little bit that goes a long way.
    Conservation law enforcement. Last year the Bureau of 
Indian Affairs went ahead and put conservation law in for $1 
million. Congress did not support it. This year they went in 
there and put conservation law enforcement in there again for 
half a million dollars, and we hope that, you know, can go some 
place. We could use it for training for our conservation law, 
but, you know, $500,000 for 556 federally-recognized tribes is 
not going to go too far. It is costing us about $100,000 per 
law enforcement officer to, you know, be certified, be kept 
certified, be trained to make sure that they are a public 
servant and protect the safety of our community.
    Tribal education, so important to us. I mean, here I am 
speaking on behalf of the Lac du Flambeau Band of Lake Superior 
Chippewa Indians. I am Polish decent. I am not Ojibwe. We need 
students to be able to take this job and tell their story in 
their way and their language. So, you know, when I see, you 
know, possible cuts in Pell Grants or higher education, it gets 
a little difficult for us to try to recruit people into our 
natural resource program in order for them to be able to 
protect those resources for present and future generations and 
to be able to supply the opportunity for future tribal members 
to hunt, fish, and gather in the Ceded Territories of 
Wisconsin.
    I am over, but I really just want to say that we support, 
you know, we really appreciate your support in the past. Your 
continued support is very, very important in order for us to be 
able to have clean air, water, and land.
    Mr. Simpson. Thank you. Jim.
                              ----------                              

                                           Tuesday, March 27, 2012.

            GREAT LAKES INDIAN FISH AND WILDLIFE COMMISSION


                                WITNESS

JIM ZORN
    Mr. Zorn. We can make up time. Do not worry.
    Jim Zorn, Executive Administrator, Great Lakes Indian Fish 
and Wildlife Commission, and on behalf of our 11 tribal 
nations, the 38,000 members, their families, and their 
communities, our program affects about 60,000 square miles of 
treaty ceded territory in Wisconsin, Michigan, and Minnesota, 
and we have been at it for about 30 years now, and that is what 
the book is about, Mr. Simpson. Our 25th anniversary we put 
together a treaty symposium that really creates the historical 
record of what these rights are to the tribes, what these 
rights mean to their communities, as well as the benefits that 
come not only to tribal communities but surrounding 
communities.
    So I know the committee is deeply understanding of those, 
so I will cut to the chase. GLIFWC here today would like to 
address the rights protection line item in the BIA budget. Mr. 
Cole said before that this committee, subcommittee has provided 
leadership to the Administration. In fiscal year 2010 you did 
that, fiscal year 2011 you did that in rights protection, and 
finally the Administration heard and in the fiscal year 2013 
proposal we have more money going to rights protection and 
supporting the tribes' treaty commissions. It is a great thing. 
We support that, and I know the tribes in the Great Lakes 
Region support the notion that 34 percent of that line item 
certainly should come to the Great Lakes Region. It is a good 
way to spend the money, and we helped document those results in 
that book and elsewhere as Larry pointed out.
    And even with that, with all the funding we can leverage 
and with our base budget, for example, this year about 5.6 
million we got, I was able to leverage about 2.4 million other 
funding sources to bring us up to about 8 million, including 
DOJ COPS and other funding that one would not think so. So that 
base is so important we can really do a lot with it.
    And even with all that we are still only at 75 percent of 
need in terms of funding. So we still have unmet needs, but, 
you know, we are very happy.
    So thank you for what you have done.
    Secondly, contract support. Two simple words. Thank you 
very, very, very much. I cannot tell you what that has meant to 
GLIFWC. We can put more program dollars out there because we 
had no contract support shortfall last year, and we had a 
little bit extra to apply to some of our direct contract 
support costs, so I could even get more benefit and keep an 
extra conservation officer on that I could not have otherwise 
done.
    So thank you for your leadership on that.
    Finally, EPA Great Lakes Restoration. We support the 
Administration's proposal of $300 million. We would suggest, as 
President Maulson said, some sort of tribal set aside. We 
suggest, you know, $25 million, some amount that the tribes 
could get. GLIFWC need is about $1.2 million, and we strongly 
support whether it is through interagency agreement or it is 
through some other mechanism using the Indian Self-
Determination Act as a funding mechanism, whether it is self-
determination or self-governance because it gets money out the 
door faster in a way the tribes know how to use it.
    And the results, I think speak for themselves. You know, we 
have our member tribes, and now they are harvesting 25 percent 
of the wild rice from restored rice beds. We have fish 
consumption advisories. We are preventing invasive species 
spread and introduction.
    So the context we have here I think in these treaty 
commissions is good government, accountable, transparent, 
efficient programs, on-the-ground results, and in that I just 
want to bring out one thing. This is a picture of one of our 
conservation officers, full garb, on an Iowa National Guard 
Black Hawk helicopter. Nine of our officers were involved in a 
multiple-agency effort that discovered and eradicated and 
arrested six individuals, including five Mexican nationals, 
illegal in this country, about 10,000 pot plants in Chequamegon 
National Forest. This is where our tribal members hunt, fish, 
and gather. This where my staff goes out and works and the 
staff of the DNR and the Forest Service go out and work.
    We help protect that area, so why are we involved as 
conservation officers? I need to know out there. Our staff 
picks up people going through the woods on our trail cams that 
we put out there for the fur bears that we are monitoring. We 
see people in masks, with camo faces, and so our presence there 
helps the general public. It is just one example.
    So with that fiscal year 2010 restoration this is exactly 
the type of things we can put on the ground that gets out there 
and gets things done.
    The partnership, state, federal, international level, bi-
national with Canada, the Great Lakes Water Quality Agreement 
that hopefully will be modified this year to provide not only 
good protection and restoration but get tribes to the table 
more often.
    And so with Great Lakes Restoration I want to point out it 
is called the GLRI, but do not forget protection. Tribes need 
to be proactive to protect those areas that are still pristine 
that have not caught on fire. What do we have to do? Wait 
around for the river to catch on fire before we get involved to 
prevent that? So, please, I know the committee is very 
concerned about not putting people out there. You want dirt 
shovels turned, but in Indian Country the protection is the 
project that they need. So if we could work through that, we 
would greatly appreciate it.
    With that thank you very much. We really appreciate the 
opportunity to be here.
    [The statement of Jim Zorn follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Simpson. Thank you. Ms. McCollum.
    Ms. McCollum. Mr. Chair, Mr. Whitebird, could I have the 
photographs that you have underneath your speech?
    Mr. Whitebird. I think we got some for you.

                           SCHOOL CONDITIONS

    Ms. McCollum. Mr. Chair, you are from a northern climate. 
Imagine a pole barn. We go in Minnesota from over 100 degrees 
in the summer with heat and humidity to well below freezing, 
well below.
    Mr. Simpson. But I do not live in Minnesota.
    Ms. McCollum. I know, but this is the high school we 
welcome our youth into, a pole barn. The reason why it has 
problems with rodents and that is not because they do not have 
excellent staff and people. They are working night and day to 
eliminate it, but it is a pole barn. It is a pole barn, and you 
cannot fix a pole barn. When the Secretary was here, he was 
talking about delaying the construction and doing a moratorium 
to conduct the inventory. The inventory on this school is done. 
It is done, and it is just beyond belief. You know how 
passionate I am about schools in other areas, and although this 
is not in my district, it is in my home state. I have to look 
these children in the eye in my community and say, you are 
worth a pole barn? You are worth a pole barn that cannot be 
repaired anymore.
    So, Ribs, thank you for being here, and I know that you 
speak passionately about this because you care about children 
and having safe schools all over this country.
    Mr. Chairman, with this one, enough is enough.

                               ASIAN CARP

    I would like to turn now to Lake Superior for a little bit. 
The chairman has been talking about how we need to have a 
holistic approach about invasive species. The asian carp is 
coming, and we need a better approach than the one that is 
currently out there in Minnesota to shut one of the locks and 
dams. That is not going to do it.
    You talked about the cooperation that we have. Could you 
elaborate a little more about how you work with state DNRs, 
U.S. Fish and Wildlife, and how we are getting a big bang for 
our buck out of here? Circle of Flight is a model program and 
it was my honor when you came to me and asked me to help work 
with others to keep the funding in place. Could you talk a 
little bit more about what you are doing with that funding?
    Mr. Maulson. Look at this. These are that many Indians 
right here today. We have got all these tribes walking on the 
Capitol Building, talking to their legislators, and the reason 
why I get so really, you know, not upset, we had 1-year 
colleagues come and make a speech to us, and the gentleman was 
a 30-year, how do you want to call him, he is a surgeon and 
become a politician, and these same group of Native People I 
asked a question about drug abuse on our reservations, these 
here OxyContins that are being sold. And he knew nothing, and 
that is scary to me as a leader to you all. You know, this is 
what I have got to, you know, he said just come and see me and 
educate me.
    Well, we are trying to figure out how to do that, so we got 
organizations, Indian Health Board that we are going to put 
together something where we can educate you all. I mean, I do 
not have to educate you people. You guys, we have been here, 
done this, you know. Otherwise you would not be here.
    But the scary part is these other people that have to raise 
their hands to the destiny of Indian people, that is why I 
asked that we take a look at, you know, set asides for Indian 
Country completely out of the melting pot of America today, 
because, you know, we are paying off the backs of Indians for a 
multitude of other ethnic groups almost 12 million illegal 
Spanish people here from Mexico and all these other people that 
are coming in, and you forgot about Indians. I do not say you 
forgot here, otherwise we would not be here again.
    But as a tribal leader I sort of when I come here I sort of 
feel like I am begging for something that is owed to us, that 
is obligated by, you know, this organization to us because we 
are doing the work for you. Our great organization of the Great 
Lakes Fish and Wildlife Commission and other collaborating 
people that we are working with, especially state people, and 
they are starting to recognize us as you asked that question, 
that DNR is working very closely with the Great Lakes Fish and 
Wildlife Commission and also with the tribes in Wisconsin to 
make sure that we have a better protection.
    You see the officers sitting in the helicopter. My son is a 
chief game warden. He is getting the best education for every 
one of those because they are out there by themselves 
sometimes. They are out there with people with automatic 
weapons, you know, trying to take down the drug lords and 
everybody else, something that keeps coming to Indian Country, 
selling us all this here type of stuff.
    That is why I think we come here and ask your help. You 
know, far greater, and I do not know how you guys do what you 
are doing. I commend you for it to try to give us the best you 
have, Mr. Chairman, and it just, sometimes we look at it, it is 
not enough. I do not know why.
    So, I guess, you know, if you could ever put a budget 
together and say, hey, this is for Indians, and we are not 
going to put them in with all the other ethnic groups in 
America today because, you know, they have a special interest 
here, which we do. Obama gives me 15 minutes. I tried to ask 
for more but the staff would not let me. But it is good 
dialogue, and I think, you know, that is where, and I 
appreciate you asking the questions, giving that respect to us 
as tribal leaders because we do have a lot of problems back 
home with sexual abuse, we have got, we just got through 
getting more law enforcement. We cannot even indict the people 
that we catch with drugs in our courts because you heard one of 
the judges say, he said or she said, and they just sort of let 
them go.
    It is really tough, and I, too, would encourage you guys, 
come and take a look at what we got. We did it because we 
pulled ourselves up by the bootstraps. We used our money 
wisely, the little bit of dollars that we got here. We used it 
wisely. We built an organization that is, you know, the top of 
the line. People are looking at the Great Lakes Fish and 
Wildlife Commission. We have got a brand new building. We are 
trying to do the things America wants, and we are doing it 
basically a lot ourselves with what I call ingenuity.
    So if we could get more help, Mr. Simpson, we would 
definitely appreciate it, because you guys do one heck of a job 
with the little bit that you got to do with, you know. The 
dollars that you get. Hopefully, maybe the war will get over 
with and maybe the monies will come back home and start to 
build our communities again.
    Mr. Zorn. Do you want a couple particular examples just 
after the record? Okay. For example, Great Lakes Restoration 
Initiative, Fish and Wildlife Service, kicked over $500,000 to 
the BIA to get out to tribes for the state and interstate 
aquatic invasive species plans.
    We are involved on the Asian carp everywhere from up the 
Mississippi to what Chicago is doing down at the Chicago River 
and what they are talking about doing there. So we really take 
a comprehensive view, and this is where the GRA money is so 
important because you have to be so many places at once. The 
staff and I had this conversation about this initiative 
proliferation. I wish we could clone ourselves. You can only be 
so many places at once, and what we are hearing from the 
cities, from the states, and others is the value of the tribal 
perspective at these tables, it brings a vision, it brings a 
clout, it brings some responsibility, it brings some help.
    And so those are a couple of examples that we have that if 
you want more, we can document some of this stuff. But it does 
work, and people are trying to piece together what funding they 
have to get the best amount for the dollars that we have.
    Mr. Wawronowicz. Mr. Chairman, can I respond?
    Mr. Simpson. Sure.
    Mr. Wawronowicz. Circle Flight dollars. We are able to 
utilize, we have this, what we call the Paul Marsh in the 
northern part of the State of Wisconsin. Part of it on the 
reservation, part of it is off the reservation. We were able to 
utilize, you know, some of the Circle of Flight dollars to help 
supply water control structures and other infrastructure 
development on the state side of the Paul Marsh through a 
cooperative agreement, and also they were able to provide some 
dollars through Ducks Unlimited.
    So there was, you know, tribal, state, Federal Government, 
U.S. Fish and Wildlife Service was involved, as well as private 
sector. So it, you know, gave us a lot of leverage by utilizing 
the Circle of Flight dollars to make some big improvements 
within the Paul Marsh area of northern Wisconsin.
    Mr. Mitchell. Mr. Chairman, if you do not mind, in 
understanding, you know, the proximity that the tribes that are 
representing this region are really looking at and what is very 
concerning to us is to understand that we have the 
responsibility to ensure that 20 percent of the world's fresh 
water supply that is available to all peoples is protected and 
reserved, and I will share a story real quickly, because I 
understand we are running late, that was shared to me by Frank 
Ettawageshik, who was a tribal chairperson of the Little 
Traverse Band of Odawa Indians.
    And he was flying over Lake Michigan one day, and he looked 
down from way up in the sky, and he saw a little tiny ship, and 
he realized, well, that was one of those iron freighters that 
was going across the lake, probably down to Gary, Indiana, or 
some place to drop its load off, and he realized that, you 
know, that ship is probably over 1,000 feet long, and if you 
took that ship, and you picked it up by one end, and you stuck 
it into Lake Michigan, at its deepest place you would still 
have a significant portion of that boat sticking out of the 
water.
    To understand that, when you look at the Great Lakes and 
understand how important they are, but they are really just a 
sheen of water. They are not this inexhaustible resource that 
everybody touts them out to be, and if we are going to 
understand what it means to our communities as the Lac du 
Flambeau community as well as the human community, I think 
having that tribal voice at that table and understanding the 
significance to all peoples and how important those waters are 
to protect and to ensure their survivability and sustainability 
into the next seven generations.
    Mr. Simpson. Thank you. I appreciate you all being here 
today. I can tell you, President Maulson, that we do not look 
at it as you all coming here and begging for something. What we 
view this as is the opportunity for us to learn about what the 
needs are in Indian Country and listen to you all and what your 
priorities are as we try to put together a budget with limited 
resources and try to address those high priority items for the 
tribes.
    And I will be the first to admit it would be nice if we had 
some more money, and I suspect that school was not built last 
year after your testimony because you are back testifying 
again, and I suspect you will be back every year until we get 
it built.
    Mr. Whitebird. Whenever I am called upon, I will be back.
    Mr. Simpson. I appreciate it, Ribs, but thank you all for 
coming here because it is important to us, and you have brought 
up a new issue that frankly I did not know was an issue, but it 
is something that we need to look at in terms of treatment of 
tribes that were what, post 1997, and----
    Mr. King. We are just looking for a fair share. I mean, we 
see it as a macro-economic situation where, you know, we are 
supportive of the tribes, you know, that have gathered here 
today, you know, for the bigger part of the budget, you know, 
such as, you know, Johnson-O'Malley, you know, when we had our 
first consultation with the National Office of the BIA, they 
said, you know, the Johnson-O'Malley Act, it probably will not 
be funded by the time you guys are eligible and get your stuff 
going.
    On a micro-economic side we are just looking, you know, it 
is $160,000 to run our government, you know, to pay the 
payroll, the fringe, the start-up costs, and that is what we 
are looking for on the micro-economic, you know, side of it.
    Mr. Simpson. Yeah. I appreciate it. Thank you all.
    Next, our final panel today is Colley Billie. Is that 
right? Kitcki Carroll. Is that even close? Kitcki.
    Mr. Carroll. Kitcki.
    Mr. Simpson. Kitcki. Okay. Kitcki Carroll, and Bill Harris.
    Chairman Billie, you are first.
                              ----------                              

                                           Tuesday, March 27, 2012.

                 MICCOSUKEE TRIBE OF INDIANS OF FLORIDA


                                WITNESS

COLLEY BILLIE
    Mr. Billie. Thank you, Mr. Simpson. My name is Colley 
Billie. I am the Chairman of the Miccosukee Tribe of Indians of 
Florida. Thank you for providing me the opportunity to testify 
today.
    The Everglades have been the home of Miccosukee people for 
hundreds of years, and our commitment to its restoration is 
unwavering. We have the most at stake because protecting our 
home and our traditional way of life depends on this.
    My testimony focuses on the following two priorities. One 
is stopping the massive environmental skyway bridging of the 
Tamiami Trail adjacent to tribal lands, and number two, 
ensuring that EPA, the Department of Interior, and of course, 
prioritize improving water quality in the Everglades.
    To give you an idea of the Everglades, I brought here today 
a satellite map. If you look over to my left, I want to show 
you where our tribal lands are. All this area is our tribal 
land, and also the Everglades National Park is south of our 
tribal lands. They are in this area way down to here, all the 
way down into Florida Bay.
    Tamiami Trail goes through our reservation on the south 
side, and that takes you from Miami all the way up to Naples, 
from the east coast to west coast, and the national park and 
the Corps are constructing one mile of bridging on the Tamiami 
Trail and where they propose another 5.5 miles of bridging, and 
that is in this area.
    This is a close-up map of the bridging itself over here. 
This is the Tamiami Trail, a closer view of this section.
    Miami and Broward are in this area, Palm Beach is up there. 
So all on the west coast. You have got Miami, Broward, Palm 
Beach, and the Keys are way down in this area.
    Sugar, orange, and cattle farms are located to the north of 
us. They are up on the north side. If you look at the top, you 
are going to see a part of Lake Okeechobee. These are farming 
areas, generate high levels of phosphates and other pollutants. 
I am sorry. Here are areas designated to be storm water 
treatment areas to treat the polluted waters from these farms 
and urban areas by which it seems the Federal Government and 
the State of Florida have abandoned after investing over $200 
million. That would be these areas in pink.
    Lake Okeechobee, where water from the historic River of 
Grass started before man reengineered it, and that would be at 
the very top.
    Over 100 years ago the water flowed from Lake Okeechobee to 
Florida Bay. It would flow from north all the way down in the 
south and come out in the Florida Bay in this area. Florida Bay 
is the fishing capital for sports fishing.
    Also, we have here various canals and levies developed in 
the Everglades over the past 100 years by the Corps. Some of 
these canals dump highly-polluted water directly onto our 
reservation. These canals that I am talking about are here. You 
got two canals here, you got Miami River over here, you got L-
28, L-29, and I believe this is L-67 over here. No. This is L-
28. This is the L-28 interceptor, and this is the other L-28. 
This is the L-29. If you look over to my right, this is a 
close-up picture of this interceptor that dumps polluted water 
right into the middle of our reservation. That would be this 
picture right here.
    As you can see, there is nothing to catch all this water 
being dumped into our reservation. It just flows directly into 
the reservation, and if you look closely at the picture such as 
this one, you should be seeing sour grass. Instead what you see 
is cattails. Cattail growth is an indication that there is a 
lot of phosphors in the water. It should not be like this.
    In here is one of our tree islands, which you can see from 
an aerial picture right there, the surrounding area should be 
surrounded by sour grass, but because sour grass cannot grow in 
such a polluted water, it has given way to cattails, and this 
is the tree island which we took, Assistant Secretary, Mr. 
Larry EchoHawk, to one of our tree islands before.
    As you can see, we live in the heart of the Everglades. 
This committee has appropriated more than $1.3 billion on 
Department of Interior Everglades Project over the past decade. 
Full Everglades restoration is projected to cost at least $13.5 
billion. Given these tight fiscal times, taxpayer dollars 
should be used wisely and effectively. We see a disjoined 
approach on projects by federal agencies resulting in decisions 
that harm the Miccosukee people.
    One of the projects is the bridging. If you look over to my 
left, you are going to see the bridging picture here, and that 
will be this one in the corner. These are the pilings. It is 
under construction, and on this side of the canal you see a 
levy that runs on the north side.
    The tribe strongly opposes this. One mile of this bridging 
currently under construction was funded in the National Park 
Service portion of the fiscal year 2009, Omnibus. The cost of 
this one-mile bridge is at least $81 million. Another 5.5 miles 
have been authorized but not funded in the National Park 
portion of the fiscal year 2012, Omnibus.
    It was also contained in the fiscal year 2012, House 
Interior Appropriations Bill. The estimated cost of this 
additional bridging is at least $310 million. These skyway 
bridges are destroying our traditional ways of life and tribal 
sensitive and archaeological resources. They also are 
negatively impacting the water levels on our lands. These 
bridges are a waste of taxpayer dollars. National Park Services 
claims that this bridging is needed to improve water flow into 
Everglades National Park.
    However, if the park used existing water delivery 
structures like the flood gates, clean out clogged, existing 
culverts under the trail as well areas and install additional 
culverts, the park could achieve equally-effective water flow 
at a fraction of the cost of bridging.
    One of the pictures in here show a culvert that is existing 
on the Tamiami Trail, and that picture is right here. This is 
an existing culvert that should be cleaned out and the swell 
could be built, and it would allow water to flow. Right now it 
is clogged up. That is why water does not flow under that 
culvert.
    Culverts are found throughout the Everglades. Studies have 
shown that culverts work. If culverts work everywhere else in 
the Everglades, it makes no sense to get rid of the culverts on 
a 10.7 stretch of the Tamiami Trail and instead construct a 
$310 million skyway environmental bridge.
    There are no plans to remove the massive levy that runs 
parallel to the Tamiami Trail where the bridge is. Again, I 
pointed out where the picture shows the levy, which is right 
here. This is the bridge. You have got a levy here that would 
have water flowing under the proposed bridge that is being 
constructed.
    The tribe's second priority is the need to improve water 
quality. Science shows that ten parts per billion is needed to 
protect the Everglades. On Miccosukee lands the canals and pump 
stations dump water onto our land that is oftentimes 100 parts 
per billion of phosphates. Our land is being used as a defecto 
storm water treatment area.
    Improving water quality to meet the appropriate limits was 
a focus in House Interior Appropriations Bill from fiscal year 
2001, through fiscal year 2008, including developing storm 
water treatment areas. There are no immediate actions planned 
to improve water quality in the Everglades, even if bridging is 
constructed. Everglades National Park does not want dirty water 
to flow into it.
    We strongly support language in the fiscal year 2004, 
committee report stating, ``The committee believes that future 
federal funding for Everglades restoration should be tied to 
specific progress to improve water quality.''
    The President's fiscal year 2013, budget requests $8 
million for road improvement on the trail and does not request 
funding for further bridging. Our hope is that there will be no 
funding for further bridging of the trail in the fiscal year 
2013, Interior Appropriations Bill and future bills.
    It is difficult to tell if the fiscal year 2013, budget 
requests funding to improve water quality, which we would 
strongly support.
    In closing, we respectfully request that the committee 
consider the tribe's perspective as it develops its provision 
relating to the Everglades, and also, I wanted to invite Mr. 
Simpson and Ms. McCollum to our reservation out there in South 
Florida, out to the Miccosukee Reservation, which you see to my 
left. It is always part of our tradition to invite our friends 
and those people that we work closely with.
    So in conclusion, I would like to leave that door open and 
say I hope you can one day come down and visit with us.
    Mr. Simpson. Thank you.
    Mr. Billie. Thank you.
    [The statement of Colley Billie follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Simpson. I appreciate it very much.
    Kitcki.
    Mr. Carroll. Kitcki. You are doing fine. You are doing 
fine.
                              ----------                              

                                           Tuesday, March 27, 2012.

                 UNITED SOUTH AND EASTERN TRIBES, INC.


                                WITNESS

KITCKI CARROLL
    Mr. Carroll. Chairman Simpson, Representative McCollum, my 
name is Kitcki Carroll. I am the grandson, seven generations 
removed, from the great Cheyenne Peace Chief Black Kettle. I 
currently serve as the Executive Director for United South and 
Eastern Tribes, otherwise known as USET, and I thank you for 
this opportunity to testify on the President's fiscal year 2013 
budget and budget priorities of USET.
    As you know from the earliest days of the United States, 
the founders recognized the importance of America's 
relationship with the sovereign native nations and native 
peoples of this land, incorporating important references to 
those relationships into the Constitution.
    Notwithstanding this recognition over the years federal 
actions have resulted in loss of vast and rich native 
territories, resources, and culture. Out of those injustices 
and from other legal sources, there has arisen a federal trust 
obligation to support native governments and native peoples.
    That trust obligation as reflect in the Indian programs in 
the federal budget is fundamentally different from ordinary 
discretionary spending. In fact, we feel strongly that any 
funding should not even be considered in the process that 
allows for discretion. The trust obligation is sacred and must 
be honored in such a manner. In the budget deliberations that 
difference should make a difference.
    From fiscal year 2002 through fiscal year 2008, despite 
annual increases, after taking into account the affect of 
inflation, most federal domestic programs, including Indian 
programs, saw a purchase power decrease for approximately 14 
percent. Recent gains have not offset this loss.
    I have included a chart in my testimony that depicts the 
percentage of the federal budget dedicated to funding the BIA. 
As you can see as a percentage, the overall budget, the BIA 
budget has declined from .115 percent in fiscal year 1995 to 
.075 percent in fiscal year 2011, approximately a one-third 
decline as a percentage of the overall budget.
    The President's fiscal year 2013 budget proposes an 
increase of 2.6 percent in the Indian Health Service budget, 
which is $116 million over the fiscal year 2012 enacted level. 
Although USET recognizes that in these difficult budgetary 
times any increase should be celebrated, I must note that the 
general rate of inflation in 2011 was over 3 percent. The 
medical rate of inflation was even higher.
    Meanwhile, the President has proposed a modest $4 million 
cut in the budget of the BIA, but in light of inflation this 
must be understood to be potentially a 3 percent cut in 
purchase power. Overall both agencies lose purchase power from 
fiscal year 2012, even if some individual programs receive 
funding in excess of the inflation rate.
    Of course, the Budget Control Act of 2011 provides for a 7 
to 10 percent across-the-board cut for nearly all domestic 
programs starting in January 2013. When you add the effects of 
sequestration to inflation, Indian programs, which have always 
been inadequately funded, could be effectively cut by as much 
as 11 to 14 percent. This would be devastating to native 
communities across the lands.
    Federal budget problems should not be addressed on the back 
of native peoples. Indian Country deserves much better. At a 
minimum, federal Indian programs should be held harmless from 
any reductions coming from sequestration or similar feature 
cuts just as other low-income programs are held harmless in the 
Budget Control Act of 2011.
    While USET believes that all Indian programs are vital to 
creating strong tribal governments and healthy tribal 
communities, the USET priority programs and the BIA are tribal 
priority allocations, TPA, tribal courts, scholarships, 
contract support costs, and cultural resources. USET also 
firmly believes that the IHS budget should be held harmless in 
terms of budget reductions, including across-the-board 
rescissions and sequestration. Healthcare is not something that 
can be reduced, delayed, or withheld without real damage to 
people.
    Congress and the public have rightfully supported 
maintaining healthcare funding for members of the military and 
veterans, and USET believes the same should be true of the 
Indian Healthcare System.
    I would like to note that there is no request for funding 
for built-in costs such as population growth, inflation, except 
for contract health services or pay increases in the fiscal 
year 2013 proposal. While substantial increases in contract 
support cost appropriations in prior fiscal years have reduced 
shortfalls significantly, underfunding of contract support 
costs continue to impose major hardships on tribal healthcare 
providers and patients around the nation, including USET's 
member tribes.
    There are several changes to federal law that would create 
jobs and promote Indian Country economic development. Foremost, 
USET would like to see passage of the Carcieri Fix, which the 
President includes once again in this budget. The Carcieri 
Decision has created a host of legal, practical, 
jurisdictional, and financial problems for Indian Country.
    In addition, there are many other actions that Congress 
could take, including repealing the essential government 
functions test, advancing Indian energy and leasing 
legislation, and establishing truly bold tribal tax rezones 
among others that would serve to create jobs and promote 
economic development in Indian Country. While the current 
economic environment calls for drastic funding cuts, it must 
equally call for systemic structural changes that foster and 
promote independence and self-sufficiency via greater economic 
opportunities in Indian Country.
    I recognize that in challenging times all Americans must be 
called upon to sacrifice for the common good. However, when it 
comes to sacrificing for the good of all Americans, the 
historic record demonstrates that nobody has sacrificed more 
than the Native Americans. Indian Country stands ready and 
eager to work in partnership on a government-to-government 
basis to further strengthen our communities and country.
    Thank you for this opportunity to provide our testimony on 
how the budget concerns of the United States rather than being 
addressed on the back of many tribes could be addressed by 
freeing Indian tribes to realize their maximum economic 
potential.
    Thank you.
    [The statement of Kitcki Carroll follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Simpson. Thank you. Mr. Harris.
                              ----------                              

                                           Tuesday, March 27, 2012.

                         CATAWBA INDIAN NATION


                               WITNESSES

BILL HARRIS
    Mr. Harris. Thank you. On behalf of the Catawba Indian 
Nation, a federally-recognized tribe located in South Carolina, 
I thank you for this opportunity to testify before the House 
Interior Appropriations Subcommittee. My name is William 
Harris. I am the newly elected Chief of the Catawba Indian 
Nation. Although I am newly elected, I am aware of the support 
that this subcommittee has offered my tribe in addressing 
budget and audit issues with the Bureau of Indian Affairs. Your 
support means a great deal to the Catawba people, and on behalf 
you have our heartfelt thank you.
    I am here today to urge this subcommittee and, indeed, the 
full House Appropriations Committee, to invest federal dollars 
in programs that support economic development for smaller 
tribes and programs that support economic development for 
smaller tribes that have limited resources like Catawba.
    Our Settlement Act specifically refers to the policy of the 
United States to promote tribal self-determination and economic 
self-sufficiency, and it is about fulfilling this promise of 
support for economic self-sufficiency that I appear before you 
today. The limitations in our Settlement Act significantly 
inhibit our ability to achieve economic self-sufficiency. As is 
the case with many Native American tribes, the Catawba Nation 
struggles with poverty and its related issues. In the 2000 
census, the Catawba Nation had a per capita income of just 
$11,096. The estimated current unemployment rate among the 
Catawba is more than double that of the State of South 
Carolina, which has very high unemployment itself. The tribe 
currently has no operating economic development ventures.
    In our case, the Catawba Indian Nation is one of a handful 
of federally-recognized tribes that does not enjoy the full 
range of sovereign powers possessed by most federally-
recognized Indian nations. Under the terms of our Settlement 
Act we possess second class tribal sovereignty. For example, 
state government has enormous civil and criminal jurisdiction 
on our lands, far in excess of commonly accorded to states over 
other tribes.
    Additionally, in the area of gaming, we are not authorized 
to establish gaming operations pursuant to the Indian Gaming 
Regulatory Act. Instead, we are limited to two bingo halls, 
neither of which has been in operation since the state adopted 
a lottery that ended up consuming most of the gaming dollars 
within in the State of South Carolina. We are allowed certain 
electronic play devices on our reservation, if the state 
authorizes them. Since the State of South Carolina authorizes 
casino cruise ships, we believe that we can have the similar 
games on our reservation. However, the state is opposing us and 
now, at great cost, we are seeking to vindicate our rights in 
the courts.
    Programs that have helped us in the past, funding for the 
Energy and Mineral Development Program for the Office of Indian 
Energy and Economic Development. The Catawba Nation has found 
this program to be extremely helpful. We have used it to fund a 
feasibility study for a one megawatt photovoltaic system, as 
well as to fund analysis, testing, and surveys related to 
energy efficiency and renewable energy for four administrative 
buildings on the reservation. These two projects have laid the 
ground work for more ambitious proposals by the tribe to 
develop an energy strategy plan that will establish a Catawba 
vision of energy production and consumption on the reservation. 
This plan will be integrated with the tribe's other efforts, 
like economic development, job creation, and reinforcement of 
cultural values.
    It is programs like this that enable smaller tribes, like 
Catawba, who have limited or no economic development, to take 
control of their futures and to have a hope that the next 
generation of Catawbas will have a more prosperous life than 
this generation. I urge the subcommittee to support this and 
similar programs of use to smaller, less-economically developed 
tribes.
    There are other areas where the tribe needs funding 
support. In addition to energy development, the Catawbas are 
looking to establish a convenience store that would allow 
tribal members quick access to groceries and supplies without 
the undue burden of traveling 15 miles roundtrip on country 
roads. The tribe also supports the extension of Dave Lyle 
Boulevard, which would provide a critical connection between 
York and Lancaster counties, creating an outer loop of I-45 
which is south of Charlotte, North Carolina. Approximately 1\1/
2\ miles of this road would cross the Catawba Indian Nation. 
The tribe is also maintaining a transportation program to get 
tribal members to work centers, and we have a summer program 
for tribal youth. Within this program we are training them in 
life and job skills.
    Finally, the Catawba Nation seeks to continue a job 
training and placement program to assist Indian people to 
acquire the job skills necessary for full-time, satisfactory 
employment. Within that framework, the program provides 
testing, vocational counseling, or guidance to assist program 
participants in making career choices relating personal assets 
to personal options and availability of the jobs in the labor 
market. This also includes vocational counseling and employment 
service on reservations and other home areas in communities 
near reservations, in and off the reservation area.
    Let me give you a brief history of the Catawbas. Since time 
immemorial the Catawbas have lived in the Piedmont generally 
and along and upon the Catawba River. In ancient times, the 
Catawba lived off the land and the river, hunting for game, 
fishing for shad and eel and other fresh water species, and 
farming corn, beans, and squash. The tradition of pottery 
making among the Catawba, unchanged since recorded history, 
links the lives of modern Catawba to our ancestors and 
symbolizes our connection to the earth and to the land and the 
river we love. No less today, the sovereignty of the nation, of 
the Catawba Indian Nation and our survival as a distinct people 
from the land is tied to our lands and the river. Like our 
pottery, the Catawba people have been created from the earth. 
We have been shaped and fired over time and have survived many 
hardships to provide a living testament to our ancestors and to 
this place we call home.
    The Catawba world was transformed by contact with European 
explorers and the colonists. The first of these encounters with 
the Europeans was Spanish, with Hernando de Soto in 1540. Our 
next experience was Juan Pardo in 1566. The Europeans brought 
guns, but they also brought disease, and small pox was one of 
the diseases they brought, and it continually with the contact 
of small pox, it decimated the tribe. It decimated all the 
tries in the south. In 1760, the Catawbas entered into a Treaty 
of Pine Hill with the British authorities, which established a 
15-square-mile reservation in South Carolina. Although the 
Catawbas honor that treaty, South Carolina white settlers did 
not. Catawba was continuously encroached upon and by 1826, only 
a small number of tribal members remained, and we were all only 
occupying one square mile.
    Notably, during the Revolutionary War the Catawba Indian 
Nation stood with the American colonists in their struggle for 
independence from the dictatorial mandates of King George III. 
Catawba scouts accompanied then General George Washington on 
many of his campaigns. Ever since, the Catawbas have answered 
the call of country, living up to their half of the tribe's 
government-to-government relationship with the United States, 
and we continue to do so today.
    Regrettably, in 1959, the Congress enacted the Catawba 
Tribe of South Carolina Division of Assets Act, which 
terminated the tribe's federal recognition and liquidated the 
tribe's 3,000 acre reservation.
    Along a long struggle, and only after the tribe threatened 
to invoke its treaty rights to 225 square miles of South 
Carolina, did Congress act in 1993, by passing the Catawba 
Indian Tribe of South Carolina Land Claims Settlement Act of 
1993, which restored the tribal trust relationship between the 
Catawba Nation and the United States. This law has had the 
effect of settling treaty-based Catawba land claims on highly-
favorable terms to the State of South Carolina.
    In conclusion, I would like thank you for this opportunity 
to talk about the needs of the Catawba Nation. Your support of 
our people and, indeed, for all the native people is greatly 
appreciated and truly in the best interest and tradition of the 
government-to-government relationships.
    I thank you.
    [The statement of Bill Harris follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Simpson. Thank you. Where are you located?
    Mr. Harris. In South Carolina.
    Mr. Simpson. I mean, where in South Carolina?
    Mr. Harris. If you were to----
    Mr. Simpson. If I was in Columbia, where would I be?
    Mr. Harris. If you were in Columbia, you would go 
northwest.
    Mr. Simpson. Northwest. Okay.
    Mr. Harris. You are approximately 66 miles northwest of 
Columbia, and you are 26 miles southwest of Charlotte, North 
Carolina.
    Mr. Simpson. Okay.
    Ms. McCollum.
    Ms. McCollum. Thank you, and I thank you for your 
testimony. It is very interesting. I learned that there is, to 
use your term, a second-class recognition of sovereignty. I do 
not know how you could have sovereignty second class, but I 
will learn some more.
    Mr. Harris. I would be more than happy to provide you with 
information.

              MICCOSUKEE TRIBE AND EVERGLADES RESTORATION

    Ms. McCollum. Mr. Chair, some of the challenges that we 
heard from the Miccosukee involve the Park Service, they 
involve the Army Corps of Engineers, and they involve us 
because we have a very direct fiduciary responsibility from 
this committee to work with Miccosukee for education and for 
health.
    I am concerned about this issue, and I had a conversation 
with the Park Service. I have not had a conversation with the 
Army Corps of Engineers, because there are two issues. There is 
the bridge issue. They are interconnected, sir, and I do 
realize that, but there is a bridge issue, and then there is 
also the flow of all the polluted water.
    Do you have that map, that big map? Could you point out for 
the chairman and I the canal that comes down that speeds water 
right into the reservation? You have got the bridge holding 
water back, but you also have the Army Corps canal.
    Mr. Billie. Yeah. That will be the L-28 intercepted canal. 
This is the one that dumps all the pollution into the 
reservation, and that is the picture she is pointing to.
    Ms. McCollum. That water is sped up and brought in really, 
really fast. It does not even have a chance to do any 
filtration before it comes into the reservation land. It goes 
right into the reservation.
    Mr. Billie. This canal cuts through the farming area and 
where sugarcane is raised as well and orange crops. So all the 
fertilizer and all the waste that cattle produces washes into 
the canal, and everything is carried into the Glades through 
that canal. It is dumped right into the middle of our 
reservation, and as you can see, we are located in the heart of 
the Everglades. So----
    Ms. McCollum. Thank you. The U.S. Fish and Wildlife, the 
State of Florida, and others are purchasing and trying to build 
up a buffer as it comes into the Everglades. They are working 
on it, but it is happening slowly.
    Mr. Chairman, we have the Everglades park where we 
definitely want to see improved water quality in the 
Everglades, and I know that is the goal of the Park Service. We 
also have a sovereign nation which is impacted. I do recognize 
that bridging is there, but I am focusing on the Army Corps and 
the canal right now, which puts this water down really fast.
    The Army Corps is in charge of building things and moving 
water fast, but it is impacting two issues which we have direct 
jurisdiction over. I do not know what the Army Corps' long-term 
plans for this canal are, or how old it is. However, I would be 
very curious as to what the Army Corps role should be. Maybe 
they should not be calling all the shots in what affects the 
Park Service and affects a tribal sovereignty here. We know 
that there is a lot of pollution going on. I do not want to get 
into the minute details of what is going on with Everglade 
restoration, but I think what the Miccosukee have asked us here 
is, as money is spent on this, we should consider how is the 
water healing itself. If this is about restoring the 
Everglades, before more money is appropriated we need to see 
what happens.
    And the last thing I would say, Mr. Chair, is no one is 
taking credit for the language that is in the Omnibus Bill. No 
one. That language, to use a term that I heard a very famous, 
very wise man say one time, got parachuted in. It is amazing, 
you know, how we love to take credit for something.
    Mr. Simpson. I do not think it was parachuted. I think it 
was in our bill, was it not?
    Ms. McCollum. I tried to figure out how it got put in, who 
offered it, and why it got offered. Maybe we can talk later. 
Maybe I have not been asking the right people the right 
questions, or maybe people have not wanted to give me the right 
answers. I am just very concerned that we need to have a big 
picture plan here. This should not be about pitting the Park 
Service against the tribe as water flows in the Everglades to 
be improved. From the conversations I have had they both, I 
believe, are on the same track to restoring the Everglades. 
Right now, however, especially with this canal coming down, the 
tribe's land is being used as a holding pond. You and I know 
that is why cattails grow, and we have the before and after 
pictures.
    So we will leave the bridge aside. Regarding this canal, I 
really think that the Army Corps should be telling the Park 
Service as well as the Department of Interior and the tribes 
what their plan is to slow the water down to treat it before it 
gets dumped into the Everglades and gets literally dumped into 
an Indian reservation.
    So that is my commentary. I am just laying it out there 
that I am interested in this.
    Mr. Simpson. I know.
    Ms. McCollum. But the pythons are there, so I do not know 
if I want----
    Mr. Simpson. I am not going until they kill all the 
pythons.
    Mr. Billie. We will make sure that the pythons will not get 
you.
    Ms. McCollum. Python free.
    Mr. Simpson. They can swallow us. I am scared of pythons. 
Anyway, I appreciate it.
    Ms. McCollum. And the Seminole are impacted by this, too, 
are they not? You represent all of USET. There is a little bit 
of the Seminole that are up at----
    Mr. Billie. The Seminoles are located north of us. Their 
reservation is right here.
    Ms. McCollum. So they are impacted by some of this as well?
    Mr. Billie. Right.
    Ms. McCollum. Okay.
    Mr. Simpson. I appreciate you all being here. I actually 
have to get to the Senate since we are an hour and a half 
behind in our presentation, but I appreciate you all being here 
with your testimony, and we will certainly take into 
consideration your views as we write the 2013 appropriation 
bill.
                                         Wednesday, March 28, 2012.

         TESTIMONY OF INTERESTED INDIVIDUALS AND ORGANIZATIONS

         PUBLIC WITNESSES--AMERICAN INDIANS AND ALASKA NATIVES

    Mr. Simpson. The hearing will come to order. Good morning 
and welcome to the third of three public witness hearings 
specifically for the American Indian and Alaska Native 
programs. Despite a somewhat abbreviated hearing schedule this 
year, I am proud that the subcommittee is able to hold hearings 
on these very important programs. They have been and will 
continue to be a funding priority for this subcommittee.
    The chair will call each panel of witnesses to the table 
one panel at a time. Each witness will be provided with five 
minutes to present their testimony. We will be using a timer to 
track the progress of each witness. When the button turns 
yellow, the witness will have one minute remaining to conclude 
his or her remarks. Members will be provided an opportunity to 
ask questions of our witnesses, but in the interest of time, 
the chair requests that we keep things moving in order to 
conclude our morning testimony at a reasonable hour.
    I am happy to yield to the gentleman from Washington if you 
have an opening statement.
    Mr. Dicks. Mr. Chairman, I just wanted to welcome all the 
witnesses from the Pacific Northwest and I appreciate the fact 
that, as chairman, that you continue to hold this hearing. Our 
committee has had such a bipartisan record in support of tribal 
programs for which I appreciate your leadership and Mr. Cole 
and others. So thank you.
    Mr. Simpson. Thank you.
    Mr. Cole, do you have anything?
    Mr. Cole. No.
    Mr. Simpson. Our first panel of witnesses is Fawn Sharp, 
David Bean, Joseph Pavel, Billy Frank, and Clifford Cultee. 
Come on up and have a seat.
    Mr. Cole. Fawn, can you keep these guys under control? It 
is a major assignment.
    Mr. Simpson. Thank you. Fawn, you are first. The floor is 
yours.
                              ----------                              

                                         Wednesday, March 28, 2012.

                         QUINAULT INDIAN NATION

                                WITNESS

FAWN SHARP
    Ms. Sharp. Thank you. On behalf of the Quinault Indian 
Nation, we truly thank the committee for this opportunity to 
provide testimony, and we would also like to extend words 
cannot even express the amount of gratitude we have for the 
commitment of Congressman Norm Dicks. Norm, you have been a 
stalwart champion for tribes, not only in the Northwest but 
throughout Indian Country. And for that, I will be truly 
grateful. And you always have a place to fish at Quinault.
    Mr. Dicks. Good, thank you.
    Ms. Sharp. So with that I want to speak first to the 
Quinault specific priorities and then I want to spend a little 
time talking about a comprehensive fiscal strategy that we like 
to recommend to the committee.
    First, the Quinault Indian Nation is requesting $8.714 
million for our Blueback Restoration project. This has been an 
undertaking that the Quinault Nation has worked on quite 
diligently for the last five years. Our prized blueback salmon 
declined to maybe a thousand a run a year. At historic levels, 
we had millions of blueback running through the Quinault River. 
This restoration effort is a cutting-edge, innovative way of 
engineering to restore some pretty sacred areas for our prized 
blueback historical spawning habitat. In the upper Quinault 
through widespread logging, rip-rapping of the banks, nearly 
two-and-a-half miles of precious spawning habitat was wiped out 
but we are now slowly recovering that effort and the Quinault 
Nation is leading that effort along with many state and local 
partners as well as federal agencies. So we would like to 
continue that project. We call it a legacy plan. It is a 40-
year plan that will take a number of years to fully restore 
that watershed.
    The second priority and request we have is for $4.64 
million for substance abuse and a comprehensive drug strategy. 
Last year, I mentioned that our drug strategy has expanded into 
national security issues. We have 30 miles of international 
border along the Pacific Ocean. We have had many of our tribal 
members who have a crabbing fleet off the coast. They have 
noticed small boats coming in and out of our waterway systems, 
Raft River. We have 2,000 miles of logging roads and 22 points 
of entry from the ocean to Highway 101, an interstate highway. 
We have had low-flying helicopters visible dropping things 
within our lanes and territories. We do understand that the 
Senate Committee on Homeland Security is reaching out to the 
GAO to look at the extent of international drug trafficking in 
Indian Country, and we believe that the Quinault Nation has 
been targeted as a haven for many of these drug activities.
    The third priority that we would like to mention is $2.21 
million for the McBride Road and an emergency evacuation route. 
There is only one entrance into our primary village of Taholah 
and one exit. We are located below sea level and right in the 
middle of a tsunami zone, so we have many of our residents that 
are at risk. We have had a number of studies in our area that 
lands are subject to liquefaction if there were ever a large 
seismic event. Our village could potentially just sink into the 
ground. There are examples of that happening in Alaska and 
other parts of the world where there have been large seismic 
activities and the ground is basically like a sandpit. And with 
a large shake, we could lose an entire village. So we have had 
that study complete and finished so we do need to really focus 
on some emergency evacuation options for our community.
    I would like to spend this last minute really focusing on 
what I talked about at the outset and that is we are advocating 
Congress to consider a comprehensive fiscal strategy to look at 
tribal treasuries. We know that with the sequestration, cuts 
are going to run deep; they are going to run widespread into 
Indian Country 2013. We fully expect major cuts. We expect 
those cuts to run even deeper in 2014, and we would like to 
point out that federal appropriations and grants are just one 
revenue stream into our national treasuries. For us to be 
successful, we need to look at a comprehensive tribal economy 
that includes insulating our borders from state and local 
taxation that looks at incentivizing private sector investment 
into Indian Country. We have utilized the Low-Income Housing 
Tax Credits to build houses. We have sold those tax credits to 
private investors not costing a dollar from the Federal 
Government but they have been able to defer tax revenue. We 
could increase our national budget by about 25 percent if we 
could sell the low Indian employment tax credit.
    So those are just some ideas that we believe that this 
Congress has a duty knowing that those cuts are going to be 
deep to assist us in looking at a comprehensive fiscal 
strategy. Until we do that, we are going to just be dealing 
with symptoms. We need to elevate these issues to look at a 
comprehensive fiscal strategy to make sure that we have the 
funding for basic needs.
    With that, on behalf of the Quinault Indian Nation, I thank 
you for your time.
    [The statement of Fawn Sharp follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Simpson. Thank you, Fawn. I appreciate it.
    Next is David Bean.
                              ----------                              

                                         Wednesday, March 28, 2012.

                             PUYALLUP TRIBE


                                WITNESS

DAVID BEAN
    Mr. Bean. Good morning, Mr. Chairman.
    Mr. Simpson. Good morning.
    Mr. Bean. Good morning, Mr. Chairman, members of the 
committee. We thank you for the opportunity to be here today to 
offer this testimony. My name is David Bean. I am a member of 
the Tribal Council for the Puyallup Tribe of Indians. I am here 
in place of my chairman, Herman Dillon, Sr., whose health has 
not allowed him to be here today.
    We appreciate the increased funding for the operation of 
Indian programs within the Bureau of Indian Affairs in Indian 
Health Services. However, years of inadequate funding and the 
effects of inflation have impacted the tribe's ability to fully 
exercise self-determination and self-governance. As 
negotiations proceed with fiscal year 2013 budget and 
appropriation, we urge you to continue efforts to ensure that 
there is adequate funding for Indian programs.
    The Puyallup Tribe's first priority is ensuring the safety 
and security of our community; thus we greatly appreciate the 
emphasis that the subcommittee has put on funding tribal law 
enforcement programs. This year, we specifically support $6.3 
million requested increase for operation of new detention 
facilities expected to be operational in 2013. The Puyallup 
Tribe has one of these facilities. While we are disappointed 
that the Puyallup facility is not listed on the BIA Budget 
Justification as one of these facilities that will be 
operational in 2013, we have met with BIA staff and they assure 
us that they are planning to fund the Puyallup detention 
facility. We have no reason to doubt this.
    Over the past few years, the Puyallup Tribe has been 
working closely with the BIA Office of Justice Services to 
identify the operating staffing costs associated with this 
facility. We ask the committee's support for language directing 
the BIA to provide funding to all of the facilities that will 
come on line in 2013 and report back to Congress the status of 
these efforts.
    The lifeblood for the Puyallup Tribe is our natural 
resources, including our fish, shellfish, and wildlife. I am a 
fisherman and I personally know how important these resources 
are to the culture and the economy of my people. Not only does 
the harvest of these resources provide the means for many 
people to support their families but equally as important is 
that this activity is the direct tie to our ancestors. For 
generations, my people have relied on these exact same 
resources to support their communities. Our ancestors believed 
that when they entered into our treaties more than 150 years 
ago that it was these resources that would sustain and ensure 
the survival of our people in the future.
    And they were right. Thus, proper management and protection 
of these resources is a priority for the Puyallup Tribe. In 
this regard we fully support the funding in the BIA budget for 
Northwest Fisheries Commission, the Timber, Fish, and Wildlife 
Program, Pacific Coastal Salmon Recovery Program, and the Fish 
Hatchery Maintenance and Operation Program.
    One area of concern is the need to support tribal efforts 
to enhance the treaty protected off-reservation wildlife 
management. The Puyallup Wildlife Management Program is the 
lead agency in management activities to benefit the South 
Rainier Elk Herd. The South Rainier Elk Herd is a primary stock 
of elk harvested by the Puyallup Tribe. The tribe has not only 
established more reliable methods for population monitoring but 
has also been proactive in initiating habitat enhancement 
projects, research, and land acquisition to ensure sustainable 
populations of elk for future generations. We would urge the 
Congress to consider increasing funding for off-reservation 
treaty hunting resources.
    Puyallup believes that improving the educational 
opportunities for our children is critical for our future. 
Thus, we are very disappointed in the BIE's proposal to cut 
funding for tribal and BIE schools. We operate pre-K through 12 
Chief Leschi Schools. Our student enrollment is 910 students, 
and this number increases annually. We believe that BIE's 
assertion that BIE tribal school enrollment is decreasing; 
moreover, even if our enrollment was decreasing, the cost of 
educating the children already enrolled in our school is 
increasing. Specifically, the salary costs, the transportation 
costs, and the related administrative costs are also 
increasing. So it is simply not feasible for the BIE to 
recommend any cut to the BIE school program.
    Finally, the inadequate funding of the Indian Health 
Service is the most substantial impediment to improving the 
health status of Indian people. The Puyallup Tribe has operated 
its healthcare program since 1976 through an Indian Self-
Determination Act contract. The Puyallup Tribe Health Authority 
operates a comprehensive Ambulatory Care Program providing 
health services to 9,000 in Pierce County, including 1,700 
members of the Puyallup Tribe.
    There are no Indian Health Service hospitals in the 
Portland area, so all specialty care and hospital care is paid 
from our contract healthcare allocation. This places a 
particular strain on the tribe's contract healthcare program, 
which the tribe subsidized with a $2.8 million contribution. 
Thus, we fully support the requested increase for contract 
healthcare, as well as other programs within IHS budget 
request.
    I remain open to any questions you may have.
    [The statement of David Bean follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Simpson. Thank you. I appreciate that very much.
    Next is Joseph Pavel.
                              ----------                              

                                         Wednesday, March 28, 2012.

                            SKOKOMISH TRIBE


                                WITNESS

JOSEPH PAVEL
    Mr. Pavel. I am Joseph Pavel with the Skokomish Tribe. 
Thank you, committee, for hearing our testimony this morning. I 
would like to especially recognize Congressman Dicks for his 
distinguished service to Washington State, the United States, 
the Tribes. We certainly appreciate that. I know that----
    Mr. Simpson. Can you talk him into running again?
    Mr. Pavel. You know, I would not feel right doing that. I 
respect his decision.
    Mr. Dicks. Thank you.
    Mr. Pavel. You know. I have been before this committee 
before. I think one of the items we stress is the law and order 
and judicial system needs in Indian Country, the Skokomish 
Tribe, a small tribe in western Washington, a Public Law 280 
tribe at one time, going through the steps to have retrocession 
from the Public Law 280. We struggle to find resources to 
establish and maintain a law enforcement and a judicial system. 
We initiated our program in '95 with I think a domestic 
violence grant and we hired two half-time people, one was an 
advocate and another guy to sort of patrol the neighborhoods on 
foot, eventually bought him a blue shirt, bought him a badge 
and bought him an old beat-up pickup. Since then, we have been 
able to, through various grants and funding sources, the 
program has fluctuated but we pretty much are able to maintain 
a staff of six for our area of patrol and that is bare minimum 
through creative staffing and scheduling to maintain 24/7 
services. We have two Fish and Wildlife officers that have to 
patrol a tremendous area, our entire seated area and all of the 
canal and the Olympic Mountains. And so these are, you know, 
vital needs, certainly law enforcement officers on the ground.
    But as much as that, you know, people that are in the 
judicial system, we utilize the services of an intertribal 
court system, Northwest Intertribal Court System in there, we 
support their requests. A few years ago we were able to get a 
one-time add-on through BIA identifying this need and we used 
that to hire a probation officer. You know, the backlog in our 
system, people get in the system, they need some help to just 
guide them through the steps. So that was a successful program 
to try to get rid of some of the backlog of cases in our 
courtroom. Many of these cases will derive from a single 
violation that is then compounded by failures to appear, et 
cetera, do not pay fines, and so on. A probation officer can 
monitor these folks and be on them and remind them and help 
them get through the system and get out of the system. So that 
was successful.
    The one-time BIA funding, we continued that position with 
our own, you know, with some input of our own tribal fundings. 
But we would like to continue to see that approach that we need 
to help people that are in the system, not just arrest them and 
throw them in jail but we would like to be able to get in and 
be successful negotiating the system and maybe learn something 
and get out of it and become, you know, an approved citizen and 
an asset and resource to our community.
    We have also entered into an agreement with the University 
of Washington to provide a public defender, help these people 
there. You know, we are not required to do this but these are 
some of the things we are doing, you know, because we recognize 
the need of our people not only to, you know, make the 
community feel safe to be able to track and apprehend and 
punish violators, but also when they are, you know, we know 
these are our people, our community and we know these 
violations are often just symptomatic of, you know, some of the 
larger and deeper issues. I think substance abuse is a huge 
issue. We would certainly support the programs for treatment 
and those sort of resources, those mental health counseling 
resources.
    Those are all, you know, I think law and order and health, 
education. You know, we do not have a tribal school. I think 
that is maybe something that gets missed, you know, where we do 
not have an actual Indian school but we still have Indian kids. 
They are still in the education system. We try to work closely 
with the local education system. We have a state school 
district on our reservation that is about 30 to 40 percent 
tribal members in there, and we work with them, have used the 
Pathway Program that just expired. A Pathway grant was very 
successful four-year program of being able to put mentor tutors 
in the schools to work with our children, after-school 
programs. So we do have an education program even though we do 
not have a tribal school. And I would just like to remind the 
committee that there are those needs for our Indian students 
who are not in an Indian school.
    [The statement of Joseph Pavel follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Simpson. Thank you, Joseph.
    Next is Billy Dean.
    Mr. Frank. Frank.
    Mr. Simpson. Frank Dean. Did I say----
    Mr. Frank. Billy Frank.
    Mr. Simpson. Billy Frank--Billy Dean, yeah.
    Mr. Dicks. He is the dean.
    Mr. Simpson. That is what I was thinking.
    It is good to see you again, Billy.
                              ----------                              

                                         Wednesday, March 28, 2012.

                 NORTHWEST INDIAN FISHERIES COMMISSION


                               WITNESSES

BILLY FRANK
MICHAEL GRAYUM
ED JOHNSTONE
    Mr. Frank. Thank you, Chairman.
    I am Billy Frank, Chairman, Northwest Indian Fisheries 
Commission. I have been here plenty of times. And, you know, I 
would like to just recognize our Congressman Norm Dicks. You 
know, we have worked together for the last 40 years and the 
State of Washington, all of our tribes including tribes, the 
whole Nation are going to miss Congressman Norm Dicks. And we 
wish him well. You know, we are behind his decision to get out 
and have a happy time here, you know. He has been down this 
road. He has been our guy that has led us, the leader that has 
led us through the environment and putting initiatives together 
and continuing them going, you know, and so we thank him. And 
we thank you, Chairman, for allowing me to say that.
    It is a privilege for me to be among our tribal leaders 
here throughout the day here. And, you know, their strong 
support gives our organization focus and direction and helps 
make us successful in protecting and enhancing our treaty 
rights to meet the many natural resource management 
responsibilities required of the tribes. We are here today to 
communicate our fiscal year 2013 funding requests for the 
Bureau of Indian Affairs and the Environmental Protection 
Agency. We make these requests at a time when our treaties and 
reserved rights are in grave risk. They are at risk because of 
diminishing salmon populations which threatens to eliminate our 
right to harvest. All of this is due to our inability to 
restore salmon habitat faster than it is being destroyed.
    The tribe ceded millions of acres of land to the United 
States through treaties in which they reserved the right to 
fish, hunt, and gather in their traditional areas. These treaty 
rights are constitutionally protected and are the supreme law 
of the land. Our treaty rights guarantee the right to harvest 
fish, not just the right to fish. Now, I have with me my 
executive director Michael Grayum, Northwest Indian Fisheries 
Commission; and then I have our treasurer Ed Johnstone. And so 
I would like to have Michael just take a minute and walk you 
through the budget.
    Michael.
    Mr. Simpson. Just go around and introduce yourself for the 
record.
    Mr. Grayum. Michael Grayum, Executive Director of the 
Northwest Indian Fisheries Commission. Thank you, Mr. Chairman. 
Thank you, Congressman Dicks, for everything you have done.
    I will just quickly highlight our requests. The Commission 
and its member tribes' primary interest is in the BIA's Rights 
Protection Implementation Account. That is the account that 
funds our base Fisheries Management programs. And we greatly 
appreciate the fact that the President's budget contains an 
increase of 3.669 million over the fiscal year 2012 enacted 
amount, and we appreciate that it brought the accounts of 
interest to us up to near the levels that Congress provided in 
fiscal year 2010, this committee in particular provided.
    We do, however, note that the increase was distributed 
differently in the various accounts than it was when Congress 
provided the increase in 2010 and we have not been provided an 
explanation of why that is so we are uncertain about that. It 
is important that we maintain these overall funding levels and 
provide additional funding to address the increased management 
needs and responsibilities that the tribes are required to 
assume to protect the treaty rights that Mr. Frank just spoke 
to.
    So specifically for Western Washington Fisheries 
Management--that is the base funding for our tribes--we are 
requesting an additional 8.486 million over the President's 
request consistent with the requests that we have been making 
for at least five years to meet the true needs that the tribes 
have. We support what is in the Washington Timber, Fish, and 
Wildlife Program, what is in the President's budget. We request 
a small increase in the U.S.-Canada Salmon Treaty 
Implementation line of 436,000 over the President's request to 
meet the requirements of implementing that international 
treaty. And in the Salmon Marking Account, we are requesting an 
additional 1.332 million to meet the needs of marking the ever-
increasing hatchery production of the tribes and to meet the 
needs of assessing the impacts of marked fish in the fisheries.
    The other account in the BIA is the Fish Hatchery 
Maintenance Account in Fish, Wildlife, and Parks. That is very 
important to our tribes and we would like to have that 
increased back to the level that it was in fiscal year 2010 I 
believe it was, which would be an additional 614,000 over the 
President's budget. That account is paying for the huge backlog 
of maintenance projects for our hatcheries, which is primarily 
supporting the fishery treaty right now.
    And then contract support, we support what the President 
has in the budget. And EPA, the Indian General Assistance 
Program is very important to us. We support what is in the 
President's budget. That is providing the capacity for the 
tribes to engage with EPA in their environmental programs.
    We are, however, disappointed that the President did not 
include the Multimedia Tribal Implementation Grants Program. It 
has been in the last two budgets but not funded and it was not 
included in this year's budget. We see this as a hugely 
important opportunity to move from capacity building to 
implementation, actually doing the projects that we have 
identified need to be done. And so that is one that we would 
request funding be provided.
    And then lastly, Puget Sound restoration, that is very 
important to us and we request that that be increased to the 
levels that were funded in fiscal year 2010 at $50 million.
    Mr. Dicks. 2010 was a very good year.
    Mr. Grayum. Yes, it was. Thank you, Congressmen.
    Mr. Simpson. We are going to have to have a lot more 
revenue for that.
    Mr. Frank. Could I have Ed Johnstone, our treasurer----
    Mr. Simpson. For just a minute.
    Mr. Frank. Yeah, just a minute.
    Mr. Simpson. And identify yourself for the record.
    Mr. Johnstone. Good morning, Mr. Chairman. My name is Ed 
Johnstone for all Indian Nation policy representative for 
Fisheries and treasurer of the Northwest Indian Fisheries 
Commission.
    I want to follow up just a little bit about where Billy was 
talking about our treaty rights at risk. And the relevancy to 
the treaty rights at risk when he is talking about the habitat, 
our treaty rights at risk also because of the court decisions 
and the mandates into the court decisions--for instance, U.S. 
v. Washington, when Judge Boldt, you know, instructed us that 
the things we needed to do to be self-regulating for instance 
and to be co-managers of the resources, he put out some 
criteria that you had to have enforcement of your own tribal 
members, your own officers. You had to have scientists 
available or on staff. You had to show that you could manage 
your fisheries, and we were able to be funded at that time 
through Senator Magnuson. And through the work of Billy and 
others, we got what is called Western Washington Bold Account, 
your baseline account.
    But subsequently, there are other decisions like the 
Rafitti decision where there were no instructions and there was 
no opportunity to get that account plussed up, and we can 
distribute it if it is proper to show you in a bar graph. The 
impacts of the other duties and responsibilities and subsequent 
decisions where the tribes are at the table and are co-managers 
and the funding has not followed that upward line or upward 
trend. In fact, it has been decreased at several points over 
time.
    And so we were talking about getting back to the 2010 
level. We are talking about our treaty rights, our requirements 
under those decisions are just as great as everyone else that 
comes before you in trying to demonstrate their need. And this 
is a graph that demonstrates how far outpaced our duties and 
responsibilities to us are versus the amounts of money that we, 
you know, get appropriated through these different funding 
streams. And so when we see an account gets plussed up, we 
wonder how maybe, for instance, another region gets more 
consideration than we do. And I think our decision predates 
some of those other decisions.
    So we are just concerned about where we are going with some 
of these accounts but again very appreciative of being able to 
work with Congress and the committee as we look at these vital 
areas of our survivability out in the Pacific Northwest.
    [The statement of Billy Frank follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Simpson. Thank you. Thanks, Billy. I appreciate it.
    Next, we have Clifford Cultee.
                              ----------                              

                                         Wednesday, March 28, 2012.

                     LUMMI INDIAN BUSINESS COUNCIL


                                WITNESS

CLIFFORD CULTEE
    Mr. Cultee. Good morning.
    Mr. Simpson. Good morning.
    Mr. Cultee. Thank you, Mr. Chairman and distinguished 
committee members, for the opportunity to share with you the 
appropriation priorities of the Lummi Nation for the fiscal 
year 2013 budgets of the Bureau of Indian Affairs and the 
Indian Health Service.
    The Lummi Nation is located on the northern coast of 
Washington State and is the third largest tribe in Washington 
State serving a population of over 5,200. The Lummi Nation is a 
fishing nation. We have drawn our physical and spiritual 
sustenance from the marine tidelands and the waters for 
hundreds of thousands of years. Now, the abundance of wild 
salmon is gone. The remaining salmon stocks do not support 
commercial fisheries. Our fishers are trying to survive from 
the shellfish products. In 1999, we had 700 licensed fishers 
who supported nearly 3,000 tribal members. Today, we have about 
523 remaining. This means that over 200 small businesses in our 
community have gone bankrupt in the past 15 years. This is the 
inescapable reality the Lummi Nation fishers face without 
salmon. We can no longer survive in the traditional ways of our 
ancestors.
    Lummi's specific requests, BIA, $2 million, Phase 1, new 
water supply system--increase in funding for hatchery 
construction, operation, and maintenance. Funding will be 
directed to increase hatchery production to make up for the 
shortfall of wild salmon; $300,000 funding for the Conservation 
Law Enforcement Officer Program to ensure that the Lummi Nation 
need for natural resource enforcement officers will be funded.
    Committee Directive Requests, Bureau of Reclamation--the 
Lummi Nation requests that the Committee directs the Bureau of 
Reclamation to fund Lummi Nation work to develop comprehensive 
water resources conservation and utilization plans that 
accommodates the water needs of its residents, its extensive 
fisheries resources.
    BIA Natural Resources Branch--to work with the Lummi Nation 
to ensure that its needs related are available for harvest are 
compensated through the increased hatchery construction, 
operations and maintenance funding.
    DOI Office of Indian Energy, Economic, and Workforce 
Development to work with the Lummi Nation in support of its 
comprehensive Fisherman's Cove Harbor and Working Water Front 
Project which addresses Indian Energy, Economic and Workforce 
Development needs of the Lummi Nation membership.
    Implement ACA and IHCIA--asking the Department and the U.S. 
Indian Health Services to fully and completely implement the 
Indian Specific provision of the Affordable Care Act and the 
newly reauthorized Indian Health Care Improvement Act. Wellness 
is the number one priority of the Lummi Business Council in 
2012 and '13. Lummi Nation requests that the committee support 
the SAMHSA Proposed Tribal Block Grant to combat drug epidemic 
among the Lummi Nation membership.
    Head Start for Tribal Development--the Lummi Nation 
requests the committee direct BIE and DHHS, Children's Bureau, 
support the construction of a new Lummi Nation Head Start/
daycare facility with technical and financial assistance.
    Serve Indian veterans--direct the Indian Health Services to 
immediately develop and provide formal consultation between 
Indian Health Services, U.S. Veterans' Affairs and tribes on 
the formal Memorandum of Understanding for the provision of VA 
medical services to tribal veterans and their families.
    BIA, $2 million, Phase 1, water supply increase in funding 
for hatchery, construction, operation, and maintenance. Funding 
will be directed to increase hatchery production to make up for 
the shortfall of wild salmon.
    And with that, I would like to conclude and thank all of 
the committee members for their work.
    [The statement of Clifford Cultee follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Simpson. Thank you. I appreciate you being here today, 
appreciate all of you being here today.
    Let me ask Joseph. You mentioned that you are attempting 
rescission from being a Public Law 280 tribe?
    Mr. Pavel. Yes.
    Mr. Simpson. What exactly does that include? I mean how do 
you----
    Mr. Pavel. Well, we have said in Washington I think it has 
been a new thing. The State has adopted a new procedure, but 
when we did it, you have to get the concurrence from the State 
and involve the process of the state legislature passing an act 
and approving, the governor to sign a retrocession----
    Mr. Simpson. Okay.
    Mr. Pavel [continuing]. To the tribes. So that and then so 
we passed that act. You know, and basically it was an 
amendment. Some other tribes had already done it so we just 
kind of went in and amended that particular act to include the 
Skokomish Tribe. Then you have to get the concurrence from the 
Department of Interior and they also have to have an opinion 
from Department of Justice that they would concur with that. 
And then I think part of that process is for Interior to 
evaluate whether you have the capacity and the ability to 
sustain the capacity to implement the necessary law enforcement 
and judicial programs to handle those duties.
    Mr. Simpson. Okay. I just wondered because some tribes in 
Idaho have tried to go through that same process and I did not 
know what was included. It is a typical government process.
    Mr. Pavel. Yeah. It is important to get the endorsement of 
the local county. Mason County is kind of a depressed area of 
the State and they were certainly very supportive of the tribe 
taking on these duties. They were looking at it as a way to get 
more law enforcement dollars into their area and also to reduce 
their area of coverage, so they were very supportive of us and 
that had a lot to do with our ability to do that. I know some 
counties are not like that.
    Mr. Simpson. Good. Of the Puget Sound restoration, the 
geographic program gets, what, 30 million in this budget? In 
last year's budget it was 50 million--how much of that goes to 
the tribes? Do they compete competitively for various programs 
or is some of it set aside for the tribes?
    Mr. Grayum. The EPA has allocated a certain amount of that 
to the tribes both for specific projects and for capacity for 
the tribes to be actively participating in the effort. So it is 
an EPA allocation.
    Mr. Simpson. Okay. Mr. Moran?
    Mr. Moran. Yeah, that is fine, but I would defer to Norm on 
this since they are his constituents. He has invested so much 
time to focus on these issues.
    Mr. Simpson. We agree with you on his retirement also by 
the way.
    Mr. Dicks. Oh, thank you. Well, I just want to thank the 
chairman and Mr. Moran for being so supportive and Mr. Cole and 
the whole committee has been very supportive on tribal 
programs. I think that says a lot. And I just want to say that 
I have enjoyed our working relationship with the tribes. Each 
one of the tribes--I am not as close to the Lummis but the 
other four are in my district and we have had extensive working 
relationships. And they have always been positive, always 
trying to protect the resource to help the people, the tribes.
    I was out at the Nisqually last weekend with Jean Takekawa 
and that whole area has been restored. We have restored the 
Skokomish area back into an estuary. I mean those two projects 
alone probably increased estuary in the State of Washington by 
about 30 percent because so much of it had been developed. And 
the Puyallup Indian Land Claim settlement, I am an 
appropriater, not an authorizer, but right here in this 
committee we appropriated $105 million back when $105 million 
was a substantial amount of money. And to see the growth of the 
tribes has been great. We have still a long ways to go but on 
the salmon issue, especially taking out the dams on the Elwha. 
I appreciate the committee's steadfast support for that. That 
will help us.
    But again, I have enjoyed our working relationship. Down on 
the Quinault many times, say hello to Guy for me, but I 
appreciate your being here today. And we've got one more year 
to go. We are going to do a good job.
    Thank you, Mr. Chairman.
    Mr. Simpson. Ms. McCollum.
    Ms. McCollum. Thank you, Mr. Chair.
    When people are testifying, I go to your websites so I can 
picture what you are talking about with restoration. And all of 
you have fabulous websites, so I really felt like I am 
landlocked in a way. I am around a lot of water but I am not on 
an ocean, so this was very helpful for me.
    Can I just ask a question? The Supreme Court is hearing the 
healthcare case right now. The Supreme Court is going to talk 
about severability, and as we know, the Indian Healthcare Act 
is part of the Affordable Care Act. Do you know if the tribes 
submitted to the court (as they are talking about severability 
if they strike down the rest of the law) to leave the Indian 
Healthcare Act stand as-is because it is a different section of 
law? And if I have caught you off guard, I apologize. Someone 
can get back to my office later.
    Mr. Bean. There was a brief filed by the National Congress 
of American Indians.
    Mr. Simpson. Is your mike on?
    Mr. Bean. I am not entirely familiar with it but I 
understand that the National Congress of American Indians had 
submitted a brief to the court.
    Ms. McCollum. That is good. And then my only other 
observation is that we are hearing a lot about law and order 
and the importance of enforcement. So I think we are hearing a 
common thread, Mr. Chairman. I do not think we heard quite as 
articulate an argument last year about the dollars. So I want 
to thank you all for being so crisp in your testimony on that.
    Mr. Simpson. Ms. Sharp?
    Ms. Sharp. I would like to maybe add to not only the law 
enforcement piece but just substance abuse prevention. We did 
some formulas at Quinault and we determined that the national 
average spent per capita on substance abuse prevention and 
education is roughly $1,600 per capita. Washington State is 
1,900 per capita and just for our tribe it was $414 per capita. 
And when you consider that state governments have a tax base, 
it further magnifies the need within Indian Country for 
precious dollars for substance abuse prevention. And so I 
really appreciate your making that observation and that point 
because we are off the charts and off the scale on substance 
abuse and all the associated problems, domestic violence and 
suicide, so it is very important to look at those factors.
    Thank you.
    Mr. Dicks. Violence against women, too, by people coming 
from outside the reservations is a serious problem.
    Mr. Simpson. Did you have something you want to say?
    Mr. Bean. Yeah, I just have a brief comment from the 
Puyallup Tribe if I may for Congressman Dicks from the Tribal 
Council from the children at our school at Chief Leschi, from 
our fishermen, from our elders, from our community, we raise 
our hands and say thank you. Thank you for being here. Thank 
you for all the work you have done for us.
    Mr. Simpson. Thank you all for being here. When Congressman 
Dicks decided to retire I said who the heck is going to take 
care of the Puget Sound now? And he looked at me and said you 
are the closest one. So I appreciate all of you being here 
today. Thank you for your testimony.
    Our next panel is W. Ron Allen, T.J. Greene, and Sneena 
Brooks.
    How are you doing today? And Ron, you are going to testify 
on two different subjects, on behalf of the Pacific Salmon 
Commission and also the tribe?
    Mr. Allen. Yes.
    Mr. Simpson. Okay.
                              ----------                              --
--------

                                         Wednesday, March 28, 2012.

                       JAMESTOWN S'KLALLAM TRIBE


                       PACIFIC SALMON COMMISSION


                                WITNESS

W. RON ALLEN
    Mr. Allen. Thank you, Mr. Chairman, and good morning. 
Again, I am Ron Allen, Chair for the Jamestown S'Klallam Tribe. 
We are located in western Washington. We are in Norm's district 
and we also equally raise our hands to Norm for your service, 
Norm.
    Mr. Dicks. Thank you.
    Mr. Allen. Thirty-eight years you have done a fabulous job 
for not just our state and our community but for the United 
States and your leadership will be missed I know by all.
    I am also very active with the BIA, the Tribal BIA Budget 
Advisory Committee. I represent the Northwest tribes and so I 
am active in that forum. I am also active on the IHS side in 
terms of the budget needs in IHS. Before I jump into some of 
the issues from my tribe first, you know, the question was 
raised about the review by the Supreme Court, one thing that I 
think that you guys need to know is that the Indian Healthcare 
Improvement Act, it took us eight years, eight years to get it 
reauthorized, which is very annoying for us in tribes and this 
is a treaty obligation.
    And what people do not realize is that even with the four-
plus billion dollars that is provided by IHS--and you have been 
doing a great job in terms of providing additional resources 
for it--what you do not realize is that probably 50 to 60 
percent of our citizens live outside what we call the service 
area that IHS provides. And so when we talk about those 
unserved or underserved people that it was trying to address, 
many of them are our people and we do not have the authority 
under the Indian Healthcare Improvement Act to serve those 
people. So that is an important issue I think that we need to 
raise.
    And then you talked about the retrocession issue. It is 
more than just the process of getting the retrocession done; it 
is about making sure it is collaborated with the BIA so that we 
are provided they be law enforcement programs and court systems 
in order to take over the jurisdiction that we have under our 
authority for the tribes in our area.
    So shifting back to my tribe, you have our testimony and we 
appreciate being able to submit it to you. We are very 
supportive of the request and recommendations that are being 
provided by many of our organizations in the Northwest, you 
know, the Northwest Fisheries Commission, the affiliated 
tribes, northwest Indians that Fawn is the president of and 
Columbia River Intertribal Fish Commission that collaborates 
with the northwest tribes, and NCAI, who do a great job of 
analyzing the budget and providing recommendations to you.
    My tribe is a small tribe. We have a very small land base 
and we have limited resources. But nevertheless, we have equal 
interest and one of our requests is for some financial 
assistance to buy a small piece of property that is a 
culturally relevant piece that we are trying to prevent from 
being developed because it has a very religious traditional 
purpose in it. So you see the $495,000, we have asked for that.
    The other simple request was we wanted to get additional 
resources in our fishery base budget because like all the 
tribes in the Northwest--well, on the west side of Washington 
State, we not only just manage the thin fish but we manage 
shellfish and we have limited resources to manage shellfish and 
it is a very complicated industry to manage but from clams to 
gooey duck to crab to shrimp, et cetera. And so we all are in 
need of additional resources to appropriately and effectively 
co-manage with the State on those kind of resources. And so 
that is what our request is from the Jamestown Tribe.
    I would note in here that in our testimony we identified 
recommendations from the different entities with regard to the 
BIA budget. We are very delighted that you have been holding 
BIA pretty much harmless at this point and IHS some slight 
increases. My testimony has a small error in it, actually 
probably significant for you. In contract support on the BIA 
side you are going to fund 100 percent, and we are very 
delighted that you are going to do that. On IHS side in my 
testimony it says 145. That was last year's request and so I 
did not catch that error before we actually submitted it to 
you. But I do know it is $100 million shortfall. And so that is 
a big issue for us. Again, it is a contractual obligation 
between the United States and Indian Tribes and contracts are 
contracts. So where we would honor it with any other entity--I 
do not care whether it is defense issues or educational 
institutions or whatever it is, we would honor those contracts. 
And we believe that that is important for the tribes to do a 
good job.
    So those are the points that I would raise with my tribe. 
Shifting to the second topic that I want to raise--it is 
related--I am a commissioner for the U.S.-Canada and Pacific 
Salmon Commission. I represent the 24 tribes, the Puget Sound 
Tribes and Columbia River Tribes up into Idaho including Nez 
Perce. And, you know, our job is to make sure that we manage 
the salmon well and make sure that we turn it to a sustainable 
level. We have to make sure we have salmon so that Norm has 
fish to catch when he is in retirement. And so I take this duty 
seriously.
    Mr. Dicks. I release all my fish.
    Mr. Simpson. The one that is on your wall did not get 
released.
    Mr. Dicks. That was in Alaska.
    Mr. Allen. Okay. Anyhow, Chairman, so it is a very 
important treaty that was consummated back in 1985. We 
renegotiated it three different times and there were never 
areas where we received the resources in order to manage the 
responsibilities from Alaska all the way to the upper reaches 
of Idaho.
    And everybody has a role. The States have their role and 
they get their resources through Commerce. And the State 
Department has a role because the resources for the 
international obligation is processed through them. The tribes' 
role in this process comes through the Department of the 
Interior and we have been funded about $4.1 million and I think 
the proposal is around 4.3 and we are asking for 4.8. I think 
what we want to emphasize with Congress is that when we engage 
with all of our counterparts both within the United States from 
Alaska to the three states and then with our Canadian 
counterparts, the tribal expertise is critical to that process. 
We are very, very active and we are among the leaders with 
regard to that technical responsibility. And we have to share 
that responsibility. So we do it with the tribes and we 
coordinate with the Northwest Indian Fish Commission and 
Columbia River Intertribal Fish Commission in order to 
accomplish this objective.
    That money that is in there is distributed among all of us 
in order to carry out our respective responsibilities and it is 
critically important and we just need the resources to be able 
to do the job. When you think about our intergovernmental 
relationship, we are a small fish in this great big pond and we 
have to fight for our rights and we do do that. But we have to 
have the capacity to do it. You have to have the resources and 
the talent. So if you were ever to walk into our forum and 
realize the technical responsibilities to manage that fishery, 
assure that we are carrying it out responsibly whether it is 
the Chinook, the Coho, the Saki, the Pinks, the Chum Fishery. 
It is a challenge and we kind of overload our staff in a big 
way. So we are trying to get additional resources to do a 
responsible job to make sure that we are harvesting it 
correctly while we deal with the other H's, meaning the hydro 
issues or the habitat issues and so forth.
    So that is my request. You will see it in here----
    Mr. Simpson. Harvest.
    Mr. Allen. Pardon me.
    Mr. Simpson. And yes, the harvest, too. It is a tough 
issue. It is a balancing act when you are dealing with ESA with 
regard to the fish you are trying to protect while being able 
to harvest what is harvestable. And that is true both in 
Canada, you know, where they have their own ESA legislation, as 
well as our own country. So it is complicated; it is tough, but 
we take it responsibly. And as Billy Frank always says, we are 
fish people. We are going to make sure that the fish are going 
to be here for our future generations.
    Thank you.
    [The statements of W. Ron Allen follow:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Simpson. Thank you. I appreciate it very much.
    T.J. Greene.
                              ----------                              

                                         Wednesday, March 28, 2012.

                          MAKAH TRIBAL COUNCIL


                                WITNESS

T.J. GREENE
    Mr. Greene. Greetings. It is good to be here among friends. 
Mr. Chairman, members of the subcommittee, I am T.J. Greene, 
Treasurer, the Makah Tribal Council. I am accompanied by 
Councilman Brian Seveck. We want to thank you for this 
opportunity to present testimony on the views of Makah Tribal 
Council on the fiscal year 2013 federal budget.
    This hearing is especially meaningful to us at the Makah 
Tribe because it is the last chance we will get to appear 
before Congressman Dicks. We have truly been blessed not only 
that Norm Dicks is our Congressman but also by his long-
standing friendship with our tribe. Congressman Dicks has 
visited our reservation many, many times since he was a young 
man. He has spent countless hours visiting with us, touring our 
reservation, and hearing our concerns, but he may have spent 
just as much time off our shores in what he recently called his 
favorite fishing spot. I do not know if he says that to 
everybody but he says it to us.
    Mr. Dicks. It is the most beautiful place to fish for 
salmon.
    Mr. Greene. Words cannot express our gratitude to you, 
Congressman, for all that you have done for us and all that you 
mean to us.
    I would like to testify today on three priority issues: 
one, federal assistance for cleaning up the Warmhouse Beach 
dump on our reservation; federal grant funding for replacing 
our commercial fishing dock; and lastly, our work in support of 
a sustainable federal ocean policy.
    The Makah Tribe is taking aggressive steps to address the 
serious environmental and health risks posed by the Warmhouse 
Beach Open Dump, a decades-old landfill located on the Makah 
Reservation that was used by the U.S. Department of Defense and 
other federal agencies to dispose of hazardous waste. The dump 
is leaching harmful chemicals into a nearby stream which flows 
into the pristine waters of the Strait of Juan de Fuca at 
Warmhouse Beach, a traditional shellfish location for the Makah 
people. This summer, we are taking the important step of 
opening our new solid waste transfer station in Neah Bay, which 
will enable us to close the dump. Now, the challenge before us 
is to clean it up so it will stop polluting our waters.
    The tribe has documented that the Makah Air Force Station, 
which supported radar operations at Bahokus Peak from World War 
II through 1988, disposed of many hazardous substances at the 
dump since its opening in the 1970s, including asbestos, 
batteries, pesticides, paints, and waste oil. For many years, 
other federal agencies with operations on the reservation also 
disposed of their waste at the dump. So the Federal Government 
bears substantial responsibility for cleaning it up and 
preventing further exposure of the reservation community to the 
environmental and health hazards it causes.
    The Makah Tribe has been trying for many years to secure 
federal assistance for cleaning up the dump, especially through 
negotiations with the Defense Department or possibly through 
the federal Superfund Program. We would appreciate the 
subcommittee's support in our efforts.
    The second issue, the Port of Neah Bay Commercial Fishing 
Dock is over 60 years old. The condition has now deteriorated 
so badly it has been closed to semi-truck traffic for seven 
years. Structural surveys of the dock indicate that the dock 
now needs to be completely replaced. This commercial fishing 
dock generates over 6 million in fish landings annually. It 
supports the traditional maritime culture of our tribe, about 
half of the working-age population of Neah Bay, and over 100 
minority-owned business enterprises. It also supports the 
ecosystem management and biological data collection efforts of 
the State of Washington, National Marine Fisheries Service, and 
tribes to ensure sustainable fisheries of over 20 groundfish 
species, salmon species, halibut, and shellfish.
    We have been working with many federal agencies, including 
the EDA, BIA, U.S. Department of Transportation, the Office of 
Indian Energy and Economic Development, and state agencies to 
find funding that can help us with this dock replacement 
project, thus far without success. We have grant requests 
pending through EDA and the TIGER IV program. We would 
appreciate the Federal Government's assistance in finalizing 
this important economic development initiative.
    The Makah Tribe works to be careful stewards of ocean 
resources. We are one of the hosts of the First Stewards 
Symposiums entitled ``Coastal People Address Climate Change'' 
this July at the National Museum of the American Indian, the 
first national symposium on the impacts of climate change on 
coastal indigenous peoples.
    We are proud that our tribal chairman, Micah McCarty, has 
been asked to serve on numerous advisory bodies on ocean 
fisheries issues, including the Governance Coordinating 
Committee that is working with National Ocean Council on 
national ocean policy.
    The Makah Tribe is unique in having a marine sanctuary, the 
Olympic Coast National Marine Sanctuary right of four shores 
and within our ``usual and accustomed'' fishing area. We are 
proud of our work on ensuring tribal consultation on federal 
maritime matters and helping to improve oil spill pollution 
prevention and response. Many vessels involved with the 
sanctuary, ocean and fisheries research, and oil spill 
prevention and response are stationed in Neah Bay. We are the 
only ocean harbor in the Pacific Northwest that is not closed 
in heavy storms because of hazardous bar conditions. In order 
to serve the growing number of these vessels, however, we need 
to improve our harbor, for example, by deepening our entrance 
channel. We would appreciate the subcommittee's support for our 
efforts to make Neah Bay Harbor a first-class home port for 
vessels helping to keep our ocean resources sustainable.
    We look forward to expanding our collaboration with federal 
and state governments and private sector to ensure maritime 
policies that will be sustainable well into the future.
    Thank you again, Mr. Chairman and members of the 
subcommittee, for this opportunity to testify before you today.
    Kuwhat is Norm's Makah name. It means killer whale. Salmon 
is important to the killer whale; it is important to Norm.
    [The statement of T.J. Greene follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. LaTourette [presiding]. Mr. Green, thank you very much 
for your testimony. And as you may have noticed, there has been 
a bloodless coup and I am going to chair this subcommittee for 
a little bit.
    I want to thank you very much for your testimony and thank 
you for informing us about Mr. Dicks' name. Some of us who have 
traveled with Mr. Dicks have had to fight off Greenpeace as 
they have attempted to roll him into the ocean from beaches 
across the world.
    Next, we are going to hear from Sneena Brooks, a member of 
the Colville Business Council. Welcome and we look forward to 
your testimony.
                              ----------                              --
--------

                                         Wednesday, March 28, 2012.

            CONFEDERATED TRIBES OF THE COLVILLE RESERVATION


                                WITNESS

SNEENA BROOKS
    Mr. Brooks. All right, thank you.
    I do not have a really cool name for Mr. Dicks but we do 
appreciate all the support you have given for the Colville 
Tribes.
    Thank you, subcommittee today. This is my first time 
testifying in front of this committee so I am really pretty 
nervous.
    Mr. LaTourette. You cannot screw up.
    Mr. Brooks. I cannot screw up. Well, I am following this 
guy right here, you know, so pretty well seasoned.
    Mr. Greene. Real pro.
    Mr. Brooks. Yeah. So thank you.
    Good morning to you. I am Sneena Brooks. I am the vice 
chair of the Colville Business Council and I am here today to 
talk about the President's fiscal year 2013 request.
    The Colville Tribe was pleased for the first time in many 
years the fiscal year 2013 request contains a significant 
increase, the $15.4 million as allocated to the BIA Trust 
Natural Resource Management Program. This increase will restore 
programs that were cut from previous budgets and provide tribal 
land managers with the needed assistance to ensure tribal trust 
resources are protected.
    One of the activities that is funded under this account for 
the Colville Tribes is the ability for us to patrol 161 
shoreline miles of Lake Roosevelt, the reservoir behind Grand 
Coulee Dam, the national recreational area which about 1.5 
million visitors attend annually. The National Park Service 
also conducts patrols, you know, on the lake there but the 
Colville Tribe is responsible for 35 percent of the lake and we 
are the most visible presence on the lake there today. So we 
are very pleased that the budget contains the total of $750,000 
for that increase and I hope the subcommittee supports that.
    The second thing that we would like to point out on the 
increase is the $1.5 million for the attorney fees and 
litigation support program. This is pretty valuable to the 
Colville Tribes. This program was cut in the 2012 budget but 
now that it might be back in there on this budget the Colville 
Tribes and other tribal programs use this to protect the trust 
resources.
    We have one of the largest lead-zinc-copper smelters in the 
world just about 10 minutes north on the Columbia River. For 
the last 100 years up into the '90s it is dumping a lot of slag 
into the river and polluting the river and not only the 
Colville Tribal Trust properties but also the Bureau of 
Reclamation properties, the National Park Service properties, 
and the U.S. Fish and Wildlife Service properties. And so this 
$1.5 million is not very much in the grand scheme of the Indian 
Affairs budgets but it is pretty vital to us because we are 
able to bring those guys back to the table and get them back 
into the work area to start cleaning up the mess that we are 
looking forward to them doing for us.
    The Colville Tribes is also very pleased to see the $11 
million increase in the law enforcement activities. There is a 
portion, though, $3.5 million that is increased for the 
Criminal Investigation and Police Services account. We would 
like to see that increase up to a $15 million mark. Currently, 
the Colville Tribe, you know, we have 1.4 million acres to 
reside over. Service time for our police officers within our 
reservation boundaries, you know, it is within about a two-hour 
time frame, the response to some of the activities that happen 
on the reservation, so we are very well aware, very 
understaffed for the tribal officers. And oftentimes we even 
have at least one tribal police officer operating the whole 1.4 
million acres. And so that is extremely difficult to deal with, 
you know, as far as, you know, we have an increase in gang 
violence, we have drug smuggling coming onto our reservation 
and a lot of different activities like that, you know, that we 
are not able to capture with the amount of staff that we have. 
So we would like that account increased from $3.5 million up to 
the $15 million mark. And actually, this is the first year 
where we may have to almost drop 20 of our tribal police 
officers because of BIA not being able to fund our police 
services. So I would appreciate if we could raise that amount 
to a $15 million mark to alleviate some of that stress from our 
police officers there.
    So I think that is my time but I just thank the 
subcommittee here and, like I said, I am nervous as hell and I 
thank you guys for listening to me. Thank you.
    [The statement of Sneena Brooks follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. LaTourette. Well, Mr. Brooks, you have nothing to be 
sorry for. You did a great job and we appreciate your insights 
and your testimony.
    Getting here late, I do not have a lot of questions but, 
Mr. Greene, you were talking about dredging and one of the 
problems that not only the Congress but the whole country faces 
is the inability to free up funds to dredge navigable 
waterways. And aside from your interest, you should be aware 
that there are folks who are working on releasing some of the 
funds from the Harbor Maintenance Trust Fund to hopefully go in 
and help not only your harbor but other harbors around the 
country. If we could ever get our act together here, hopefully, 
we could get that out of here.
    So Mr. Moran, questions?
    Mr. Moran. I will defer to Killer Whale here.
    Mr. LaTourette. Mr. Killer Whale.
    Mr. Dicks. Well, thank you. Thank you very much, Mr. 
Chairman. And I want to say that Mr. LaTourette has been a big 
supporter of the bipartisan approach on this committee in 
support of our tribes, and it is very much appreciated. And 
also, when I was chairman, he always voted for the bill. So he 
gets a big star.
    Mr. LaTourette. I just liked the bill.
    Mr. Dicks. Right. Yeah, but it was important. And I just 
want to add, Neah Bay is at the northwest corner of the lower 
48 States. You have got the Strait of Juan de Fuca on one side; 
you have got the Pacific Ocean on the other side. So you cannot 
get much better than that. And there is a little island as you 
go out called Waddah Island. When I was fishing there with my 
father in the '50s, in 1952. One day the limit was three kings 
and six silvers; we got nine kings. That was one of the great 
days of salmon fishing.
    Mr. Moran. But that was over the limit, though.
    Mr. Dicks. Well, but there were three of us. My brother--I 
want to make that perfectly clear.
    Mr. Moran. Oh, okay.
    Mr. Dicks. And in recent years, we would go 23 miles off 
the coast to a place called Blue Dot and caught big salmon, 
Billy, 35- to 40-pound king salmon. That was pretty 
spectacular. And there is a place called Skagway right around 
the corner where we used to fish a lot and it is just one of 
the most amazing places on Earth. And I have enjoyed our 
relationship and working with Ron Allen, of course, and the 
Colvilles have a special place in my heart because they took a 
gillnetter and converted it into a purse seiner so they could 
release wild fish.
    Selective fishing is important. I may offer an amendment 
this year that it is a national responsibility to catch 
hatchery fish so that they do not breed with wild fish in the 
river. And the Nisqually Tribe have just put in a weir; the 
Elwhas have a weir. We are moving in the right direction but it 
has taken leadership--and over on the east side it is not that 
easy to do. There are some differing views on these issues but 
we will leave that for another day, Mr. Chairman.
    But thank you for your testimony and thank you for your 
friendship over the years. And I will be up there this summer.
    Mr. Moran. I just tried to envision in the 1950s you 
bringing in a 40-pound fish. You could not have weighed much 
more than 40 pounds.
    Mr. Dicks. Well, I was about 12 years old and I was able to 
handle it.
    Mr. Moran. Wow.
    Mr. Dicks. The only problem was the first one my dad had a 
bad net and it went through the net and I started to cry. Then 
we caught all the rest. And there were three of us, Jim. Three 
times three is nine. Okay.
    Mr. Moran. It is beyond the statute of limitations anyway.
    Mr. Dicks. Yeah, well----
    Mr. LaTourette. Mr. Dicks, thank you very much for your 
kind words and also for your testimony. I assume everybody 
knows that Mr. Dicks announced that he is retiring, and it is 
going to be a great loss to not only the committee and the 
subcommittee but the United States Congress, but you can also 
tell that he is a retiring member because he has admitted to 
poaching on the record. He would not do that if he was facing 
reelection.
    I am going to recognize Ms. McCollum next, but on the Great 
Lakes we know that Neah Bay is an icebreaker that has gotten us 
out of a lot of trouble in the wintertime.
    Ms. McCollum.
    Ms. McCollum. Thank you, Mr. Chairman.
    As the oldest granddaughter, I understand limits and being 
in the boat as a youngster. Then when I started being able to 
actually figure out how to catch them myself we were not out 
for as long, which meant then we had to stop someplace to get 
me a Coke because part of the fishing was kind of a little 
escape from Grandma. But yeah, you count if you are in the 
boat. You count if you have a license.
    As I mentioned before, I was looking at the websites, and 
you have a children's page. Not that many tribes have 
children's pages. Congratulations. That is really very, very 
good.
    Mr. Greene. Thank you.
    Ms. McCollum. And the breaking news is your temperature. I 
will not tell you what it is; it is a little colder than it is 
here.
    I just wanted to ask a little bit more about what is going 
on with the Department of Defense helping you with cleaning up 
the dump site, and the toxins leaching into it. I have an old 
army arsenal in my congressional district, Arden Hills, and we 
had problems with water being contaminated and filters put in 
and all that. Could you tell me a little more about what is 
going on with the clean up at the Warmhouse Beach Open Dump? 
What a lovely name to call a dump, the Warmhouse Beach Open 
Dump.
    Mr. Greene. Well, it is a real beautiful location is one of 
the sad things. It is actually used as a landmark for fishing. 
And we would like to get rid of that landmark out there.
    Mr. Dicks. Called the Garbage Dump.
    Mr. Greene. The Garbage Dump, fisherman go there, there is 
halibut and link cod and different things off of that site and 
they use it as a landmark. But getting back to where we are at 
with the Department of Defense, you know, it has been a few 
months since we have had any actual dialogue with the 
Department of Defense. We have had some good dialogue. There 
have been some Department of Defense investigators came out, 
took depositions from people at the tribe, former Air Force 
personnel that married into the tribe and are living there. And 
so it is in kind of that fact-finding stage still, you know, 
just I guess ground truth everything that the tribe is 
claiming. So that is where we are at.
    And, you know, we are looking at doing a partnership with 
the Federal Government, you know. We are not here to demand 
that you take care of everything; we just want you to take care 
of what you are responsible for and, you know, certainly we 
will take care of what we are responsible for. So that is kind 
of where that is at right now. We are trying to do it in a 
cooperative manner and not adversarial.
    Ms. McCollum. Well, that is what my municipalities are 
doing with the Department of Defense with cleanup. They are 
making sure that the water stays contained where it is and that 
it does not get into drinking water and municipal wells and 
other things like that. So I will be interested to follow that 
along with you.
    Thank you, Mr. Chair.
    Mr. Greene. Okay.
    Mr. LaTourette. Thank you, Ms. McCollum. I want to thank 
all of you for your testimony and answering our questions. You 
go with our thanks and again, you did fine. Next year you will 
be a veteran and you will come back and just wow us with your 
polished testimony. So thank you very much.
    We will call up the next panel. On the next panel--and if 
you could again attempt to observe the 5-minute rule, the 
lights will be instructive in that regard--we will hear from 
Andy Joseph, who is the chairperson of the Northwest Portland 
Area Indian Health Board; Larry Blythe, who is Intertribal 
Timber Council member; Ron Suppah, the vice chairman of the 
Confederated Tribes of the Warm Springs Reservation of Oregon; 
Les Minthorn, who is the chairman of the Board of Trustees of 
the Confederated Tribes of the Umatilla Indian Reservations; 
and Gerald Lewis, who is the chairman of the Columbia River 
Intertribal Fish Commission.
    We will wait for the door to close. I think Mr. Dicks is 
out retelling some fish stories. Maybe the fish got to be 60 
pounds by the time he is done now.
    Again, we are in receipt of your written testimony. If you 
can confine your remarks to five minutes, we would appreciate 
that. If you cannot, we will certainly understand that as well. 
I want to welcome you. We look forward to your testimony. Mr. 
Joseph, you are first.
                              ----------                              

                                         Wednesday, March 28, 2012.

              NORTHWEST PORTLAND AREA INDIAN HEALTH BOARD


                                WITNESS

ANDY JOSEPH
    Mr. Joseph. Good morning. My name is Badger. I am Andy 
Joseph, Jr., Chair of the Health and Human Services Committee 
for the Confederate Tribes of Colville and also the Chair of 
the Northwest Portland Area Indian Health Board, 43 tribes of 
Washington, Idaho, and Oregon. And good morning, Chairman and 
Ranking Member Moran, members of the subcommittee.
    First, I will summarize our recommendations by underscoring 
the federal trust responsibility to provide healthcare to 
Indians and the significant health disparities that affect our 
people. My written testimony documents these health 
disparities. This fact, along with the trust responsibility, 
makes it a requirement that Congress provide an adequate level 
of funding for the IHS budget. The fundamental budget principle 
for the Northwest Tribes is that the basic healthcare program 
must be preserved by the President. Preserving the IHS-based 
program by funding the current level of health services should 
a fundamental budget principle of Congress. Otherwise, how can 
unmet needs ever be addressed if the existing program is not 
maintained?
    In fiscal year 2013, we estimated it will take at least 
$403 million to maintain current services, yet the President's 
request only $115.9 million increase for IHS. The IHS explains 
that the overall increase is adequate to sustain the Indian 
health system, expand access to care; however, we do not 
believe this will be the case. The Northwest Portland Area 
Indian Health Board estimates that an additional $287 million 
is needed to maintain the current levels of care. Our estimates 
are based on actual medical inflation rates from the Consumer 
Price Index and growth in the IHS user population.
    My written testimony explains our methodology with the 
following recommendations. One, the Northwest Portland Area 
Indian Health Board recommends that the subcommittee restore 
the $126 million in funding eliminated in the President's 
request for inflation, population growth, and a tribal pay 
cost. Our estimates are based on budget worksheets provided and 
used by the IHS during the fiscal year 2013 National Budget 
formulation meeting.
    Two, the Northwest Portland Area Indian Health Board 
recommends that at least an additional $10 million be provided 
for the contract health service program CHS, to cover the 
inflation and population growth.
    Three, we recommend that the subcommittee provide an 
additional $99.3 million to fund past years' contract support 
cost shortfalls that are owed to tribes under the P.L. 93-638.
    Four, the Portland Area has developed a new initiative 
approach to constructing health facilities in order to address 
the health needs of tribes. My written testimony provides a 
detailed explanation of this new initiative program, and we 
recommend that the subcommittee include $10 million for the 
Portland Area to develop a demonstration project to prove the 
viability of this program.
    I recognize that our recommendations may seem unreasonable 
in the current fiscal environment, but when the significant 
healthcare needs of Indian people are considered, our 
recommendations are realistic. I hope you will agree by 
supporting the IHS budget, and I am happy to respond to any 
questions from the subcommittee.
    Thank you.
    [The statement of Andy Joseph follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. LaTourette. Mr. Joseph, thank you very much for your 
testimony.
    Mr. Blythe, next we will hear from you.
                              ----------                              

                                         Wednesday, March 28, 2012.

                       INTERTRIBAL TIMBER COUNCIL


                                WITNESS

LARRY BLYTHE
    Mr. Blythe. Mr. Chairman, committee, good morning. It is 
good to be back here in Washington again, in front of the 
committee. I am Larry Blythe. I am currently President of the 
Intertribal Timber Council, and also I am the Vice Chief for 
the Eastern Band of Cherokees in North Carolina.
    The Intertribal Timber Council is a 36-year-old association 
of 60 forest-owning tribes and Alaska Native corporations that 
collectively manage more than 90 percent of the 18 million 
acres of timberland and woodland that are under BIA trust 
management. Mr. Chairman, as the first order of business the 
ITC would like to express our deep appreciation for the 
leadership provided by you and this subcommittee in 
understanding and protecting the BIA and Indian Health Service 
budgets.
    Even in the best of times Indian Country struggles with 
joblessness and economic deprivation many times that of the 
country as a whole. The BIA and IHS budgets are a core element 
of the Federal Government's solemn promise to our people and 
are vital to our welfare and progress. We thank you for your 
commitment toward honoring these historic and enduring 
obligations.
    I have submitted the Intertribal Timber Council's full 
testimony for the record and will focus today on just some core 
priorities.
    Number one, we ask that the committee consider providing 
BIA natural resource funding in amounts sufficient to assure 
the Federal Government's full compliance with its trust 
obligations to manage and protect tribal natural resources. Our 
forests and all natural resources are important to all tribes. 
Their protection and management is an integral part of the 
trust responsibility of the United States.
    Unfortunately, the failure of the United States to exercise 
its fiduciary responsibilities for management of the Indian 
estate for individuals as well as tribal governments has 
necessitated costly settlement of litigation. The Colville 
Tribe's $193 million trust management settlement is a recent 
example. Morally and legally, the United States must live up to 
its trust obligations to the Indian people. We ask that, as 
this Committee reviews the BIA's proposed fiscal year 2013 
budget for natural resources trust management, please bear 
clearly in mind the solemn obligations of the United States to 
ensure that trust responsibilities are met.
    Secondly, in the BIA operations of Indian program budget, 
restore the inequitable funding cuts proposed for 
administrative cost savings. The Intertribal Timber Council 
urges this committee to reject the $33 million in 
Administrative Cost Savings, ACS reduction in operation of 
Indian programs, and to restore those funds. The BIA devised 
the reduction allocation process on its own, without 
consultation, and the results are grossly inequitable. While 
BIA says it will consult with tribes on the ACS cuts, the BIA, 
by having already allocated the ACS cuts among BIA locations 
and programs, has made a sham of the promise of consultation. 
If the BIA is to pursue cost savings through streamlining, 
consolidation, or other efficiencies, any process for 
allocating those savings must be open, fair, and equitable, and 
consultation with the tribes before such an allocation occurs 
is essential to achieving those goals and obtaining broad 
tribal support.
    ITC urges you to reject the ACS cuts and restore the $33 
million, including the $1.9 million reduction proposed for 
forestry which would eliminate 9 BIA forestry positions and 
most likely be at regional or the agency locations.
    Thirdly, we ask that BIA TPA Forestry Program be increased 
by $5 million above the fiscal year 2012 recommendation. The 
program has been seriously underfunded for years. Independent 
studies by nationally-recognized forestry experts in 1993 and 
2003 documented BIA forestry per-acre management funding is 
less than half that of the National Forest System. These 
funding inadequacies in BIA trust forestry are now being made 
manifest in large tribal trust mismanagement law suits and 
settlements against the United States. The requested $5 million 
increase is also needed to maintain a wide range of tribal 
forest trust activities customarily supported by forest 
management deductions which have been severely eroded by years 
of depressed timber markets.
    Fourthly, stewardship contracting expires at the end of 
2013 cutting off an essential tool for tribes, local 
communities, and others to perform needed forest management 
activities on Forest Service and Bureau of Land Management 
land. For tribes in particular, stewardship contracts can be 
key in carrying out protective forest health activities on 
adjacent federal land under the Tribal Forest Protection Act, 
Public Law 108-278.
    Under fire management, the Intertribal Timber Council 
requests the restoration of the Department of Interior hazard 
fuel funding to $216 million. Efforts to reduce the risk of 
fire are critical to sustaining fire adapted tribal 
communities, adaptable ecosystems, cultural values, and 
economies that sustain tribes.
    The Intertribal Timber Council also requests the 
restoration of Department of Interior Burned Area 
Rehabilitation funds to $33.2 million.
    The Intertribal Timber Council also requests the suspension 
of the Department of Interior Hazard Fuels Prioritization and 
Allocation System until such time as it can be tested and 
proven reliable. Current runs of the model project drastic, 
unprecedented transfers of funding from BIA-sponsored tribes 
dependent on commercial forests to Bureau of Land Management 
shrub-grass ecosystems. The new model's removal of significant 
amounts of fuels funding away from tribes will greatly increase 
fire and health risks to tribal trust forests and pose 
significant and unjustified threats to tribal forest revenues, 
subsistence uses, and tribal employment. We do not believe this 
shift is warranted.
    Mr. Chairman and members of the subcommittee, that 
concludes my testimony. Thank you.
    [The statement of Larry Blythe follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. LaTourette. Thank you very much for your testimony.
    Mr. Suppah, we would like to hear from you now.
                              ----------                              

                                         Wednesday, March 28, 2012.

    THE CONFEDERATE TRIBES OF THE WARM SPRINGS RESERVATION OF OREGON


                                WITNESS

RON SUPPAH
    Mr. Suppah. Good morning, Chairman, other members of the 
committee. Our people are the Warm Springs, Wasco, and Paiute 
Tribes. I am Ron Suppah, Vice-Chairman of the Confederated 
Tribes of the Warm Springs Reservation of Oregon. Our over 
640,000-acre reservation in central Oregon ranges from the 
snow-capped Mt. Jefferson to the salmon-bearing Deschutes 
River, with forests, farmland, and high desert between.
    The vast majority of our tribal members live on the 
reservation, where we are suffering from almost 60 percent 
unemployment. Putting our people to work and providing basic 
social service, especially healthcare and education for our 
members, is extremely challenging at Warm Springs.
    Our federal appropriation priorities reflect the 
circumstances we face, and I deeply appreciate your invitation 
to speak before you today. My full testimony is submitted for 
the record. Today I want to focus on our priorities.
    Number one. Indian Health Service. In 1992, Congress 
authorized a joint venture agreement between the IHS and Warm 
Springs. The tribe financed construction of a new clinic, and 
the IHS agreed to fully fund and staff the facility. 
Unfortunately, the federal funding has been far short of its 
commitment. The Warm Springs support the proposed $4.4 million 
funded level for IHS. This increase is about half of what is 
needed to maintain existing services and prevent cannibalizing 
current services to pay for federal mandate increases.
    Of that amount the Warm Springs requests a $1.9 million 
increase in funding for IHS hospitals and clinics to provide 
full direct services for Warm Springs joint venture.
    Clean water is critical for human health. The Warm Springs 
community is facing a costly replacement of our water treatment 
system, an estimated $30 million. We request these funds from 
the Sanitation Facilities Construction Program.
    Tribal Forestry Management. The Warm Springs are concerned 
about a net cut to the BIA's forest management account. The 
tribe, pursuant to contract with the BIA, manages the forest 
land on the Warm Springs Reservation. Over the past decade 
several hundreds of thousands of forest lands have been 
destroyed, many of the fires coming from adjacent federal 
lands.
    The Confederated Tribes of Warm Springs aligns itself with 
the budget request given today by the Intertribal Timber 
Council. This includes three items.
    Number one. Restoration of the $1.9 million in inequitable 
ACS cuts in BIA TPA Forestry, number two, that the BIA TPA 
Forestry Program be increased by $5 million above fiscal year 
2012, and third, that the DOI Hazard Fuels Prioritization and 
Allocation System be suspended until such as it can be.
    Indian school construction. Currently Jefferson County 
operates a K through five school at Warm Springs, and older 
children must travel a significant distance to the Town of 
Madras to attend school. Both the Warm Springs and Jefferson 
County are submitting referendums to fund construction of an 
on-reservation K through eight school.
    As such, the Warm Springs oppose the proposed $52.8 million 
cut to the Bureau of Indian Education construction budget. Some 
funding for replacement school construction would be extremely 
beneficial to fulfill an intergovernmental agreement.
    Trust reform. The Bureau of Indian Affairs and Office of 
the Special Trustee have been confronted with trust 
mismanagement claims from individual Indian allottees and 
tribes for mismanaging both monetary assets and non-monetary or 
natural resources assets that span many decades. The Inter-
Tribal Monitoring Association has provided a very valuable 
central source of policy-level information and analysis, 
technical assistance, legal research, and help in facilitating 
interactions between tribes and federal officials to engender 
more trust effective relationship and solutions.
    Tribal fisheries management. Warm Springs is a founding 
member of the Columbia River Inter-Tribal Fish Commission, our 
policy and technical coordinating agency for treaty fisheries 
management for the Columbia River and International Fisheries. 
We support the testimony given today from CRITFC Chairman 
Gerald Lewis.
    That concludes my testimony, and again, I would like to 
thank you guys for the time.
    [The statement of Ron Suppah follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. LaTourette. Mr. Suppah, thank you very much for your 
testimony.
    Chairman Simpson has returned. He obviously thought I was 
not doing a good enough job, but I want to thank you all for 
your testimony, and we will turn the reins back over to 
Chairman Simpson.
    Mr. Simpson. I had to go ask the BOR about Indian water 
right settlements and what their budget is going to be.
    Mr. Minthorn.
    Mr. Minthorn. Yes, sir.
    Mr. Simpson. Okay.
                              ----------                              

                                         Wednesday, March 28, 2012.

         CONFEDERATE TRIBES OF THE UMATILLA INDIAN RESERVATIONS


                                WITNESS

LES MINTHORN
    Mr. Minthorn. For the record my name is Les Minthorn. I am 
the Chairman of the Umatilla Tribe in northeastern Oregon. My 
enrollment number is X162, and I am also a full-time U.S. Army 
Veteran, and I am here today to highlight, you know, the budget 
concerns that you have been listening to all morning. We have 
six items that we would like to highlight, and we are also, you 
know, for your information we are in the district of Greg 
Walden, Doc Hastings, and Cathy McMorris Rodgers. So when you 
go around the neighborhood in Washington, those are the 
representatives in our area.
    And so as we come here we have six items that we would like 
to talk about, and as you mentioned when you talked about water 
litigation, that is one of the things that we would like to 
highlight because of our treaty in 1855, and we do not have a 
water right unless we negotiate it, and so we are hoping that 
the BIA Water Rights Protection Budget is increased to a level 
that allows litigation and technical support to help us 
negotiate with the federal, state, and local stakeholders.
    So there is a lot of technical work involved with the 
basins that we certainly live in and depend upon. The Umatilla 
Basin Project, the Walla Walla area is also in our area, and we 
certainly support the Water Rights Protection Budget and the 
increase that is available. We are happy to support that for 
assisting our Oregon Congressional stakeholders to try to 
negotiate a reasonable settlement. You know, we have never got 
to the table all these years. We would like that technical 
support to help us get there.
    Under contract support, we support the increase for 
contract. Because we are a 638 tribe, we do compact with the 
Bureau of Indian Affairs programs, and we certainly expect 
contract support to be there as well as direct funding that 
comes with the appropriations for that particular agency.
    Under law enforcement activities, we have one item that we 
have never pushed before because of many reasons, but we would 
like to propose that the conservation, because the treaty 
activities on the Columbia River with our fishing rights and 
hunting in various parts of our area, conservation officers are 
very important for not only enforcing tribal members but non-
tribals. And so the jurisdiction issue on all reservations is 
very critical to sanity, as you well know in the Court systems.
    Under tribal courts, talking about sanity, you know, we 
need more revenue or support in that particular arena because 
in 2010, when the Tribal Law Enforcement Order Act impacted our 
tribal court that we have, and there is only 33,000 people live 
on our reservation, and most of them are tribal members, and so 
we do have a tribal court. But when the Law and Order Act was 
passed, it added burdens on our tribal court, and we would like 
to see an increase in that particular budget line item.
    And you have been hearing good words about Indian health 
service and the good work that they do. We would like to 
support that increase for contract health support, and again, 
it is an issue that we have compacted for that particular arena 
with our Indian Health Service group in Oregon, and we have a 
little clinic on the reservation, and so that is really 
critical. Because if you do not have enough budget, you are 
just putting patients off until the next budget cycle we can 
cover that. So we do support that.
    Under treaty fisheries management, we are going to stand up 
and support the Columbia River Treaty. The tribes in the 
Columbia River, they are here to offer testimony. We support 
the testimony that is going to be provided by the chairman of 
that group.
    And basically we agree that most of the work that is done 
by the committee and whoever in the City of Washington here, 
you know, it is very difficult, but when we come, we are 
building our capacity to the point where we are not self-
sufficient yet, but each time we come and we ask for specific 
funding, it builds our capacity to take care of our own. And 
eventually we will be self-sufficient some day, but until then 
we need the support of your committee and the rest of the 
federal agencies that we have a relationship with.
    And we value our relationships very highly with Congress 
and the State of Oregon and all the other tribes and states 
that we have to deal with.
    Thank you.
    [The statement of Les Minthorn follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Simpson. Thank you.
    Gerald Lewis.
                              ----------                              

                                         Wednesday, March 28, 2012.

          COLUMBIA RIVER INTERNATIONAL-TRIBAL FISH COMMISSION


                                WITNESS

GERALD LEWIS
    Mr. Lewis. Good morning, Chairman Simpson and subcommittee 
members. My name is Gerald Lewis. I am a member of the 
Confederated Tribes and Bands of the Yakama Nation. I am also a 
Tribal Council Member and Chairman of the Columbia River 
Intertribal Fish Commission out of Portland, Oregon. It is my 
pleasure to address you today regarding our funding needs and 
those of the fisheries programs for our member tribes; the 
Yakama Nation, Nez Perce Tribe, Umatilla Tribes, and the Warm 
Springs Tribes. We often refer to ourselves by our acronym, 
CRITFC.
    We are celebrating our 35th anniversary year in 2012. Our 
base program funding is in the Bureau of Indian Affairs, Rights 
Protection Implementation Account. Our programs are carried our 
pursuant to the Indian Self-Determination and Assistance Act. 
We conduct a Comprehensive Treaty Fisheries Program intended to 
maintain compliance with court orders, regional 
intergovernmental agreements, and international salmon 
treaties.
    Together our tribes manage and co-manage lands equivalent 
to the size of the State of Georgia. We are leaders in 
ecosystem management, working in collaboration with five 
states, 13 federal agencies, and private entities. CRITFC and 
our member tribes are principals in the region's efforts to 
halt the decline of salmon, lamprey, and sturgeon populations 
and rebuild them to levels that support ceremonial, 
subsistence, and commercial harvests. To achieve these 
objectives, we emphasize the highest level of scientific rigor, 
cost-effective management strategies, and holistic approaches 
to protection of first foods.
    While many of the Pacific Coast salmon stocks remain in 
distress, our tribes are building Columbia Basin successes acre 
by acre, tributary by tributary, and stock by stock as we 
witnessed within this document here, which we will share with 
the committee.
    However, we are very appreciative of recent increases to 
rights protection implementation. However, we have two 
requests.
    First, the need remains high. We ask that this subcommittee 
exceed the President's request for the base programs for CRITFC 
and our members' Tribes Fisheries Programs, both in the Bureau 
of Indian Affairs Rights Protection Implementation Account 
specifically.
    We request $7.7 million for the Columbia River Fisheries 
Management, $3 million above the President's request.
    We also request, as you heard earlier, $4.8 million for the 
U.S. Canada Pacific Salmon Treaty, 364,000 above the 
President's request to implement obligations adopted by the 
United States and Canada under the treaty.
    Second, as leaders of our member tribes have stated, 
Chairman Brooklyn Baptist, Les Minthorn, and Ron Suppah, we are 
appreciative of recent increases to rights of protection 
implementation but are troubled by the arbitrary allocation of 
increases and decreases within the subaccounts.
    We ask this subcommittee to direct the BIA to return to the 
2000, allocation formula, then sit down with account holders to 
determine where and how, if at all, the formula should be 
changed.
    I want to speak for a moment about public safety and law 
enforcement in treaty fishery areas. Our written testimony 
details recent court rulings related to criminal jurisdiction 
in Oregon and Washington. CRITFC currently contracts with DIA 
for two federal enforcement positions. We seek two more full-
time enforcement officers so we can provide the comprehensive 
safety and service coverage the tribal people living along the 
Columbia River have asked for and deserve. We support the 
President's request for BIA Enforcement Services.
    In closing, thank you, Chairman Simpson. We will be holding 
our May commission meetings at our Hageman Genetics Lab. I want 
to extend a personal invitation to you and your staff to stop 
by and spend some time with us while we are there.
    Thank you.
    [The statement of Gerald Lewis follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Simpson. Thank you. Mr. Moran.
    Mr. Moran. I think I will pass, Mr. Chairman. It is good 
testimony, and it involves Idaho and the northwest, so I think 
I will defer to those who are more intimately familiar with it.
    Mr. Simpson. Mr. LaTourette.
    Mr. Moran. Respect the testimony and you coming here.
    Mr. LaTourette. Well, that puts me in a tough spot being 
from Ohio, but I am going to ask a question anyway.
    Mr. Suppah, I am interested in your observation about 60 
percent unemployment and would ask you to give me, if you 
could, sort of a historical perspective. I presume it is higher 
with the difficulties that the entire country has suffered, but 
60 percent is about seven, eight times the national average. So 
can you share with me where it has been for the last 10 years? 
Is it always in the 60 percent range? Is it 50 percent, and it 
has grown to 60? What has gone on in the last 3 years?
    Mr. Suppah. Basically it has been consistent at that level 
for about the past 5 years, and the problem we are having is 
mainly with development of economic development on our 
reservation, and maybe inviting outside businesses to come onto 
the reservation because they are so much of a problem with all 
of the regulations that they have to encounter in order to 
conduct business on our reservation. So I think that is one of 
our highest priorities is economic development for our tribe.
    Mr. LaTourette. Do you have or could you provide to the 
subcommittee, I assume the tribe is interested in attracting 
economic development and businesses to the reservation and 
supply jobs and other commerce. Do you have somewhere at your 
disposal a list of the specific impediments in terms of 
regulations that are preventing people that want to come to do 
business with you from doing so?
    Mr. Suppah. Sir, probably the highest level that you could 
go to on that question there, that issue is taxation simply 
because you sometimes drive off potential financers and 
business people by having maybe dual taxation on the projects, 
whether they are on the improvements or whether they are on the 
revenues produced by that.
    Mr. LaTourette. Okay. I thank you very much, Mr. Chairman, 
that is something I am interested in, maybe we could talk about 
it a little bit later.
    Thank you all.
    Mr. Simpson. Ms. McCollum.
    Ms. McCollum. Thank you, Mr. Chair.
    In your testimony, you asked for increases for working on 
invasive species with the Forestry Council and the welfare of 
fire work. I see the importance of that, but one of the things 
that our Forestry Councils in Minnesota have really been 
fueling more stress with is invasive species, such as the ash 
borer and the gypsy moth.
    So if maybe I could ask you to speak to that just for a 
minute because I have another question afterwards. If you have 
some documentation you can give us later, that would be great, 
too.
    Mr. Blythe. Under the stewardship contracting, of course, 
with the United States Forest Service, our tribe has been doing 
some invasive species work locally with the Forest Service 
ranches close by, and some of that has to do with eradication, 
some of the aquatic species in some of the lakes that are, you 
know, specifically I do not know, you know, which species they 
are, but I know we have had several contracts over the past few 
years, and of course, our testimony today is stewardship 
contracting.
    From a reduction of fuels, a reduction of, you know, just 
the thinning of the forest that surrounds the reservation, and 
particularly to fire hazard reduction, but the invasive species 
area, the reservation experiences it, you know, locally with 
some of the things that we are doing, but it is mainly with the 
working with the Forest Service.
    Ms. McCollum. Okay. So if the Forest Service is getting a 
cut, and you are getting a cut, that is going to have an impact 
on that.
    Mr. Blythe. And we look at it as an employment issue for 
us. I mean, we have crews that are just doing specific things, 
which helps some, you know, not just the reservation, but I am 
sure they have contracts with the county folks or just general 
contractors doing work, too. So it is an impact to employment.
    Ms. McCollum. And I have two other questions.
    One, you are looking at doing your levy referendum for 
building your K-12 school. Right now you are K-5. Does your 
levy referendum then include operations funding? Or if you are 
successful with passing your levy, do you go to the Bureau for 
more dollars for hiring teachers? How does that work?
    Mr. Suppah. Right now the process is that the Jefferson 
County School District will be having a referendum for a 
bonding for the complete, approximately $21 million need for 
construction of a K through eight on the reservation.
    At the same time, running parallel to that, the Warm 
Springs Tribe will be having a tribal referendum asking the 
membership to pay half of that or a little bit over $10 million 
for our share of that because I guess we have to strategize to 
reduce the terrible dropout rate by our membership from the 
Madras 509J School District, so that is why we are proceeding 
towards building our own school on our reservation so we have 
more control and more management elements including curriculum 
and et cetera. And I think that the school district will be 
providing the teachers, and they will be sending an 
administrator to the reservation for that.
    Ms. McCollum. Thank you. Sir, when you were talking about 
job opportunities to address your 60 percent unemployment, do 
you have a strategy when seeking out businesses that provide 
training for tribal members to be able to take advantage of the 
jobs, especially with dropout rates the way that they are 
sometimes and a lack of skills? I have been on several 
reservations where they have attracted businesses but then it 
is non-reservation people who are working on the business. So 
they get some bit of a profit for having the business there, 
but they are really not reaching the full potential of 
employing people from their own village.
    So do you have a two-step solution for that--attracting the 
business and then also trying to gear up the training and the 
job opportunities for tribal members? Either one of you can 
answer.
    Mr. Minthorn. The Umatilla Tribe is a little different than 
Warm Springs. Warm Springs is pretty much a closed reservation.
    Ms. McCollum. Okay.
    Mr. Minthorn. And we are a checkerboard reservation where 
we have non-tribal members, non-trust land across our 
reservation, and we are fairly small, about 172,000 acres 
remaining. So part of our strategy we have the I-5 freeway 
running through the reservation and railroad, and so part of 
our economic development strategy was to secure enough 
infrastructure planning monies to put water, sewer, dark fiber 
to the business park that we have created. And so we set aside 
12 square miles of enterprise zone and the dual taxation that 
was referenced, that was an issue in the very beginning.
    So we negotiated with the State of Oregon to allow the 
tribal tax ordinance that we have to prevail, and the state 
would not tax that business that came to our reservation, and 
we negotiated that agreement so that we did not have a double 
taxation on any business that wanted to come.
    And so we do have 12 square miles of enterprise zone, we do 
have infrastructure, and we do have a sign out there that we 
have three tenants on that square mile, 12 square miles, but 
one of the tenants has 300 employees. So as you secure the 
infrastructure through EVA or whoever for water, sewer, 
transportation departments, that helps attract higher job 
paying businesses to the reservation.
    And we do negotiate other benefits similar to the county, 
but we have 12 square miles of trust land that we are trying to 
fill with higher businesses, and our unemployment rate used to 
be 35 percent, and now it is roughly 10 to 12, and I think 
Oregon is roughly 10. So we are getting there, but we still 
have issues relating to the dropouts word that you heard and 
getting them to work. We need places for them to be and things 
for them to do to keep them in school.
    Thank you.
    Mr. Simpson. Thank you, and I thank the panel for being 
here today, and we look forward to working with you as we try 
to put together the budget for the coming fiscal year.
    Thank you.
    I am pleased to invite the Honorable Don Young up to 
introduce the Alaska tribes that are here today.
    Mr. Young. For those from Alaska, please, thank you, Mr. 
Chairman and the ranking member for inviting such a diverse 
group of Alaskans whose work for organizations has tremendous 
impacts on the lives of the Alaskan native people, and I simply 
want to welcome and introduce the following individuals for the 
long trip. By the way, it is 5,500 miles. I cannot figure it 
out. My Senator said it was only 4,000 miles. I cannot figure 
out how that happened, but that is the Senate for you.
    First we have Patty Brown-Schwalenberg, Executive Director 
of the Chugach Regional Resources Commission. Please come up, 
Patty.
    And we have Dan Winkelman, Vice President for 
Administration and General Counsel, Yukon-Kuskokwim Health 
Corporation. The Yukon Health Corporation provides basic health 
services for about 30,000 Yupik Eskimos in the western portion 
of Alaska, and most of the time, Mr. Chairman, it is only 
accessible by plane and small boat.
    Marie Carroll, President and CEO of the Arctic Slope Native 
Association. Marie and Arctic Slope Native Association have 
worked tirelessly towards opening the Barrel Replacement 
Hospital, which will service 38,000 patients who reside in 
Alaska's most-northern community.
    And we have Gloria O'Neill, President and CEO of Cook Inlet 
Tribal Council. The Cook Inlet Tribal Council has been able to 
develop strong partnerships to ensure Native Alaskans in one of 
Alaska's urban areas to be able to pursue educational 
opportunities. This is a fine example of what can be done with 
dollars when they are available.
    Ed Thomas, President of Central Council of the Tlingit and 
Haida Indian Tribes of Alaska. Mr. Thomas represents Native 
Alaskans in the southeastern portion of Alaska; the Central 
Council of the Tlingit and Haida is responsible for preserving 
sovereignty and enhancing economic and cultural resources and 
promoting self-sufficiency.
    James Segura.
    Mr. Simpson. This will be the first panel, and then the 
other ones that Don will mention will be called up on the 
second panel.
    Mr. Young. Yeah. Okay. Okay. Then we have James Segura, 
Chairman of Southcentral Foundation. Southcentral Foundation 
has recently received the Baldrige National Quality Award, 
which is the highest Presidential award for performance 
excellence.
    We have Victor Joseph, Tanana Chiefs Conference President. 
Tanana Chiefs Conference provides a unified voice for advancing 
tribal governments for promoting physical and mental wellness, 
education opportunities, and cultural values to the Native 
Alaskan tribes to the interior of Alaska, which is my area.
    We have Charles Clement, President and CEO of Southeast 
Regional Alaska Consortium. SEARHC is health consortium of 18 
native communities in southeast Alaska. They have done a fine 
job of providing for healthcare and dental service in these 
communities.
    And last we have Lloyd Miller, the National Tribal Contract 
Support Cost Coalition. Mr. Miller has worked tirelessly to 
ensure that contact support costs are foremost in IHS 
conversions.
    May I say, Mr. Chairman, this is a group that has done well 
in Alaska, and we want to continue to do that because if you 
laid Alaska over all the land east of the Mississippi River, 
all the land east of the Mississippi River, that is Alaska, and 
in that you have 245 Congressman. You only got one, Mr. James, 
keep that in mind. And that is really crucial because it is all 
diversified. It is just a large, big area with different 
problems.
    With that, Mr. Chairman, I thank you, and I will sit for a 
few seconds. Then I have to go and vote on subpoenas. Not mine. 
Thank you.
    Mr. Simpson. Thank you, Don, and I was going to say, it is 
not going to a subpoena on me, is it? But I appreciate your 
support for not only Alaska Natives but Indian tribes all 
across the country, and I know you have worked very closely 
with this committee and members of this committee to address 
the issues, the unique issues that they face.
    So thank you for being here today.
    Mr. Moran. Mr. Chairman, if I could, because Don is going 
to leave while we are hearing testimony, I want to thank you, 
Chairman Young, for being here to introduce the leaders of the 
Alaska tribes and villages. I know it took extra effort to do 
that, but they appreciate it, and most importantly I am sure 
they appreciate the fact that they are so well represented.
    I do not know how you represent as vast an amount of land 
and diversity as you do, but you do a great job. So I just 
wanted to say, Mr. Chairman, we are very pleased to have Don 
Young before this panel.
    Thank you.
    Mr. Young. Thank you, Jim. I appreciate that.
    Mr. Simpson. I was just wondering what you did to your 
nose. I mean, who did you mouth off to?
    Mr. Young. This is a classic keep your nose out of other 
people's business.
    Mr. Simpson. Good lesson.
    Mr. Young. Thank you. I do have to leave. I do apologize.
    Mr. Simpson. Thanks, Don.
    Patty, you are up.
                              ----------                              

                                         Wednesday, March 28, 2012.

               THE CHUGACH REGIONAL RESOURCES COMMISSION


                                WITNESS

PATTY BROWN-SCHWALENBERG
    Ms. Schwalenberg. Thank you, Mr. Chairman. I am an enrolled 
member of the Lac du Flambeau Band of Lake Superior Chippewa 
Indians in northern Wisconsin and honored to serve as the 
Executive Director of the Chugach Regional Resources 
Commission, a capacity that I have held for the past 18 years.
    Chugach Regional Resources Commission or CRRC is tribal 
nonprofit that was established by the tribes in the Prince 
William Sound and Lower Cook Inlet area to specifically address 
natural resources, substantive, and environmental issues. They 
thought that having a stand-alone organization would better 
serve the environment and the resources upon which they depend.
    So we have been funded by the Bureau of Indian Affairs for 
quite some time. However, we have a 638 contract, but they have 
not met their contractual obligations for the past 10 years and 
that we were never in the BIA budget, and so we would have to 
come back here and fight for money and make sure they carved 
out a piece somewhere, which takes quite awhile, and so then we 
go without funding for the first several months of the fiscal 
year.
    I am pleased to report that the BIA has finally recognized 
its obligation and requested the full $350,000 in fiscal year 
2013, so we are in the President's budget, and I would urge the 
subcommittee to support this funding and keep it in there. I am 
humbled to listen to the testimony earlier with the issues that 
Indian Country is facing nationwide and the millions and 
millions of dollars that are needed, and I sit here before you 
asking for $350,000.
    But with that $350,000 we have been able to take that and 
multiply that six times. In the age of partnerships now where 
funding agencies are requiring that you have partnerships in 
order to get any funding from other funding agencies, we have 
been doing that for 18 years because we have to. We do not have 
the luxury of having a lot of money to do many things with, but 
with that money we have been able to establish the Alutiiq 
Pride Shellfish Hatchery, the only shellfish hatchery in the 
State of Alaska, and we are working on research and culture of 
the king crab, sea cucumbers, geoducks, purple-hinged rock 
scallops, mussels, and littleneck clams among others.
    We are in the process of finishing up the development of a 
K through 12 natural resource or science curriculum that 
integrates traditional ecological knowledge with science, and 
we will be piloting that in the K-9 school district, the 
Chugach Region of the Chugach School District, excuse me, as 
well as the Effie Kokrine School up in Fairbanks. So we are 
real excited about that, and we are also going to be working on 
a math curriculum that will do a similar thing.
    We are also an active participant in the Alaska Migratory 
Bird Co-management Council, establishing regulations on an 
annual basis for the substantive harvest of migratory birds in 
the spring and summer and any other variety of fisheries 
enhancements and research projects that affect the people in 
the Chugach Region are the kinds of things that we work on, and 
we are able to do because of this funding.
    So I would like to thank you for the opportunity to 
testify, and I would urge you to include our $350,000 in your 
fiscal year 2013 budget, including 100 percent of contract 
support. That would also be very helpful.
    [The statement of Patty Brown-Schwalenberg follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Simpson. Thank you, Patty.
    Dan.
                              ----------                              

                                         Wednesday, March 28, 2012.

                   YUKON-KUSKOKWIM HEALTH CORPORATION


                                WITNESS

DAN WINKELMAN
    Mr. Winkelman. Good morning, Mr. Chairman and members of 
the subcommittee.
    The Yukon-Kuskokwim Health Corporation is a consortium of 
58 tribes and has been contracting with the Indian Health 
Service for over 20 years. Today in remote western Alaska 
YKHC's budget is over $150 million, and we have 1,500 employees 
who provides comprehensive health services as Representative 
Young said to about 30,000 residents, mostly Yupik Eskimo, some 
Deg Hit'an Indian, which is what I am.
    Our region is a roadless area nearly as large as your 
state, Mr. Chairman, where our annual per capita income is 
around $11,269. Our unemployment rate in our villages is over 
20 percent according to the State of Alaska and over 30 percent 
live in poverty. In our main hub, the city of Bethel, our gas 
has been $6.15 a gallon since last fall. If you go farther out 
into our villages, it ranges from 7 to $8 a gallon. We are 
expecting a large price increase this spring when the next 
barge full of gas comes in.
    Many homes in our region are without piped water and sewer, 
and approximately 6,000 homes in rural Alaska are without safe 
drinking water. Over the last 10 years as the cost of fuel has 
increased, the airfare has increased dramatically for patients 
that go to and from our villages to our Bethel Hospital for a 
higher level of care to treat their illnesses. A good example 
is if you are a Kolik man living, which Kolik is a village 
which is near the Bering Sea coast, and if you need to get to 
the hospital, you would have to get on a small single-engine 
plane, ride for a half an hour to the village of Emmonak, and 
in Emmonak you would transfer there, that is near the mouth of 
the Yukon River, like I said, and go from there to Bethel, and 
that is another hour and a half journey.
    Current costs of that is $690 round trip. You can just 
imagine that if you are from a large area where a lot of people 
live in poverty, that is very tough to do to try to get access 
to healthcare.
    It is against this sort of backdrop that we have been 
delivering healthcare in our region, and as we all know, in the 
Cherokee Nation case versus Leavitt, a unanimous Supreme Court 
reaffirmed the government's legal obligation to pay full 
contract support costs, and they base that upon, first, it is 
the statutory duties and also the contractual duties. Yet 24 
years after this Congress passed full contract support cost 
legislation to tribes and 7 years after the Cherokee Nation 
case that reaffirmed those obligations, tribes have yet to 
receive full contract support costs.
    So why are tribes the only group of federal contractors not 
paid full contract support costs when it is mandated by both 
law and contract and, in fact, this committee last year 
directed the agency, the Service, and the Bureau to both submit 
their full contract support costs payments in this year's 
proposed budget.
    Why? Well, indeed, even the U.S. Supreme Court wondered why 
when in Cherokee Nation, its decision, it listed several ways 
that the Federal Government could avoid breaking its 
contractual promise to pay full contract support costs to 
tribes. The Court said, and I quote, ``We recognize the 
agencies may sometimes find that they must spend unrestricted 
appropriated funds to satisfy needs they believe more important 
than fulfilling a contractual obligation. But the law normally 
expects the government to avoid such situations. For example, 
by seeking added funding from Congress.''
    Yet, the Indian Health Service in its proposed fiscal year 
2013, budget did not even come close to fully funding contract 
support costs when there is a $100 million shortfall. They only 
requested $5 million. Why?
    The impact was described by September 28, 2011, bipartisan 
letter sent from nine U.S. Senators to President Barack Obama, 
``When these fixed costs are not paid, tribes are compelled to 
divert resources by leaving positions vacant in the contracted 
programs serving their members in order to make up the 
difference.''
    That is certainly true. YKHC's year end fiscal year 2011 
shortfall, it consisted of $3.6 million. These shortfalls 
directly affect the ability of tribal health organizations and 
tribes to provide healthcare to their members and to reduce, 
most importantly, health disparities within our regions.
    This is really important because the cancer mortality rate 
where I come from in my region is 26 percent higher than it is 
for whites. While in America cancer rates are decreasing, in 
Alaska it is increasing dramatically, and in fact, is the 
leading cause of death for Alaskan native women.
    Just as disturbing as our suicide rate. We are nearly four 
times higher than the national average, and if you look at 15 
to 19 year olds in our region in the YK Delta, it is a 
staggering 17 times the national average.
    Even though our region is nearly as large as your state, 
Mr. Chairman, our genuine interactions, that is what we 
cherish. We cherish our people, our friends, and we know most 
everyone, even though it is a very large region.
    Others speak with numbers and statistics, but with us what 
is important are those friendships. To us essentially they are 
not just statistics, but they real people, real people with 
names like my mother, Louise, my aunties Katherine and Nora, my 
uncles, Benny, Gilbert, and Adolph. Personally I stopped 
counting when I was preparing my testimony at ten people in my 
family that passed away from cancer. I stopped counting at five 
people from my family that committed suicide. These are 
staggering numbers, and unfortunately, unless you are an Alaska 
native, it is hard to understand that, and what is probably 
more tragic is that within our communities that almost becomes 
normal or expected.
    Ultimately receiving full contract support costs is not 
just about money. It is about being able as a health 
corporation that is made up of tribes or a tribe, it is about 
being able to direct those resources and come up with a program 
to help reduce those disparities. It is about portable 
mammography machines and being able to take those and deploy 
those out to our villages and being able to detect breast 
cancers early in stage one when our survival rates are much 
higher versus later stages. It is about the ability of 
developing a behavioral health initiative and deploying that to 
a village and being able to combat those suicides and help save 
a teenager's life.
    Unfortunately, it is too late for my mother, Louise, and my 
aunties and my uncles, but it is not too late for the 30,000 
other residents of the YK Delta and the rest of Indian Country.
    Thank you.
    [The statement of Dan Winkelman follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Simpson. Thank you, Dan. Appreciate it.
    Marie.
                              ----------                              

                                         Wednesday, March 28, 2012.

                 ARCTIC SLOPE NATIVE ASSOCIATION, LTD.


                                WITNESS

MARIE CARROLL
    Ms. Carroll. Good morning, Chairman Simpson and Ranking 
Member Moran and other distinguished members of the 
subcommittee. Thank you for the honor and opportunity to 
testify before you this morning regarding the fiscal year 2013, 
budget for the Indian Health Service.
    My name is Marie, my Eskimo name is Cacom, Carroll. I am 
the President/CEO of the Arctic Slope Native Association, 
Limited, a tribal health organization based in Barrow, Alaska. 
I am an Inupiat from the northern-most tribe in the United 
States.
    We operate the Samuel Simmonds Memorial Hospital under the 
Self-Determination Act through Title V 630 Compact with the 
IHS. We provide health and social services to eight villages 
spread across the region the size of the State of Minnesota.
    I am here to provide testimony about the staffing package 
for our hospital project to replace our 49-year-old hospital, 
which was constructed in 1963. In partnership with IHS, ASNA is 
constructing the replacement regional hospital through a Title 
V agreement.
    I am pleased to report to you that our hospital 
construction project is on budget and is the first hospital 
project of its size to be constructed by a tribal health 
organization under Title V. We anticipate that ASNA and IHS 
will begin the acceptance and commissioning process at the end 
of this year, 2012. ASNA plans to move from the old facility to 
our replacement hospital between April and July of next year in 
2013.
    The main purpose of my testimony today is to address the 
exclusion of our staffing package from the President's fiscal 
year 2013 budget. IHS has told ASNA that they did not recommend 
the staffing package for fiscal year 2013, because of the 
uncertainty of full funding for a construction budget in fiscal 
year 2012. Thanks to you and your colleagues Congress gave us 
full funding for fiscal year 2012, which has kept our project 
on time and on budget, a significant accomplishment in the 
arctic environment.
    This brings me to the conclusion of my testimony. ASNA has 
been responsible in carrying out the Title V Construction 
Agreement, and we are now without a staffing package to bring 
our replacement hospital online in the second quarter of 2013.
    On behalf of ASNA I am here to request that you fund our 
staffing package for the portion of the fiscal year in which 
our replacement hospital will be operational, because our 
staffing package is approximately $1.1 million per month. The 
total amount we would need in fiscal year 2013 budget is $6.6 
million.
    We are grateful for the new facility that will benefit not 
only the Alaskan native people who reside in the Arctic but 
also everyone who lives or visits our region because we operate 
the only hospital north of the Brooks Range, and from the east 
to the western village of Point Hope, approximately 650 air 
miles in our region.
    We have only six exam rooms today in our existing hospital, 
which was designed to serve a population of 2,133 people. Today 
our service population is more than 15,000. That includes non-
tribal people and growing. We are expecting more visitors 
beginning this summer from the Coast Guard and Shell Oil, who 
has been permitted to drill in the Chukchi Sea.
    Now more than ever there is a greater sense of urgency to 
meet the needs of our growing service population, and in my 
language we end our public statements by simply saying cleon 
nokbuck, meaning thank you very much.
    So please do not hesitate to call me if you ever have an 
opportunity to visit our part of the world. Thanks, again, for 
this opportunity to testify.
    [The statement of Marie Carroll follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Simpson. Thank you, Marie.
    Gloria, good to see you again.
    Ms. O'Neill. Good to see you, too.
                              ----------                              

                                         Wednesday, March 28, 2012.

                       COOK INLET TRIBAL COUNCIL


                                WITNESS

GLORIA O'NEILL
    Ms. O'Neill. Thank you, Mr. Chairman and members of the 
subcommittee. Again, my name is Gloria O'Neill, and I serve as 
President and CEO of Cook Inlet Tribal Council. CITC is an 
Alaska Native tribal non-profit organization which serves as 
the primary education and workforce development center for 
native people in Anchorage. CITC builds human capacity by 
partnering with individuals to establish and achieve both 
educational and employment goals that result in lasting, 
positive change for themselves, their families, and their 
communities.
    CITC serves Alaska Native and American Indian people 
primarily in the south central Alaska area, which includes 
Alaska's most urbanized and populated communities. It is home 
to an Alaska Native/American Indian population of more than 
40,000, constitutes 40 percent of the native people of the 
State of Alaska, and Anchorage is the fourth largest native 
community in the Nation. CITC's programs address many of the 
social, economic, and educational challenges faced by Alaska 
Native people. For example, Alaska Native students are twice as 
likely to drop out as their non-Native peers, 33 percent of 
Alaska's unemployed are Alaska Native people, and almost 20 
percent of Alaskan Native people have incomes below the federal 
poverty line, nearly three times the rate of non-Native people.
    So how do we successfully as native communities address 
these disparities? An effective and proven tool available to 
Native American people in responding to community and social 
issues is the Indian Employment Training and Related Services 
Demonstration Act or the 477 Program, administered by the 
Department of the Interior. The law allows the consolidation of 
funding streams from the U.S. Departments of Interior, Health 
and Human Services, and Labor into a single employment and 
training program and report. And on a national level the 62 
travel grantees in consortia of 477 Programs serve 267 tribes 
out of 545 tribes. So this is big impact.
    So how does 477 work at CITC? The 477 Program allows CITC 
to increase effectiveness and innovation and eliminate 
inefficiency and maximize program outcomes while adhering to 
the strictest government accountability standards. CITC 
provides a comprehensive, integrated service delivery model to 
assist Native job seekers, combining DOL, DOI, and HHS funding.
    A key component is our Tribal TANF Program, which is based 
on a philosophy of self-sufficiency. CITC has transitioned over 
2,270 TANF recipients from welfare to work in the past 5 years, 
with an average hourly wage of a little over $11.50.
    And efficiencies gained within the TANF Program resulted in 
a 5-year savings of $7.1 million. These savings that have been 
re-invested in supporting participants and their self-
sufficiency efforts.
    Over the past 5 years 477-related Programs in our 
organization have provided 8,257 jobseekers with career 
coaching, training, and job search assistance, of which nearly 
5,500 were placed in jobs, so 65 percent. The average hourly 
wage of a jobseeker coming into CITC for services increased 
from $9.95 an hour to $17.23 an hour.
    Again, CITC has demonstrated that the 477 Program is very 
successful in connecting people to long-term, meaningful jobs.
    In short, the 477 Program is a win-win for the federal 
funders and CITC, since it eliminates wasteful inefficiency, 
while maximizing program outcomes. In addition to being 
successful on the ground, the 477 Program is fully accountable. 
It achieved the highest Office of Management and Budget rating 
in Indian Affairs. These programs provide tribes, tribal 
organizations the ability to leverage their federal job 
training and job placement funding for DOI, HHS, and DOL, 
including TANF, Childcare, and other programs.
    And as a result, 2012, 477 National Report shows that 
tribal programs served over 41,000 people, of whom only 4 
percent did not complete their objectives. More importantly, of 
those who obtained employment, adults gained $9.25 per hour, 
youth gained $6.40 per hour, and people on Cash Assistance 
gained $7.60 per hour.
    As you can see, the 477 Program is critical to our 
effectiveness, especially in this environment of shrinking 
federal dollars.
    So this committee has been very responsive to the tribal 
concerns and supportive of the 477 Program, and we are grateful 
that your action last year resulted in considerable momentum to 
resolve agency issues regarding 477 implementation. We continue 
to meet in good faith with the agencies but have not reached a 
solution. In spite of our progress in our meetings, we still 
struggle with the agency's fundamental acceptance of the 
flexibility of 477, that 477 offers, and the spirit of the law.
    First, we request permanent suspension of the 2009, OMB 
Circular A-133, and any similar requirements to account by 
funding source number.
    Second, we request written assurance that 477 funding will 
permanently be transferred through 638 contracts and self-
governance compacts.
    Third, we request that the subcommittee reintroduce Section 
430, the language about 477 that was offered last year and add 
the following paragraph to read to clarify the intent of the 
program, and that is, ``all funds transferred under an approved 
Public Law 102-477 Plan may be reallocated and re-budgeted by 
the Indian tribe or tribal organization to best meet the 
employment, training, and related needs of the local community 
served by the Indian tribe or tribal organization.''
    While working diligently and hopeful about the process, the 
National Tribal Work Group representatives remained concerned 
that in the absence of specific language, authorizing language, 
as provided in Section 430, with the requested addition, the 
spirit, the letter, and the opportunities of Public Law 102-477 
law will be subject to changes in implementation from 
Administration to Administration.
    Thank you for your time and consideration.
    [The statement of Gloria O'Neill follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Simpson. Thank you, Gloria. I appreciate it very much.
    Edward.
                              ----------                              

                                         Wednesday, March 28, 2012.

    CENTRAL COUNCIL OF THE TLINGIT AND HAIDA INDIAN TRIBES OF ALASKA


                                WITNESS

EDWARD K. THOMAS
    Mr. Thomas. Thank you, Mr. Chairman and distinguished 
members of the committee. My name is Ed Thomas. I am President 
of the Central Council out of Juno, Alaska, and I did tell 
Gloria to be short, so she was only 2 minutes over her time.
    Mr. Chairman, I have been managing federal programs since 
1976, which is a long time ago, and I have been involved in the 
federal budgeting process almost every year since then, and my 
biggest disappointment in that involvement is we keep building 
the Indian budgets based on previous year's budget as opposed 
to what the needs are.
    I wanted to thank the members of the committee of the panel 
up here that pointed out the dramatic needs in Alaska, that the 
needs are very great. The unemployment rates are much higher in 
our rural Alaska than they are in this country, and as you 
know, when the unemployment rate grows above 10 percent, the 
public wanted to throw people out of Congress and get rid of 
the President. So if you multiply that by seven times, that is 
what it is in some of our villages here in the winter months.
    So that is the gravity of the situation in our area, and I 
think that with the high rising cost of energy you are going to 
see the problems get worse because the budgets did not adjust 
to meet the needs of those people who are already in a poverty 
situation and now the high cost of energies are going to 
increase their cost of living even more.
    Another problem that I talk about in my testimony is the 
problem of the way money is appropriated to the various 
departments. The Department of the Interior tries its best from 
their perspective to do a good job in allocating amongst the 
various bureaus, but if you look at the budget for the 
Department of the Interior since 2004, to 2012, you are going 
to see every one of those agencies getting more increases than 
went to the Bureau of Indian Affairs. The Bureau of Indian 
Affairs grew during that period of time by 8 percent. The Fish 
and Wildlife grew by 30 percent, Park Service by 27 percent, 
Geodetic Surveys by 18 percent, and BLM by 13 percent.
    And, so, you know, as you look at the cutbacks that are 
inevitable and because of the need to cut back federal 
spending, you are going to find the Bureau is going to say, 
well, gee whiz, we are barely cutting you, we are tightening 
our belt. Well, there really should not be any cutting in the 
BIA until those agencies have been reduced down to the 2004 
level plus their 4 percent or 8 percent, rather.
    This is very important because as we go through this cycle 
of budget debates, I think you are going to see that those who 
have the strongest voice in Congress are going to be those that 
want to celebrate and the Park Service. You are going to see 
those agencies that are not dealing with people continuing to 
protect themselves because they have large public interest 
groups behind them.
    I also talk about the indirect costs, and I appreciate the 
panel talking about the indirect cost problems. I will not go 
into it, but I want to just state that we are a Nation of laws, 
and indirect cost laws are there. We do our best to live by it, 
but they are never funded by the Administration in accordance 
with what is required by the law. And so it really is critical 
that we address that.
    Now, I was honored last year to provide testimony to 
Congress, and there was an appropriations of just a little over 
$360,000 for Tlingit and Haida to make up some of that loss. 
Well, we did not get any of it. The reason being that when it 
went forth to the Administration, it was for shortfalls in BIA. 
Well, we did not have a shortfall in BIA. We had shortfalls in 
all of those other non-BIA programs, Head Start, Economic 
Development, and I can go down the list, but I do not have the 
time.
    But I think that it is important to make sure that as we 
develop laws, that we develop them so that we can abide by 
them. What I mean by that, we are required to do an audit of 
our tribal operations, and indirect cost is set by the 
government, and so the government then should fund that 
percentage rate. There are a lot of ways to have lawyers talk 
around that, and that is what we have been doing for all these 
years, and it really has not done us any good. I did in my 
testimony provide some language that would help us address 
that.
    One final note is that for years and decades and 
generations Indian programs have been non-partisan in nature, 
and I am an Independent. I am not a Democrat or Republican. But 
I must say that in this debate going on in Congress, we must 
get rid of the tax breaks of 2001 and amended in 2003. We 
cannot afford them. And why do I mention that? Because if we do 
not get more income, we are never going to be able to fund 
programs for the needy, whether it be Indian, or whether it be 
non-Indian. There just is not the resources there, because we 
have a couple wars going on, and we have the declining economy.
    So, Mr. Chairman, with all due respect, I know that that is 
a hot budget item, a hot item around here, and I hope you do 
not hold it against the other Indians for my comments, but I 
guess it was----
    Mr. Simpson. Thanks for----
    Mr. Thomas [continuing]. Important to state that as I walk 
out the door, and----
    [The statement of Edward K. Thomas follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Simpson. Thanks for bringing up that non-controversial 
subject. That is certainly an issue that is going to be faced 
by the coming Congress. I mean, we have got to reduce our 
deficit. I am one of those who happens to believe you have got 
to do everything to reform entitlement programs. You have got 
to control discretionary spending, and you have got to have 
more revenue. How you do that is what the debate today on the 
floor and tomorrow on the floor will be all about. So----
    Mr. Thomas. I will be happy to provide you some technical 
assistance.
    Mr. Simpson. You mentioned writing laws that we can abide 
by. It is interesting to note that throughout all of the 
Federal government, the authorization is about three times what 
we actually spend. Everybody thinks that the Appropriations 
Committee is just willy-nilly going out and spending money, but 
the authorizers have actually authorized about three times the 
level of spending, and then we get criticized by the 
authorizers. So I do find that interesting. When you talk about 
contract support, and fully funding contract support, that is 
something this committee is committed to doing, and we actually 
thought we had done it last year. We had a debate with IHS 
about what fully funding it was. From what I have been told, 
the best scenario is to find out what is needed to fully fund 
contract support costs, and then be just barely below that, 
because if there is excess, if you have overfunded what 
contract support will fully cost, that money then cannot just 
be shifted to some other program. It goes back to Treasury. So 
in a limited budget, I do not want to put too much money in 
there, but I would like to come as close as I can. We have had 
a debate with IHS about how you find the correct numbers to 
fully fund contract support costs. We want to be as accurate as 
we can. We want to fully fund contract support costs, and we 
are going to continue to work to do that, so I appreciate your 
testimony.
    Mr. Winkelman. Thank you, Mr. Chairman. You know, I just 
spoke with the director in Alaska, she was just there a few 
days ago, and she did bring up that point, that the agency 
would never be able to fund fully contract support. Well, they 
are not even close now.
    Mr. Simpson. Yeah.
    Mr. Winkelman. And I reminded her that for new and expended 
programs, all you have to do is budget for it, much like the 
Department of Defense does. It is my understanding that the 
Department of Defense and their Federal contractors, they 
budget for it a year ahead of time, and they propose it in 
their proposed budget. And that is how you would be able to 
fully fund contract support costs. All you have to do is budget 
for it. And, unfortunately, the shortfall is so large now, and 
I am more frustrated than you are, and this committee, because 
when I saw that $5 million, and now there is a projected number 
of $100 million, it is not even close. And it is in law, there 
has been a court case on it, and if they would just put the 
request in, then I would not have had to travel down here, and 
we would not have to talk about contract support.
    Mr. Simpson. Do you not like being in Washington?
    Mr. Winkelman. No, I love being in Washington, I really do, 
but it is in law. I mean, what else do we have to do?
    Mr. Simpson. Yeah, I know. And we are going to, this 
committee, do everything we can to make sure that we find those 
resources to do it. Ms. McCollum?
    Ms. McCollum. Mr. Chairman, in light of the hour, and the 
fact that there is a classified briefing at one o'clock, we 
have the information. My office will follow up with a couple of 
you with a little more, but I want to be able, to the best of 
my ability, to hear the next panel before I attend the 
classified briefing. Which they will not reschedule just for 
me.
    Mr. Simpson. I know, I have got a bunch of interns out in 
the hallway that I have got to step out and take a picture 
with, so as the next panel is coming up, I will go take that 
picture, and Betty will start it, and then I will be right back 
in. I appreciate all of you being here. We will work on these 
issues as we try to address the upcoming budget. And I should 
say, to all of you from Alaska, we mentioned Don, and what a 
great representative he is, and what a great job he does for 
all of you. Also, the ranking member on the Interior Committee 
in the Senate is Senator Murkowski, and our staff have worked 
very closely with her and her staff in trying to address these 
issues. She is very influential, and does a great job for all 
of you too. The next panel.
    Mr. Winkelman. Thank you.
    Mr. Simpson. James Segura, Victor Joseph, Charles Clement, 
Selina Moose, yes, you are on this panel, and Lloyd Miller. If 
you would come up? And the first one to testify will be James. 
If you will start that? I will be right back in.
    Ms. McCollum. I will wait until the door closes. Good 
afternoon and welcome. And James Segurna----
    Mr. Segura. Segura.
    Ms. McCollum [continuing]. Segura, Chairman of the Board at 
the Southcentral----
    Mr. Segura. That is fine.
    Ms. McCollum [continuing]. Foundation. If you would please 
lead off, sir? Thank you.
                              ----------                              --
--------

                                         Wednesday, March 28, 2012.

                        SOUTHCENTRAL FOUNDATION


                               WITNESSES

JAMES SEGURA
    Mr. Segura. Sure. It gets mispronounced a lot. My name is 
James Segura. I am Chairman of the Board for the Southcentral 
Foundation in Anchorage, Alaska. Southcentral Foundation is a 
tribal organization, and we have a self-government compact with 
the Indian Health Service. Under that compact, we carry out 
various IHS medical, dental, optometry, behavioral health, and 
substance abuse treatment service programs for over 45,000 
Alaska Native and American Indian beneficiaries in and around 
Anchorage, plus another 13,000 people in 55 rural villages. Our 
service area is larger than the State of Oregon, and to do all 
this we employ over 1,400 people.
    The first issue I need to discuss concerns our joint 
venture of contract. Three years ago Southcentral Foundation 
and the Indian Health Service entered into a binding joint 
venture contract. Under that contract, the SCF agreed to build 
a new 88,451 square foot primary care clinic in the Mat-Su 
Valley using borrowed funds from non-IHS sources. We have done 
our part, and we will receive our Certificate of Beneficial 
Occupancy for the Mat-Su Clinic on July 15 of this year.
    In return, Indian Health Service agreed to pay to staff the 
facility at 85 percent of its designed capacity, which comes to 
$27 million. Indian Health Service commitment includes a 
commitment to request funding from Congress on the same basis 
as Indian Health Service requests funding for any other new 
facility. But something has gone terribly wrong, and it is 
probably due to budget pressures. Indian Health Service's 
budget only requests 50 percent of its staffing requirement for 
the clinic, or $13.5 million. This is a huge gap. If Indian 
Health Service does not cover the full $27 million cost of 
operating the clinic, SCF will be forced to reprogram other 
funds to make up for the difference.
    We understand that there are budget pressures, but a deal 
is a deal. A contract is a contract. Before the administration 
requests discretionary increases, it needs to honor its 
contractual commitment to SCF. We did our part. The 
administration must do its part.
    The second issue I need to discuss concerns our main 
contract with Indian Health Service. Once again, the 
President's budget does not call for full funding to reimburse 
the contract support costs we spend on these Federal programs. 
We are running the government's programs. We are incurring 
costs to run those programs. Costs like federally required 
audits, and Workers' Compensation Insurance. Our contract and 
the law says Indian Health Service must reimburse those out of 
the costs. The committee has said IHS must reimburse those out 
of the costs. But the budget does not allocate sufficient funds 
to pay all of the costs of all of the tribal contractors, like 
SCF.
    Our best estimate is that the administration budget will 
mean a $99 million shortfall across all of the tribal 
contractors next year, yet the budget only requests a mere $5 
million to cover these contract requirements. At Southcentral 
Foundation, we have no choice. These costs are fixed costs. 
They are audited costs that are set by the government. If 
Indian Health Service does not reimburse these costs, we at 
Southcentral Foundation have no choice but to cut positions, 
cut services, cut billings, and collections, cut medical care. 
It is as simple as that. Cutting contract support costs 
actually cuts our programs.
    Last year this committee reiterated the binding nature of 
these contracts. It instructed the Indian Health Service and 
the BIA to fully fund all contract support cost requirements. 
The BIA has done this. Indian Health Service has not. So far as 
we can tell, no other contractors are treated this way. Only 
tribal contractors are treated this way. This has to stop.
    In fiscal year 2013, Indian Health Service should pay its 
contract obligations in full. The contract support cost line 
item should be full funded at a minimum of $571 million. This 
way the Department can finally honor these contracts in full. 
Remember, every tribe has contracts with Indian Health Service 
to run some Federal facility or program. Every tribe is hurt by 
the shortfalls, and every tribe will be helped if the shortfall 
is eliminated.
    To summarize, before any other increases are considered, 
these contract obligations must be honored in full. Joint 
venture staff funding and contract support cost funding must be 
funded at 100 percent. Just as our contracts require, we have 
done our part. It is time for the government to do its part.
    Thank you for granting me this opportunity to testify on 
behalf of the Southcentral Foundation and the 58,000 Native 
Americans we serve. Thank you.
    [The statement of James Segura follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Simpson. Thank you, James. Victor.
                              ----------                              

                                         Wednesday, March 28, 2012.

                      THE TANANA CHIEFS CONFERENCE


                               WITNESSES

VICTOR JOSEPH
    Mr. Joseph. Thank you. I want to take a minute to thank you 
for this opportunity, and the other subcommittee members. And I 
also recognize Andy Jimmy, our Board Chairman, back in the back 
there.
    My name is Victor Joseph. I am the health director for 
Tanana Chiefs Conference. TCC is an Alaska tribal consortium 
that serves 39 Federal recognized tribes across an area that is 
almost the size of Texas. Today I will testify on three 
matters. First I will explain TCC's need to receive its full 
staffing package of $30 million for our joint venture 
construction project. Next I will explain our concerns with the 
limited increase in contract support cost. Finally I will offer 
TCC's full support of H.R. 4031.
    IHS has long recognized the need to build a new medical 
facility in Fairbanks that serves the IHS beneficiaries in the 
interior of Alaska. The facility is needed to support services 
across our region, but IHS has never provided the money to 
build one. Two years ago we offered to build a new facility 
with borrowed funds, if the government would agree to cover the 
full cost of staffing. Government agreed, and in 2010 IHS 
signed a joint venture construction project with TCC. Today 
construction is under way. We are under budget, ahead of 
schedule, and we project receiving our Certificate of 
Beneficiary Occupancy in early September. Under our agreement, 
IHS should be able to provide TCC with full 100 percent funding 
for our staffing package. But because of budget restrictions, 
IHS has only requested 27 percent of our staffing package, or 
about $8 million.
    You have heard from other tribal entities from Alaska, and 
like TCC, IHS has requested less than 100 percent for their 
projects too. We can only think of two reasons for this 
disconnect. First, it is possible that when these budget 
requests were developed last summer, IHS used dated 
information. If that is the problem, we hope that IHS submits a 
revised budget request that fully funds all staffing needs. 
Second, it is possible that IHS is treating our facilities 
different than other smaller facilities. If that is the case, 
that is simply wrong.
    We at TCC, and other tribal entities, will spend far more 
than IHS requested. In order for us to carry out our 
responsibilities under this agreement, we need to receive the 
full amount that was agreed upon in negotiated staffing 
packages. We recognize, of course, that we are not the only 
joint venture projects that must be funded next year. IHS has 
correctly requested 100 percent funding to honor its contract 
with the Chickasaw and Cherokee Nation. All that TCC asks is 
that IHS also honors its contract with us. It is not a matter 
of choice or priorities. It is a matter of obligation.
    We have borrowed heavily to build a new IHS facility. There 
is no tearing back for us. We expect the government to likewise 
honor its written commitment to fully fund joint venture 
projects that were agreed upon. Like the joint venture 
projects, we have similar concerns with contract support costs. 
TCC incurred substantial contract support costs in operating 
our IHS programs across our region. IHS has a commitment, a 
contractual commitment, under Indian self-determined action to 
pay those costs.
    Just last summer the House Appropriations Committee agreed 
that the legal obligation must be honored in full. Thank you. 
The Committee directed IHS to submit a budget that would do 
that, but that did not happen. Even though there is currently a 
$50 to $60 million shortfall in contract support payments, and 
even though it is clear that the shortfall will grow to almost 
$100 million under the President's proposed budget, the budget 
requests only $5 million. Not only does the budget request defy 
the House Committee's clear instructions, not only does it make 
the current situation worse, but once again it violates our 
contract rights to be paid in full. Please understand that we 
are incurring these contract costs every day, and when the 
government fails to repay them, we have to take them out of 
programming.
    Finally, TCC fully supports H.R. 4031. H.R. 4031 will also 
allow a court to hear our claims. An amendment is necessary to 
provide a just outcome for self-determining tribes. We 
encourage the support of this bill.
    Our joint venture contract with IHS is a contractual 
obligation for IHS to provide full staffing in exchange for TCC 
building its own clinic, and then leasing it to IHS. Contract 
support costs are a similar contractual legal obligation for 
IHS to provide full support in exchange for tribes to operate 
IHS programs. We know times are hard for everyone, but we 
operate IHS programs under contracts, and now we have a second 
contract with IHS. All we ask and expect is the government to 
hold up its end of the bargain and honor these contracts in 
full.
    Thank you for this opportunity to present this testimony.
    [The statement of Victor Joseph follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Simpson. Thank you, Victor, appreciate it.
    Charles.
                              ----------                              

                                         Wednesday, March 28, 2012.

              SOUTHEAST ALASKA REGIONAL HEALTH CONSORTIUM


                                WITNESS

CHARLES CLEMENT
    Mr. Clement. Yes, sir. Chairman Simpson, my name is Charles 
Clement. I am the President and CEO of SouthEast Alaska 
Regional Health Consortium, SEARHC. In light of the comments 
that have been made, I will address my testimony. My written 
testimony has been submitted to the committee. Thank you for 
your time.
    I would like to echo many of the comments that have been 
made with regard to contract support cost, but I would like to 
share with you and the committee a little bit about how those 
impact SEARHC specifically. SEARHC is a consortium of 18 tribes 
and tribal organizations throughout southeastern Alaska. I 
think, like everybody else in Alaska, we have to define it to a 
state. It is about the size of Maine, is the state that I 
serve. So maybe that will endear somebody.
    Mr. Simpson. Minnesota, and everything west of the 
Mississippi.
    Mr. Clement. And there is Texas to the left, and I am also 
a member of the southernmost tribe in Alaska and the 
easternmost tribe, so we have got the geography lesson covered. 
SEARHC operates in a compact with the IHS that is valued at 
about $42 million. We have an operating budget of eight 
million. We have about $118 million. It has long been our goal 
to sort of fully realize our contract support cost funds that 
are due the organization.
    I think, you know, the challenge in Alaska is largely 
associated with some of these geographical challenges. I think 
that is why we all bring it out. It is transportation, it is 
energy, and then there are just these substantial health 
disparities due to a variety of reasons, largely socioeconomic 
impacts.
    But I think when we talk about how it impacts SEARHC 
specifically, I am a new CEO. I have been on the job for about 
60 days. I actually used to work for Jim for the last 15 or so 
years. So I have been on this job, you know, 60 days, but I can 
tell you, as a new CEO, what you do is you try to gauge an 
assessment of the organization. And I can tell you, from 
SEARHC's perspective, what is really happening with lack of 
payment on contract support costs, is there is a slow 
deterioration of infrastructure and services.
    You know, as has been stated before that, you know, these 
funds are fixed costs. We have to pay them. So where does the 
money come from? Well, you have deferred investment in 
infrastructure, and you have deferred investment in services 
that are provided to beneficiaries. And so you start to spiral 
down. I mean, if you look at SEARHC, we have almost 100 
vacancies that are pending that we are not going to fill, or we 
have no plans to fill until we get more funding. And when we 
get more funding, we see more services, we generate more 
revenue. It is a self-fulfilling cycle.
    We have facilities and physical plant infrastructure that 
is some of the oldest probably left in Alaska. I mean, it has 
been heavily invested in over time, but in the last several 
years, I would say the last decade or so, there has been very 
specific deferred investment, that we have not upgraded the 
facilities, we have not kept up to date. I mean, I think one of 
our favorite facilities we like to talk about is the double 
wide trailer that was built in 1954 out in one of our villages. 
I do not think, I mean, it is on par with anything, and 
anywhere in Alaska. Well, maybe not in Victor's area, but 
they've got some real challenges there also.
    But, you know, what you have is a cycle. And so we talk 
about, you know, I think our contract support shortfall was 
$2.8 million. It is the culminating effect of that shortfall 
year over year over year. And so what you have is you have 
multiple years of deferred investment, and it compounds the 
problem. I mean, it makes a tough situation, an impossible 
situation, that much more difficult.
    And so when we do make up the shortfall, we will get, you 
know, say it is fully funded. That money will be the down 
payment, and the rest will be on our shoulders, admittedly. But 
it, you know, the work just begins when we get the money. We 
have to put the money to work and make that investment so we 
can see patients, so we can invest in our communities, invest 
in our physical plan and our organizations.
    We want to have organizations that our beneficiaries are 
proud to come to, that they are not 1954 double wide trailers 
that have not seen investment in 20 years. We want to have 
facilities and organizations that we can lure providers to. 
There is no medical school in Alaska. We have to bring every 
doctor, just about, either we have to steal them from another 
tribal organization in the State, or we have to bring them in 
from outside of Alaska.
    And, you know, talk about a hard sell, you know, to come in 
to Alaska in the middle of winter to a facility that is a 
marginal, you know, maybe a marginal, I am trying to find a 
nice word for it, but it is difficult. You know, you bring 
these folks in, come from a new highfalutin medical school, to 
bring them in to rural Alaska, and you drop them off, it is a 
shell shock.
    And so the investment and contract support cost is really 
just the beginning for us, but it is a substantial beginning. 
It shows the commitment on behalf of the government to work 
with us in partnership for the success of all Alaska Natives 
and American Indians. My written testimony is a little bit 
different than that, but just in light of the comments that 
have already been said, I did not want to repeat too much. So 
thank you for your time, I appreciate it very much.
    [The statement of Charles Clement follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Simpson. Thank you. Just out of curiosity, who does the 
WWAMI Program benefit? I mean, Alaskans go to medical school in 
Washington, along with Idaho and Montana students. Do most of 
those students return to Alaska?
    Mr. Clement. I do not know if most of them do, but a lot of 
them do. It plays a big part in the tribal health system and 
overall Alaska because we place residents through the WWAMI 
Program and the various organizations, so it is a big benefit 
to Alaska and Alaska Native organizations, but I do not know 
how much specifically actually come back into the system.
    Mr. Simpson. Idaho is having that debate right now of 
whether we ought to build our own medical school, or whether 
the WWAMI does the job for Idahoans. It is an interesting 
debate. I appreciate it, thank you. Selina?
                              ----------                              

                                         Wednesday, March 28, 2012.

            NATIONAL NATIVE AMERICAN AIDS PREVENTION CENTER


                                WITNESS

SELINA MOOSE
    Ms. Moose. Thank you. First of all, I would like to 
apologize for earlier. This is my first time here----
    Mr. Simpson. That is okay.
    Ms. Moose. And I did not want to be left out, being that I 
came all the way from Alaska just to----
    Mr. Simpson. That is okay. All right.
    Ms. Moose. Chairman Simpson, esteemed members of the House 
subcommittee, my name is Selina Moose. I am an Inupiat from 
northwest Alaska, the size of Indiana, and I am speaking to you 
today as a member of the Board of Directors for the National 
Native American AIDS Prevention Center, also known as NNAAPC, 
and as a concerned indigenous person. Thank you for allowing me 
to come to you from Alaska and to speak to you today openly and 
honestly.
    The National Native AIDS Prevention Center is the only 
national HIV and AIDS specific Native organization in the 
United States. It was founded in 1987. NNAAPC's mission is to 
stop the spread of HIV and related health disparities among 
American Indians, Alaska Natives, and Native Hawaiians. NNAAPC 
is providing education, resources, training, and development 
services in all 50 States. We are creating materials to support 
the public health infrastructure that is slowly growing in 
Indian country.
    I am concerned because I believe that the government is 
turning its head away from the HIV epidemic, particularly not 
paying attention to the impact on the first peoples of this 
land, and it is the issue that I would like to discuss today.
    In 2002 my brother died of AIDS in the village, and because 
of that I got involved with HIV and AIDS, particularly for our 
native peoples. And we also did a documentary video of how our 
family went to our village and told them about, you know, the 
concern we have, and that my brother was positive. That is 
concern of our people.
    We are finding that more and more Native communities are 
responding to our message, but the Federal government is the 
one pushing us further and further down on the list of 
priorities. In 2010 the CDC released a total of $250 million 
over five years in prevention funding directly to grantee 
organizations. Only one Native organization was funded. Out of 
$43 million annually, only a little over $300,000 was granted 
to a Native organization, and our organization, NNAAPC, almost 
closed its doors in 2009. Our funding disappeared as a 
reflection of the funding shift that no longer categorized 
Native Americans as racially specific priority population for 
HIV prevention activities.
    States with smaller population sizes and fewer AIDS cases 
are finding their prevention budgets slashed by up to 50 
percent. Fewer prevention opportunities are available in states 
with large Native populations, like South Dakota, Oklahoma, 
Wyoming, Idaho, Alaska, Hawaii, and Montana because the money 
is no longer there to support local programs. New initiatives 
also call for targeting specifically African-American, 
Hispanic, Latino communities, further diverting money from 
Native communities.
    I understand that these decisions are based upon HIV and 
AIDS surveillance, and I do not want to underscore the 
importance of providing appropriate prevention activities in 
these communities of color, yet Native Hawaiians and American 
Indians, Alaska Natives, have the third and fourth highest 
rates of new HIV infections annually, respectively. In fact, 
between 2007 and '10 the number of new HIV diagnosis among 
American Indians, Alaska Natives rose by 8.7 percent, greater 
than many other groups. Also, fewer of us survive after having 
received an AIDS diagnosis. These statistics do not support the 
de-prioritization of our communities. In fact, they suggest a 
serious health disparity.
    I believe that the U.S. government has a responsibility to 
its native people. We have a commitment from the government, a 
commitment that says we care about the health and wellbeing of 
our Native American people, a commitment that says that the 
government's trust relationship to provide for the health care 
of Native people is sacred, and exists not only just in 
writing, but in practice as well. This relationship demands 
that American Indians, Alaska Natives, always be placed as a 
priority population, that we do not fall in the shifting 
government whims.
    I know I am running out of time. I do not have very much 
left. Okay. With the 2010 release of the President's national 
HIV/AIDS strategy, the whole of this country needs to examine 
how we are meeting the prevention and treatment of needs of 
people living with, and are at risk for HIV. This nation cannot 
afford to continue to allow Indian country to linger 10 years 
behind the rest of the country. In order to address these 
health disparities and ensure the health of our Native peoples, 
I ask you to consider the following as you move forward with 
your budget deliberation.
    One, I ask that the Congress increase funding for American 
Indian, Alaska Native specific HIV programming in the budgets 
of Federal agencies like Centers for Disease Control and 
Prevention and Indian Health Service. I ask that the Congress 
examine the success of special diabetes program for Indians 
that set aside $150 million annually for local diabetes 
education and prevention efforts, and model a similar HIV 
program for Native Americans that would allow for stable 
funding and local ownership prevention efforts.
    I ask that Congress designate funds specifically for the 
creation of a national Native HIV/AIDS resource center so that 
consistent funding would be set aside to create a persistent 
presence at the national level to provide support for community 
efforts at education and guidance for decision-makers.
    And lastly, I ask that the Congress allocate funds for the 
specific provision for HIV testing materials to American 
Indians and Alaska Native communities to support enhanced 
testing initiatives. Again, I think you for the opportunity 
that you have provided me to share some of the facts, and to 
share my feelings about the state of HIV in American Indian and 
Alaska Native communities. I hope that you consider our request 
in light of what I have shared with you today. Thank you.
    [The statement of Selina Moose follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Simpson. Thank you, Selina.
                              ----------                              

                                         Wednesday, March 28, 2012.

            NATIONAL TRIBAL CONTRACT SUPPORT COST COALITION


                                WITNESS

LLOYD MILLER
    Mr. Miller. Mr. Chairman, Congresswoman McCollum, thank you 
for the honor to appear today. My name is Lloyd Miller. I am an 
attorney with Sonosky, Chambers, Sachse, Miller and Munson. I 
have been litigating contract support cost cases for many 
years, and I litigated the Shoshone Paiute and Cherokee case in 
the Supreme Court in 2005. And for the committee's information, 
there is another case to be argued next month, on April 18, 
involving the Ramah Navajo Chapter, and the Pueblo Zuni, and 
the Oglala Sioux Tribe involving contract support costs in the 
Supreme Court.
    But I am here today not so much to talk about litigation as 
to talk about the contract support cost issue from a legal 
perspective. I represent the National Tribal Contract Support 
Cost Coalition. It includes some of the organizations you have 
heard from today. It includes the Cherokee and Choctaw you 
heard from yesterday. It includes the Shoshone Paiute, Shoshone 
Bannock Tribe. It includes Riverside, San Bernardino Community 
in California. It includes 290 tribes in 11 States, tribes or 
intertribal organizations, over 50 percent of the federally 
recognized tribes in the United States.
    All of them suffer contract support cost shortfalls. And 
these shortfalls are shortfalls in reimbursements. As you heard 
today, quite eloquently, these costs are paid. It is not a 
question of paying them. They are paid. And if they are not 
reimbursed by the government, then they come out of health care 
services, they come out of law enforcement. And this is very 
true with the Shoshone Paiute reservations, where they have had 
to make cuts in law enforcement in order to balance the books.
    In the committee's report this year, the committee 
requested that the Indian Health Service and the Bureau of 
Indian Affairs fully fund contract support costs. The Bureau of 
Indian Affairs heeded to committee's instruction. The Indian 
Health Service did not. On page 98 was the instruction to the 
committee. The second problem with the budget submission from 
the President and the Indian Health Service is that the Indian 
Health Service did not tell this committee how much the budget 
was going to be short.
    As we all recall, I think, because of the discussions, in 
the prior fiscal year, the President shared with the committee 
that at the funding levels being requested, contract support 
would be underfunded by about $149 million. This year you have 
not been given the information by how much will the President's 
budget request under fund contract support.
    We have, however, undertaken the task of trying to figure 
that out for you. We retained a gentleman named Ron Demaray who 
used to run the contract support cost activity for the Indian 
Health Service. He is the nation's expert in this area. What I 
gave you a moment ago is his estimate. Completely transparent. 
It shows you the assumptions and the calculations he has made, 
which would show that, at the President's budget request, there 
would be a 99.4 million shortfall in fiscal year 2013. So you 
have heard statements that the shortfall will be $99, $100 
million. This is where the calculation comes from.
    Of course, the request is that there be a full funding 
allocation made in the 2013 budget. That is request number one. 
But what I mentioned about the absence of information leads to 
request number two. The second request we make, and it is in 
this language, which I will distribute to the committee, and 
which was included in my written testimony, addresses the 
secrecy which has descended over the agency.
    I have been practicing law since 1979. I have been around 
contract support cost issues since contract support costs were 
addressed by Congress in the 1987 hearings and the 1988 
amendments. Never before have we witnessed the kind of secrecy 
we see today. The Indian Health Services refuses to disclose 
any information whatsoever to tribes and tribal contractors 
around the country how much are we paying you, how much are you 
entitled to, how much are you short?
    They will visit with each tribe individually, but they no 
longer, as of a few months ago, share any of this data on a 
national basis. It is therefore impossible to know what the 
national shortfall is. It is impossible for us to test the 
statements the agency makes to the committee. As you know, last 
year the agency made incorrect statements to the committee. At 
that time we were able to test those statements, we were able 
to correct them with the committee. This year we do not have 
that information. So we are requesting language that would 
require the agency, this would have to be language in the 
statute, that would direct the agency to share all of its data 
with the Indian tribes, as it did for every year until this 
past year.
    Then the third and final thing I would mention about 
contract support costs is to echo what Mr. Thomas testified to 
a little while ago. This issue about indirect costs due from 
other agencies is actually a no cost problem which costs tribal 
contractors around the country. And if I may just take a moment 
to explain it, when the Federal government sets an indirect 
cost rate, then you are entitled by that rate to tap each of 
your grants, or contracts or your own tribal accounts at that 
rate. So if you get a 25 percent rate, you take 25 percent out 
of every grant. But some of the agencies will say, no, you may 
not take any money out of the grant we are giving you, or you 
may only take 15 percent out of the grant we are giving you.
    What Mr. Thomas's proposal is asking is not that there be 
more money. It is asking that he has the permission and the 
authorization from Congress to take the 25 percent out of the 
grant because he was issued a 25 percent rate, which tells him 
he must tax every grant he receives by 25 percent. When he is 
unable to carry out the direction to tax the grant by 25 
percent, he must dip into his own tribal funds to make up for 
that tax. Otherwise he is penalized by the Federal agency that 
set the rate.
    Thank you very much for the opportunity to testify today.
    [The statement of Lloyd Miller follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Simpson. Thank you. Thank all of you for being here 
today. The issue of fully staffing IHS facilities is something 
this committee takes very seriously, because it is just stupid 
to build facilities and not put the staff in there for them. 
Why build the facility if you are not going to have a staff 
there? We will look very seriously at this budget, and make 
sure, A, that everybody is treated fairly, and, if we can find 
the resources, that, B we will staff those facilities so that 
they can do what they were built to do.
    Secondly, I would like to say that last year we put more 
money into contract support costs than ultimately ended up in 
there. Some of the pushback we got was from the Senate, and so 
we need help with the Senate. I am not trying to overfund it. I 
am just trying to fund it, and to fully fund it. And at the 
last minute, IHS came in and said, no, you guys overfunded it, 
according to their numbers.
    Now, not to blame them too much, but they indicated that 
they had had one person that worked there for years that did 
all of this stuff, and he left, and so it was kind of a new 
effort for them. I think IHS wants to fully fund contract 
support too. I know they do. But, again our big difficulty is 
trying to find out exactly what it is. Now, I can tell you that 
IHS has told us that they believe the shortfall is going to be 
in the neighborhood of 70 to 80 million, not $100 million. That 
is the difficulty we have in finding out what the number is. 
And as I said, what they have said is that we do not want to 
overfund it, because then the money just goes back to Treasury.
    Now, maybe that is what we need to change, so if it is 
overfunded, it could be used for contract support, rather than 
the contract health support, or the referral support. I am 
going to rename it so I can keep the two straight. But there 
are some challenges here, and I think everybody is working 
toward trying to have the best result and do what is right. And 
I think we all agree what is right, and that is to fully fund 
it. And we are going to work on getting that done again this 
year.
    But, again, when we get a bill and go over to the Senate, 
and we have done what we think is right in contract support, we 
are going to need some help in trying to push that through, 
because, you know, everybody throughout Congress has different 
priorities. This is one of my highest priorities, so we will do 
what we can.
    Mr. Miller. Mr. Chairman----
    Mr. Simpson. Go ahead. Yeah.
    Mr. Miller [continuing]. One suggestion. I heard the 
concern that you have shared, a very important concern, that 
the account not be overfunded. Years ago a portion of the 
account was made available without regard to fiscal year 
limitation, shall remain available until expended was the 
language in the bill. This might address the committee's 
concern. Maybe $20 million of it remains available until 
expended, or maybe all of it remains available until expended, 
whatever, in your judgment, is the right thing to do. But there 
is a way to address the problem of not overspending the 
account.
    Mr. Simpson. Yeah. That is a good idea. Because then you 
could say whatever is not spent remains available, and next 
year it would lower your amount you would have to put in----
    Mr. Miller. Precisely.
    Mr. Simpson [continuing]. For your estimate. Ms. McCollum.
    Ms. McCollum. Mr. Chair, I really appreciate all the 
succinct testimony, and I will speak to others who care 
passionately about AIDS funding. Are you coming to Washington, 
D.C.? There is going to be an international conference here.
    Ms. Moose. Yes, I am.
    Ms. McCollum. So please give your office my card, and we 
can talk more later. Thank you.
    Mr. Simpson. Thank you all for being here today and coming 
all the way from the great State of Alaska, that includes the 
State of Idaho, Indiana, Maine, all the others we have 
mentioned. Texas, all of those. All these dinky little states 
down here. Thank you.
    Mr. Miller. Thanks a lot.
    Mr. Simpson. You bet. Thank you. Last panel is Michele 
Hayward, Leonard Masten, Bambi Kraus. Is that right?
    Ms. Kraus. Yeah.
    Mr. Simpson. Close?
    Ms. Kraus. Are there three of us?
    Mr. Simpson. Michele. Which one is Michele? Okay. You are 
first.
    Ms. Hayward. Do I hit this button?
    Mr. Simpson. Yeah.
                              ----------                              

                                         Wednesday, March 28, 2012.

                  CALIFORNIA RURAL INDIAN HEALTH BOARD


                               WITNESSES

MICHELE HAYWARD
JIM CROUCH
    Ms. Hayward. All right. Good afternoon. My name is Michele 
Hayward. I am a member of the Redding Rancheria. I am the 
secretary with the tribal council there, and I am the Chair of 
the California Rural Indian Health Board, which places me on 
the National Indian Health Board. And I am also on the CSC Work 
Group representing California, so I appreciate today being 
here. Thank you for your time, and I am very honored to 
represent California Indians.
    I brought my staff and the Board members, so I want them to 
introduce themselves real fast.
    Mr. Crouch. Jim Crouch, Executive Director, California 
Rural Indian Health Board.
    Mr. LeBeau. Mark LeBeau, Health Policy Analyst, California 
Rural Indian Health Board, and member of the Pit River Tribe 
from Northeastern California.
    Ms. Cazares-Diego. Andrea Cazares-Diego from Greenville 
Rancheria and Health Board Member.
    Ms. Hayward. Group was founded in 1969 and represents about 
32 tribal governments, and we serve 28 IHS active users. But we 
are here today to request for budget funds, and the first one 
is a $10 million increase for the Indian Health Care 
Improvement Fund, and $50 million for the contract health care, 
$17 million for the youth regional treatment facility in 
Southern California, and $350,000 for a special case with Smith 
River Rancheria, who reside in Curry County in Oregon. So, with 
that, I am going to turn it over to my executive director, Jim 
Crouch.
    Mr. Crouch. Thank you, Michele. You have our written 
testimony. Basically we are talking about another lawsuit, 
different than the one Mr. Lloyd Miller was talking about, 
known as Rincon v. Harris, that was adjudicated in the 1980s. 
It basically requires that the IHS resource distribution 
process be reasonable, rational, and defensible, which 
basically means that what is known as current services funding, 
or base budget funding, is not sufficient to withstand those 
criteria. For that reason, Congress created the Indian Health 
Care Improvement Fund, it was initially known as the Equity 
Fund, to bring funding equity to tribal health programs and IHS 
operating units across the country.
    They are, in essence, putting no money in that account for 
this year, and we are urging you to put aside $10 million of 
the hospital and clinic line item money in a committee move in 
order to fund some effort towards equity. You are going to get 
a report on Indian Health Care Improvement Fund from the agency 
this year. What you will see is that they have not brought 
equity to their system, and that they are setting aside maybe 
two percent of their appropriations over these last several 
decades to achieve equity in a $4 billion budget.
    Secondly, we are asking for hospital and clinics. One of 
the mechanisms for achieving equity is to fund used, excuse me, 
contract health care. The contract health care distribution 
fund has four basic co-factors. Three of those are essentially 
base budget funding co-factors. The fourth issue is reasonable 
access to an IHS inpatient facility. The entire tribal health 
program in California is ambulatory clinic based. There are no 
IHS hospitals in the entire State of California, which is 
pretty much the size of the State of California. We therefore 
need better access to contract health funding. The formula 
tries to do that, but, actually, if there is not more than $100 
million put in in new money each year to the CHS program, you 
will not reach those other components and have any impact on 
funding equity.
    We would like to ask $17 million in facility construction. 
Again, there have been no IHS facilities built in California. 
There is one joint venture project just a year and a half old. 
We would request that you go into the design and build phase 
for the Southern Youth Regional Treatment Center, which would 
serve youth in the southern part of California. There is 
another Northern YRTC on the way. The south has the land in 
hand. It belongs to IHS. You should fund the next phase.
    Finally, special case of Smith River. They live seven miles 
south of the Oregon border. Their membership is fully 
recognized tribe. On their reservation they have a clinic that 
is part of a consorted tribal health program, United Indian 
Health Services. By law and statute, that clinic system, which 
is governed in part by Smith River members, must not provide 
contract health care dollars and services for the Smith River 
members who live in Curry County, Oregon. This is because the 
contract health service delivery area in California is 
statutorily defined.
    What we are proposing is that you use your authority as a 
committee and fund the account for new tribes, which is a 
portion of the contract health service line item, in the amount 
of $350,000, an appropriate amount based on the new tribes 
formula for the 174 members of this Federally recognized 
California based tribe that live in their traditional Tolowa 
homelands, which happen to be north of the California line.
    Those are our four requests. Thank you for your time this 
afternoon.
    [The statement of Michele Hayward and Jim Crouch follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Simpson. Where do those 174 people get their health 
care now?
    Mr. Crouch. Seven miles south of the Oregon line, on the 
Smith River Rancheria. It is 638 operated tribal health program 
that they participate in the governments of. It is a satellite 
of United Indian Health. And they like the primary care, but it 
is difficult, of course, that the providers cannot do the 
necessary referral to other kinds of service.
    Mr. Simpson. So that is what the $350,000 would----
    Mr. Crouch. Yeah. These guys literally fall into a crack.
    Mr. Simpson. Okay. Leonard.
    Mr. Masten. That would be me. Well, the short version, and 
the long version. I will give you the short version.
                              ----------                              

                                         Wednesday, March 28, 2012.

                           HOOPA VALLEY TRIBE


                               WITNESSES

LEONARD MASTEN
HAYLEY HUTT
    Mr. Masten. My name is Leonard Masten. I am the Chairman of 
the Hoopa Valley Tribe, and Hoopa Valley Tribe is one of the 
largest land based tribes in California. We have a little over 
3,000 tribal members. We are a successful self-governed tribe. 
However, we face important funding needs.
    Mr. Simpson. Where is the Hoopa Valley?
    Mr. Masten. We are, as the crow flies, about 60 miles from 
the Oregon border. We are in Humboldt County. Sorry. The 
Trinity River flows through our reservation, and then into the 
Klamath River, then another 20 miles to the ocean. But one of 
our main concerns, and from sitting back here and listening to 
everybody else, is IHS. And we have an ambulance service 
shortfall every year of about $470,000 that we have asked IHS 
for funding repeatedly for the last three years, and again we 
are told that they do not fund ambulance services in Indian 
country.
    Again, we hear and see through Appropriations that they are 
funding several other reservations for air ambulances. And 
maybe because one has wings and the other has wheels there is 
some kind of difference. And again we ask that it be put into 
their budget, and if you do not ask for it, you are not going 
to get it. So we are asking, and we did talk to the director 
several times about her putting that into her budget.
    So, you know, if possibly we could get funded the help, our 
services, we service not only the Hoopa Valley Reservation, but 
the Yurok and the Karuk are around us. We have another town 
that is 10 miles away from us, Willow Creek, another one the 
other way 12 miles, Orleans, that we service, and we are not 
getting any funding from those people. Our closest ambulance, 
besides us, is about 70 miles away, over hills and through a 
two lane road to get to the coast, where the hospital is.
    But it is something that is really needed. We have to 
search through tribal budgets to try to meet that shortfall 
every year. And we are having meetings. We do have our 
supervisor for our area, who is a Native now, that is helping 
try to help find funds. And the local communities now are 
having fundraisers to try and come up with that funding, but it 
would be nice to have some secure funding so we do not have to 
close down, and threatening to basically not go into those 
other areas, and stay on the reservation, just so that we can 
get our people where they need to be. But we really do not want 
to do that, so with some increased funding, we will hopefully 
be able to move forward with that.
    Number two would be law enforcement. I had retired from law 
enforcement with the Bureau of Indian Affairs, but the law 
enforcement is huge in our area. We have a standing cross 
deputization agreement. We were one of the first in California 
to have a cross deputization agreement with Humboldt County. 
Our officers are trained just like the State officers, and they 
cross deputize us to enforce State Law on our reservation 
because of the Public Law 280 that gives the State jurisdiction 
for criminal activity on our reservation.
    We do have the Law and Order Act code that was enacted this 
last year. We had two meetings now with the U.S. Attorney's 
Office, and I am a little disappointed that there is no funding 
that came with that. And we are being told by the FBI and our 
own District Attorney's Office that, because there is no 
funding, that the FBI is really reluctant to commit to coming 
onto our reservation to enforce Federal law.
    And right now we are kind of getting a little flak, or I 
am, I guess. Our sheriff, who we have the cross deputization 
with, is kind of threatening to pull our cross deputization if 
we enter into the Federal law enforcement agreement. And that 
is what I was saying, and I have got a meeting next week with 
him, but it is all over. He think, I guess, if we go with the 
Federal stuff that we are going to be taking our cases all the 
way to San Francisco, which is a five hour drive from where we 
are. It do not make any sense, but we are not going to do that. 
And without some additional funding for the law enforcement 
Order Code, I do not see how we could be able to even 
participate.
    We only have two officers on at a time for 24 hour 
coverage, only one during the day, and we have to drive the 120 
miles round trip to go to court, which is off the reservation, 
so it is very difficult. So we are asking for $1.5 million to 
staff eight to 10 officers and help deal with the problem that 
we have now. It is the county's responsibility, but we have one 
officer from the country that has to deal with not only us, but 
the neighboring towns.
    And the Karuk Tribe, which is the northern tribe from us, 
they actually contribute money to the county to provide a half 
time officer for their area, because they have no officers up 
there. So it is a huge problem, but it is something that I 
think can be addressed through the Appropriations.
    I will have Hayley do the--she has been involved with the 
wildland fire, and I will pick up after she is done.
    Ms. Hutt. Okay. Hi, my name is Hayley Hutt. I am a member 
of the council for the Hoopa Valley Tribe, and one of our big 
issues is our Wildland Fire Department. We are a self-
governance tribe. We are the first to compact our Wildland Fire 
Department. We are up in a real mountainous area, as he 
described. Anyway, we have to pay for the fire, and then we get 
reimbursed, and only compact tribes have to do this.
    So if any other organization, like, Forestry, or Bureau of 
Land Management, or Parks and Recreation, if they fight fires, 
they do not have to come up with their own revenues to pay for 
the fire, but we do. And it is an average anywhere from 500,000 
to a million dollars. We are a timber tribe, so that is where 
we get our revenues. We have not made sales, and we may not 
make a sale this year. Our prices are really low, so this 
offsetting is a big problem.
    So we have a solution, and our solution is that we did 
receive an escrow amount of money of $175,000. We want to put 
that in Treasury account and draw it down through the ASAP 
system. We would continue to file our reimbursements through 
the Bureau of Indian Affairs Regional Office, and then the 
monies would go back into that ASAP account. Right now that 
money is in our general fund, and we are always way over that. 
So if we are into $500,000 or more, that money comes from our 
revenues.
    Last year we said to the BIA, we cannot do this. This will 
break us. And we are now in a drought year, and we are going to 
have big fires, and we do not have a timber sale. So we are 
asking for that escrow account to be put in this other system, 
for it to be increased to the 10 year average. We know that 
monies are already set aside based on a 10 year average, and so 
we want access to that money in advance so we do not have to 
front the Federal government to protect the forests, and we 
protect all the forests around our reservation as well.
    This solution has been pitched to everybody, so if you 
bring it up with Bill Downs, or Lyle Carlisle, or Vicky Force, 
anyone, they know Hayley, and they know the fire issue, and 
they know the solution. So that is what we are asking for.
    We also have a big problem with our septic system. Our 
whole valley floor is septic systemed up to our ears, and they 
are old systems. They are failing. We are not meeting the EPA 
standards, and we cannot build more homes. We cannot build 
businesses. We do not have the basis for economic development 
just on our sewer line alone, let alone, of course, all the 
other stuff.
    So we have come up with a plan, and we are shovel ready, 
but that plan is $26 million. It is a five year phased plan. So 
we just want to put that in the forefront of your mind, that we 
are desperate for help on that need. I think we have taken up 
our time.
    Mr. Masten. I only have one other issue. We have a couple 
others in there, but it is in already written testimony, so I 
will try to shorten it up so you can kind of get back on time 
anyway, but the other one was our Klamath Basin Restoration 
Project. In 2010 several Klamath Basin entities signed an 
agreement, including the so-called Klamath Restoration 
Agreement, KBRA. The Federal agency signed the KBRA. 
Nevertheless, the Department of Interior, in 2012, enacted 
budget cuts from the real estate services to implement this.
    And our concern is that we have a huge problem with real 
estate and property that is on our reservation, and we are 
having a really tough time funding any type of services for a 
program to deal with our land. We are having to contract a lot 
of that out to get another group of surveyors.
    We have even asked help from the National Guard, who comes 
in and provides help through our health service for doctors, 
nurses, and dentists, and those types of things, to help out 
during the summertime. And we have not seen them yet, but it 
has been two years now that we had to ask them to bring in, 
they said they would when they were there, was bring a team of 
their surveyors in to help us get caught up and get a lot of 
that stuff done.
    But I do not, you know, I think we need to keep the money 
where it is supposed to be for the activities of the land, and 
to trust stuff. But we think that Congress should not fund 
Indian termination activities, and monies that are needed to 
provide these real estate services to the Indian tribes in our 
area.
    And with that, I thank you, Mr. Chairman, for your 
attendance, and wish there were more people here, but----
    [The statement of Leonard Masten and Hayley Hutt follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Simpson. Well, most of them take a chance to read it 
over. Unfortunately, there are about 38 hearings going on.
    Mr. Masten. Yeah.
    Mr. Simpson. I had to step out for a minute and run up to 
BOR hearing, talking about Indian water rights, and----
    Mr. Masten. Yeah.
    Mr. Simpson [continuing]. How BOR is going to pay for 
those. So it gets crazy time around here. But it actually helps 
us and helps the staff----
    Mr. Masten. Yeah.
    Mr. Simpson [continuing]. Decide what to do. Bambi.
                              ----------                              

                                         Wednesday, March 28, 2012.

    THE NATIONAL ASSOCIATION OF TRIBAL HISTORIC PRESERVATION OFFICE 
                                (NATHPO)


                                WITNESS

BAMBI KRAUS
    Ms. Kraus. Thank you very much, Mr. Chairman. Again, thank 
you for listening to the testimony the past two days. It is 
always compelling, and I appreciate your time.
    Chairman Franklin is the actual chairman of The National 
Association of Tribal Historic Preservation Office. He was 
unable to be with us today. He is in California. I am based 
here in Washington, D.C., and I am actually Tlinget from Kake, 
Alaska, so it has been nice to see all the Alaskans here 
earlier.
    I am actually here to talk about programmatic needs versus 
specific issues, even though I think contract care and contract 
support costs are indeed a programmatic issue. But in terms of 
the Interior programs, I am here to talk about the National 
Park Service and the Bureau of Indian Affairs, and then just to 
touch onto the Smithsonian Institution.
    So The National Association of Tribal Historic Preservation 
Office works with over 130 tribes, even though we provide 
technical assistance to all Indian tribes, and there are 
currently over 130 tribes participating in this program. And 
that is 30 states and millions of acres of land that the tribal 
governments are responsible for managing. The THPOs that are in 
existence, for the most part, almost all of them have accepted 
the responsibilities of a State Historic Preservation Officer 
for tribal lands, and that includes a Section 106 performance 
compliance work, per the National Historic Preservation Act.
    So I try and make sure that everybody understands it, 
historic preservation is not just a feel good project. It 
really is a needed necessity for Federal compliance with 
various cultural and environmental laws. So in terms of the 
people you have heard from the past two days, any Indian 
school, any Indian health clinic, is going to have to go 
through, you know, compliance work, any other development 
project that breaks ground.
    So that gives you an idea of the tribes that we work with. 
I want to thank you for your prior support for the Historic 
Preservation Fund for tribal programs. The administration 
requested level funding from last year, which is, you know, a 
great success in today's economy, however, there are more 
tribes coming into the program. And without the money that 
comes along with additional tribes participating, it means 
there are fewer dollars for the tribes that are already 
existing.
    So it is a very popular program, and it has been wildly 
successful. It is severely underfunded. It is nothing you have 
not heard, but for a lot of reasons I am here to try and 
explain why it is so important, and if you could get a slight 
increase over the administration request so that they could 
take, you know, at least fund some of the tribes that are 
coming into the program.
    So that is the Historic Preservation Fund. We also do quite 
a bit of work in monitoring the National Native American Graves 
Protection and Repatriation Act. Federal Indian law that was 
created for the benefit of Indian tribes, and yet the 
Government Accountability Office did a report in 2010 with a 
title, ``After 20 years, Key Federal Agencies Still Have Not 
Fully Complied With The Act''. And it looked at the Bureau of 
Indian Affairs, BOM, BOR, Fish and Wildlife, the Park Service, 
as well as Forest Service, Army Corps of Engineers, and 
Tennessee Valley Authority.
    And that report title summarized the experience that Indian 
people have had trying to implement a law that was created for 
their benefit. It has been a very frustrating experience. It 
has been very expensive, in terms of not funding the tribes at 
a level that they can actually use to benefit their own 
programs. I like to try and point out to people that when it 
was passed in 1989 and implemented in 1990, Indian tribes did 
not have the wealth that they do today.
    So if you think about 20 years ago, Indian tribes were 
told, you know, learn how to talk to a museum, and figure out 
what they hold of your lineal descendants, their cultural 
sacred objects. I mean, it is an amazing amount of complex 
work, and they were told overnight to go and contact museums 
and Federal agencies to try and get back things that had been 
taken out of Indian country. So that, you know, it was 
gratifying to see the GAO do that work and bring that topic at 
least to some level of attention. That was the first time any 
Indian law and cultural preservation had ever been looked at in 
such a way.
    They followed that up with a second part on the 
Smithsonian, and the title said it all also. It was ``Much Work 
Still Needed To Identify And Repatriate Indian Human Remains 
And Objects''. So in terms of that particular GAO report, which 
was just released in June of 2011, they calculated that it 
takes about three years for an Indian tribe to work through the 
process of repatriation for the Natural History Museum. But one 
example was it took one Indian tribe over 18 years to get 
through the process to repatriate remains and objects. So there 
is a lot of work to do, and our testimony puts in there monies 
to help rectify that problem, or to support the tribes.
    And my last bonus minute, I want to just point out for the 
Bureau of Indian Affairs, to this day they do not have any line 
item specifically for cultural resources, which is astounding. 
And I just, you know, had e-mail to me while I have been 
sitting here that the BIA was established March 11, 1824, which 
is 188 years ago, and it was transferred from the War 
Department to Interior in 1849.
    And so we are looking at 188 years that they have never 
included any money to do any compliance or feel good work for 
Indian people, and something that is so uniquely American 
Indian today, and that would be our own cultural preservation 
and identity. And I just wanted to, you know, make the plea to, 
you know, the BIA needs to look at what they are doing. It is 
one thing to serve a contract. It is another thing to actually 
work with living human beings.
    And NATHPO has stepped out to try and start bringing this 
issue to the attention of the Congress and the administration. 
It would be great to have, you know, people actually working to 
create health communities that can take advantage of all the 
other money that you are putting into it, whatever 
infrastructure you are doing.
    So with that I would like to, you know, I am available for 
questions and follow-up later, but thank you very much for your 
time. Thank you.
    [The statement of Bambi Kraus follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Simpson. Thank you. You know, I thank all of you for 
being here. I have served on a City Council. I do not know of 
any community that does not have a problem funding ambulance 
service. It is amazing. We always fight with our county about 
who is going to fund it. The County pays the City so much to 
run their ambulances out there, and then they always fight 
about how much to pay, and every local community has problems 
with ambulance service. But you are right, it is a big problem. 
We went to some reservations last summer where they do pay for 
the air service because the reservation is so vast that getting 
an ambulance there is not going to be helpful.
    Mr. Masten. That is right.
    Mr. Simpson. So, anyway, that is something that we also 
will look at. But I appreciate all the testimony on all the 
variety of issues that come up. And the one thing we always 
find out through these hearings for a couple days, with tribes 
from across the country, is that there are some common issues 
that run throughout Indian country, contract support, police 
services, those kind of things, and yet there are unique tribal 
issues that are different for every tribe that we try to 
address. We appreciate very much your testimony here today, and 
it will help inform us as we try to write the budget for this 
coming fiscal year, which we will probably get into in the next 
three or four weeks, five weeks, something like that, before we 
get it to the floor. I think it will be June before it gets to 
the floor.
    We need you to stay for just a second so that, just this 
last panel, so that we can get your names correct for the 
record, okay? I am a big fan of historic preservation, and, as 
a country, we are still a young country compared to, you know--
--
    Ms. Kraus. Um-hum.
    Mr. Simpson [continuing]. European civilizations. I am not 
saying our civilization is young. Yours is obviously very old. 
But as a country, we are a young country, and we can do a lot 
to preserve our history and culture, and if we do not, it will 
be gone. Thank you all very much.

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






                               I N D E X

                              ----------                              

                                 Part 8
                Interior, Environment & Related Agencies
        Subcommittee of the Committee on Appropriations for 2013
                            Public Witnesses
                        Day One--March 22, 2012
                          INDEX--ORGANIZATIONS

                                                                   Page
American Thoracic Society........................................    33
Animal Welfare Institute.........................................    80
Association of State Drinking Water Administrators/State of 
  Delaware.......................................................    40
Cancer Survivors Against Radon (CanSAR)..........................    58
Children's Environmental Health Network..........................    52
City of Edinburg, TX.............................................    46
Defenders of Wildlife............................................    86
Dusty Joy Foundation.............................................    64
Friends of Deer Flat Wildlife Refuge.............................   155
Friends of the Refuge Headwaters.................................   161
Geological Society of America....................................    21
Interstate Mining Compact Commission.............................     2
LWCF Coalition...................................................   129
Marine Conservation Institute....................................   142
National Association of Clean Air Agencies (NACAA)...............    27
National Fish and Wildlife Foundation............................    98
National Wildlife Refuge Association.............................   135
The American Society for the Prevention of Cruelty to Animals 
  (ASPCA)........................................................    74
The American Society of Civil Engineers (ASCE)...................     9
The Friends of the Potomac River Refuges.........................   149
The Nature Conservancy...........................................   111
The Wilderness Society...........................................    92
The Wildlife Society.............................................   122
The Wilderness Land Trust........................................   117
USGS Coalition...................................................    15
Wildlife Conservation Society....................................   105

                            INDEX--WITNESSES

Brad Brooks......................................................    92
Christy Plumer...................................................   111
Desiree Sorenson-Groves..........................................   135
Dr. Jeffrey B. Hales.............................................    33
Dr. Robert Gropp.................................................    15
Dusty Donaldson..................................................    64
Edward Hallock...................................................    40
Elias Longoria, Jr...............................................    46
Elizabeth Hoffmann...............................................    58
Greg Conrad......................................................     2
Greg Knadle......................................................    98
Gregory E. DiLoreto, P.E.........................................     9
Joan Patterson...................................................   149
John F. Calvelli.................................................   105
Kasey White......................................................    21
Kevin Boling.....................................................   129
Mary Beth Beetham................................................    86
Nancy Blaney.....................................................    80
Nancy Perry......................................................    74
Nsedu Obot Witherspoon...........................................    52
Reid Haughey.....................................................   117
Robert C. Christensen............................................   155
S. William Becker................................................    27
Terra Rentz......................................................   122
Todd Paddock.....................................................   161
William Chandler.................................................   142

                            Public Witnesses
                        Day Two--March 23, 2012
                          INDEX--ORGANIZATIONS

American Forest Foundation.......................................   294
American Historical Association..................................   207
Americans for the Arts...........................................   170
Americans for the Arts...........................................   178
Civil War Trust..................................................   245
East Bay Regional Park District..................................   262
Federal Forest Resource Coalition................................   313
National Association of State Foresters..........................   268
National Conference of State Historic Preservation Officers......   226
National Endowment for the Humanities............................   188
National Endowment for the Humanities............................   195
National Parks Conservation Association..........................   233
National Recreation and Park Association.........................   250
National Trust for Historic Preservation.........................   220
Partnership for the National Trails System.......................   239
Preservation Action..............................................   214
Public Lands Foundation..........................................   320
Society of American Foresters....................................   300
The Trust for Public Land........................................   256
Wyoming Humanities Council representing the Federation of State 
  Humanities Councils............................................   200

                            INDEX--WITNESSES

Barbara Tulipane.................................................   250
Bill Imbergamo...................................................   313
Deborah Frances Tannen...........................................   195
Dr. James Grossman...............................................   207
Elena Daly.......................................................   320
Erik M. Hein.....................................................   214
Gary Werner......................................................   239
Hunter R. Rawlings III...........................................   188
Jim Lighthizer...................................................   245
Katherine DeCoster...............................................   256
Ken Pimlott......................................................   268
Paul Ulrich......................................................   200
Robert E. Doyle..................................................   262
Robert L. Lynch..................................................   170
Robert Malmsheimer, PhD, JD......................................   300
Ruth Pierpont....................................................   226
Stanley Tucci....................................................   178
Tom Cassidy......................................................   220
Tom Kiernan......................................................   233
Tom Martin.......................................................   294

             American Indian & Native Alaskan Witness Days
                        Day One--March 27, 2012
                          INDEX--ORGANIZATIONS

Catawba Indian Nation............................................   558
Cherokee Nation..................................................   439
Choctaw Nation of Oklahoma.......................................   426
Dzilth-Na-O-Dith-Hle Community Grant (DCG) School Board..........   460
Fort Belknap Indian Community....................................   384
Great Lakes Indian Fish and Wildlife Commission..................   533
Hopi Tribal Court................................................   498
Institute of American Indian Arts................................   455
Lac du Flambeau Band of Chippewa Indians in Wisconsin............   526
Leech Lake Band of Ojibwe........................................   515
Little River Band of Ottawa Indians..............................   521
Mandan, Hidatsa and Arikara Nation of Fort Berthold..............   403
Miccosukee Tribe of Indians of Florida...........................   544
National Congress of American Indians............................   330
National Council of Urban Indian Health..........................   343
National Indian Health Board.....................................   336
National Johnson-O'Malley Association............................   445
Navajo Agricultural Products Industry (NAPI) Board of Directors..   472
Navajo Hopi Land Commission, Navajo Nation.......................   493
Navajo Nation....................................................   487
Nez Perce Tribal Executive Committee.............................   348
Oglala Sioux Tribe...............................................   390
Oglala Sioux Tribe Department of Public Safety...................   396
Ramah Navajo School Board, Inc...................................   466
Sac & Fox Nation.................................................   433
Shinnecock Indian Nation.........................................   508
Shoshone-Bannock Tribes of the Ft. Hall Indian Reservation.......   354
The Assiniboine and Sioux Tribes of the Fort Peck Reservation....   377
Tribal Law and Order Commission..................................   360
United South and Eastern Tribes, Inc.............................   551
United Tribes Technical College..................................   413
Ute Tribe of the Uintah and Ouray Reservation....................   480

             American Indian & Native Alaskan Witness Days
                        Day One--March 27, 2012
                            INDEX--WITNESSES

Affie Ellis......................................................   360
Ben Shelly.......................................................   487
Bill Harris......................................................   558
Brooklyn D. Baptiste.............................................   348
Charles Head.....................................................   439
Colley Billie....................................................   544
David Gipp.......................................................   413
Dr. Robert Martin................................................   455
D'Shane Barnett..................................................   343
Edward T. Begay..................................................   472
Ervin Chavez.....................................................   460
Eugene ``Ribs'' Whitebird........................................   515
Faye BlueEyes....................................................   460
George Thurman...................................................   433
Harold Dustybull.................................................   445
Irene Cuch.......................................................   480
Jefferson Keel...................................................   330
Jim Zorn.........................................................   533
Jimmie Mitchell..................................................   521
John Yellow Bird Steele..........................................   390
Kitcki Carroll...................................................   551
Larry Wawronowicz................................................   532
Lloyd Miller.....................................................   373
Lorenzo Curley...................................................   493
Mickey Peercy....................................................   426
Nancy Martine-Alonzo.............................................   466
Randy King.......................................................   508
Richard Greenwald................................................   396
Richard Trujillo.................................................   498
Stacy A. Bohlen..................................................   336
Stoney Anketell..................................................   377
Tex Hall.........................................................   403
Tino Batt........................................................   354
Tom Gede.........................................................   360
Tom Maulson......................................................   526
Tracy ``Ching'' King.............................................   384
Troy Weston......................................................   390
Virginia Thomas..................................................   445

             American Indian & Native Alaskan Witness Days
                        Day Two--March 28, 2012
                          INDEX--ORGANIZATIONS

Arctic Slope Native Association, Ltd.............................   672
California Rural Indian Health Board.............................   726
Central Council of the Tlingit and Haida Indian Tribes of Alaska.   687
Columbia River Inter-Tribal Fish Commission......................   650
Confederated Tribes of the Colville Reservation..................   619
Confederated Tribes of the Umatilla Indian Reservations..........   645
Cook Inlet Tribal Council........................................   680
Hoopa Valley Tribe...............................................   733
Intertribal Timber Council.......................................   632
Jamestown S'Klallam Tribe........................................   601
Lummi Indian Business Council....................................   593
Makah Tribal Council.............................................   613
National Native American AIDS Prevention Center..................   711
National Tribal Contract Support Cost Coalition..................   718
Northwest Indian Fisheries Commission............................   586
Northwest Portland Area Indian Health Board......................   626
Pacific Salmon Commission........................................   601
Puyallup Tribe...................................................   574
Quinault Indian Nation...........................................   568
Skokomish Tribe..................................................   580
Southcentral Foundation..........................................   694
SouthEast Alaska Regional Health Consortium......................   706
The Chugach Regional Resources Commission........................   660
The Confederated Tribes of the Warm Springs Reservation of Oregon   639
The National Association of Tribal Historic Preservation Officers 
  (NATHPO).......................................................   741
The Tanana Chiefs Conference.....................................   700
Yukon-Kuskokwim Health Corporation...............................   665

             American Indian & Native Alaskan Witness Days
                        Day Two--March 28, 2012
                            INDEX--WITNESSES

Andrea Cazares-Diego.............................................   726
Andy Joseph......................................................   626
Bambi Kraus......................................................   741
Billy Frank......................................................   586
Charles Clement..................................................   706
Clifford Cultee..................................................   593
Dan Winkelman....................................................   665
David Bean.......................................................   574
Ed Johnstone.....................................................   586
Edward K. Thomas.................................................   687
Fawn Sharp.......................................................   568
Gerald Lewis.....................................................   650
Gloria O'Neill...................................................   680
Hayley Hutt......................................................   733
James Segura.....................................................   694
Jim Crouch.......................................................   726
Joseph Pavel.....................................................   580
Larry Blythe.....................................................   632
Leonard Masten...................................................   733
Les Minthorn.....................................................   645
Lloyd Miller.....................................................   718
Marie Carroll....................................................   672
Mark LeBeau......................................................   726
Michael Grayum...................................................   586
Michele Hayward..................................................   726
Patty Brown-Schwalenberg.........................................   660
Ron Suppah.......................................................   639
Selina Moose.....................................................   711
Sneena Brooks....................................................   619
T.J. Greene......................................................   613
Victor Joseph....................................................   700
W. Ron Allen.....................................................   601

          Written Testimony from Individuals and Organizations
                                 INDEX

11 Tribes and Tribal Organizations...............................   750
Air Chek, Inc....................................................   753
Ala Kahakai Trail Association....................................   757
Alaska Tribal Health Compact.....................................   759
Aleutian Pribilof Islands Association, Inc.......................   763
Allied Radon Services, Inc.......................................   767
American Association of Radon Scientists and Technologists, Inc..   769
American Bird Conservancy........................................   773
American Forests.................................................   777
American Geosciences Institute...................................   781
American Indian Higher Education Consortium, The.................   785
American Institute of Biological Sciences........................   789
American Lung Association........................................   793
American Public Power Association................................   797
American Society for Microbiology................................   799
American Society of Agronomy.....................................   803
Andrew D. Chavez, Commissioner, District III, Taos, NM...........   806
Appalachian Trail Conservancy....................................   809
Association of American State Geologists.........................   812
Association of Art Museum Directors..............................   816
Association of Clean Water Administrators, The...................   820
Association of Community Tribal Schools..........................   823
Association of Public and Land-grant Universities................   827
B.A.S.S. LLC.....................................................   830
Berkley Conservation Institute...................................   832
Bernalillo Board of County Commissioners.........................   833
Cancer Survivors Against Radon...................................   836
Chippewa Ottawa Resource Authority...............................   840
Coastal Wildlife Refuge Society..................................   844
Colorado River Basin Salinity Control Forum......................   846
Colorado Water Congress..........................................   850
Columbia Gorge Refuge Stewards...................................   852
Confederated Tribes of Siletz Indians of Oregon..................   854
Conference of Radiation Control Program Directors, Inc...........   858
Conservation Fund, The...........................................   861
Cooperative Alliance for Refuge Enhancement......................   865
Dance/USA........................................................   868
Debra J. Greenman, Private Citizen...............................   872
Environmental Council of the States, The.........................   873
Friends of the Florida Panther Refuge, Inc.......................   877
Friends of the Little Pend Oreille National Wildlife Refuge......   878
Friends of the National Wildlife Refuge of Rhode Island..........   882
Friends of the Tampa Bay National Wildlife Refuges, Inc..........   884
Friends of Virgin Islands National Park..........................   887
Green Mountain Club, The.........................................   890
Healing Our Waters--Great Lakes Coalition........................   894
Hendrick Associates..............................................   898
Independent Tribal Courts Review Team............................   899
Inter Tribal Buffalo Council.....................................   903
Izaak Walton League of America...................................   907
Kern County Valley Floor Habitat Conservation Plan Industry and 
  Government Coalition...........................................   911
League of American Orchestras....................................   914
Little Traverse Bay Bands of Odawa Indians.......................   918
Marlene MacEwan, Private Citizen.................................   921
Merritt Island Wildlife Association..............................   924
Metropolitan Water District of Southern California...............   928
Michigan Department of Natural Resources.........................   931
Minnesota Radon Project, The.....................................   933
Moat Creek Managing Agency.......................................   936
Multiple organizations in support of FS International Programs...   939
National Association of Forest Service Retirees..................   942
National Association of State Energy Officials...................   946
National Ground Water Association................................   948
National Institutes for Water Resources..........................   951
National Radon Safety Board, The.................................   955
National WH&B Legislative Team...................................   956
National Wildlife Federation.....................................   960
Natural Science Collections Alliance.............................   964
Northern Everglades Alliance.....................................   967
Norton Sound Health Corporation..................................   969
Nuclear Energy Institute.........................................   972
OPERA America....................................................   976
Oregon Water Resources Congress..................................   980
Outdoor Alliance, The............................................   982
PALA Tribal Historic Preservation Office.........................   986
Performing Arts Alliance.........................................   987
Pueblo of Acoma..................................................   991
Ramah Navajo Chapter-Ramah Band of Navajos.......................   995
Red Cliffs National Conservation Area............................   999
Red Lake Band of Chippewa Indians................................  1001
Santa Clara Pueblo...............................................  1006
Sawtooth Society.................................................  1010
Standing Rock Sioux Tribe........................................  1013
State of Utah, Office of the Governor............................  1017
State of Wyoming, Office of the Governor.........................  1019
Teaming With Wildlife Program....................................  1021
Theatre Communications Group.....................................  1023
Thrush Aircraft..................................................  1026
Tina Nappe, Private Citizen......................................  1030
Tom and Georgiann Manz, Private Citizens.........................  1031
Town of Ophir....................................................  1032
Tribal Education Departments National Assembly...................  1035
Washington Wildlife Recreation Coalition.........................  1037
Whitetails Unlimited, Inc........................................  1040
Wildlife Conservation Society....................................  1043
Wisconsin Department of Natural Resources........................  1047

 Written Testimony from Individuals and Organizations--received after 
                          submission deadline
                                 INDEX

Alaska Native Tribal Health Consortium...........................  1049
APS Four Corners Power Plant.....................................  1051
Barbara Sorgatz, Private Citizen.................................  1053
Bat Conservation International...................................  1054
Carpe Diem West..................................................  1058
Clean Vapor, LLC.................................................  1062
Coalition in support of FWS International Programs...............  1066
Coalition in support of USFS International Programs..............  1070
Fond du Lac Band of Lake Superior Chippewa.......................  1073
Friends of Balcones Canyonlands National Wildlife Refuge.........  1077
Friends of Rachel Carson NWR.....................................  1080
Healing Our Waters-Great Lakes Coalition.........................  1082
Humane Society of the United States, Humane Society Legislative 
  Fund, and Doris Day Animal League..............................  1086
Malheur Wildlife Associates......................................  1091
National Federation of Federal Employees (NFFE) Local 1957.......  1094
National Tribal Environmental Council............................  1098
Oregon Water Resources Congress (OWRC)...........................  1102
PNM Resources, Inc...............................................  1106
Pueblo of Zuni...................................................  1108
Santa Monica Mountains Conservancy...............................  1112
Squaxin Island Tribe.............................................  1115
Sustainable Northwest............................................  1119
Ukpeagvik Inupiat Corporation....................................  1123
University Corporation for Atmospheric Research (UCAR)...........  1126
Wyoming State Engineer's Office..................................  1128

</pre></body></html>
